<html>
<title> - THE COST OF DOING NOTHING: WHY INVESTING IN OUR NATION'S INFRASTRUCTURE CANNOT WAIT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
THE COST OF DOING NOTHING: WHY INVESTING IN OUR NATION'S INFRASTRUCTURE 
                              CANNOT WAIT

=======================================================================

                                (116-1)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
35-066 PDF             WASHINGTON : 2021                            
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      ELIJAH E. CUMMINGS, Maryland
DANIEL WEBSTER, Florida              RICK LARSEN, Washington
THOMAS MASSIE, Kentucky              GRACE F. NAPOLITANO, California
MARK MEADOWS, North Carolina         DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
                                     COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     5
    Prepared statement...........................................     7
Hon. Angie Craig, a Representative in Congress from the State of 
  Minnesota, opening statement...................................     8
Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, opening statement.........................     9
Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, prepared statement.................................   171
Hon. Colin Z. Allred, a Representative in Congress from the State 
  of Texas, prepared statement...................................   173

                               WITNESSES
                                Panel 1

Hon. Tim Walz, Governor, State of Minnesota, on behalf of the 
  National Governors Association

    Oral statement...............................................    10
    Prepared statement...........................................    12
Hon. Eric Garcetti, Mayor, City of Los Angeles, California, on 
  behalf of the United States Conference of Mayors

    Oral statement...............................................    13
    Prepared statement...........................................    15
Hon. Ray LaHood, Cochair, Building America's Future, Former 
  Secretary, U.S. Department of Transportation

    Oral statement...............................................    20
    Prepared statement...........................................    22

                                Panel 2

Richard Anderson, President and Chief Executive Officer, Amtrak

    Oral statement...............................................    81
    Prepared statement...........................................    82
Hon. Eric K. Fanning, President and Chief Executive Officer, 
  Aerospace Industries Association

    Oral statement...............................................    95
    Prepared statement...........................................    97
Lawrence J. Krauter, A.A.E., AICP, Chief Executive Officer, 
  Spokane International Airport

    Oral statement...............................................   103
    Prepared statement...........................................   105
Angela Lee, Director, Charlotte Water, on behalf of the Water 
  Environment Federation and the National Association of Clean 
  Water Agencies

    Oral statement...............................................   113
    Prepared statement...........................................   115
Rich McArdle, President, UPS Freight, on behalf of the U.S. 
  Chamber of Commerce

    Oral statement...............................................   120
    Prepared statement...........................................   122
Kristin Meira, Executive Director, Pacific Northwest Waterways 
  Association (PNWA)

    Oral statement...............................................   126
    Prepared statement...........................................   128
Larry I. Willis, President, Transportation Trades Department, 
  AFL-CIO

    Oral statement...............................................   131
    Prepared statement...........................................   133

                       SUBMISSIONS FOR THE RECORD

Letter of February 6, 2019, from ACI-NA et al., submitted for the 
  record by Mr. DeFazio..........................................    27
Statement of the Airports Council International--North America, 
  submitted for the record by Mr. DeFazio........................   174
Letter of February 6, 2019, from Catherine Chase, President, 
  Advocates for Highway and Auto Safety, et al., submitted for 
  the record by Mr. DeFazio......................................   176
Letter of January 10, 2019, from Agribusiness & Water Council of 
  Arizona et al., submitted for the record by Mr. DeFazio........   179
Statement of Mr. Jason Hartke, President, The Alliance to Save 
  Energy, submitted for the record by Mr. DeFazio................   182
Statement of the American Association of Port Authorities, 
  submitted for the record by Mr. DeFazio........................   183
Statement of Mr. David Lawry, President, and Mr. Scott Grayson, 
  Executive Director, American Public Works Association, 
  submitted for the record by Mr. DeFazio........................   188
Statement of the American Society of Civil Engineers, submitted 
  for the record by Mr. DeFazio..................................   190
Statement of Mr. Juan Arvizu, Chairman of the Board, American 
  Traffic Safety Services Association, submitted for the record 
  by Mr. DeFazio.................................................   194
Statement of Mr. Chris Spear, President and Chief Executive 
  Officer, American Trucking Associations, submitted for the 
  record by Mr. DeFazio..........................................   196
Statement of the Association of American Railroads, submitted for 
  the record by Mr. Graves of Missouri...........................   207
Statement of the Beyond the Runway Coalition, submitted for the 
  record by Mr. DeFazio..........................................   212
Statement of the Bluegreen Alliance, submitted for the record by 
  Mr. DeFazio....................................................   213
Statement of Ms. Roberta L. Larson, Executive Director, 
  California Association of Sanitation Agencies, submitted for 
  the record by Mr. DeFazio......................................   214
Letter of January 28, 2019, from the Clean Water Council, 
  submitted for the record by Mr. DeFazio........................   218
Letter of February 21, 2019, from the Corps Network, submitted 
  for the record by Mr. DeFazio..................................   219
Statement of GPS Innovation Alliance and CompTIA Space Enterprise 
  Council, submitted for the record by Mr. DeFazio...............   225
Letter of February 5, 2019, from the Great Lakes Metro Chambers 
  Coalition, submitted for the record by Mr. DeFazio.............   226
Letter of February 6, 2019, from Chad Lord, Policy Director, 
  Healing Our Waters-Great Lakes Coalition, submitted for the 
  record by Mr. DeFazio..........................................   227
``Water Infrastructure in the Great Lakes Region,'' from Healing 
  Our Waters-Great Lakes Coalition, submitted for the record by 
  Mr. DeFazio....................................................   228
Statement of the National Association of Small Trucking 
  Companies, submitted for the record by Mr. Babin...............   231
Letter of January 28, 2019, from the National League of Cities, 
  submitted for the record by Mr. DeFazio........................   233
Statement of the National Parks Second Century Action Coalition, 
  submitted for the record by Mr. DeFazio........................   234
Statement of the North American Concrete Alliance, submitted for 
  the record by Mr. DeFazio......................................   236
Statement from the Office of Hon. Eric Garcetti, Mayor, City of 
  Los Angeles, California, Efforts on Resilient Infrastructure, 
  submitted for the record by Mr. DeFazio........................   239
Statement of The Pew Charitable Trusts, submitted for the record 
  by Mr. DeFazio.................................................   241
Statement of the Resilient Navigation and Timing Foundation, 
  submitted for the record by Mr. DeFazio........................   246
Letter of February 7, 2019, from Congresswoman Mikie Sherrill, 
  submitted for the record by Mr. DeFazio........................   247
Letter of February 21, 2019, from the Southern Environmental Law 
  Center, submitted for the record by Mr. DeFazio................   247
Letter of February 7, 2019, from the Technology Association of 
  Oregon, submitted for the record by Mr. DeFazio................   248

                                APPENDIX

Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Hon. Tim 
  Walz...........................................................   251
Question from Hon. Pete Stauber for Hon. Tim Walz................   252
Questions from Hon. Alan S. Lowenthal for Richard Anderson.......   252
Question from Hon. Scott Perry for Richard Anderson..............   253
Question from Hon. Scott Perry for Hon. Eric K. Fanning..........   253
Question from Hon. Scott Perry for Angela Lee....................   254
Questions from Hon. David Rouzer for Angela Lee..................   254
Questions from Hon. Scott Perry for Rich McArdle.................   255
Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Larry I. 
  Willis.........................................................   255
Question from Hon. Scott Perry for Larry I. Willis...............   256



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            February 1, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Committee on Transportation and 
Infrastructure
    FROM:  LStaff, Committee on Transportation and 
Infrastructure
    RE:      LFull Committee Hearing on ``The Cost of Doing 
Nothing: Why Investing in Our Nation's Infrastructure Cannot 
Wait''
_______________________________________________________________________


                                PURPOSE

    The Committee on Transportation and Infrastructure will 
meet on Thursday, February 7, 2019, at 9:30 a.m. in HVC 210, 
Capitol Visitor Center, to receive testimony related to ``The 
Cost of Doing Nothing: Why Investing in Our Nation's 
Infrastructure Cannot Wait.'' The purpose of this hearing is to 
examine the current State of our roads, bridges, transit 
systems, clean water systems, ports and inland waterways, and 
airports; and receive testimony on what will happen if we do 
not begin to address the backlog of infrastructure needs. The 
Committee will hear from the Governor of Minnesota, the Mayor 
of Los Angeles, a former Secretary of Transportation, and 
representatives of Amtrak, the Aerospace Industries 
Association, Spokane International Airport, Charlotte Water, 
UPS Freight, Pacific Northwest Waterways Association, and the 
Transportation Trades Department, AFL-CIO.

                               BACKGROUND

THE IMPORTANCE OF INFRASTRUCTURE INVESTMENT

    America's infrastructure network is essential to the 
quality of life of our citizens and the productivity of the 
nation's economy. This expansive national network provides all 
Americans--from those living in the largest cities to the 
smallest towns--with extraordinary freedom of mobility and 
unprecedented opportunity. Infrastructure provides the backbone 
of the U.S. economy that facilitates economic growth, ensures 
global competitiveness, and creates family supporting American 
jobs.
    Our infrastructure, once the envy of the world, is losing 
its battle against time, growth, weather, and wear. It is 
suffering from decades of underinvestment, and the costs are 
staggering: according to the American Society of Civil 
Engineers, we face an approximate $2 trillion investment gap 
over the next 10 years to fix the infrastructure we have, meet 
future needs, and restore our global competitiveness.\1\
---------------------------------------------------------------------------
    \1\ American Society of Civil Engineers (ASCE), ``Infrastructure 
Report Card,'' 2017.
---------------------------------------------------------------------------
    In the coming decades, the Nation's infrastructure will 
continue to be under immense pressure and face significant 
challenges. America's population is expected to grow to 
approximately 400 million by 2050.\2\ Freight volumes will 
continue to soar as freight movements are expected to increase 
by 40 percent over the next 30 years.\3\ Infrastructure will 
also need to be modernized in order to meet current and future 
needs, to be stronger and more resilient to withstand natural 
disasters and other catastrophic events, and to incorporate 
technology and innovation.
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, ``Projections of the Size and Composition 
of the U.S. Population: 2014 to 2060,'' 2015.
    \3\ U.S. Department of Transportation, Bureau of Transportation 
Statistics, ``DOT Releases 30-Year Freight Projections,'' 2016.
---------------------------------------------------------------------------

                                AVIATION

    U.S. airports have an estimated total of $100 billion in 
infrastructure needs to keep up with current demand and plan 
for passenger growth between 2017 and 2021 (or $20 billion per 
year), based on the Airports Council International-North 
America's infrastructure needs survey. This amount far exceeds 
current Federal funding for airport improvement projects. U.S. 
airports are concerned that without an increase in airport 
infrastructure investment, they will not be able to accommodate 
passenger growth expected in the coming years. This will have 
ripple effects throughout the aviation industry, which supports 
more than $1 trillion in economic activity.
    U.S. Airports: The Federal Aviation Administration (FAA) 
has identified 3,321 airports as public-use facilities that are 
important to national air transportation and consequently 
qualify for Federal assistance through Airport Improvement 
Program (AIP) grants.
    Capital Needs: The U.S. air transportation system 
transported 965 million passengers in 2017. The FAA notes that 
the majority of U.S. airports now have sufficient airfield 
capacity for current traffic levels. However, the agency also 
notes there are a small number of the largest airports that are 
capacity constrained with chronic delays. Such delays regularly 
occur with cascading effects on the entire air transportation 
system. The FAA has continued efforts to enhance airport 
capacity and reduce delays through infrastructure development 
and technological advancements. During the next decade, the FAA 
forecasts that passengers on U.S. airlines alone will increase 
to more than one billion annually.
    Airport capital needs are growing and significantly exceed 
available Federal funding. The FAA estimates that between 2019 
and 2023, AIP-eligible projects will total $35.1 billion (or $7 
billion per year), an increase of $2.6 billion over the FAA's 
last estimate for 2017-2021. This annual figure is more than 
the $3.35 billion per year that Congress will provide over that 
same period (2019-2023), despite a one-time increase in AIP 
funding of $1 billion for certain small airport projects 
enacted last year. When combining both AIP-eligible and non-
AIP-eligible projects, the total infrastructure need for U.S. 
airports increases to $100 billion between 2017 and 2021, 
according to an industry survey by the Airports Council 
International-North America.
    Airport Funding: Airports cover operating expenses and pay 
for improvement projects from four funding sources, listed in 
order of 2016 revenue totals (largest to smallest): 
aeronautical revenue, including gate leases and other airfield 
charges to airlines or general aviation ($11.4 billion); 
nonaeronautical revenue, including parking and concessions 
revenue, State or local grants, and interest revenue ($9.7 
billion); AIP grants disbursed by the FAA ($3.2 billion); and 
revenue from passenger facility charges (PFCs) ($3.2 billion). 
Airports also use different financing mechanisms for capital 
needs, including using tax-exempt municipal bonds backed by 
airport revenues or different types of public-private 
partnership agreements.
    AIP: The AIP was established by the Airport and Airway 
Improvement Act of 1982 (P.L. 97-248). Funds obligated for the 
AIP are drawn from the Airport and Airway Trust Fund, which is 
primarily funded from excise taxes imposed on domestic airline 
tickets, cargo waybills, and aviation fuel sales. The AIP 
generally funds projects that are needed to enhance airport 
safety, capacity, security, and noise mitigation. Congress has 
maintained level AIP funding of $3.35 billion annually for the 
past 7 years, and the FAA Reauthorization Act of 2018 (P.L. 
115-254) continues the same funding level through fiscal year 
2023. The Federal Government has maintained flat airport 
funding for 12 years.
    Passenger Facility Charge: To provide additional resources 
for airport improvements, the Aviation Safety and Capacity 
Expansion Act of 1990 (P.L. 101-508) permitted airports to 
assess a charge on enplaning passengers called the passenger 
facility charge (PFC). The PFC is a federally authorized user 
fee that an airport sponsor, subject to FAA-approval, may 
choose to levy on most enplaned passengers. Three hundred 
sixty-one airports currently collect PFCs, including 98 of the 
busiest 100 airports. PFC revenues may be used for a wider 
variety of projects than AIP grants; most notably, PFC revenues 
are commonly used for terminal development projects that are 
unlikely to be funded through the AIP because AIP grants are 
typically used for higher priority airside projects. PFC 
revenue is also used to secure municipal bonds for airport 
projects and may be used to make principal and interest 
payments on the debt.
    Airports may impose a maximum $4.50 PFC on enplaning 
passengers, up to a maximum of $18 on a roundtrip ticket. The 
PFC is not indexed to the cost of inflation, and Congress has 
not increased the cap on the PFC since 2000, when the Wendell 
H. Ford Aviation Investment and Reform Act for the 21st Century 
(P.L. 106-181) increased the original PFC from $3 to $4.50.

                          HIGHWAYS AND TRANSIT

HIGHWAY TRUST FUND

    Federal highway, transit, and highway safety programs are 
administered by the Federal Highway Administration, the Federal 
Transit Administration, the Federal Motor Carrier Safety 
Administration, and the National Highway Traffic Safety 
Administration. While these agencies provide financial and 
technical assistance and administer programs at the Federal 
level, States and local governments select projects, enter into 
contracts, oversee construction, and carry out the programs.
    Federal surface transportation programs are currently 
authorized by the Fixing America's Surface Transportation Act 
(FAST Act) (P.L 114-94). Enacted on December 4, 2015, the FAST 
Act provided $281 billion in funding for highway, transit, and 
highway safety programs and reauthorized Federal programs for 5 
years. The FAST Act is set to expire on September 30, 2020.
    Federal surface transportation investments are funded 
through Federal excise taxes levied on motor fuels and on 
related products such as tires, which are deposited into the 
Highway Trust Fund (HTF). Congress has not adjusted the motor 
fuel excise taxes since 1993, and the purchasing power of these 
taxes have fallen over 40 percent in the last 25 years. 
Improved vehicle fuel efficiency has further eroded Federal 
revenues. As a result, revenues coming into the HTF have not 
kept pace with expenditures from authorized programs. Congress 
has had to transfer $144 billion from the General Fund and 
other funds to keep the HTF solvent since 2008. The 
Congressional Budget Office (CBO) estimates that over the next 
10 years, the HTF will fall $159 billion short based on 
continuing currently authorized highway, transit, and safety 
program levels. An additional $5 billion is necessary to ensure 
that there is a prudent balance in the HTF, which brings the 
shortfall to $164 billion. This does not include any higher 
investment levels to meet growing surface transportation needs.

SURFACE TRANSPORTATION INVESTMENT NEEDS

    Federal investment has not kept pace with surface 
transportation needs in recent years. One in three interState 
U.S. bridges have repair needs and nearly 10 percent of the 
nation's bridges are structurally deficient.\4\ One out of 
every five miles of highway pavement is in poor condition 
nationwide, and more than two out of every five miles of 
America's urban interStates are congested.\5\
---------------------------------------------------------------------------
    \4\ ARTBA Bridge Report, 2018.
    \5\ ASCE Report Card, 2017.
---------------------------------------------------------------------------
    According to the U.S. Department of Transportation's (DOT) 
2015 Conditions & Performance Report, there is an $836 billion 
backlog of unmet capital investment needs for highways and 
bridges. DOT estimates that all levels of government need to 
invest approximately $143 billion per year to improve the 
conditions and performance of our roads and bridges. We 
currently underinvest in highways by $37.3 billion per year at 
all levels of government. The cost of bringing the Nation's 
rail and bus transit systems into a State of good repair is 
estimated at $90 billion, and we would need to invest a minimum 
of $26.4 billion per year on maintenance and to accommodate 
future transit ridership growth. We currently underinvest by 
approximately $9.5 billion per year at all levels of government 
on transit capital investments.
    This underinvestment is taking its toll on commuters and 
the economy. In 2017, congestion, directly and indirectly, cost 
drivers $305 billion, or an average of $1,445 per driver, and 
motorists spent an average of 41 hours a year in traffic during 
peak hours.\6\ Driving on roads in need of repair costs 
motorists $130 billion in extra vehicle operating costs--or 
$599 per driver.\7\ The American Society of Civil Engineers 
estimates that if we continue status quo funding, each American 
household will lose $3,400 each year in disposable income due 
to poor infrastructure.\8\
---------------------------------------------------------------------------
    \6\ INRIX 2017 Global Traffic Scorecard.
    \7\ TRIP, ``Bumpy Road Ahead: America's Roughest Rides and 
Strategies to Make our Roads Smoother,'' October 2018.
    \8\ ASCE, ``Failure to Act,'' 2016 report.
---------------------------------------------------------------------------

                               RAILROADS

    Amtrak Authorization: Amtrak was authorized through fiscal 
year 2020 as part of the Fixing America's Surface 
Transportation (FAST) Act, which was signed into law on 
December 4, 2015. The bill authorized a total of $1.7 billion 
for Amtrak in fiscal year 2019 and $1.8 billion for Amtrak in 
fiscal year 2020.
    Northeast Corridor: The Northeast Corridor (NEC) is 457 
miles of rail line extending from Washington, DC, to Boston, 
MA, and runs through eight States and the District of Columbia 
with 260 million people traveling the corridor per year.\9\ 
Taken as a whole, the NEC region is the fifth largest economy 
in the world with a GDP of $3 trillion.\10\ Amtrak owns and 
controls 363 miles of this track, with States controlling 
portions of the route north of New York City. Each weekday, the 
NEC carries nearly 2,000 commuter trains, 60 freight trains, 
and 148 Amtrak trains, including the Acela Express, which 
operates at speeds up to 150 miles per hour and is the only 
high-speed train in the United States.
---------------------------------------------------------------------------
    \9\ https://nec.amtrak.com/about-the-nec/
    \10\ https://nec-commission.com/app/uploads/2018/04/NEC-American-
Economy-Final.pdf
---------------------------------------------------------------------------
    This heavy usage, combined with the age of bridges and 
tunnels--many of which date back to the period between the 
Civil War and the New Deal--has led to major needs in 
maintenance and capital infrastructure improvements to remove 
bottlenecks and increase capacity along the corridor. As of 
July 2018, the Northeast Corridor Commission estimates that 
nearly $24 billion remains unfunded for major rail 
infrastructure projects along the NEC alone. Some of these 
projects include: the Baltimore & Potomac Tunnel ($4.3 billion 
project, with $4.25 billion unfunded), which was built in 1873 
and requires replacing the Civil-War era tunnel with a newer 
curve-moderated tunnel; replacement of the swing-span Portal 
North Bridge ($1.6 billion project, with $953 million unfunded) 
over the Hackensack River; and replacement of the Susquehanna 
River Bridge ($1.7 billion project, with $1.6 billion 
unfunded).\11\ The Northeast Corridor Commission estimates that 
service disruptions caused by infrastructure failures, rail 
traffic congestion, and other factors costs the U.S. economy 
$500 million per year in lost productivity, and that a loss of 
all NEC services for just 1 day would cost the economy an 
estimated $100 million.\12\
---------------------------------------------------------------------------
    \11\ http://nec-commission.com/app/uploads/2018/04/NEC-Capital-
Investment-Plan-19-23.pdf
    \12\ https://nec-commission.com/app/uploads/2018/10/NEC-One-Year-
Plan-FY19.pdf
---------------------------------------------------------------------------
    National Network \13\: Amtrak's 15 long-distance routes and 
the 29 State-supported routes comprise the National Network. 
Outside of the NEC, Amtrak operates on tracks owned, 
maintained, and dispatched by various host freight and commuter 
railroads and pays host railroads over $142 million annually 
for use of these tracks.\14\ The Americans with Disabilities 
Act (ADA) required that all stations in the intercity rail 
transportation system be made accessible to and usable by 
individuals with disabilities no later than 2010.\15\ Amtrak 
has sole or shared financial responsibility to bring 383 
stations into compliance with ADA requirements and estimates 
that it will over $1 billion to complete this work.
---------------------------------------------------------------------------
    \13\ The National Network includes long-distance and state-
supported routes.
    \14\ https://media.amtrak.com/wp-content/uploads/2018/10/Amtrak-
Host-Railroad-Report-Card--FAQ--Route-Detail-2018-10-15.pdf. This 
compensation is for the incremental cost (rather than a negotiated 
market cost) associated with operating intercity passenger services 
over freight railroad tracks.
    \15\ 42 U.S. Code Sec.  12162.
---------------------------------------------------------------------------
    Grants: The FAST Act authorized three rail infrastructure 
grant programs through fiscal year 2020 that are administered 
by the Federal Rail Administration:
    <bullet> LThe Consolidated Rail Infrastructure and Safety 
Improvements (CRISI) program supports projects that improve the 
safety, efficiency, and reliability of passenger and freight 
rail. CRISI is funded at $592.547 million total in fiscal year 
2018 omnibus. In response to the July 2018 notice of funding 
opportunity for $318 million in fiscal year 2018 funds, FRA 
received applications for 109 projects totaling more than $913 
million. FRA is currently reviewing applications.
    <bullet> LFederal-State Partnership for State of Good 
Repair discretionary grants support capital projects that 
repair, replace, or rehabilitate qualified railroad assets to 
reduce the State of good repair backlog and improve intercity 
passenger rail performance. The program is funded at $250 
million in the fiscal year 2018 omnibus. FRA issued a notice of 
funding opportunity for fiscal year 2017 and fiscal year 2018 
money totaling $272.25 million on Nov. 16, 2018. Applications 
for funding are due March 18, 2019.
    <bullet> LRestoration and Enhancement grants fund operating 
assistance grants for initiating, restoring, or enhancing 
intercity rail passenger transportation. The program is funded 
at $20 million in the fiscal year 2018 omnibus.

                    WATER RESOURCES AND ENVIRONMENT

CLEAN WATER INFRASTRUCTURE NEEDS

    America's water infrastructure is in need of renewed 
Federal investment. According to the American Society of Civil 
Engineers 2017 Infrastructure Report Card, America's wastewater 
treatment infrastructure receives a grade of D+, which is only 
a slight improvement from its previous grade of D in the 2013 
Report Card.
    Currently, municipalities face a backlog of more than $40 
billion in clean water infrastructure projects and, according 
to the Environmental Protection Agency, these communities need 
at least $271 billion of investment over the next 20 years \16\ 
to bring their systems to a State of good repair.
---------------------------------------------------------------------------
    \16\ https://www.epa.gov/cwns/clean-watersheds-needs-survey-cwns-
2012-report-and-data.
---------------------------------------------------------------------------
    The need for greater Federal investment in our Nation's 
water infrastructure is clear, and the benefits are numerous. 
Investing in clean water creates thousands of domestic jobs in 
the construction industry and reduces the overall costs of 
operating and maintaining that infrastructure. According to the 
National Utility Contractors Association, every $1 billion 
invested in our Nation's water infrastructure creates or 
sustains 27,000 jobs in communities across America, while 
improving public health and the environment at the same time.

FEDERAL CLEAN WATER INVESTMENT: CLEAN WATER STATE REVOLVING FUND

    For close to 80 years, Congress has provided Federal funds 
to municipalities to address local water quality challenges, 
including sewage treatment needs. Initially, this assistance 
was provided as direct grants to municipalities (covering 55 to 
75 percent of the total costs of the projects). However, in 
1987, Congress converted the direct grant program to a Clean 
Water State Revolving Fund (``Clean Water SRF'') authority that 
provides funding directly to States which, in turn, provide 
below-market rate loans to communities to finance local 
wastewater infrastructure needs (required to be fully repaid 
over a 30 year term).
    Although the authorization of appropriations for the Clean 
Water SRF expired after 1994, Congress continues to fund this 
critical investment in our Nation's wastewater infrastructure--
providing more than $43 billion in Federal capitalization 
assistance to States since 1987. In turn, this infusion of 
Federal capital to State revolving funds has leveraged over 
$120 billion in direct assistance to communities over this 
period.
    Over the past few Congresses, legislation has been 
introduced to reauthorize and increase Federal appropriations 
for the Clean Water SRF program, as well as address the cost of 
wastewater service to low-income customers and households. In 
January 2019, a coalition of 91 utility, engineering, 
contractors, and conservation groups cosigned a letter \17\ to 
Congress urging that water infrastructure be included as part 
of any infrastructure package approved in the 116th Congress.
---------------------------------------------------------------------------
    \17\ https://www.wef.org/globalassets/assets-wef/5---advocacy/
legislation-and-regulation/legislative-and-regulatory-affairs/water-
sector-letter-to-congress-on-infastructrure-package-jan2019.pdf.
---------------------------------------------------------------------------

HARBOR MAINTENANCE NEEDS

    According to the U.S. Army Corps of Engineers (Corps), 
fully dredged navigation channels at our Nation's busiest 59 
ports are available less than 35 percent of the time--and the 
conditions of our midsize and emerging harbors are far worse. 
With the opening of the expanded Panama Canal in June 2016, 
larger container ships will increasingly call on East and Gulf 
Coast ports, and the dredging needs of our ports will continue 
to grow.
    In January 2017, the Corps estimated the total cost to 
achieve and maintain constructed widths and depths of all 
Federal navigation projects is $20.3 billion over the next 
decade. This estimate includes:
    <bullet> L$11.0 billion--to achieve full dimensions in the 
next 5 years ($2.2 billion annually); and
    <bullet> L$9.3 billion--to maintain these dimensions for an 
additional 5 years ($1.9 billion annually).

    Moreover, total navigation needs are likely higher. The 
Corps' $20.3 billion estimate includes additional expenses 
related to navigation (e.g., construction of dredged material 
placement facilities). However, this estimate does not likely 
include all necessary jetty and breakwater work or other needs 
identified by ports to maintain and expand harbor use 
nationwide.

THE HARBOR MAINTENANCE TAX AND TRUST FUND

    In 1986, Congress enacted the Harbor Maintenance Tax to 
recover the operation and maintenance dredging costs for 
commercial ports from maritime shippers. The Harbor Maintenance 
Tax is directly levied on importers and domestic shippers using 
coastal or inland ports as a 0.125 percent ad valorem tax on 
the value of imported cargo (e.g., $1.25 per $1,000 value)\18\ 
and is typically passed along to U.S. taxpayers on the purchase 
of imported goods or services. These revenues are deposited 
into a Harbor Maintenance Trust Fund within the U.S. Treasury 
from which Congress currently appropriates funds to the Corps 
for harbor maintenance dredging.
---------------------------------------------------------------------------
    \18\ The Harbor Maintenance Tax initially applied to both imported 
and exported goods; however, in 1998, the U.S. Supreme Court 
unanimously held that imposition of the tax on exported goods was a 
violation of the U.S. Constitution.
---------------------------------------------------------------------------
    The Harbor Maintenance Trust Fund collects far more 
revenues from shippers than Congress has appropriated to the 
Corps to maintain our harbors, with approximately $9 billion in 
already collected revenues sitting idle in the U.S. Treasury. 
As a result, shippers continue to honor their commitment to pay 
for promised maintenance activities that the Federal Government 
then has not carried out. To be clear, there are sufficient 
funds in the Trust Fund to meet the maintenance dredging needs 
of all federally authorized ports. The Water Resources Reform 
and Development Act of 2014 (WRRDA14) (P.L. 113-121) created 
discretionary appropriations targets for expenditures from the 
Trust Fund, increasing each year, so that by fiscal year 2025 
and beyond, 100 percent of the funds collected for harbor 
maintenance purposes go toward required operation and 
maintenance activities. In recent fiscal years, appropriations 
from the Trust Fund have exceeded the discretionary targets 
outlined in WRRDA14; however, the Congress has not yet achieved 
the goal of full-utilization of Trust Fund collections.
    The Committee on Transportation and Infrastructure, on a 
bipartisan basis, has twice approved legislation \19\ to fully 
utilize Harbor Maintenance Tax collections for the intended 
purpose of maintenance dredging; yet this provision has yet to 
be enacted into law. Enactment of such a provision honors our 
long-term commitment to U.S. shippers and taxpayers, maintains 
and improves the competitiveness of U.S. businesses and 
industry, and creates and sustains thousands of additional 
construction jobs and jobs dependent on a vibrant and efficient 
marine transportation system.
---------------------------------------------------------------------------
    \19\ Section 108 of H.R. 5303, the Water Resources Development Act 
of 2016 (RH), and Section 102 of H.R. 8, the Water Resources 
Development Act of 2018 (RH).
---------------------------------------------------------------------------

                               WITNESSES

PANEL I

    <bullet> LThe Honorable Tim Walz, Governor, State of 
Minnesota, on behalf of the National Governors Association
    <bullet> LThe Honorable Eric Garcetti, Mayor, city of Los 
Angeles, on behalf of the United States Conference of Mayors
    <bullet> LThe Honorable Ray LaHood, Cochair, Building 
America's Future, Former Secretary, United States Department of 
Transportation

PANEL II

    <bullet> LMr. Richard Anderson, President and Chief 
Executive Officer, Amtrak
    <bullet> LThe Honorable Eric K. Fanning, President and 
Chief Executive Officer, Aerospace Industries Association
    <bullet> LMr. Larry Krauter, Chief Executive Officer, 
Spokane International Airport
    <bullet> LMs. Angela Lee, Director, Charlotte Water
    <bullet> LMr. Rich McArdle, President, UPS Freight, on 
behalf of the U.S. Chamber of Commerce
    <bullet> LMs. Kristin Meira, Executive Director, Pacific 
Northwest Waterways Association (PNWA)
    <bullet> LMr. Larry Willis, President, Transportation 
Trades Department, AFL-CIO


THE COST OF DOING NOTHING: WHY INVESTING IN OUR NATION'S INFRASTRUCTURE 
                              CANNOT WAIT

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2019

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:53 a.m. in HVC 
210, Capitol Visitor Center, Hon. Peter A. DeFazio (Chair of 
the committee) presiding.
    Mr. DeFazio. Now, finally, we will move on to substance. 
Please stay in your seats, so to speak.
    Oh, wait a minute. I have to recognize--I hate scripts--
Rep. Carbajal for a unanimous consent request.
    Mr. Carbajal. Thank you, Mr. Chair. I ask unanimous consent 
to authorize the chairman to declare recess during today's 
meeting.
    Mr. DeFazio. OK, the committee will come to order, and we 
will begin the hearing momentarily, as soon as we do this.
    [Disturbance in hearing room.]
    Mr. DeFazio. OK, that is enough. Don't--it is not an 
evacuation drill. That is the alarm sounding for America's 
infrastructure.
    [Laughter.]
    Mr. DeFazio. So today we are holding the first hearing. 
And, you know, we are starting off by, I think, really having a 
four-alarm situation in front of us.
    For years we have held hearings on, you know, why it is 
important. We have had a lot of expert witnesses that would 
come in and talk about the deterioration documented year after 
year after year. And you know, we now have run up a bill that 
the investment gap over the next 10 years, according to the 
American Society of Civil Engineers, is two trillion--T, 
trillion--dollars.
    The surface gap alone is over $1 trillion. Water, port, and 
related infrastructure, $249 billion. For airports, ACI 
estimates over the next 5 years they will require an investment 
of $100 billion, more than $20 billion a year.
    But highlighting these needs has not spurred action by 
Congress. So I am going to focus on the cost of inaction. It 
has incredibly serious consequences that far, far exceed the 
cost, were we to belly up and suck it up a little bit and put 
up the money we need and put in place the policies we need to 
bring things up to a state of good repair and begin to build 
out a 21st-century infrastructure.
    The more we defer, the more it costs. A Cornell University 
study says if we see maintenance that is needed today on a 
bridge, if we defer it, it costs an extra $4 or $5 4 to 5 years 
down the road, five times the cost. So prudent people a lot 
talk about let's run the Government like a business. Well, I 
don't think businesses would run things to the point of failure 
and increase the costs so dramatically, nor should we.
    You know, if you look around the country, there are 
critical projects like the Brent Spence Bridge between Ohio and 
Kentucky. Every year we delay that project, the price tag, 
which is about $2.6 billion--it is a big and critical project--
goes up about $100 million a year.
    If the tunnels under the Hudson River were to fail--and 
they came close to failure during Hurricane Sandy. They are 
tremendously deteriorated. We are going to take a committee 
trip up there. Amtrak has a neat little glass car, we can go 
through the tunnel and you can actually see it. I mean you 
might want to wear your life jacket, but it is a mess.
    And if those tunnels would fail, it will cost the economy 
of the United States of America $100 million a day, by 
conservative estimates. That is $36-$37 billion a year if we 
let that go to failure. It costs $11 billion. That is a lot of 
money. But probably, on an emergency basis, it would take us 5 
years to build a tunnel. So just multiply 5 times 37. You are 
up to $180 billion. So why aren't we making these investments? 
We have to make them.
    You know, the Business Roundtable says inadequate 
infrastructure costs U.S. businesses $27 billion per year in 
extra transportation costs. The estimates are we will lose $4 
trillion in GDP between 2016 and 2025 without upgrading our 
infrastructure. Families lose $3,400 a year, according to the 
American Society of Civil Engineers.
    You know, we are wasting 3.1 billion gallons of fuel, 
idling in congestion, because we have a system that is 
congested, inadequate, and stupid. It doesn't incorporate 
smart, new, and 21st-century technology.
    The U.S. Travel Association says that soon the traffic 
volumes we have seen on Labor Day--think of some of your great 
family vacations on Labor Day. I have had some of those, and 
you are sitting there, and kids in the back seat aren't too 
happy. That will become a daily occurrence for 60 percent of 
Americans within 10 years if we fail to act.
    Congestion is affecting air travel. U.S. airports have more 
than $10 billion in unmet infrastructure needs. All of you here 
and all of you in the audience have had the experience of the 
pilot saying, ``Great news. We are here early. Bad news, we are 
waiting for a gate.'' Or, ``we are here on time, but we have 
got to wait for a gate.''
    Many airports--and we will hear from this in further 
hearings--are bonded out. We haven't allowed an increase in the 
passenger facility charge in 20 years. It is time to act there.
    And then, of course, the Federal investment overall in 
infrastructure has declined steadily over 15 years. Gas and 
diesel taxes have been stagnant since 1993--I was going to say 
2003--which means that they have about 40 percent of the buying 
power they had back then, maybe less.
    A lot of States and localities have bellied up to the bar 
to attempt to--so, anyway, they have done it. And I just want 
to let everybody know there have been no political 
consequences. No one has lost their election in an all-red 
State when they raised the gas tax. In fact, the only two 
senators in New Jersey to lose were Republicans who voted 
against the gas tax increase. Probably coincidental, but they 
were the only two who lost. And, you know, Minority Leader 
McCarthy put a referendum on the ballot in California to repeal 
their gas tax. It was going to be a great strategy, and it 
backfired. And Californians overwhelmingly rejected it. There 
is not a danger in increasing the user fee for the first time 
in 26 years.
    If anyone has got a better alternative, let me know. But we 
have to make these investments. The Federal Government has to 
become a better partner. You can't have a coordinated national 
system in the 21st century and say the States are going to do 
it, as was proposed in DJ Gribbin's plan for President Trump 
last year. We cannot devolve the duty to have a modern, 21st-
century, resilient transportation system that can compete in 
the world economy and move people and goods more effectively on 
a State-by-State basis. We have to be there with them, and 
coordinate it, and invest in it.
    So, you know, there is incredible innovation out there. We 
will get into this in future hearings. Every subcommittee will 
hold a hearing looking at climate change resilience, their mode 
of transportation and what we can do to make it less fossil 
fuel dependent.
    What can we apply to the existing system now to mitigate 
congestion? I had a company in my office the other week who has 
invented smart traffic lights. Guess what? So you won't be 
sitting there cursing at the red light while no one is going 
the other way for 2 minutes. How much would that help with 
congestion and mobility?
    As we rebuild the Eisenhower legacy system we have got to 
build it to accommodate the coming of autonomous vehicles and/
or driver-assisted vehicles. I think we should also build it to 
accommodate an electric backbone, because I think the future of 
surface transportation--for both passenger and freight--is 
going to be in electric. I have seen the Tesla truck, it is 
phenomenal. We need better batteries, you know, and--but this 
is something that is coming. So we have to be able to try and 
anticipate those things.
    We don't get to generate the revenues on this committee for 
ways and means, but we have to make the case in a way that it 
is irrefutable to all our colleagues and the American people 
that if we don't make these investments we are going to pay a 
heck of a lot more down the road.
    That is it, bottom line.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
 Statement of Hon. Peter A. DeFazio, a Representative in Congress from 
    the State of Oregon, and Chair, Committee on Transportation and 
                             Infrastructure
    Today, we hold the Transportation and Infrastructure Committee's 
first hearing of the 116th Congress. We are starting off by sounding 
the alarm bells--investing in America's infrastructure cannot wait.
    For years, we have held hearings on why infrastructure investment 
is important. We have rationally made the case about why roads, 
bridges, public transportation, airports, water and sewer systems 
cannot be left to crumble. We have shown how infrastructure keeps the 
economy humming, creates jobs, connects communities, moves people and 
goods, and ensures reliable access to clean water.
    We know that our infrastructure investment needs are massive: 
according to the American Society of Civil Engineers (ASCE), we have an 
investment gap of $2 trillion over 10 years to fix what we have, meet 
future needs, and restore our global competitiveness. The investment 
gap in surface transportation alone is over $1 trillion. The gap for 
water, port, and related infrastructure is $249 billion. Further, the 
latest capital needs survey by the Airports Council International (ACI) 
estimates that, over the next 5 years, airports will require total 
investment of $100 billion--more than $20 billion a year.
    Unfortunately, highlighting needs has not spurred Congress to 
action. So let me be clear that the question is not whether we will 
need to invest, but when we will invest. Inaction has serious 
consequences and the cost of delay is high.
    Every day that we ignore our ballooning infrastructure deficit, the 
problem becomes more expensive to fix and more pronounced; our 
constituents lose time and money; and we increase the risk of failure 
of these increasingly fragile systems. We must also act now to mitigate 
the effects of climate change, and build stronger, more resilient 
infrastructure that will withstand extreme weather events.
    Deferring projects increases costs:
    <bullet>  Maintaining infrastructure now saves money down the line. 
According to a Cornell University study, every $1 of deferred 
maintenance on roads and bridges costs an additional $4-$5 in future 
repair needs. Not keeping our assets in good repair in all modes of 
infrastructure increases the total cost to taxpayers down the line.
    <bullet>  Delaying the known replacement of an asset adds further 
cost. As an example, for the $2.6 billion Brent Spence bridge project, 
every year the start of construction is delayed means $75 to $85 
million per year in additional costs due to inflation alone.
    The economic effects of infrastructure failure are significant:
    <bullet>  When infrastructure assets fail, the impacts to the 
economy and mobility can be staggering. The Northeast Corridor 
Commission estimates that a shutdown of the Northeast Corridor would 
paralyze the region and have an economic impact of $100 million per 
day. If either the Hudson River tunnels or the Portal Bridge failed, it 
would shut down the Northeast Corridor. These two critical assets as 
part of the Gateway project cost $14.6 billion to replace; but doing 
nothing would result in $36.5 billion per year in economic losses if 
these assets fail.
    Poor infrastructure is costing our citizens and businesses money:
    <bullet>  According to the Business Roundtable, inadequate 
infrastructure costs U.S. businesses $27 billion per year in extra 
transportation costs.
    <bullet>  Between 2016-2025, the economy will lose almost $4 
trillion in GDP if we do not upgrade our infrastructure, resulting in a 
loss of 2.5 million jobs, according to ASCE. American families will 
lose $3,400 each year in disposable income due to the infrastructure 
deficit if we do nothing.
    <bullet>  According to INRIX, in 2017, congestion cost drivers $305 
billion, or an average of $1,445 per driver. Motorists spent an average 
of 41 hours a year in traffic during peak hours.
    <bullet>  The Texas Transportation Institute's 2015 Urban Mobility 
Scorecard found that congestion caused urban Americans to travel an 
extra 6.9 billion hours and purchase an extra 3.1 billion gallons of 
fuel in 2014. The same study found that wasted fuel will increase to 
3.8 billion gallons in 2020.
    Crippling congestion is becoming the norm and affecting travel:
    <bullet>  According to the U.S. Travel Association, traffic volumes 
seen on Labor Day will become the norm on the average day on certain 
corridors, and nearly 60 percent of Americans say they would 
significantly alter their travel habits if that were the case. If 
travelers eliminate an average of one automobile trip per year, the 
U.S. economy would lose $23 billion.
    <bullet>  This congestion is affecting the air travel experience as 
well. ACI reports that U.S. airports now have more than $10 billion 
each year in unmet infrastructure needs. Passenger terminals across the 
United States, many of which were constructed in the 1960s or 1970s, 
are outdated and cannot accommodate expected passenger growth; and 
airports do not have the gates necessary to accommodate current airline 
departures and arrivals, let alone for welcoming new service for 
communities. This often means passengers go outside onto the tarmac to 
board their aircraft, or sit on the tarmac upon landing until a gate is 
available. U.S. airports are doing the best they can to find ways to 
meet their ballooning infrastructure needs, but this leads to local 
communities paying twice as much and waiting twice as long for 
upgrades.
    How did we get to this point? Federal investment in infrastructure, 
as a share of total investment, has steadily declined in the last 15 
years. In some cases, we have not adjusted user fees for far too long. 
Gas and diesel taxes that fuel the Highway Trust Fund have been 
stagnant for 25 years, causing purchasing power for road, bridge, and 
transit projects to fall by over 40 percent. The Passenger Facility 
Charge--a local fee assessed on passengers for airport projects has 
been capped for 20 years. In other cases, we have let user fees we have 
collected be directed away from their intended uses, as with the Harbor 
Maintenance Trust Fund.
    Declining Federal funding has forced States and localities to raise 
more revenue locally in an attempt to meet their growing infrastructure 
needs. In the last two election cycles, localities passed ballot 
measures to raise more than $240 billion in transportation funds with a 
passage rate above 70 percent. Despite their efforts, the U.S. 
continues to experience a degradation of infrastructure.
    Congress must act to provide significant Federal dollars to invest 
in U.S. infrastructure. Raising revenues is the only sustainable way to 
increase infrastructure investment. We must answer the tough question 
of how to sustain investments for future generations and to dig out 
from the effects of this chronic underinvestment.
    America's infrastructure is at a crossroads. We need a 
reinvigorated Federal role and a commitment to public infrastructure, 
and a 21st-century vision for transportation policy that will meet the 
needs of the next generation of Americans and vehicles. We can't just 
maintain what we have, we also need to modernize how we plan and build 
transportation projects. We have a tremendous opportunity to complete 
critical projects, create family wage jobs here in the U.S., and 
support U.S. industry.
    We are in a time of unprecedented acceleration in innovation, and 
we must harness the power of technology to reduce congestion and 
emissions, and increase safety. Infrastructure we build today must be 
able to integrate technological advances, such as autonomous vehicles, 
as they become a reality. We must also take steps to increase the use 
of electric vehicles, build an electric backbone for our highway system 
to move people and goods, and invest in resilient infrastructure, to 
respond to climate change.
    But all of this will only become a reality if we get serious about 
finding the money. I am open to any sustainable revenue solution, and 
will work closely with our colleagues on the Committee on Ways and 
Means, as well as the President. However, I have proposed three bills 
that provide real investment as a starting point in the discussion:
    <bullet>  ``A Penny for Progress'' provides approximately $500 
billion for infrastructure investment to put our Nation's highways, 
bridges, and public transit systems on a path to good repair. We can 
achieve this level of investment by indexing the gas and diesel tax and 
bonding off the indexation revenues and bringing those revenues 
forward. We are also exploring ways to take into account growing 
electric vehicle use in the future.
    <bullet>  ``Unlocking the Harbor Maintenance Trust Fund'' by 
amending current budgetary controls to allow the Army Corps of 
Engineers to spend the funds collected in the Trust Fund each year, 
thereby providing more than $18 billion for our Nation's coastal and 
inland harbors over the next decade without raising taxes or increasing 
the deficit.
    <bullet>  ``Rebuilding America's Airport Infrastructure'' will 
generate billions of dollars each year to help our airports rebuild and 
rehabilitate aging terminals, runways, and taxiways and keep pace with 
increasing demand in the 21st century--without raising taxes--by 
eliminating or raising the cap on the passenger facility charge (PFC).
    As you will hear from today's witnesses, the costs of doing nothing 
are far too great. It is long past time for Congress to step up to the 
plate and make significant investment in our Nation's infrastructure.

    Mr. DeFazio. With that, I yield back the balance of my 
time, and I would yield to the ranking member.
    Mr. Graves of Missouri. Thank you, Chairman DeFazio. I want 
to reiterate that I am looking forward to working with you and 
all the members of the committee to provide America with the 
modern infrastructure needs in our growing economy.
    In recent years our two sides have worked closely to pass 
important legislation, which included the FAST Act, FAA 
reauthorization, and disaster program reform law, multiple WRDA 
and Coast Guard laws, pipeline safety, passenger rail laws, and 
many more things, and I am optimistic that we can carry on that 
tradition, a results-driven tradition of our committee to 
develop an infrastructure package, a surface transportation 
reauthorization, the next WRDA, and other bills.
    And you and I have already had good conversations about 
working together. It is extremely encouraging that after 
Tuesday's State of the Union Address we know infrastructure is 
a priority of the President's. Republicans and Democrats in 
both House and Senate want to get something done, and the 
President's leadership and eagerness for bipartisanship on this 
effort gives us a green light to move forward. And I have to 
stress that we can't waste this opportunity.
    Today's hearing on infrastructure investment is a very good 
place to start. Before we get underway I want to raise a few 
key points.
    First of all, we can't address our long-term funding issues 
without finally fixing the Highway Trust Fund. We have kicked 
this can down the road so many times already that pretty soon 
we are going to kick it right off the map. Congress is going to 
consider a number of options to address the problem.
    I believe the only viable future lies in a transition to 
VMT, or vehicle miles traveled. I see this as the best way to 
ensure that everyone contributes--everyone contributes--to the 
trust fund, and helps maintain and improve our surface 
transportation system. VMT is already being applied at the 
State level, and it is time to pursue this solution nationally.
    And I want to point out that we are not talking about the 
Government tracking our every move. Protecting Americans' 
privacy is critical, and we can do a VMT program without 
intruding upon people's privacy.
    Another key to investing in our infrastructure for the long 
term is continuing to look for ways to carry out projects more 
efficiently. Time is money, and so any delay in a project 
delivery process consumes valuable and limited resources that 
could be used for other potential improvements. Streamlining 
project delivery, while continuing to protect the environment, 
is a priority for the administration. It is going to continue 
to be a priority for me.
    And finally, I want to stress that America will never have 
the infrastructure system it needs and deserves if we don't do 
a better job of incorporating technology. Compared to other 
countries, our infrastructure is falling behind. And in some 
cases it is simply falling apart.
    Technology is rapidly developing, but our infrastructure 
doesn't always reflect many of those advancements, and that has 
to change. There is a tremendous potential for technology to 
make our infrastructure safer and less costly, to reduce 
congestion, improve the efficiency of the entire network, and 
even alleviate the growing demands of our infrastructure.
    In his address on Tuesday I was happy to hear the President 
recognize the necessity for technology to be a part of our 
long-term infrastructure solution. However, as we look to 
integrate technology, safety has to remain the top priority. 
And, as we know, an accident or set-back opens the door for 
Federal Government to come in and, with the heavy hand of 
regulation, potentially stifle all of those innovations that we 
talk about. We have to strike the right balance between 
private-sector ingenuity and safety regulation.
    Fundamentally, we can't overlook the importance of 
technology in the context of an infrastructure package or any 
other legislation, for that matter. And I agree with Chairman 
DeFazio that we can't afford to do nothing. But we also can't 
afford to miss this opportunity to enlist innovation in a way 
that can slingshot our infrastructure and our economy into the 
future.
    We have a number of witnesses here today, and they 
represent the traditional infrastructure stakeholder community. 
And I am interested to hear all of their viewpoints.
    I have one request as we start this discussion. Let's not 
be shortsighted in the solutions that we propose. With any 
legislation that comes out of Congress, whether it is an 
infrastructure package, a surface transportation 
reauthorization, or other bills, we just can't think of it as 
business as usual.
    Some of our Federal infrastructure programs do work very 
well. But in others we have clearly fallen behind. And it is 
time to be transformative in our approach, because the future 
of the infrastructure simply depends on it.
    [Mr. Graves's prepared statement follows:]

                                 <F-dash>
  Statement of Hon. Sam Graves, a Representative in Congress from the 
State of Missouri, and Ranking Member, Committee on Transportation and 
                             Infrastructure
    Thank you, Chairman DeFazio. I want to reiterate that I'm looking 
forward to working with you and all the members of the committee to 
provide America with the modern infrastructure it needs for our growing 
economy.
    In recent years, our two sides have worked closely to pass 
important legislation, including the FAST Act, an FAA reauthorization 
and disaster program reform law, multiple WRDA and Coast Guard laws, 
pipeline safety and passenger rail laws, and more.
    I'm optimistic that we can carry on the bipartisan, results-driven 
tradition of our committee to develop an infrastructure package, a 
surface transportation reauthorization, the next WRDA, and other bills. 
You and I have already had good conversations about working together.
    It's also extremely encouraging that, after Tuesday's State of the 
Union Address, we know infrastructure is a priority for the President. 
Republicans and Democrats in both the House and the Senate want to get 
something done, and the President's leadership and eagerness for 
bipartisanship on this effort gives us the green light to move forward.
    I must stress that we can't waste this opportunity.
    Today's hearing on infrastructure investment is good place to start 
our work. Before we get underway, I want to raise several key points.
    First of all, we can't address our long-term funding issues without 
finally fixing the Highway Trust Fund.
    We've kicked this can down the road so many times already, pretty 
soon we're going to kick it completely off the map.
    Congress is going to consider a number of options to address this 
problem, but I believe that the only viable future lies in a transition 
to a Vehicle Miles Traveled (or VMT) program.
    I see this as the best way to ensure that everyone contributes to 
the Trust Fund and helps maintain and improve our surface 
transportation system. VMT is already being applied at the State level, 
and it's time to pursue this solution nationally.
    I want to point out that we're not talking about Big Brother 
tracking our every move. Protecting Americans' privacy is critical, and 
we can absolutely do a VMT program without intruding upon people's 
privacy.
    Another key to investing in our infrastructure for the long term is 
continuing to look for ways to carry out projects more efficiently.
    Time is money, so any delay in the project delivery process 
consumes valuable and limited resources that could be used for other 
potential improvements. Streamlining project delivery--while continuing 
to protect the environment--is a priority for the administration, and 
it will continue to be a priority for me.
    Finally, I want to stress that America will never have the 
infrastructure system it needs and deserves if we don't do a better job 
of incorporating technology. Compared to other countries, our 
infrastructure is falling behind, and in some cases falling apart.
    Technology is rapidly developing, but our infrastructure doesn't 
always reflect those advancements. That needs to change.
    There is tremendous potential for technology to make our 
infrastructure safer and less costly, reduce congestion, improve the 
efficiency of the entire network, and even alleviate the growing 
demands on our infrastructure.
    In his address on Tuesday, I was happy to hear the President 
recognize the necessity for technology to be part of our long-term 
infrastructure solution.
    However, as we look to integrate technology, safety has to remain 
the top priority. As we know, an accident or setback opens the door for 
the Federal Government to come in with the heavy hand of regulation--
potentially stifling innovation. We have to strike the right balance 
between private-sector ingenuity and safety regulation.
    Fundamentally, we can't overlook the importance of technology in 
the context of an infrastructure package or any other legislation.
    I agree with Chairman DeFazio that we can't afford to do nothing. 
But we also can't afford to miss this opportunity to unleash innovation 
in a way that can slingshot our infrastructure, and our economy, into 
the future.
    We have a number of witnesses here today that represent the 
traditional infrastructure stakeholder community, and I'm interested to 
hear their input.
    I have one request as we start this discussion--let's not be 
shortsighted in the solutions we propose. With any legislation that 
comes out of Congress--whether that's an infrastructure package, a 
surface transportation reauthorization, or other bills--we can't just 
think of it as ``business as usual.'' Some of our Federal 
infrastructure programs do work well, but in others we've clearly 
fallen behind.
    It's time to be transformative in our approach, because the future 
of our infrastructure depends on it.

    Mr. Graves of Missouri. With that, I yield back. I look 
forward to hearing from our witnesses.
    Mr. DeFazio. I thank the gentleman for his statement. I 
would now like to welcome the witnesses, first panel. The 
Honorable Tim Walz, Governor, State of Minnesota, on behalf of 
the National Governors Association, also a former esteemed 
colleague. The Honorable--yes, let's give Tim a hand.
    [Applause.]
    Mr. DeFazio. Congratulations, Tim.
    The Honorable Eric Garcetti, mayor, city of Los Angeles, on 
behalf of the United States Conference of Mayors.
    The Honorable Ray LaHood, cochair, Building America's 
Future, former Secretary, United States Department of 
Transportation.
    Thanks to you all for being here today. We look forward to 
your testimony. Without objection, your full statements will be 
in the record.
    But before we hear from the witnesses, I recognize Rep. 
Craig to introduce her fellow Minnesotan, Governor Walz.
    Mrs. Craig. Thank you, Mr. Chairman. I am so honored to be 
given the privilege today to introduce the first member of our 
panel, first of all my friend, former congressman, and new 
Minnesota Governor, Tim Walz.
    Not too long ago, Governor Walz was right here, looking out 
for the transportation needs of his expansive First 
Congressional District, and also a congressional district that 
is pretty rural. The work he did here in Congress to replace 
the Winona I-90 Interstate bridge is a perfect example of why 
we are so proud of him, and why I think he is an ideal panelist 
for today.
    You know, the mayor of Winona said that that work set an 
example of how Government can work collaboratively to get 
things done, and the importance of investing in infrastructure.
    Governor Walz, thank you so much for taking the time to 
come to Washington to share your priorities and testify before 
this committee. I look forward to hearing your testimony, 
working with you, as well as my colleagues here today on this 
important issue. Thank you, Governor Walz.
    Mr. DeFazio. And with that we would now have Rep. 
Napolitano introduce Mayor Garcetti.
    Mrs. Napolitano. Thank you, Mr. Chairman. And welcome to 
our House, Mayor.
    Mr. Chairman, I am very honored to introduce my old friend, 
Mayor Garcetti of the great city of Los Angeles, and also 
happens to be the son of my old friend, Gil Garcetti.
    Mayor Garcetti has been a forward-looking mayor and great 
champion of infrastructure, not only for his city, but for the 
Greater Los Angeles County and for southern California in 
transportation, having supported Measure M, Measure R, and 
doing a great job of it, so we were able to successfully pass 
it.
    He has also led efforts to pass major infrastructure in 
transportation and initiatives in Los Angeles County, invested 
billions of dollars in modernization of Los Angeles Airport 
with the new terminals--thank you, they are very nice--and 
surface transportation improvements, and supported the 
returning of Ontario Airport to local control, and has improved 
operations at one of the most productive ports in the Port of 
Los Angeles, which, by the way, provides multimodal freight 
benefits for the entire country.
    Mayor Garcetti, welcome. Thank you for being here, and 
thank you for all you do for our area. And I look forward to 
your testimony.
    Thank you, Mr. Chair.
    Mr. DeFazio. Thank you, Representative. As I said earlier, 
without objection, their full statements are in the record.
    Your written statements are a part of the record. I have 
actually read them; I assume some other Members have, too.
    So, if you can summarize your most cogent and interesting 
points in 5 minutes and get everybody's attention, that would 
be great.
    I had a question about what this is [indicating document]. 
This is failed--everybody has got this handout. This was in 
Mayor Garcetti's testimony. Unfortunately, the AV system here 
is not working. We will see if they can fix that before the 
next hearing. So that answers that question.
    And with that, I believe that Governor Walz is the first 
witness.

 TESTIMONY OF HON. TIM WALZ, GOVERNOR, STATE OF MINNESOTA, ON 
    BEHALF OF THE NATIONAL GOVERNORS ASSOCIATION; HON. ERIC 
GARCETTI, MAYOR, CITY OF LOS ANGELES, CALIFORNIA, ON BEHALF OF 
 THE UNITED STATES CONFERENCE OF MAYORS; AND HON. RAY LAHOOD, 
  COCHAIR, BUILDING AMERICA'S FUTURE, FORMER SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Walz. Well, thank you, Chairman DeFazio and Ranking 
Member Graves, and all the members of this great committee. 
Congresswoman Craig, thank you for the kind introduction.
    As many of you know, I served on this committee for a 
number of years. But today I am here as a representative of the 
National Governors Association. This Nation's 50 States and 5 
Territories, the Governors have made infrastructure their top 
priority.
    On February 23rd, all of those Governors will gather here 
in DC for a roundtable focusing on infrastructure. It is the 
foundation that the States are built on. Governors have taken 
action to enhance infrastructure, including creating new and 
increasing existing funding streams, addressing regulatory 
delays, improving transparency, and promoting innovation.
    I would like to highlight just a couple of things for you 
today.
    Governors understand that no single stream of revenue or 
approach to financing will address all the gaps. States need a 
comprehensive approach that allows for leveraging a variety of 
funding sources and the flexibility to match the right tool 
with each project. States succeed when there is certainty and 
stability in long-term Federal resources, ensuring workforce 
and economic vitality.
    We need to fix and expand existing infrastructure, invest 
in resiliency for security and climate change. We must build a 
robust, multimodal system to fit our growing populations. We 
must attend to needs across our rural, urban, and suburban 
areas.
    Infrastructure encompasses more than roads and bridges, as 
you well know. It includes everything from sea ports and 
airports to the Upper Mississippi River locks and dams, biking 
trails, and, in our State, investments in electric vehicle 
charging networks. We have to see how all these pieces fit 
together.
    A few weeks ago I was in Hallock, Minnesota. That is on the 
northwest frontier of Minnesota. You might be familiar with it, 
because it was near a place that reached 70 degrees below zero 
last week, and caught a lot of people's attention. That is not 
only hard on people, it is hard on infrastructure.
    But also there are resilient people doing great things that 
understand how infrastructure improves their lives. Sitting 
outside of Hallock is a really successful liquor distillery 
called Far North Spirits. And it sits on a gravel road. It has 
spotty internet service. The owner of that says, ``Better 
infrastructure means I can get folks to and from this, and the 
ability to be able to communicate makes us so that we are more 
competitive.''
    But she also mentioned the need to invest in transit, like 
light rail in Minneapolis and St. Paul, where 97 percent of her 
product is sold, and people need to move. So, as Hallock goes, 
so does Minneapolis-St. Paul. And as Minnesota goes, so does 
the rest of the country. Governors understand that our 
interconnectedness and our thoughtfulness of providing those 
opportunities is what grows our economy.
    This hearing was titled, ``The Cost of Doing Nothing,'' and 
you heard Chairman DeFazio talk about what happens in idling, 
what happens in repair bills, what happens when we can't get 
products moved to us and that cost is passed down to consumers. 
Sometimes it comes a lot faster than that, and sometimes it 
comes tragically.
    Many of you on this committee were sitting here on a hot 
August day in 2007, while in Minneapolis 111 cars sat in 
traffic on the I-35W bridge across the Mississippi River during 
rush hour. Filled with people going about their business, they 
were headed to a Twins game, they were picking their kids up 
for soccer. There were several buses bringing kids from a field 
trip. They weren't thinking about infrastructure, because they 
don't want to have to think about infrastructure. But at 6:05 
p.m. their lives changed forever when our inability to keep up 
with infrastructure needs resulted in the catastrophic failure 
of that bridge: 13 people lost their lives and 145 more were 
seriously injured.
    Minnesota has the fifth-largest road system in the United 
States, although we have 22nd in population. Connecting people 
in rural areas as well as urban areas is something we pride 
ourselves on, because it builds resiliency into our economy. It 
also gives people the opportunity to choose where they want to 
live.
    But Minnesota's roads need investment. Our State's most 
recent State highway improvement plan identified $18 billion in 
shortfalls over the next 24 years, just to maintain what we 
have. That doesn't include all the other modes of 
transportation.
    Minnesotans are willing to pay their fair share, when they 
know it is going to good use, like roads, bridges, transit. And 
for all of you in here, there are many different funding 
streams, but it must be dependable. It must be there.
    And one of the things is--and for better or worse--the gas 
tax and the Highway Trust Fund is the way we did that. So I 
made no bones about it. I don't know for--each of you have all 
run for office. It is usually pretty good advice, don't run on 
raising people's taxes, except in the instance of 
infrastructure. We ran a campaign talking about investing in 
that. We ran about telling them that we needed to have those 
dedicated funding. And not only did they respond to that, they 
responded overwhelmingly that this is something they believed 
in.
    In a few weeks myself and Governors across this Nation will 
be introducing their budgets. In Minnesota we will propose a 
comprehensive transportation package addressing all modes of 
transportation to improve the lives of Minnesotans.
    Now, I want to be clear. Not all Governors in the NGA agree 
on a gas tax. But all of those Governors agree that if we 
choose to not invest, the cost will go up, the safety needs of 
our citizens will be put at risk, and we will continue to fall 
further and further behind in trying to move forward into the 
21st century.
    I look forward to your questions, and thank you for the 
time.
    [Mr. Walz's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Tim Walz, Governor of Minnesota, testifying 
            on behalf of the National Governors Association
    Chairman DeFazio, Ranking Member Graves, and members of the House 
Committee on Transportation and Infrastructure, thank you for inviting 
me to testify today on behalf of the National Governors Association 
(NGA) and the people of Minnesota. I had the privilege of serving on 
this committee for years.
    Governors made investing in our Nation's infrastructure a top 
priority in 2019 and for the 116th Congress.
    Infrastructure is the foundation States are built upon. It impacts 
everything from economic development and global competitiveness, to our 
quality of life, safety, environment and resiliency. Governors have 
taken action to enhance infrastructure, including creating new and 
increasing existing funding streams, advancing public-private 
partnerships, addressing regulatory delays, improving transparency and 
promoting innovation.
    I'd like to highlight several important points this morning:
    <bullet>  No single stream of revenue or approach to financing will 
address all the gaps. States need a comprehensive approach that allows 
for leveraging a variety of funding sources and flexibility to match 
the right tool with each project. States succeed when there is 
certainty and stability in long-term Federal resources ensuring 
workforce and economic vitality.
    <bullet>  We must fix and expand existing infrastructure and invest 
in resiliency and security to modernize it for future generations. We 
must attend to needs across our rural, urban and suburban areas. 
Infrastructure encompasses more than roads and bridges. It also 
includes city and community development, transit, seaports and 
airports, inland waterways and electric vehicle charging networks. It 
involves water and wastewater, the energy system, electricity grid and 
power plants, public buildings and advanced communications networks. 
Investments in projects of regional and national significance advance 
overall global competitiveness.
    <bullet>  We must recognize how all these pieces fit together. I 
was in Hallock a few weeks ago--a town of less than 1,000 people in the 
far northwest corner of Minnesota. In the middle of a field off a dirt 
road, there is something you wouldn't expect to see: a liquor 
distillery. The owner of this distillery talked to me about the 
importance of repairing roads and bridges in her area, but also about 
the need for good transit in the cities for her urban customers to buy 
her product. She knows that when the Twin Cities thrive, Hallock 
thrives, and when Hallock thrives, the Twin Cities thrive.
    <bullet>  Governors support Federal actions that streamline project 
delivery, reduce approval and completion times, and increase 
transparency, but also achieve the intent that underlies critical 
environmental, planning, design, and procurement reviews. States 
believe that Federal infrastructure program reforms are the most 
effective when they promote State flexibility by omitting unnecessary 
Federal requirements.
    <bullet>  Governors believe that innovative technologies should be 
embraced to achieve resiliency, security and efficiency. Infrastructure 
should incorporate new capabilities related to increasing connectivity, 
autonomy, digital information and electrification. States are leading 
the way in embracing new practices and technologies that provide 
innovative solutions to traditional infrastructure needs; Federal 
investments should be integrated and reward positive, evidence-based 
outcomes.
    <bullet>  I am here today to highlight needs and planning efforts 
that we have underway in Minnesota, and to ask Congress to pass an 
infrastructure package that provides States with the certainty needed 
to budget and plan for the future. We also ask that Congress provide 
States with the flexibility needed to determine how best to use the 
Federal dollars that we receive.
                the state of infrastructure in minnesota
                             transportation
    On August 1, 2007, 111 cars sat in traffic on the I-35W bridge over 
the Mississippi River in Minneapolis during the evening rush hour. They 
were filled with people going about their everyday lives, unconcerned 
about the infrastructure surrounding them. They were headed out for a 
night of fun at a Minnesota Twins game; they were schoolkids returning 
from a summer field trip; they were folks just trying to get home from 
work.
    At 6:05 p.m., their lives changed forever when our inability to 
keep up with our infrastructure needs resulted in the catastrophic 
collapse of the bridge. Thirteen people lost their lives that day, and 
145 more were injured.
    Despite this highly visible, utterly obvious signal that we needed 
to do something to repair and replace our transportation 
infrastructure, it took a veto override from the legislature to pass a 
5-cent State gas tax increase the following year. It was nonsensical 
then, and it shouldn't take another tragedy for us to take care of our 
infrastructure needs now.
    Minnesota has the fifth largest road system in the United States, 
despite being ranked 22nd in population. We pride ourselves on our wide 
expanses of wilderness, farmland, our regional centers, and our 
metropolitan area--but there's a lot of roads connecting everything 
that makes Minnesota great.
    But Minnesota's roads are in rough shape. Our most recent State 
Highway Improvement Plan identified billions of dollars in needs--Over 
the next 20 years, Minnesotans will need to come up with $13.44 billion 
to maintain our pavements; $2.65 billion to maintain our bridges and 
$3.35 billion for all the culverts, drainage ditches and signage that 
make our transportation system work. That doesn't even consider all 
modes of transportation--our transit, bicycle and pedestrian 
infrastructure that's growing in need.
    Minnesotans are willing to pay their fair share when they know it 
is going to good use--like their roads, bridges, and transit. I saw it 
over the past 2 years while working to win Minnesotans' trust and 
become Governor. I unapologetically told Minnesotans over and over that 
we need to raise the gas tax, and that it would be a top priority for 
me if I took office.
    In a few weeks when I unveil my budget as other Governors will 
also, I will propose a comprehensive transportation finance package, 
addressing all modes of transportation, and improving the lives of all 
Minnesotans. We'll spend that increased revenue responsibly--benefiting 
the greatest number of people while keeping an eye on how efficiently 
we maximize our resources, and constantly looking for innovative ways 
to improve our infrastructure as we move toward new ways of financing 
our transportation system.
    Minnesotans know they get what they pay for, and I am confident 
they will support this measure to improve our roads, ensure businesses 
can get their goods to market, and prevent a tragedy like the 35W 
Bridge collapse from ever happening again.
             the costs of doing nothing and a path forward
    While not all of my perspectives are universally shared by all the 
Nation's Governors, we do all agree that the Federal Government can be 
a great partner, especially when it comes to efficiencies and 
innovation. Federal programs and funding should provide maximum 
flexibility to the States for implementation and innovation because of 
our diversity of geography, population and priorities.
    The National Governors Association looks forward to continuing to 
engage with our Federal partners and will be highlighting the need for 
infrastructure investment throughout the year. In fact, later this 
month on February 23, we will be hosting a roundtable discussion on 
infrastructure during our annual Winter Meeting, which brings together 
the Nation's 55 Governors to discuss the most pressing issues facing 
the States and Territories.
    On behalf of the Nation's Governors and the people of Minnesota, 
thank you for the opportunity to testify.
    I would be happy to answer questions at the appropriate time.

    Mr. DeFazio. Thank you for observing the time limits, and 
good statement.
    Mayor Garcetti?
    Mr. Garcetti. Thank you very much, Mr. Chairman, Ranking 
Member, and thank you so much to Grace Napolitano for the kind 
introduction and the friendship over many years. Great to be 
with so many friends, new and old, that are here.
    I wear two hats today, both as mayor of a great American 
city, Los Angeles, but also as chair of the U.S. Conference of 
Mayors Task Force on Infrastructure, and a member of the 
National League of Cities, here with a clear message from 
America's local communities that it is time to pass an 
infrastructure package, comprehensive and now.
    I think for most people this isn't about miles paved, this 
isn't about statistics. This is about stories, and lives, how 
much time we spend with our children, whether or not we can 
drink clean water from our taps, whether we have a smooth 
commute to work. And this Congress has an amazing chance to 
make history, to be able to reignite homegrown industries here, 
and also create great middle-class jobs we can't export away 
from this country.
    Two years ago we heard two Presidential candidates talk 
about hundreds of billions of dollars of infrastructure 
investment, and America is still waiting. But the same night 
that we elected a new President, America's cities passed $230 
billion of voter-approved measures from Georgia to Ohio to 
Washington State, including $120 billion in my own city, my own 
county, Los Angeles, which was the largest measure times two in 
American history, one that also creates 787,000 jobs for 
Americans, building that middle class.
    No matter where we live, no matter who we are, Americans 
feel very clear that it is time to improve our communities. And 
that is why, a year and a half ago, I formed with a group of 
State leaders, local leaders, business leaders, and labor 
leaders a group called Accelerated for America. It is a 
nonprofit that is keeping infrastructure moving in this 
country.
    And what you have on your tables is a bipartisan poll that 
we conducted at the end of the year, and it showed that the top 
two issues that Americans want this Congress to work on were 
health care and then infrastructure. That was above 
immigration, climate change, even jobs and the economy. Number 
two was infrastructure.
    So, in 2019, believe it or not, 80 percent of Americans 
agree on something, and that is the need to move forward with 
infrastructure. Fifty years from now I want to look back on 
this Congress and this committee and say that you were the ones 
who brought about that turning point. This Congress transformed 
the foundation upon which this country is built. And our 
country needs you.
    Nations across the world are planning for 50- and 100-year 
plans for infrastructure, while we are limping forward with 2- 
and 5-year Band-Aids. It is time for us to think about that 
long term to win that future. And that is why I am submitting 
in today's testimony a plan that the U.S. Conference of Mayors 
has approved for a $1 trillion infrastructure plan supported by 
our local communities, urban and rural, north, south, east, 
west, red and blue. And $612 billion of those dollars are 
directly under the jurisdiction of this committee.
    So today let me ask you to consider three things as you 
look at infrastructure: one, encourage leverage; two, reward 
innovation; and three, consider the long-term maintenance of 
our infrastructure.
    First, leverage. Leverage local government, leverage State 
government. And yes, leverage the private sector with P3s that 
we are showing in Los Angeles work without giving away public 
assets, but that accelerate how quickly and how cheaply we can 
get infrastructure built.
    Second, reward innovation. When you consider the needs of 
our roads and our bridges, our railway, and our airports, ask 
that you can look at the speed at which we are innovating. In 
L.A., which is known as America's car capital, we are the 
headquarters of Hyperloop, home to the electric scooter 
revolution; a new boring company; new technologies that are 
excavating tunnels faster than ever; electric cars that are 
reducing emissions. And we want these things not to just be 
invented in America, but exported from America.
    As we redo our port in Los Angeles, we don't have a single 
American company that re-does port equipment. We don't have a 
single American company that does rail equipment. So that 
requires flexibility from Federal Government to look not only 
at technologies today, but to put in this legislation 
technologies that will evolve tomorrow.
    And third, consider maintenance. We tend to fixate on 
future projects that we can get in the ground. But at a time 
when people died on the DC Metro, when New York subways don't 
run on time, when passengers had to kick their way out of 
smoking cars in Boston, we need to look at lasting revenue 
streams without sacrificing social service programs, so we can 
maintain infrastructure.
    Our program in Los Angeles is an evergreen tax. To your 
point, I ran 3 months later and got 81 percent reelection. This 
is something voters want, and you can take the risk of putting 
something permanently forward. Twenty-seven States have passed 
a gas tax to preserve roads and fix crumbling bridges, and our 
measure will never sunset in Los Angeles because we know after 
it is built it needs to be maintained.
    Americans want the peace of mind of the history that you 
will make in this committee, and we are there behind you. We 
are there to run ads, to help campaign for the passage. Our 
nonprofit will make sure that that moves forward.
    So, on behalf of local communities across America we are 
here to tell you we will do everything in our power to help you 
make that history and to write a great chapter for this 
country. The time is now.
    Thank you, Mr. Chair.
    [Mr. Garcetti's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eric Garcetti, Mayor, City of Los Angeles, 
  California, testifying on behalf of the United States Conference of 
                                 Mayors
    Chair DeFazio, Ranking Member Graves, and members of the 
committee--my name is Eric Garcetti, and I serve as mayor of Los 
Angeles and as chair of the U.S. Conference of Mayors' Infrastructure 
Task Force.
    I am honored to appear before you and this committee on behalf of 
my city and the Greater Los Angeles region--a true infrastructure 
capital in America--home to the biggest port complex in the Western 
Hemisphere, the country's busiest origin and destination airport, and 
the largest local transportation investment in U.S. history, times two. 
In L.A., we understand that our infrastructure is the foundation for 
not only how we move goods, cars, and families, but for the long-term 
strength of our economy.
    I am proud to add my perspective as a mayor, as a representative of 
local leaders who live where we work; who see the impact of our 
policies and our actions in our own neighborhoods every day; who deal 
with the current state of America's infrastructure on our own streets--
whether that means filling potholes, repairing bridges, expanding mass 
transit, or securing a clean and reliable water supply. Mayors are 
responsible for all of it, and we are willing and eager to be your 
partners in realizing our shared vision.
    We come together this morning at an exciting moment for 
infrastructure. Fifty years from now, when we look back on what we did 
and achieved for our constituents, I truly believe we will remember 
this time as a turning point, and this Congress as the body that 
finally set us on course to developing the 21st-century infrastructure 
our Nation needs and our people deserve.
    But we also have to recognize that seizing this moment is about 
more than roads, bridges, trains, pipes, broadband, and treatment 
systems. It is about building our physical infrastructure while giving 
birth to homegrown industries and creating well-paid, middle-class jobs 
that don't require an advanced degree, can't be outsourced, and don't 
disappear in the event of a recession or economic downturn.
    And if we want to do this right, there are clear ways to maximize 
our resources and meet our common goals. Congress should reward 
innovation, ensuring new technologies for reducing traffic, cutting 
emissions, improving goods delivery, facilitating the arrival of 
scooters, boring tunnels, and bringing electric and autonomous vehicles 
to our streets are all developed here in the United States.
    The Federal Government should leverage its sizable role in the 
marketplace and in infrastructure development, utilizing local dollars 
and engaging private-sector partners, to extend our investments in 
urban and rural areas nationwide.
    What's more, every one of us in public life--in the U.S. Capitol 
and the White House, in State legislatures, and in city halls--must 
never lose sight of the long haul. That means focusing on immediate 
maintenance of our subways, rail lines, pipelines, and more, while 
keeping a keen eye on how we can establish steady, lasting revenue 
streams so our infrastructure does not fall into dire disrepair in the 
future, with no rapid way to fix it.
    Los Angeles and cities in nearly every region have started to take 
this approach, looking not at 1- or 2-year projects, but 50- or 100-
year timelines in how we address our transportation needs.
    Many of us are a part of the nonprofit Accelerator for America, an 
outfit that brings local innovators, businesses, and unions together 
around smart ideas to strengthen people's economic security and foster 
infrastructure development. This organization recently surveyed 1,000 
Americans and found that infrastructure ranks third in importance 
behind health care and job creation, and it moves up to second among 
problems the public wants us to solve together, Democrat and 
Republican, in a bipartisan way.
    All of us are prepared to be this committee's best allies in making 
this a national cause, so we can strengthen our middle class, ensure 
better and faster goods movement, and improve the quality of life for 
all Americans.
           the need for action--and the consequences of delay
    Our task should begin with the creation of a National 
Infrastructure Program, which would help usher in a new era of 
prosperity, innovation, and economic health for our Nation. And it 
would ensure the United States of America retains its economic 
leadership and prosperity in the 21st century.
    Failing to make long-term investments has serious consequences. A 
recent assessment by the Los Angeles County Metropolitan Transportation 
Authority showed that a 1-year delay results in cost increases of at 
least 3.5 percent for capital projects. That translates to $35 million 
of increased costs for every billion in planned spending for highway 
and transit projects. The Los Angeles Metro's Fiscal Year 2019 Budget 
includes over $2 billion in capital funds for transit expansion, 
regional rail, and highway projects. If there was even a 1-year delay 
on these projects, it could increase costs by $70 million.
    At the end of the day, that is $70 million that Federal and local 
taxpayer dollars will have to make up--one way or the other. The bottom 
line is this: once a project is shovel-ready--having cleared all local, 
State, and Federal rules and regulations--the key decision is how 
rapidly we can move these projects into their construction phase. The 
more these projects are delayed, the more they will cost.
    The financial implications of delays are not the only risk. 
Throughout the West, we face rising temperatures, longer and more 
frequent droughts, and more intense wildfires in the wildland-urban 
interface. We see the impacts of climate change firsthand and know that 
innovative infrastructure investment will help us mitigate and adapt. 
Our water, housing, and energy futures demand it.
    This is why many of America's cities are already taking action.
    In Los Angeles, we are accelerating our transportation 
infrastructure with Twenty-Eight by '28, an initiative to deliver 28 
major transportation projects by the 2028 Olympic and Paralympic Games. 
Twenty-Eight by '28 is about building a countywide transportation 
network that includes subway, light rail, bike facilities, and highway 
bottleneck improvements. We will need the Federal Government to partner 
with us so we can deliver all these projects by 2028. This will require 
securing Federal New Starts grants, low-interest loans like TIFIA, and 
other financing strategies that have proven to be effective. But we 
will not ask for Federal construction with an empty hat. We will bring 
money to the table to help leverage every Federal penny to maximize the 
Twenty-Eight by '28 program.
    Los Angeles is also investing $2.6 billion to upgrade its port's 
infrastructure to accommodate new and larger classes of container 
ships, and to accommodate increased cargo volumes. But our port, the 
Nation's largest, is part of an intricate, national supply chain and 
freight system--which needs access to a robust, dedicated funding 
program. The case for Federal investment here is clear: U.S. global 
competitiveness requires sustained investment in an efficient and 
reliable multimodal freight system that connects our Nation's 
production centers, both urban and rural, to markets around the globe.
    But our freight system is underfunded. In the southern California 
region, there is a $2 billion-a-year freight infrastructure funding 
gap. The American Association of Port Authorities estimates $66 billion 
in unmet port land-side and water-side infrastructure needs nationwide. 
The costs of ignoring investment in our ports and freight system are 
increased congestion, declining productivity, and lost jobs.
    A strong Federal partnership can address much of this. 
Discretionary programs like BUILD and INFRA are well spent on our 
maritime gateways because of their national economic impact and ability 
to attract non-Federal investment. We also know that full and strategic 
use of funding sources like the Harbor Maintenance Tax can unlock the 
potential of the Nation's ports, both large and small, donor ports and 
traditional dredge ports.
    In my city, the Port of Los Angeles is spending aggressively on a 
multimodal transportation and digital infrastructure, using a 
combination of private and State funding, as well as its own shipping 
revenues. A strong Federal partnership can leverage more investment in 
these areas and ensure our ports continue to operate efficiently with 
minimal environmental impact.
    We are investing more than $14 billion at LAX to upgrade every 
terminal and to completely reconfigure access to our airport, which 
will include a seamless connection to our Metro Rail system. Still 
there is more that we can do to ensure LAX is ready to welcome the 
World to the 2028 Olympics. Passenger Facility Charges (PFCs) are 
extremely flexible and versatile, and they can be used to fund 
airfield, terminal, and ground access projects. A $4 PFC increase would 
provide for $1.5 billion in additional capital development projects at 
LAX, such as reducing aircraft taxi times and thus reducing emissions. 
We are already extended on our collection of PFC's through 2046 for 
projects that have already been completed or are underway. We urge 
Congress to approve a reasonable increase in the PFC cap now.
    L.A. will invest $15 billion in the next 10 years in water 
treatment, storage, and distribution. We will clean up our groundwater, 
build out our recycled water systems, and provide incentives for 
businesses and residents to capture and reuse. By 2035, 50 percent of 
L.A.'s water will be local. If you know anything about California water 
politics and conveyances, you know this is an ambitious and necessary 
directive--one that will increase L.A.'s resilience to climate change 
and earthquakes.
    Angelenos and Americans across the country recognize that clean and 
reliable water is a top priority. This past November, the residents of 
L.A. County voted to support Measure W--a parcel tax which will raise 
$300 million a year for local water projects that capture stormwater, 
clean up rivers, and green our communities.
    And we are already at work executing our $120 billion 
infrastructure plan--to create a truly comprehensive rail network, ease 
congestion on our freeways, and fix our local roads.
    This kind of Nation-leading investment isn't just happening in L.A.
    In 2016, voters in Austin, Texas, passed ``Proposition 1'' to 
upgrade their transportation system. Charleston County in South 
Carolina gave their ``transportation initiative'' a green light, and 
voters approved the ``Sound Transit 3'' ballot measure in Seattle, 
Washington.
    In 2018, according to the Eno Center for Transportation, voters 
considered at least 314 transportation-related measures totaling $50 
billion in transportation investments for roads, bridges, transit, 
airports, seaports, cycling, and pedestrian paths. The biggest were in 
Broward County, Florida, which approved a 30-year, $16 billion measure 
to support road, bus, and rail upgrades, and Hillsborough County, 
Florida, which approved a $9 billion package for transit.
    Altogether, since 2016, cities, regions, and States have voted to 
invest nearly $250 billion to modernize their infrastructure. Some say 
that this is evidence the Federal Government does not need to play a 
role--that cities and regions are just fine on their own. That 
conclusion is misguided. This local investment means that there has 
never been a better time for Federal partners to take action on 
nationally significant projects. Matching those local dollars with an 
increased Federal investment and creating an environment for public-
private partnerships will ensure that we can reach our goals and 
reverse the decline that has plagued us for too many years.
    But there are cities across America that still rely on decades-old 
infrastructure that was wholly or substantially funded by the Federal 
Government through initiatives like the Works Progress Administration 
and the Interstate Highway System. We know this infrastructure, which 
fueled decades of growth, is aging and requires drastic improvement.
    As we seek to upgrade this infrastructure, we should also seek to 
create a new model for Federal infrastructure spending that 
incentivizes local and regional funding commitments, invests in the 
future, and fosters innovative new approaches. I call this ``I-3''--
incentivize, invest, and innovate.
    I-3 is one viable path to achieving a truly robust national 
infrastructure program. This is something that every American can rally 
around, and will benefit from--including urban, suburban, and rural 
areas.
    First, we must incentivize.
    Existing Federal programs such as New Starts and INFRA are already 
combining with local funding streams to build, accelerate, and expand 
projects. These programs prove that the local-Federal partnership model 
can be successful, and must be maintained. They are the foundation upon 
which a national infrastructure policy must be built.
    We must also expand direct Federal infrastructure funding.
    Local entities cannot do this critical work of expanding access to 
mass transit and upgrading our Nation's roads, freeways, and bridges on 
our own. A national infrastructure package can further incentivize 
local entities to generate more of their own revenue--and not just for 
the sake of spending the way that we've funded infrastructure for the 
last 50 years.
    Second, we must invest to build our projects so they perform in the 
long term.
    Too often we only care about ribbon-cuttings and groundbreakings. 
The Federal Government should reward States and cities for ensuring 
their assets perform to the level that the public expects--focusing on 
longer term lifecycle needs, and using innovation and new technology to 
deliver results whenever possible.
    Last, we must innovate.
    Public-private partnerships, in many cases, are a particularly good 
way to deliver ongoing performance, and they also allow the public 
sector to leverage private funding to help deliver projects sooner and 
more efficiently with performance guarantees. Project delivery 
approaches such as design-build-operate-maintain and CM/GC can reduce 
costs and deliver projects faster, while public tools like TIFIA and 
RIFF will be critical to many P3 projects.
    While P3s will not be a viable delivery strategy for many projects, 
a National Infrastructure Program must not be too prescriptive; rather, 
it should help cities and regions take innovative approaches.
    I look forward to working with this committee to help deliver that 
future for the American people, and cities across this country.
   measure m--an unprecedented transportation infrastructure program
    Measure M is the largest transportation initiative in the history 
of the United States--times two. Measure M is expected to generate $860 
million a year in 2017 dollars. It will help expand our rail and rapid 
bus transit system, accelerate rail construction, and improve our 
system connectivity throughout the County of Los Angeles. It will 
stitch together the rail network needed to connect every resident in 
the L.A. area. A total of 15 rail and bus rapid transit projects will 
be built under Measure M. These projects include the acceleration and 
completion of our Purple Line subway extension, light rail connections 
in the San Fernando and San Gabriel Valleys, and the vital connection 
to LAX. The Purple Line extension would connect the two largest job 
centers in the State of California, downtown Los Angeles to the UCLA/
Westwood area, and the project will be ready by 2027, a year before the 
arrival of the Olympic and Paralympic Games.
    Measure M also funds projects to build and fix 14 major highway 
projects. It aims to tackle some of the most congested corridors and 
roadway bottlenecks in the Nation. For example, the measure will help 
modernize Interstate 710 Long Beach Freeway, a vital transportation 
artery that links the Ports of San Pedro Bay to major distribution 
centers. Thousands of trucks use this corridor every single day. The 
construction of this project will improve air quality, enhance traffic 
safety, and accommodate future economic growth to address our Nation's 
freight movement needs.
    Another important feature of the Measure M program is the local 
return program. Local return pays back all 88 cities in the county so 
streets are repaved, potholes are repaired, and traffic signals are 
modernized through synchronization. When designing the program, it was 
important to us that neighborhood streets and intersections would 
benefit.
    But Measure M is not just about infrastructure transportation 
improvements. Measure M will add 466,000 new jobs across the entire Los 
Angeles County region. These are high-level and well-paying 
construction and technical jobs. I want to point out that these are not 
one-off gigs; they're career jobs that can support a family.
    Local ballot measures are critical, but cannot meet our needs 
alone. A National Infrastructure Plan only works when the Federal 
Government is at the table.
                               measure w
    Measure W, a countywide stormwater measure, passed in November 2018 
with 69.5 percent of the vote. It is a parcel tax based on square 
footage of impervious surface that will raise $300 million per year. 
Half the funds will be distributed to large, regional multi-benefit 
projects that can demonstrate a water quality, water supply, and 
community benefit. Forty percent of funds will be distributed to cities 
in the same proportion generated for water quality projects aimed to 
assist with Federal Clean Water Act municipal stormwater requirements. 
The remaining 10 percent is intended for administration, oversight, and 
technical support. The Measure was championed by L.A. County and the 
city of Los Angeles.
keeping existing federal programs and maximizing direct federal funding
    Both the FAST ACT and MAP-21 have been incredible resources for 
both highway and transit projects for many cities and jurisdictions 
around the country. And we should keep all the current funding programs 
in place.
    The Los Angeles County Transportation Authority, also known as 
Metro, has benefited from the Federal Transit Administration's Capital 
Investment Grant Program, also known as New Starts. Over the last 5 
years, we have matched over $3 billion in Federal New Starts grants 
with an equal amount of local Los Angeles County taxpayer dollars to 
build effective and efficient rail projects. The Federal Government 
should continue to support and fully fund the New Starts program--which 
has proven to be an outstanding steward of the American tax dollars. In 
my considered opinion, any effort to block future New Starts grants 
would be misguided and compromise a program that has proven its 
effectiveness over the last decade.
    Los Angeles Metro has used nearly $2 billion in TIFIA loans to 
leverage Los Angeles County taxpayer dollars to finance four major 
transit projects over the past 5 years. The TIFIA program--which costs 
the Federal Government very little to maintain--has been essential in 
helping Metro and other transportation agencies across the Nation take 
highway and transit projects from the drawing board to their 
construction phases.
    Metro has been a national leader in matching TIGER grant funds with 
local dollars in order to maximize the impact of these valuable Federal 
funds. Whether it was Metro's Rosa Parks Blue Line Transit Station--
which secured a $10.2 million TIGER grant or the $15 million TIGER 
grant Metro recently secured to fix one of the most dangerous grade 
crossing projects in California (Rosecrans/Marquardt Grade Separation 
Project)--the TIGER grant program is a great example of how Federal 
funds can be used to leverage local and State dollars. Congress would 
be wise to continue funding the TIGER grant program--which has 
benefitted both rural and urban cities across the Nation since it was 
first authorized in 2009.
    These programs have worked well in Los Angeles and many cities 
across the U.S. Do no harm is what I call it, meaning, it is essential 
that existing sources and uses of funds are not changed or eliminated. 
This means building on what we have and using the tools we have 
available. And, for many cities and their regions, the Surface 
Transportation Block Grant is vital to an expanded Federal-local 
partnership going forward, delivering even more resources directly to 
Metropolitan Planning Organizations and regional planning agencies to 
advance necessary highway improvements benefiting cities and their 
regional economies.
         next steps to craft a national infrastructure program
    Undoubtedly, all Americans share the view that we must upgrade our 
Nation's infrastructure and that we must build and maintain projects 
on-time and on-budget. We agree that cutting red tape and streamlining 
projects is good to bring benefits to the public sooner. But for the 
U.S. to have the robust infrastructure we all envision and to be 
competitive at the global stage, a significant amount of new Federal 
funding is necessary. That is why Congress should identify and allocate 
new Federal funds to yield greater returns and outcomes.
    Los Angeles is not coming to the table empty-handed. We are 
fronting our own funding and asking for a stronger Federal partnership. 
A program that incentivizes localities across the country to pass their 
own bonds and/or funding efforts, in the way L.A. and other cities have 
done, will create an incredible catalyst for a major infrastructure 
program. This means creating significant leverage by incentivizing 
infrastructure owners to secure and commit to their own revenue 
measures, bond programs, and other financing sources that will go well 
beyond traditional Federal-State funding splits.
    As mentioned before, there are tools that can help stretch every 
Federal program, such as the Build America Bonds, TIFIA, and even a 
National Infrastructure Bank, which offer complementary frameworks. 
However, cities and States can do more with innovative public-private 
partnerships, and we welcome opportunities for us to partner with the 
Federal Government to leverage what localities are doing.
    So as Congress gets closer to finalizing our funding strategy, we 
look forward to working with you to forge a new Federal-local 
partnership that will create jobs, improve commute times, and build 
livable communities.
                               conclusion
    As I stated at the outset, this is a remarkable time for the cause 
of transportation and infrastructure. And as women and men who feel the 
impact of our investments firsthand, you can count on America's mayors 
to rally and campaign for whatever this country demands now and into 
the future. We will continue to stand united, across party lines, 
across State boundaries, across the business community and labor 
unions, around what is needed to get us over the finish line and toward 
an era of modern infrastructure.
    Thank you once again, Chairman DeFazio and Ranking Member Graves 
for allowing me to be here today. I look forward to working with you to 
identify innovative ways to address our Nation's infrastructure needs.

    Mr. DeFazio. Thank you for excellent and, again, on-time 
testimony, Mayor.
    Now we will turn to Secretary LaHood.
    Ray, go right ahead.
    Mr. LaHood. Thank you, Mr. Chairman. First let me offer my 
congratulations to you. For those of you on the committee, when 
I started my career in Congress in 1995 I started on this 
committee. And it only took Peter 30 years to become chair of 
the committee.
    [Laughter.]
    Mr. LaHood. So Mr. Pence, there is hope. And I recognize 
you, sir, because I sat in the chair that you sat in when I 
first joined the committee in 1995. And this is a great 
committee, because it is a bipartisan committee.
    And to the ranking member, congratulations. I think it only 
took you 20 years to reach where you are. But it is because 
people want to be on this committee and serve on this 
committee, because it is so bipartisan.
    I think the timing is absolutely perfect. I think the stars 
are aligned for a big infrastructure bill. It has got to be 
big, and it has got to be bold. It can't be chintzy. The 
American people are waiting. And I know that just about every 
one of you that ran for office ran on the idea that you were 
going to do something about fixing infrastructure in your 
communities. I watched your campaigns, and I know that when 
many of you were elected--you now have to go back home and 
explain to people what you are doing to fix infrastructure in 
your communities. And so I think the timing is perfect, and 
this is the committee that can do it.
    When we served--I served for 6 years on Transportation and 
Infrastructure with Peter and others. We passed two 6-year 
bills. We had 75 members on the committee. All 75 members voted 
for those bills. We had extraordinary leadership from then-
Chairman Bud Shuster, and we made it happen. This committee can 
do that, and I think you will.
    Everybody knows what the problem is. America is one big 
pothole. My home State is Illinois, and we have had another 
brutal winter. And all over Illinois there are potholes. All 
over America there are potholes. And you can only do so much by 
continuing to fill potholes year in and year out. The 
interstates are crumbling. Today there are now 60,000 
structurally deficient bridges all over America. And those have 
been designated by engineers. So you know what the problems 
are.
    You come from the communities, you come from the States. 
And the issue is not knowing what to do, the issue is how do we 
pay for it. Why hasn't Congress passed a transportation bill? 
Because we can't come to grips with the idea of how to pay for 
it.
    And I want to suggest to you today that you raise the gas 
tax, you put a big, bold plan out there, give it to the Ways 
and Means Committee, and ask them to raise the gas tax. I say 
10 cents a gallon. I know there is a plan out there for more. I 
heard President Trump one time in the Oval Office say 25 cents 
a gallon. Hooray, do it. And when you do it, index it to the 
cost of living. In 1993, if Congress had indexed the gas tax to 
the cost of living, we wouldn't have this debate. We would have 
the resources.
    But I say couple it with public-private partnerships. I say 
couple it with tolling. I say couple it with vehicles miles 
traveled, which I know the ranking member is very excited 
about. You can't fix America's problems with infrastructure 
with just tolling, with just VMTs, with just public-private 
partnerships. You have to create a big pot of money.
    We have the best interstate system in the world, and it was 
funded through the Highway Trust Fund. That fund is depleted, 
it is broke. And that is why America now looks like a third-
world country when it comes to infrastructure. So you got to 
come to grips with this.
    Now, I will tell you this. Fourteen States are this year 
considering an increase in the gas tax. Twenty-six States since 
2013 raised their gas tax, and not one politician got thrown 
out of office. Not one. They did it because they stopped 
waiting for Washington to act. And they needed money.
    And so you don't need to worry about the threat of some 
kind of a reverberation from your constituents if you raise the 
gas tax. For every $1 billion increase in Federal investment in 
transportation, 27,800 jobs are created. Think of this as a 
jobs bill. This money doesn't stay in Washington. Where does it 
go? It goes to your friends and neighbors, who engineer roads, 
who build roads, who work on the roads, who fix the roads up. 
The money goes back to your communities. It goes back to your 
States. This clearly is a jobs bill. This clearly will get 
America moving again.
    And it is just absolutely so critical. You put together a 
bold plan, give it to the Ways and Means Committee, raise the 
gas tax, couple it with VMTs, tolling, vehicle miles traveled, 
boom, America is back in the transportation business again. And 
we haven't been in it for a long, long time.
    Finally, let me say this. Safety is very important. One of 
the things we emphasized, and one of the things that Chairman 
Shuster emphasized when he was chair is safety. And Chairman 
Young did too, when he was chair. Our roads are not safe today. 
The death rate on roads today is up. Why? Because they are not 
safe.
    So make safety a part of whatever big, bold plan you put 
together. If you build new roads, if you reconstruct roads, 
safety has to be one of the top priorities. And I think that is 
something we emphasized while we were at DOT. It is emphasized 
in the States. And I think you send a good message if you 
emphasize it in whatever program you put together.
    Thank you for including me, Mr. Chairman. It is good to be 
back to the committee.
    [Mr. LaHood's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Ray LaHood, Cochair, Building America's 
      Future, Former Secretary, U.S. Department of Transportation
    Chairman DeFazio, Ranking Member Graves and members of the 
committee, thank you for the opportunity to testify before you on the 
importance of America's infrastructure and how the lack of investment 
is impacting the country's economic growth and quality of life.
    I appear before you today as a former U.S. Secretary of 
Transportation, a current cochair of Building America's Future (BAF) 
and a senior advisor at DLA Piper. BAF is a bipartisan organization 
cofounded by former Governors Ed Rendell and Arnold Schwarzenegger and 
former New York Mayor Mike Bloomberg. We represent a diverse coalition 
of State and local elected officials working to advance smart 
infrastructure investment to promote economic growth, global 
competitiveness and better quality of life for all Americans.
    We are two decades into the 21st century and America's 
infrastructure is falling apart and our Nation's economic 
competitiveness is falling behind. Decades of neglect and paltry 
investment has dropped the economic competitiveness of our 
transportation infrastructure to number nine in the world. In 2005 we 
were ranked number one. But the travails of our ailing infrastructure 
are not a recent development. It has gradually happened over time.
    In the 1930s, 4.2 percent of the Nation's GDP was spent on 
infrastructure investment. But by 2016 the number fell to 1.5 percent 
of GDP. When it comes to investment in transportation infrastructure 
the picture is even more dismal with the U.S. spending 0.6 percent of 
GDP--less than nearly all of the G7 nations according to the OECD. Of 
those nations, Australia has the highest investment rate at 1.4 percent 
of its GDP. Put another way, the Congressional Budget Office reports 
that U.S. public spending on infrastructure fell by 8 percent between 
2003 and 2017.
    We are here today to examine the impact of inaction due to lack of 
infrastructure investment. The consequences of inaction to Americans' 
daily lives may be slow to develop but the evidence shows the impacts 
are as real as they are costly.
    Our roads and bridges are struggling to accommodate the growing 
volume of traffic. The Bureau of Transportation Statistics shows that 
from 2000 to 2015, road infrastructure increased 5.2 percent while 
traffic volume increased 14 percent.
    Potholes abound on our streets and the cost to drivers is real when 
tires are blown out or a vehicle is knocked out of alignment. The 
disrepair of our roads costs the average driver $599 in extra vehicle 
repairs. But in some areas the costs are even higher with drivers in 
Jackson, MS, paying $944 and drivers in Cleveland paying $887.
    Americans are wasting more time and fuel sitting in traffic. Rising 
from 16 hours in 1982 to 42 hours in 2014 at a cost of $960 per driver. 
This will only get worse in the coming years as the number of miles 
driven by cars and trucks will continue to increase.
    The U.S. Travel Association reports that within the next 5 years, 
Labor Day-like traffic will plague our roadways on a daily basis. A 
survey conducted by the group showed that 38 percent of travelers would 
avoid between one and five trips per year if congestion continues to 
grow at its current pace. If travelers avoided just one auto trip per 
year, the impact to the U.S. economy would be $23 billion in lost 
spending that would directly support 208,000 jobs.
    Consumers increasingly expect same day deliveries which could 
become more difficult to achieve with rising traffic volumes. The 
Federal Highway Administration reports that 947,000 hours of vehicle 
delay can be attributed to delivery trucks double parked in dense urban 
areas. Trying to drive in any major city is almost like navigating an 
obstacle course with delivery trucks and other vehicles double parked 
on both sides of the street. Our city streets have almost become 
impassable.
    There has been much hype in recent years about driverless cars and 
how they may eventually replace car ownership for significant portions 
of the population. Attention is mostly focused on the new opportunities 
this can bring but this can only be possible if our transportation 
infrastructure is in a good state of repair. For AVs to be successful, 
roads must be properly marked and free of potholes. ITS technologies 
must be deployed so that vehicles can communicate with each other and 
their surrounding infrastructure. The investment in these key parts of 
infrastructure are sorely lacking.
    Almost 40 percent of our bridges were built over 50 years ago when 
traffic volumes were less. There over 54,000 structurally deficient 
bridges in the U.S. and if placed end to end, the length of them would 
stretch 1,216 miles or nearly the distance between Miami and New York 
City. While progress has been made in recent years reducing the number 
of structurally deficient bridges, that gives little comfort if you are 
one of the 174 million daily trips across one of the these bridges.
    It's not just our surface transportation network that is being 
challenged with lack of investment. It is our ports--both sea and air.
    The economy heavily relies upon ports and the network of 
infrastructure that serves the ports. Every day $6 billion worth of 
goods and materials move through America's ports and U.S. port 
activities generate $4.6 trillion in economic activity annually as well 
as support 23 millions jobs. However, the lack of infrastructure 
investment in America's ports could result in $4 trillion in potential 
GDP loss by 2025 and $575 billion in costs to businesses and households 
by 2025.
    With the expansion of the Panama Canal completed in 2016, it is 
forecasted that post-panamax vessels will comprise 62 percent of total 
container ship capacity by 2030. Yet only four east coast ports are 
dredged deep enough to accommodate this new reality. While Baltimore is 
one of those ports, it is struggling with its landside infrastructure 
and a nearly 125-year-old rail tunnel that is not tall enough to allow 
trains double-stacked with containers to pass through creating a cargo 
bottleneck and impacting the efficiency of the port.
    The Harbor Maintenance Trust Fund's purpose is to support harbor 
maintenance such as dredging by the Army Corps of Engineers. Since 
2003, the HMTF has collected more in revenue that it expends and has 
accumulated a roughly $9 billion surplus. Despite the need to address 
the backlog in port dredging projects, Congress has chosen to limit 
annual appropriations from the HMTF so that the Trust Fund can help to 
mask the Federal deficit. Without adequate investment, the American 
Association of Port Authorities estimates $14 billion in added costs of 
traded products due to shallow harbors by 2040. It is time to ensure 
that the HMTF's revenues are used for their intended purposes.
    When it comes to air travel, our skies are approaching gridlock and 
our World War II-era air traffic control system can't keep pace with 
the demand. According to the U.S. Travel Association, within the next 
decade, 25 of the Nation's top 30 airports will suffer the same level 
of congestion as the day before Thanksgiving at least 2 days each week. 
Last year, 1.7 billion passengers arrived at or departed from U.S. 
airports. This number will only grow in the coming years which means 
that unless it's addressed, the cost of congestion at our airports will 
rise from $24 billion in 2012 to $63 billion by 2040.
    The passenger experience at airports can vary widely as some 
airports have been able to better modernize their facilities and expand 
their capacity but others are struggling to keep up. The Airports 
Council International--North America has estimated that the total 
capital development needs of U.S. airports are nearly $130 billion 
through 2023. This is a 28-percent increase over the 2017 estimate and 
a 70-percent increase in 4 years. The American Society of Civil 
Engineers reports that by 2020, unmet airport needs would result in 
cumulative losses from our economy of $54 billion in export value and 
$580 billion in overall business sales. With the Passenger Facility 
Charge having remained capped for nearly 20 years, its purchasing power 
has decreased by 50 percent. It's time to modernize this important 
financing tool.
    While Washington remains mired in dysfunction, State and local 
officials have stepped up and made the hard choices by proposing 
legislation to increase the fuel tax, replacing the gas tax with a 
sales tax on fuels, or ballot initiatives seeking to raise revenue. 
Since 2013, 26 States have increased their gas taxes. This has occurred 
in red, blue and purple States. The electoral impacts of these actions 
were minimal as a vast majority of them have won their reelection 
races. According to ARTBA, voters in 12 States reelected 93 percent of 
the 530 State lawmakers who supported a gas tax increase between 2015 
and 2018 and ran for reelection in 2018.
    However, when it comes to the gas tax, it is clear that as a long-
term solution, it is not a sustainable source of revenue and other 
options must be further explored and tested. A number of States--most 
notably Oregon, California, Colorado and Washington--have moved forward 
with pilot programs to test the feasibility of replacing the gas tax 
with a charge based on the mileage. The FAST Act included a $95 million 
program that has also provided grants to other States examining this 
concept. If it has not been already, legislation will soon be 
reintroduced to increase the gas tax and then transition to mileage-
based system.
    The success rate for ballot initiatives seeking to raise revenue 
for transportation from 2009 to 2018 is 78 percent. This tracks well 
with the 79-percent success rate of such initiatives during 2018. A 
critical reason for the high success rate is that voters were clearly 
informed about which projects would be built should the ballot 
initiative be approved.
    Addressing our infrastructure challenges can seem daunting. But it 
is not impossible. It will take all of us working together--Republicans 
with Democrats, the House with the Senate, and both ends of 
Pennsylvania Avenue. It will take a commitment of funding from all 
levels of Government and the private sector.
    Americans have grown impatient waiting for our Nation's 
policymakers to stop the bickering and address the challenges facing 
our Nation. A majority of voters--68 percent--say that infrastructure 
investment was an important factor in deciding who to vote for in the 
2018 midterm elections.
    According to the American Society of Civil Engineers, the continued 
failure to act will result in American families losing $3,400 in 
disposable income each year--or $9 each day--due to our infrastructure 
inadequacies. Further, the cost to our economy will be the loss of $4 
trillion in GDP and 2.5 million jobs in 2025. The cost of inaction is 
simply unacceptable.
    Let's go big and bold. Building America's Future calls on Congress 
and the Trump administration to put forth and approve a robust and 
comprehensive infrastructure package that includes sustainable funding 
to get America's infrastructure back to that number-one ranking. This 
package should be bipartisan and something that can receive support in 
the Senate and the White House. A great place to start is to find a 
sustainable solution for the Highway Trust Fund, Modernize the 
Passenger Facility Charge and address the limitations on the Harbor 
Maintenance Trust Fund.
    It's time. The future can't wait--it's time to build.
    Thank you, Mr. Chairman. I look forward to answering the 
committee's questions.

    Mr. DeFazio. Thank you, Mr. Secretary. I appreciate your 
remarks.
    In fact, I will begin my questions and I am going to--
everyone will get 5 minutes. And I recognize myself, and I will 
stick to the 5 minutes. You run the clock, please. I am not 
taking that prerogative, because a lot of people want to ask 
questions.
    With the first to Governor Walz, on just--can we just go 
back one more time? Because I am trying to overcome inertia 
around here.
    You actually campaigned for Governor advocating an increase 
in the gas tax?
    Mr. Walz. That is correct, Mr. Chairman. And my thinking 
was on this is if you are going to propose and tell people, 
they know what is aging, they know what needs to be done. They 
are stuck, and we have the data on congestion in the Twin 
Cities. We understand about--especially down to our township 
bridges--in a very rural State, as I said, we have the fifth 
highest amount of road miles of any place in the country--that 
we had to do that.
    And I thought it was disingenuous not to do that, so I ran 
on this. And, ironically enough--well, I guess maybe not 
ironically enough. Pretty predictably enough--the irony came in 
this--the attack ads running against me were that I was going 
to raise the gas tax. My numbers went up as those ads were 
running, because the public was saying, ``Do something. Come up 
with a plan.''
    And I think the ranking member said it, you said it, Mr. 
Chairman. You heard the mayor and the Secretary say it. We are 
open for anything that is out there. But this stumbling along 
time to time makes planning impossible.
    And I don't care what you call it, we are seeing changes in 
storms, flooding, intense cold that is adding to the cost of 
the maintenance of these roads and the building of it, at the 
same time we are trying to figure out--and the States--again, I 
ask you, give us the flexibility to innovate as we move towards 
renewables and plug-in vehicles.
    But there is no--nobody out there is thinking that we can 
do this without investing. And nobody has put a plan forward 
who said, ``Well, there is plenty of money out there, you are 
just spending it in the wrong place.'' That is fundamentally 
untrue, especially in the States. And the Governor's budgets 
will reflect that.
    Mr. DeFazio. Thank you, Tim.
    Mayor, you mentioned a number of tragic and difficult 
instances with transit. This is a point I would just like to 
emphasize because, with a $106 billion backlog to bring 
existing transit up to a state of good repair, let alone the 
new transit you are building in L.A., I think this is critical. 
Because if things break down, people can't be at work at times, 
their lives are actually endangered, they are not using it.
    Mr. Garcetti. Absolutely, Mr. Chair. And I think lots of 
times people think about cities as places they don't represent. 
When, in reality, we know, for instance, in Long Beach, Mr. 
Lowenthal's district, and Los Angeles, 43 percent of the goods 
that come into America to every single one of your districts 
comes through those ports. Same thing with making sure that New 
York functions and Boston functions and that the Washington 
area functions.
    When Washington's Metro system was breaking down, 
Accelerated for America came in, helped the three jurisdictions 
of Virginia, Maryland, and the District get something done. But 
it is a tougher thing to go to voters later and say, ``Hey, we 
want you to raise taxes'' to maintain something. We expect we 
should have already been doing that. And that is why it is so 
critical the Federal Government be that place that we can also 
come to and partner with.
    We have stepped up. We are not coming here with empty hats 
in hand. They are at least half filled. We are asking you to 
fill it up to the top.
    Mr. DeFazio. All right. And Secretary LaHood, you were very 
impassioned about the need for additional funding. I appreciate 
that.
    But you made the point about all the people who--all the 
local jurisdictions and States have raised it, and have pending 
raises. So does the Fed really need to do anything, if all 
those States are doing it? Can't they just do it on their own?
    Mr. LaHood. Well, of course not. And the idea that the 
Federal Government is going to get out of the business of 
building roads and bridges goes against the issue that I raised 
about safety. We have to have high--good safety standards.
    And we also have to have a commitment--when people go to 
Europe and ride the trains, they come back scratching their 
head. Why don't we have this in America? Because the Federal--
Europe invested in trains. What did we do?
    Eisenhower had a vision. Connect America. And what 
happened? He signed the interstate bill. Fifty years later we 
have the best interstate system in the world because the 
Federal Government made the investment. Let's don't let that 
deteriorate to the point where--and the States don't have any 
money. I am--my home State is Illinois. We are broke. We are 
broke. And a lot of States are struggling. And then 
infrastructure just takes a much lower level.
    We set the standard here in Washington, and we set the 
standard for safety, and we set the standard for funding. Let's 
get back into that business again.
    Mr. DeFazio. OK, Mr. Secretary, my time has expired. I 
yield to Ranking Member Graves.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. And I want 
to welcome all the panelists here. Mayor, thanks for being 
here. My two former colleagues--Governor Walz, Tim, 
congratulations. It is good to have you here. And really, my 
question is for another one of my former colleagues, Secretary 
LaHood.
    I very much appreciated the opportunity yesterday to catch 
up with you and our mutual friend, Tom Oakley. And I would like 
to take just a minute to acknowledge Tom Oakley's work on 
infrastructure matters over the years, as you are well aware, 
including as the leader of the Tri-State Development Summit. A 
lot of what we are discussing today stems from those 
conversations, Tom. You and I have worked together and I have 
always appreciated your counsel. And thank you for being here 
today.
    With that, Mr. Secretary, just a real quick question. Given 
the fact that you have sat both in the House and as Secretary 
of Transportation, I would just ask what advice you would have 
for us when it comes to reaching a bipartisan agreement that 
the House can agree on, the Senate can agree on, and the 
President will sign.
    Mr. LaHood. I think try and get--try and really get a 
message. Try and get a signal from the White House, what they 
would be agreeable to.
    Mr. Ranking Member, I would say this. You can have all the 
big, bold plans you want. But if you don't have the White House 
on board--because I think this. I think the House has the 
ability to pass a big, bold plan. I think the Ways and Means 
Committee will try and find the money for you. But if President 
Trump is not with you on this, then it is going to be very 
difficult to pass in the Senate. If he is with you, you pass 
the bill, Ways and Means comes up with the money, President 
Trump is on board. I believe he will help sell it in the 
Senate. And if that happens, boom, America is back in the 
business of building roads and bridges. So I think you need a 
good signal from the White House.
    And I think the relationship that you and the chairman have 
is extraordinary. What a way to start off the year. And you 
know, I don't think it is just talk. I think the two of you 
have a good relationship. If you two continue to talk to one 
another, and he incorporates--I know you are very big on 
vehicle miles traveled. And I think it is a good program. And I 
think Peter is willing to listen to you on that. If the two of 
you continue to talk, get a signal from the White House, boom. 
I think something is going to happen.
    But we have a very short window here. This is it. If it 
doesn't happen this year, folks, it is not going to happen 
until another Presidential campaign takes place.
    Mr. Graves of Missouri. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I think we are going to move on. But first I 
am going to ask unanimous consent--there was a letter received 
yesterday addressed to Senator McConnell, Senator Schumer, 
Representative Pelosi, and Representative McCarthy from 150 
groups talking about the urgency for the need of the Federal 
Government to enhance investment in infrastructure. And it is 
quite a diverse grouping of associations, and obviously 
includes labor and others.
    Without objection, that will be part of the record.
    [The letter follows:]

                                 <F-dash>
   Letter from ACI-NA et al. Submitted for the Record by Mr. DeFazio
                                                  February 6, 2019.
Hon. Mitch McConnell
Majority Leader, U.S. Senate
Hon. Charles Schumer
Minority Leader, U.S. Senate
Hon. Nancy Pelosi
Speaker, U.S. House of Representatives
Hon. Kevin McCarthy
Minority Leader, U.S. House of Representatives
    Dear Majority Leader McConnell, Speaker Pelosi, and Minority 
Leaders Schumer and McCarthy:
    We are a broad coalition of associations and organizations working 
with all levels of government to address our nation's long-standing 
infrastructure deficit. As this challenge persists and worsens, we 
encourage you to develop and advance a bipartisan infrastructure 
investment package that will improve the safety, reliability and 
efficiency of our nation's infrastructure.
    Substantial and long-term investments in all kinds of 
infrastructure are needed to expand our economy, grow jobs and compete 
globally. We appreciate strong bipartisan support for various 
infrastructure initiatives over the years--including in the past 
Congress--and hope this momentum can lead to a more substantial 
commitment this year to meet the growing needs of our economy.
    During this period of divided government, we urge Republicans and 
Democrats to unite to develop and pass a bipartisan infrastructure bill 
that addresses these key priorities:
    <bullet>  Significantly increases direct federal investments in a 
broad range of infrastructure sectors,
    <bullet>  Fixes chronic challenges and addresses reoccurring 
shortages in key federal infrastructure accounts such as the Highway 
Trust Fund,
    <bullet>  Complements and strengthens existing tools, such as 
municipal bonds, that successfully deliver infrastructure investments 
at the federal, state and local levels,
    <bullet>  Facilitates opportunities for private investment in U.S. 
infrastructure,
    <bullet>  Creates efficiencies such as accelerating the federal 
permitting process, while continuing to provide environmental 
protections, and;
    <bullet>  Encourages active participation among all levels of 
government and between public and private sectors without shifting 
federal responsibilities because no single partner can deliver a well-
functioning, national U.S. infrastructure network driven by a long-term 
vision and funding stability.
    The time is now to pass a bipartisan, comprehensive package that 
transforms U.S. infrastructure systems beyond the status quo and 
maintains U.S. competitiveness in a 21st century economy. We urge you 
to work across the aisle to develop a proposal that ensures U.S. 
infrastructure is second to none.
        Sincerely,
                    ACI-NA
                    Aerospace Industries Association
                    Air-Conditioning, Heating, and Refrigeration 
                            Institute
                    Aluminum Association
                    American Apparel & Footwear Association
                    American Association of Port Authorities
                    American Association of State Highway and 
                            Transportation Officials
                    American Petroleum Institute
                    American Bakers Association
                    American Beverage Association
                    American Coatings Association, Inc.
                    American Coke and Coal Chemicals Institute
                    American Composites Manufacturers Association
                    American Concrete Pavement Association
                    American Concrete Pipe Association
                    American Council of Engineering Companies
                    American Farm Bureau Federation
                    American Forest & Paper Association
                    American Foundry Society
                    American Frozen Food Institute
                    American Gas Association
                    American Highway Users Alliance
                    American Home Furnishings Alliance
                    American Institute of Architects
                    American Investment Council
                    American Iron and Steel Institute
                    American Planning Association
                    American Public Power Association
                    American Public Transportation Association
                    American Public Works Association (APWA)
                    American Road & Transportation Builders Association
                    American Society of Civil Engineers
                    American Soybean Association
                    American Supply Association
                    American Traffic Safety Services Association
                    American Wind Energy Association
                    American Wire Producers Association
                    American Wood Council
                    AMT-The Association For Manufacturing Technology
                    Asphalt Roofing Manufacturers Association
                    Associated Equipment Distributors
                    Associated General Contractors of America
                    Association for the Improvement of American 
                            Infrastructure (AIAI)
                    Association of Equipment Manufacturers
                    Association of Metropolitan Planning Organizations
                    Bakery Equipment Manufacturers & Allieds (BEMA)
                    Bond Dealers of America
                    BPC Action
                    Brick Industry Association
                    Building America's Future
                    Coalition for America's Gateways & Trade Corridors
                    Common Good
                    Composite Panel Association
                    Concrete Reinforcing Steel Institute
                    Construction Management Association of America
                    Copper & Brass Fabricators Council
                    Council on Federal Procurement of Architectural and 
                            Engineering Services (COFPAES)
                    Fabricators and Manufacturers Association, 
                            International
                    Geosynthetic Materials Association
                    Global Cold Chain Alliance
                    Government Finance Officers Association
                    Hydraulic Institute
                    INDA, The Association of the Nonwoven Fabrics 
                            Industry
                    Independent Lubricant Manufacturers Association
                    Industrial Fasteners Institute
                    Industrial Minerals Association-North America
                    Institute of Makers of Explosives
                    Institute of Scrap Recycling Industries, Inc.
                    Interlocking Concrete Pavement Institute
                    International Association of Fire Chiefs
                    International Association of Plastics Distribution
                    International Bottled Water Association
                    International Bridge, Tunnel and Turnpike 
                            Association (IBTTA)
                    International Housewares Association
                    International Union of Operating Engineers
                    Irrigation Association
                    Juvenile Products Manufacturers Association
                    Laborers Int. Union of North America (LIUNA)
                    League of American Bicyclists
                    Metal Powder Industries Federation (MPIF)
                    Metal Treating Institute
                    Metals Service Center Institute
                    National Association of Bond Lawyers
                    National Association of Clean Water Agencies 
                            (NACWA)
                    National Association of Counties
                    National Association of County Engineers
                    National Association of Manufacturers
                    National Association of Regional Councils
                    National Association of Trailer Manufacturers
                    National Association of Wholesaler-Distributors
                    National Concrete Masonry Association
                    National Corn Growers Association
                    National Electrical Contractors Association
                    National Grain and Feed Association
                    National Ground Water Association
                    National Hispanic Construction Association (NHCA)
                    National League of Cities
                    National Lime Association
                    National Lumber and Building Material Dealers 
                            Association
                    National Marine Manufacturers Association
                    National Mining Association
                    National Oilseed Processors Association
                    National Precast Concrete Association
                    National Railroad Construction & Maintenance 
                            Association (NRC)
                    National Ready Mixed Concrete Association (NRMCA)
                    National Retail Federation
                    National Society of Professional Surveyors
                    National Stone, Sand & Gravel Association
                    National Tank Truck Carriers, Inc.
                    National Utility Contractors Association
                    National Waste & Recycling Association
                    National Wooden Pallet and Container Association
                    Non-Ferrous Founders' Society
                    North American Association of Food Equipment 
                            Manufacturers (NAFEM)
                    North America's Building Trades Unions
                    Outdoor Power Equipment Institute
                    Plastic Pipe and Fittings Association
                    Plastics Industry Association
                    Plastics Pipe Institute
                    Plumbing Manufacturers International
                    Portland Cement Association
                    Power Transmission Distributors Association
                    Precast/Prestressed Concrete Institute
                    Rail Passengers Association
                    Railway Engineering-Maintenance Suppliers 
                            Association (REMSA)
                    Railway Supply Institute
                    Railway Tie Association
                    Resilient Floor Covering Institute
                    Retail Industry Leaders Association (RILA)
                    RV Industry Association
                    Security Industry Association
                    Security Industry/Financial Market Association 
                            (SIFMA)
                    Steel Manufacturers Association
                    STI/SPFA (Steel Tank Institute/Steel Plate 
                            Fabricators Association)
                    The Adhesive and Sealant Council
                    The Design-Build Institute of America
                    The Fertilizer Institute
                    The Linen, Uniform, and Facility Services 
                            Association (TRSA)
                    The United States Conference of Mayors
                    Travel Goods Association (TGA)
                    Treated Wood Council
                    U.S. Tire Manufacturers Association
                    U.S. Travel Association
                    US Water Alliance
                    Valve Manufacturers Association
                    Vinyl Institute
                    Water Infrastructure Network (WIN)
                    Waterways Council, Inc.
                    Wood Machinery Manufacturers of America

    Mr. DeFazio. And at this point we are--Ms. Norton is 
recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. And I think you have 
made the theme of this hearing exactly how we need to open this 
session of our committee.
    The theme of my questions really goes to the elephant in 
the room, the one that has been discussed by all of you, to one 
extent or the other, and that is the failure since 1993 to 
raise the gas tax.
    At the end of this session, when even at this opening 
hearing we have laid out what amounts to an emergency and needs 
for infrastructure, at the end of this session, if we haven't 
gotten over this hurdle, we will simply be repeating ourselves 
yet again.
    Look, the cost of gas has gone down for the American people 
when they go to the pump.
    I guess I am going to ask you, Mr. LaHood, because you 
focused on how you think the time has come. What makes you 
believe that if--the only people I know that don't get--believe 
the time has come sit in this Congress. What makes you believe 
that Americans are so ready for an increase at the pump that we 
could convince Members of this Congress to increase the gas 
tax? What is there about the American people, which must be who 
they are afraid of?
    Mr. LaHood. Thank you, Ms. Norton. I think because we just 
had an election, and it looks to me like everybody that ran for 
election, particularly a lot of the new Members, ran on fixing 
infrastructure. And the Governor just said he ran on it, had 
ads run against him on it, and he still won. He told me back 
when we were sitting back in the anteroom there that as they 
ran more ads against him, his poll numbers went up. You know 
why? Because people are sick and tired of lousy roads, unsafe 
bridges, and they want more.
    Ms. Norton. Well, actually, I am going to ask both 
Governors to comment on this.
    Now, of course, Mr. Garcetti has recent experience, because 
apparently there was a proposition to keep you from raising the 
gas tax. And I would like both of you to describe how you were 
able to overcome that so Members who sit here, where the gas 
tax has to be raised, would understand there is nothing to be 
afraid of.
    Mr. Garcetti. Well, there really is nothing. Voters in 
California rejected it by almost 60 percent, just under 60 
percent, a rolling back of what the legislature had done.
    As I mentioned, in the city of L.A. we passed--it is a full 
cent sales tax that was--I am not suggesting at the national 
level----
    Ms. Norton. Well, what were the salient--for both of you, 
what were the salient arguments used against it that had to be 
overcome?
    Mr. Garcetti. Sure. I will let the Governor continue, but 
we made it about human beings. People know how long they wait 
to see their kids, and whether they can tuck them into bed. 
They know they have to draw a line in my city around the radius 
that they think they can go on a date, so their dating pool 
either contracts or expands, based on the traffic. They know 
that the jobs they can consider are based on the commute that 
they have. They know this in human terms, and we always said 
that.
    And secondly, we said it about the jobs. I loved what 
Secretary LaHood said: This is a jobs program. Here, let me 
restate the numbers: 787,000 jobs in one American county, 
787,000 middle-class jobs. And these are not just one-off jobs 
for a couple years. This is a career, now, that we are aligning 
our community colleges with, that we are training people for. 
You don't need a degree. They might have put bombers together 
on the assembly lines in South L.A. in the past to win World 
War II after the Cold War was over. Now they are able to put 
together trains on those assembly lines, dig those tunnels, do 
things that give them a pension and a decent quality of life.
    So--and a note of personal privilege here. My grand-nephew 
is going to be at my house, Meredith's son, in about 2 days. So 
much love from him, as well.
    Ms. Norton. Yes. And Governor Walz?
    Mr. Walz. Yes?
    Ms. Norton. You too seemed to have run on raising the gas 
tax. I am interested in you Governors who run on raising the 
gas tax, get elected, and the message doesn't get here to the 
Members here in the Congress of the United States.
    Mr. Walz. Voters are smart. And to be clear about this, 
people are not begging you to raise their taxes, but the way I 
framed it was what is your alternative? It is not as if not 
raising their taxes gives them extra money in their pocket, 
because they know they are spending it anyway. And they look 
out and see a crumbling infrastructure. And my frame was--is--
and I am open to this--what is another alternative?
    And I want to be clear. As we move to electrification, as 
CAF standards go up, the gas tax doesn't hold as big a punch.
    I also want to be clear--is we are trying to adjust for it 
in working family tax credit, because it is regressive to 
families. So that is a part of this conversation.
    But the--I think, listening to the Secretary tell you this, 
the country--you know this, you just ran--the country is ready 
for that bold take. It is not the gas tax alone. But I will 
tell you, as a Governor, the gas tax is a reliable funding 
stream that allows us to plan and get things done. But all of 
your other bold ideas of moving out, we should be thinking 
about them.
    Ms. Norton. Thank you very much.
    Mr. DeFazio. Thank you. The gentlelady's time is expired.
    Representative Gibbs?
    Well, that is--I don't know, Don. They give me--I don't 
know why they gave me that. What happened to Don?
    [Laughter.]
    Mr. DeFazio. Sorry, Don, they just didn't notice you. You 
have only been here for 45 years.
    [Laughter.]
    Mr. DeFazio. Sorry. I would go to the Dean of the House of 
Representatives, the esteemed and good-natured Don Young from 
Alaska.
    [Laughter.]
    Mr. Young. Thank you, Mr. Chairman. And it is indeed a 
pleasure. This is one of the bright spots of this Congress, is 
this committee. As you know, I was chairman of this committee, 
and what I am hearing is what we heard when I was chairman. We 
did a little better. We did get--George Bush offered $216 
billion.
    I wanted to raise the tax 5 cents on the gas and index it. 
Gas was $1.39 then, and I got shot down by the President and, 
very frankly, by our leadership. But I got $285 billion for the 
system. If they had done what I wanted to do at that time, we 
would never have had a recession, we would have infrastructure 
in place because we would have indexed it. An 18.5-cent buying 
power in 1992 or 1993 is now 8 cents. So that is our big 
challenge.
    And this Congress has to rise to that occasion. And I 
happen to agree with the Governor--welcome back--that the 
public will pay for it if they know it is going into highways 
and transportation. Let's face it, we want to move products and 
people efficiently, and make us not a nation that has come to a 
grinding halt. So I know this committee can do it, I expect to 
work with you, Mr. Chairman.
    There is a dispute about the gas tax. I am a big supporter 
of the gas tax, but I am also a supporter of a mileage fee 
because we are successful. We have got about 3 million electric 
cars on the highway today not paying their share. And I think 
they ought to pay their share. That could be the mileage fee. 
Combine them all. And when people get into, like you said, the 
private-public partnership, fine. But this is the best 
committee to actually have a good, sound piece of realistic 
legislation, Mr. Chairman. And with the ranking member I am 
confident we can do it.
    So it is not--this has never been a partisan committee, and 
I hope it doesn't start now. I want us to understand this is an 
issue for America, and we can solve that issue together, as 
one. That is my goal, to work with you and with the ranking 
member and other Members to try to achieve that goal to make 
sure we leave the legacy behind.
    I had--the TEALU was a good bill, did a lot of work. It 
just didn't go far enough because they wouldn't let me raise 
the tax 5 cents. I am glad you say 10 cents. I might go 15 
cents, just as long as it goes into the highways.
    And I want to thank the panel. You did well. And I am here 
to work, buddy. And I will do it.
    [Applause.]
    Mr. Young. All right. Thank you very much. I yield back.
    Mr. DeFazio. All those years, and he has still got it.
    I will say that the list we got was passed over from the 
Republican side. We can perhaps do handwriting analysis and 
find out who wrote it and why you were omitted.
    Mr. Young. Don't worry about it. It just is--that was a--I 
know why it happened, it won't happen again. Thank you very 
much.
    [Laughter.]
    Mr. DeFazio. With that, I would recognize the gentlelady 
from Texas, Eddie Bernice Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
And let me say good morning and thank you to all of the 
witnesses that have come.
    I have been perplexed and frustrated that we have not been 
able to get the money we need for the infrastructure throughout 
the Nation. And I have heard conversation about public-private 
partnerships.
    Now, I am from a city in Dallas that--we have a lot of 
public and private partnerships, but not for highways and water 
systems and all of the other public uses. And yet I keep 
hearing about some type of private investment. What is the 
likelihood--we have been talking about this, but I haven't seen 
anything structurally done in legislation. What do you feel is 
the likelihood that we will have private dollars going into the 
infrastructure, crumbling infrastructure throughout this 
Nation, or crumbling water systems for drinking water?
    All of you.
    Mr. Garcetti. Sure, I will start with that. Thank you very 
much, Madam Representative. P3s, let's be clear what they do 
and what they don't do, and how you should and shouldn't do 
them. At their best, they do leverage dollars that come in, 
accelerate, and can sometimes cheapen the cost of 
infrastructure, but usually in transportation. You asked about 
water, and I think America's cities are very clear that there 
is very little capital for water projects from the P3s. So 
let's not expect that to step up.
    Second, I say with P3s there is D4: Don't Do Dumb Deals. 
And we have seen a lot of them. We have seen folks who have, in 
Chicago, leveraged their future parking meters, and they have 
to raise parking rates, and people taking baseball bats to 
those parking meters because they have to meet Wall Street's 
expectations for a deal that the last administration did before 
a new mayor came in. We have seen toll roads that are highly 
unpopular.
    But where we put things forward, we have--the director of 
our L.A. Metro system, a man named Phil Washington, used to run 
Denver's program. That train that now takes folks from downtown 
Denver to the airport was a P3, one of the first successful 
ones in the country that lessened by about 25 percent the 
amount of time, and reduced the cost in about half of that 
system getting built.
    As we look at 15 rapid transit lines getting ready for the 
2028 Olympics coming to Los Angeles, we are seeing a lot of 
interest and a lot of people willing to put capital, while we 
retain the ownership of what that asset will be.
    When it comes to water, though, this is something that the 
Government is going to have to step up and do, because there 
simply isn't the marketplace to make water clean in America's 
cities to do stormwater, et cetera. So P3s are primarily in 
transportation, and not in the water space.
    Ms. Johnson of Texas. Thank you.
    Mr. LaHood. Let me--there is a lot of money that is waiting 
to be invested in public-private partnerships. The classic 
public-private partnership that has been very successful here 
in Washington, DC, is the finishing of the Metro system, the 
silver line, which will deliver people from downtown Washington 
along a corridor into northern Virginia to Dulles Airport. It 
is a classic public-private partnership. While I was at DOT we 
put some money in, but there is a lot of private investment in 
that. And it is very successful.
    Almost all of them are successful. There are a lot of 
investors waiting for a signal for projects that they can 
invest in. And they are primarily transit projects, and they 
are primarily projects that don't involve highways, although 
some have. The mayor mentioned some toll roads. Some have 
worked and some haven't.
    But the truth is there is a lot of money waiting to be 
invested. What the investors want is a signal from Congress 
that you are serious about infrastructure, that you are going 
to put your share in, that there is going to be a big, bold 
plan that they can then begin to invest in.
    The tunnels between New York and New Jersey, that can turn 
out to be a fabulous model for public-private partnership, but 
it has got to have the investment of the national Government. 
This is a national project. It is not just for New York and New 
Jersey.
    And you know, the truth is there is a lot of money, and the 
investors are waiting for Congress.
    Mr. Walz. I would echo the sentiments that were said. And I 
especially appreciate the mayor talking about the State 
revolving fund on these--water infrastructure. This is a huge 
bill that is coming due. The States need to be there.
    Again, our State prides itself on a very high credit 
rating, fiscal stability. Investors, as the Secretary said, are 
waiting for that. But I can't tell you again I--this is my 
shameless plug to all of you. Let's don't get into a shutdown 
situation, because the crisis gets so tight on the States--and 
I am going to make the case on this--especially in 
infrastructure.
    In our indigenous--we have 11 sovereign nations of 
indigenous people in our State. That pain was really real, and 
it went right--they were laying off people on infrastructure 
projects right and left.
    So there are possibilities here, but it is that no one is 
going to invest unless they see the stability. But I think 
water is the future for us, certainly, as some of these P3s.
    Ms. Johnson of Texas. Thank you very--expired?
    Mr. DeFazio. Oops, pushed the wrong button. It said 
private. OK, I am not used to this side.
    Now, we would turn to the esteemed Representative Gibbs, in 
proper order.
    Mr. Gibbs. Thank you, Mr. Chairman. And I can feel your 
pain, because my first year in Congress I was a subcommittee 
chair on this committee, and I inadvertently overpassed the 
chairman--the distinguished chairman emeritus, and never--it 
will never happen again.
    [Laughter.]
    Mr. Gibbs. He is right about that.
    Congratulations, Governor Walz. It was a pleasure working 
with you. I think we were both on the Committee on Agriculture 
and the Committee on Transportation and Infrastructure 
together. I appreciate that.
    You know, we do have a big issue here, we all know that and 
you see that. And I just want to emphasize a little bit more a 
year from this September, September 2020, the FAST Act, the 
current highway bill, runs out of funding. During a 
Presidential year that would be an interesting discourse, I 
think.
    But there is no doubt, you know, that the gas tax, the gas 
user fee has been declining because cars are more efficient and 
less cars don't run on that. And I do believe, whatever we do 
short term, that is probably the best option. But I think we 
have to somehow couple something else, because we have too many 
vehicles not paying their share, then. So it is an inequity. It 
is a fairness issue.
    And another thing I was just thinking here, sitting here, 
we are talking about public-private partnerships, and we talk 
about other infrastructure, water. You know, these things I 
have talked about in the past, there is lots of things we can 
do. And I know in highways we always say that might be a tough 
thing, but I got thinking about this. Technology, the 
Government, we are so far--we are light years behind the 
private sector when it comes to technology.
    You know, I see what is going on in some--Amazon and some 
of these companies, the retail sector, what they are doing, 
where you can go in and check out of a store without even 
checking in, essentially. You know, we probably ought to be 
building partnerships, Mr. Chairman, with some in the private 
sector, where the technology is, when we move forward.
    But I guess a question is--I guess the--Governor Walz, 
since he is representing the National Governors Association, if 
we move forward with a VMT or whatever that program is, a pilot 
program maybe on the commercial vehicles first, and move 
forward, what do you see the States doing? Do you see some 
States moving forward now? Or do you see States--if the Federal 
Government moves forward, what are the States going to do?
    Because, you know, we have the one system, they collect 
money through the same system we do, Federal and State. And so 
can you maybe give us your thoughts about what would happen?
    Mr. Walz. No, thank you, Mr. Gibbs. Well, again, I--what 
the States are asking for, too, in the National Governors 
Association--give us the flexibility and give us the ability to 
innovate. States are looking at this. We are looking at ways to 
do that. We are going to build out our recharging stations and 
our electrification systems, but we understand that, too, that 
you got a lot of folks on the road that should be paying their 
fair share. And I think States are willing to innovate with it.
    The thing is, if you do it and you go big, it sends such a 
strong signal. It lets us move forward. It gives us the 
capacity to do it. Because the States are going to innovate. We 
are going to invest. But I think, like Secretary LaHood said, 
is the bulk of our funding, a big chunk of it--because these 
are still federally funded--that federally funded, State-
administered attitude worked really well, and States are 
stepping up.
    So I do see them doing that. We would really like you to 
leave us that room to innovate, but send some signals that the 
help is going to be there, there is some consistency there, and 
that we can plan on the future of it being there.
    Mr. Gibbs. OK. Mr. LaHood, did you want to comment on what 
you see? Because you are representing the--cochair of--Building 
America's Future. Do you see that the best option is to address 
the gas user fee, and then, at the same time, put something in 
motion moving forward? Because I think, long term, you know, 
that has to go away at some point.
    Mr. LaHood. I think it has to be a package of many 
different alternatives: tolling, VMTs.
    Expanding VMTs, there are some pilot programs going on now, 
and I think they have been successful. The thing about VMTs, 
you are going to have to put some language in the bill, and 
hopefully that language will incorporate that you are going 
to--be a lot of cooperation with the States, who are going to 
have to implement this, and collect whatever fees are going to 
be collected from the VMTs. So that is going to require some 
significant language to make that happen.
    And looking at the pilot programs, and then public-private 
partnership, it needs to be a combination. But without a big 
pot of money, with the Highway Trust Fund going broke, there is 
no confidence that the Federal Government is going to uphold 
its responsibility to take care of the interstate system and to 
fix 60,000 structurally deficient bridges.
    Mr. Gibbs. Yes. Thank you.
    I yield back, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman. With that we turn to 
Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair.
    To Mayor Garcetti, there was a list of infrastructure 
needs, and I am talking about water. Americans rank 
infrastructure as the most important investment, since water is 
part of a great need that we have.
    What does investment in water infrastructure for the city 
of Los Angeles and for the Nation--what does it mean, investing 
more in a--looking out, trying to build up the infrastructure 
that has long been decaying, and be able to help small 
communities deal with--especially State revolving fund?
    Mr. Garcetti. It was interesting. When we did the poll that 
we shared with you--and I am happy to share the whole poll with 
the committee, we can submit that.
    Mrs. Napolitano. For the record?
    Mr. Garcetti. When it was put forward and people said, 
``What in infrastructure do you want Congress to work on 
first?'' the thing that, by far, was number one was clean 
water.
    Mrs. Napolitano. Yes.
    Mr. Garcetti. People get this at a visceral level, even 
deeper than a pothole that they drive over. They really get it.
    In the city of Los Angeles, we passed the stormwater bond 
that was the largest in the country about a decade ago that I 
authored, and we just passed in the county the largest one, as 
well. So again, we are coming having done work--States have 
done that, too--but we have mandates that literally can take so 
much out of our general fund that they can bankrupt cities and 
States today without any help and any money from the Federal 
Government.
    We have been looking at the Los Angeles River. You have 
been a great help to that. The Army Corps of Engineers, we have 
authorization for $375 million, but no plan really to ever have 
that money allocated right now. So we are stepping up spending, 
literally, hundreds of millions of our own dollars to do the 
work, hoping that the Federal Government will be there.
    But that--everybody knows that whiskey is for drinking and 
water is for fighting out in California. We have all sorts of 
controversy around water. We have plenty of water. We need help 
to reengineer water, to recycle----
    Mrs. Napolitano. Recycle.
    Mr. Garcetti [continuing]. To reuse. And that is what we 
are going to do to capture that water when it is there, to put 
it back into the ground, to reinfiltrate it, and to use less of 
that.
    But, you know, the Federal Government stepping up to do 
that would be immensely helpful to us.
    Mrs. Napolitano. Well, and that leads to the State 
revolving fund, which hasn't been reauthorized for 32 years. 
Unfortunately, our communities, we are almost--the full cost of 
cleaning the water.
    Mr. Garcetti. Yes.
    Mrs. Napolitano. How important is it to the communities 
that SRF be reauthorized? And what more can Congress do to 
assist?
    Mr. Garcetti. Without that reauthorization, we will not 
have clean water in America. You will have certain cities that 
can step up and do part of that, like in cities like Los 
Angeles. But there--it isn't just Flint. We have hundreds of 
American communities that have contaminated water in America in 
2019.
    Mrs. Napolitano. Well, and now that one of our partners 
here mentioned the three Ps, public-private partnership----
    Mr. Garcetti. Yes.
    Mrs. Napolitano [continuing]. Why is water not being 
included?
    Mr. Garcetti. There is really no revenue stream back to the 
private sector, oftentimes, for P3s. This is a public health 
issue, more than anything else. Unless we are going to 
privatize our water system and see water rates go way up, it is 
a very difficult thing for the private sector to put any 
private monies in.
    That is why I think the leverage here isn't between public 
and private partnerships; it is really between local, State, 
and Federal Government. I think there is occasional places 
where the private sector will step in with dollars. But 
primarily, we have seen the National League of Cities, U.S. 
Conference of Mayors--we are usually spending, on average, 
about 89 percent of all the water money expenditures by 
Government in America.
    Mrs. Napolitano. Well, one of the other things that I would 
like to press upon you is the passenger facility charge.
    Mr. Garcetti. Yes.
    Mrs. Napolitano. Can you discuss the need to increase it in 
Los Angeles, and why is it important for the growth of Los 
Angeles Airport?
    Mr. Garcetti. Well, we are spending the most on LAX of any 
airport in America right now, $14 billion, and we will probably 
add two more terminals on top of that, bringing public 
transportation, creating tens of thousands of jobs.
    This is a great thing for Congress, because you are not 
asking to raise any tax, you are just allowing us to have a 
user fee that goes up--again, never been indexed for inflation. 
It would allow us to make that passenger experience and the 
safety--right now, the safety of passengers around American--
not just LAX is endangered if we can't spend money in our 
airports, and raising that would allow us to do that.
    We strongly support that, the U.S. Conference of Mayors and 
National League of Cities. We have waited a long time for that. 
And anybody who has been to LAX recently knows you will have a 
better experience flying through if we are able to spend that 
money.
    Mrs. Napolitano. Governor Walz?
    Mr. Walz. Well, I would come back on this issue of water. 
And again, you hear that cities like L.A. can do it. The real 
crisis is in rural America. It is too difficult for small 
towns. They cannot raise property taxes high enough to take 
care of these water treatment plans.
    We in Minnesota, this is--we are--see ourselves as stewards 
of 20 percent of the world's freshwater, of drinking water.
    And so communities care deeply about this. Businesses care 
deeply about getting it. But the infrastructure has fallen 
behind. We had a big boom in the 1970s, where we were able to 
build these up. They are simply aging out. Smaller communities 
have a low tax base. These are expensive propositions.
    What I would ask is give us the certainty, but give us the 
stability to implement these rules, set the standards where you 
need to set them, but let the States find the way to get to 
them.
    But again, I think the mayor is exactly right, and we have 
looked at this. It is very difficult, and--nor do I believe--
and this is philosophical--nor do I believe water should be 
privately traded, where some people get it and some don't. But 
the fact of the matter is now, depending on where your zip code 
is, water is different, and quality of it is different.
    Mrs. Napolitano. Thank you. I would yield back.
    Mr. DeFazio. I thank the gentlelady. With that, Mr. 
Webster?
    Mr. Webster. Thank you, Mr. Chairman. Congratulations to 
you.
    And, let's see, Secretary LaHood. I have a question about 
maybe the quality of the roads that are constructed. Does your 
group that you represent consider resiliency as an important 
part of the construction standards for roads?
    Mr. LaHood. Yes, sir.
    Mr. Webster. In what way?
    [Laughter.]
    Mr. LaHood. Well, when----
    Mr. Webster. We just had the Governor say that it was 70 
below. That same day in my area it was 70 degrees. So a little 
bit different. But in some places there is going to be a need 
for some kind of resiliency. In Florida it is a little 
different. We can get away with things maybe and the Northeast 
can't.
    So anyway, that would be my question.
    Mr. LaHood. Well, for example, when there are national 
disasters and roads need to be rebuilt, we want them built to 
the highest possible standards and to some kind of resiliency 
so that if another hurricane or tornado or national calamity 
happens, they can withstand that. And that wasn't the case with 
some of these roads that were built 50 years ago.
    Mr. Webster. Well, it seems like----
    Mr. LaHood. And that goes to the whole issue of----
    Mr. Webster. We wanted to build more, not necessarily the 
most long term and expensive, but the short-term inexpensive. 
It seems like that. And I just wondered if there is a push to 
move to a standard that is higher.
    Mr. LaHood. Absolutely.
    Mr. Garcetti. May I jump in on this?
    Mr. Webster. Yes.
    Mr. Garcetti. Thank you, sir. One of the things we 
experienced in America's cities is we have very little money. 
You pave it with something cheap. You slurry seal, you might do 
the pothole repair, but you can't do the fundamental 
reconstruction of main roads and highways without the proper 
funding in place. So resilience really comes from how much 
money you put forward.
    Second, resilience is many different things. The heat 
island effect in our cities right now is part of what is 
happening with climate change. Literally, the most calls I get 
on anything we have ever done in Los Angeles from other cities 
is we are testing a white pavement that isn't concrete, it is 
asphalt. But it is--the private sector has brought new stuff, 
and we get calls from cities around the world because it 
reduces the temperature by about 10 degrees in our cities. So 
that resilience of using technology is very important.
    Third point, I have spoken to President Trump about this, 
personally. As somebody who has been involved in construction, 
and as a developer, he is actually very keyed in on that 
question. And we spent a good deal of time talking about that, 
having to do with the freeways in my city, and he is talking 
about the concrete grade, and how we can really invest in the 
better stuff that will last longer. So I think you can engage 
the White House on this issue of resilience, as well.
    Mr. Webster. Since you are talking about it, is there a 
safety issue there, too? I mean is the road temperature a 
factor?
    Mr. Garcetti. Absolutely. It can be, and especially in our 
hotter cities, when it gets so hot that it is not only a health 
issue for the people that are around there, seniors and others, 
but for the cars themselves, and what it does when those 
streets are too hot. Absolutely.
    Mr. Walz. Congressman Webster, your question is really 
good. And from the Governors' perspective on this, you are 
hitting on something of--it is not always one size fits all. 
There needs to be a standard, as the Secretary talked about.
    But giving us the ability to be able to innovate in those 
extreme climates, be able to innovate as we look at these 
issues come together--one of the issues we have in Minnesota 
is, because of the ice on our roads, we have to use a lot of 
salt to remove them. Then that becomes a water quality issue. 
It becomes everything else.
    So by giving us some flexibility in some of the planning 
money or some of the ability to allow folks to innovate into--
we now use bio-based, corn-based products on the roads before 
it snows--that makes sure that the----
    Mr. Webster. Can you do that now?
    Mr. Walz. Yes, yes, to a certain degree. But one of the 
things, as you are moving forward and we think about what does 
this modern infrastructure look like, how much flexibility 
needs to be there, I think you should hold us, as States, to 
the high standard that--expectations where it should be, but 
give enough flexibility in there that States in--the roads in 
Florida are going to look different than they do in Hallock, 
Minnesota.
    Mr. Webster. Yes. So, well, let me ask you a question. Do 
you use--extensively do you use toll roads, or you don't use 
them at all, or--is there----
    Mr. Walz. We don't. We use HOV lanes that are metered, but 
we don't in Minnesota.
    Mr. Webster. Secretary LaHood, just real quick here, this 
just popped into my mind. Are there any prohibitions about 
using tolled new lanes on interstate highways anywhere?
    Mr. LaHood. Yes, of course. And while I was Secretary we 
received some proposals to do that very thing. And there are 
prohibitions, yes.
    Mr. Webster. Thank you.
    I yield back.
    Mr. DeFazio. Thank you.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman.
    Governor, nice to see you. We came to Congress together, 
and we always appreciate your hard work that you did here, 
especially for veterans. Thank you very much. And I know that 
you will serve Minnesota well.
    Mayor, nice to have you here. My daughter and her husband 
voted for you. They live in Los Angeles.
    [Laughter.]
    Mr. Sires. And Secretary LaHood, I want to thank you for 
being here. When you were Secretary you were very fair. It 
wasn't easy. You were in many projects in my district, and I 
always appreciated the fact that you were a very fair Secretary 
of Transportation. So thank you for being here.
    You know, we have three very experienced individuals here.
    I come from a district that is one big transportation hub. 
I represent New Jersey's Eighth Congressional District, which 
represents the Lincoln Tunnel, the Holland Tunnel, the Bayonne 
Bridge, and obviously, the ports and part of the airport. I 
mean, transportation, it is big.
    It is probably the most densely populated, per square mile 
in the country. The town that I live in is 1 square mile and it 
has 52,000 people in it. Hoboken, New Jersey, another square 
mile, has 52,000 people. And many of those people work in the 
city. So going into the city is very important.
    This project, the Gateway Tunnel, it is key to the survival 
of the Northeast. When you look at 200,000 commuters travel 
this route daily back and forth, this accounts--this whole 
region accounts for 20 percent of America's GDP in this area. 
So--this Northeast Corridor. So you can imagine how important 
this project is, the Gateway Tunnel.
    The other day the Governor took us on the train ride into 
this tunnel. And what happens is, if you have a piece of cement 
that falls off and goes on the track, they stop the train and 
they have to remove the cement. So it backs everything up.
    And when we talk about funding, New Jersey, under Governor 
Christie raised the gas tax 23 cents. Governor Murphy raised it 
4 cents. So we have done our share, and we have committed 
almost $7 billion to this project. But sometimes partisanship 
gets in the way of some of these projects.
    I remember last year, when the President wanted to kill the 
TIGER grants. Luckily, you know, the Congress put it back. I 
remember how hard--had to fight to get some money for this 
project.
    We just have to come together. There are many ways to fund 
projects, whether it is private partnership, public 
partnerships, but we have to get this mentality that we are 
doing the right thing for America. And yes, so far this project 
is very important to me. But I am sure there are other projects 
in other parts of the country that we could be working on if we 
ever come together on a funding and stop this nonsense that we 
just can't seem to work together.
    You know, I have been in this committee now 10 years. And I 
have been working on this tunnel for all this time, and--but, 
you know, I don't know what it is going to take. And we don't 
seem to be coming together, quite frankly. Everybody talks 
about how important it is. I sat here many times, and everybody 
talks how important it is that we fund this, that we fund that, 
that America--that we should be embarrassed how America is 
falling behind other countries. But yet we don't take the step 
of working together.
    So we can come up with many ways of trying the funding, 
whether it is a gas tax or mileage tax or whatever. But, hey, 
the real problem here is trying to get everybody to work 
together. You know--and Governor?
    Mr. Walz. Well, if I could comment, and thank you, 
Congressman, here is what I would say. And I think you see the 
cities, the mayors coming together.
    Speaking on behalf of the National Governors Association, 
this is the bipartisan side of things. We have our Republican 
Governors Association and Democratic Governors Association. 
This is all of us together. I can tell you that we speak as--as 
the Governor of Minnesota, I support the project in New Jersey, 
because I know it is good for my economy, too. I know it builds 
the State.
    And that is what we are asking for. If we can get us 
together here to give us some of that certainty, you will see 
us work together on this.
    And I think your point is well taken. We have got to start 
seeing--``Oh, I got money for my project, that is good 
enough.'' If that tunnel doesn't work, our economy will be 
slowed down. So we stand with you, and the NGA stands with you 
as partners.
    Mr. DeFazio. OK.
    Mr. Sires. My time has run out. Thank you very much, 
Chairman.
    Mr. DeFazio. Thank you. With that, we would turn to 
Representative Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and I want to thank 
you and Ranking Member Graves for your willingness to work in a 
bipartisan manner to, hopefully, tackle this big problem.
    Governor Walz, you know, it is great to see you. 
Congratulations. I was mystified by you saying that you got 
elected because of running on taxes. You told me if I didn't 
endorse you, you guaranteed that you could get elected. And I 
held true to that. You got elected in spite of our friendship. 
I want to say congratulations.
    Here is what I--we are talking about doing anything bold 
and making sure we have a plan. I don't know that a gas tax is 
bold, because, quite frankly, it is a short-term solution. We 
all know it. Every one of you at the table, you know that a gas 
tax is a short-term solution.
    Now, I am willing to look at--I am willing to put in the 
political capital to make sure that we have proper funding. But 
what we have to do is do something that is truly bold.
    I can tell you my voters in North Carolina could care less 
whether he has a tunnel in New Jersey, and that is the sad 
truth about it. So we have to come up with something that works 
for both rural and urban areas, where--the other thing that we 
have to do--and this is where I would ask your help--the only 
thing long term about this particular topic is not the funding 
source, it is the permitting process. And we have to make sure 
that we streamline the process so we are actually building 
roads and bridges and the infrastructure that we talked about.
    You--I am willing to take a tough vote, but if I take a 
tough vote and a bridge gets built 15 years from now, one, it 
is hard to do that.
    And so I guess, Governor, here is what I would ask from 
you, from the National Governors Association. How many of your 
Governors are in favor of increasing the gas tax? We need to 
know that. I mean truly, we--if you can report back to this 
committee, are you willing to do that?
    Mr. Walz. Yes, Congressman. And I want to make sure that--I 
don't speak for all of them, but what I can tell you is that we 
are in agreement with you on this. We are looking, too, for 
streamlining of the process. We are not looking to cut corners, 
but we are in agreement it should not take that long to deliver 
it. That is added cost and added frustration. So we will report 
back to you those numbers.
    They have not taken a position on it, but we have taken the 
position that one funding stream alone will not do it. And I 
don't disagree with you on this, that this is not the overall 
long-term solution. But when you are out in the States, this is 
the one we have, and this is the one that makes a difference as 
we start to--I think you are right--think bolder. But we will 
get back to you.
    Mr. Meadows. Thank you, Governor.
    And I guess, Secretary LaHood, you know, when you come and 
say, well, let's put all these things together, you know, gas 
tax, toll roads, those kinds of--let me just tell you. It is 
nails on the chalkboard to a lot of folks when you say that.
    I would rather take one tough vote now to do--and fix this 
long term. And I guess what I would ask is, from your group, if 
you would come up with something that is long term, whether it 
is miles-driven, which has inherent problems, as well--you 
know, I know the chairman wants a carbon tax. All of--there is 
only about five different funding mechanisms.
    But we have to come to a solution on any bold 
transportation measure that does that. I am willing to do that, 
I am willing to invest. But I also agree with you. If we don't 
do it in the next 6 months, it isn't going to get done under 
this administration. And yet this President, I think, is 
committed to doing something bold and big on infrastructure. 
And so can you get back to this committee on what an ultimate 
solution might be for a long-term funding stream?
    Mr. LaHood. Yes, sir.
    Mr. Meadows. All right. Thank you.
    I yield back.
    Mr. DeFazio. Just to correct the record, I am not aware 
that I am a sponsor of a carbon tax.
    Mr. Meadows. No, I am--you were more--your side was more 
open to that. I didn't mean the chairman, personally.
    Mr. DeFazio. Well, I would relate that our former 
colleague, Jay Inslee, the Governor of Washington, has had some 
extensive experience with carbon tax. It has failed twice in 
Washington. Jay is greener than anybody I know, and he is 
saying it is time to move on because it is not going to happen 
if it can't happen in Washington State. But anyway, that is 
just a comment.
    With that, I would turn to Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. I would love to 
continue the discussion about taxes, but let's not.
    Mr. Garcetti, Mayor, welcome. Sorry I missed your earlier 
testimony. But I do have a question for you. We seem to have 
many folks, some of whom are in this room and others who are 
not, that seem to want to ignore the issue of manmade climate 
change. And really, it is my view--and perhaps it is yours--our 
Nation cannot wait to address this critical challenge.
    The recent fires in California, including the campfire 
which was the deadliest up in the Paradise area and very near 
my congressional district, we have seen firsthand that. We have 
seen it in your community. Well, just outside your community.
    So my question, Mr. Mayor, is would you please speak to how 
your city and the municipalities across California are making 
investments in more resilient infrastructure, and how important 
this is for the municipal and county governments to have a 
Federal Government as a real partner in that process of 
creating resiliency in the area of climate crisis?
    Mr. Garcetti. Absolutely. There is no question that, from 
Houston to the Florida Panhandle, California, we are seeing 
that impact. I mean I always say forget what your ideological 
perspectives are, talk to a firefighter about whether climate 
change is actually happening. Talk to a rescue worker about 
whether it is happening. Something is happening out there with 
extreme weather. I think we know the science. But that said, we 
have had firefighters die in the line. We have had roads that 
are inadequate access.
    We have rethought infrastructure in California--certainly 
Los Angeles. We use now resilience not just as an issue area 
for a few specialists, but really a prism for all of our 
infrastructure. When we repave a street, it is a complete 
street. We think about the water drainage, we think about the 
trees that we are going to plant and the heat island effect and 
what sort of tree canopy we are going to have. We think about 
the color of the streets, we think about the long-term 
maintenance of that street. We think about the emergency 
access. And to the chairman's point, what lights we are going 
to put on and how smart they are going to be to get emergency 
vehicles in and out quickly.
    It has fundamentally made us rethink everything, because 
the loss of life and the loss of property makes human beings do 
that.
    And I think we have a pretty good package that we can share 
with the committee of some of those elements of how we look at 
infrastructure in a resilient way.
    And when I said that second piece of innovation, I would 
also look at in this legislation what can you do to reward 
innovation and resilience in infrastructure. Even if it is a 
very small piece to carve out, I think that the technology is 
changing enough and the appetite is there, as well as the real 
innovation in States and the local governments, which are the 
laboratories of democracy.
    Mr. Garamendi. Thank you.
    Mr. LaHood, Mr. Secretary, I enjoyed our time together when 
you were on that side of the table. I guess I am still on this 
side.
    Something that I have dealt with over my career, half of 
the National Park Service's deferred maintenance backlog, some 
$6 billion, is in the transportation and infrastructure 
projects. The last major transportation bill, the 2015 FAST Act 
passed by Congress, funded the Federal Lands Transportation 
Program for national parks and all Federal public lands at 
about $300 million. In California alone our national park 
transportation infrastructure backlog exceeds $800 million.
    So, Mr. Secretary, while we ponder transportation funding 
here, why is that funding so critical in our national parks? 
And if it is, should it be included in legislation?
    Mr. LaHood. Well, it is critical because of the fact that 
so many of our citizens use the national parks. And they are 
very important to the people of America who want to enjoy those 
parks. And it is a Federal responsibility, should be. And 
obviously, the money to keep up our national parks should be 
included in the program.
    Mr. Garamendi. Excuse me for interrupting, but having spent 
a wonderful 10-day period in the parks in the Southwest I would 
also suggest, from my own personal experience, it is a 
significant economic engine for those regions.
    Mr. LaHood. Totally.
    Mr. Garamendi. And so that is another piece of that puzzle.
    Mr. LaHood. Right.
    Mr. Garamendi. Beyond----
    Mr. LaHood. Right.
    Mr. Garamendi [continuing]. Protecting these very special 
assets.
    Mr. LaHood. Right.
    Mr. Garamendi. I want to call you my colleague, Tim, 
Governor. Would you like to comment on either of these two 
questions in the remaining 13 seconds?
    Mr. Walz. Well, I would go on the park piece, and I would--
it is an economic driver. And this is another one where there 
is some great bipartisanship available. We all care about these 
resources.
    Cynthia Lummis, the former congresswoman from Wyoming, and 
I did the National Park Stewardship Act that did some public-
private partnerships to bring in and make some capacity to do 
that. We know the backlog is huge. We have to tackle it. When 
we do that, we increase our quality of life, we increase our 
economic growth.
    So we are supportive. States would welcome that, those who 
are home to national parks.
    Mr. Garamendi. With that I will yield back, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman. With that I turn to Mr. 
Babin.
    And I do note that Secretary LaHood previously informed us 
that he would have to leave at 11:30. So if he leaves, it is 
not because your question insulted him.
    [Laughter.]
    Dr. Babin. Did he call on me?
    Mr. DeFazio. Mr. Babin?
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. I appreciate 
it very much.
    And thank you, you expert witnesses. And thank you for your 
service and throughout your careers, all three of you.
    Mr. LaHood--Secretary LaHood, I should say--your written 
testimony noted that we have a sustainable source of revenue 
over the long term to successfully address our infrastructure 
needs. And you have elaborated a little bit on that, as--the 
other two gentlemen have, as well--and options that we have for 
raising funds. And Mr. Meadows had mentioned it, as well, and I 
think everybody up there, including both sides of the aisle 
here.
    But I would ask that--my district, 36 in Texas, we have had 
a number of disasters that have really harmed our 
infrastructure: highways, rails, you name it. The fact that the 
North American rainfall record is in my district, 52 inches of 
rain in one event with some unofficial records of--or 
measurements of over 60 in mine and also in my colleague, Randy 
Weber's district, amazing amounts of rainfall. And yet, after 
every storm we always seem to have to reinvent the wheel to get 
these funding streams to get back and start fixing our 
infrastructure back from the damages.
    And we would like to have a simplified--in some way--
simplified funding stream so that we don't have to address each 
storm, each event, each disaster in a unique fashion. We ought 
to have it set, a set way to do these things, whether it be a 
fire or hurricane or an earthquake, or whatever, depending on 
where we are in the country.
    Do you have any suggestions? And I am going to ask you 
other two gentlemen the same thing about how we can address 
this terrible problem, because we still have people living in 
temporary housing in my district for a hurricane that is almost 
2 years ago, Hurricane Harvey.
    Mr. LaHood. Yes, sir. I think one of the advantages serving 
on this committee that certainly I found when I served on it, 
and others have, too, is issues like this can be addressed in a 
transportation bill.
    Dr. Babin. Right.
    Mr. LaHood. Language can be included to streamline whatever 
rules and regulations are hampering the ability of a community 
to have access to Federal resources or expertise. And while we 
were at DOT we streamlined permitting, and we took our lumps 
for it. But we did it in response to the idea that some of 
these things take too long.
    My suggestion to you, sir, is when this bill is written, 
work with the ranking member and his staff to include language 
that will help accommodate your ability to get the resources so 
that people don't have to wait 5 years in order to get a road 
back in place, or whatever it might be.
    Dr. Babin. You mentioned the bridge collapse in Minnesota, 
you know. I think it was 2007. You know, we have--Texas is 
actually in pretty good shape, compared to many other States. 
We are not broke, like--like you said--Illinois was. But we 
have got our share of problems. We got bridges that need to be 
fixed. And, you know, some of them are in pretty bad shape.
    And so I would hope that I could work with the ranking 
member and the chairman, as well, so that we could simplify, 
streamline, and eliminate this problem, where we have to 
reinvent the wheel after every single event that hits us.
    Thank you very much.
    And Mayor, how about--or Governor, you go next.
    Mr. Walz. I was just going to respond, Congressman, and you 
are absolutely right. Every Member of Congress who has been 
through a disaster knows how this goes. And you have a 
constituent that it breaks your heart, you are trying to get 
things done. We know those things were put in place to prevent 
fraud, waste, and abuse, but many times those things make what 
happens worse than the fraud, waste, and abuse, if it is 
possible.
    But I do want to give that bridge as an example. Some of 
you here remember this. We were on the floor within 2 weeks, 
voted for the money. That bridge was up within 9 months. Gone 
through here, passed the bill, went through Ways and Means, was 
appropriated, was built, the contractor was there, came in 
under time, was done, and it is standing today and done right. 
This can be done, if we choose to do it.
    Dr. Babin. All right, thank you.
    Mayor?
    Mr. Garcetti. I would echo that, too, and thank you for the 
question. I mean, a Republican is just a Democrat who hasn't 
been through the NEPA process.
    Dr. Babin. Yes.
    Mr. Garcetti. All of us, as mayors, know, whether it is 
CEQA, which is California's Environmental Quality Act, when I 
was trying to redo the airport and we had to choose--is it FAA, 
FTA? There are two different agencies, just to get a train into 
the airport, and we had to kind of simplify which one. This 
would be music to our ears.
    And remember the 1994 earthquake in Los Angeles?
    Dr. Babin. Yes, sir.
    Mr. Garcetti. We had to rebuild the collapsed freeway in a 
matter of months, something that would have taken years. So the 
human being is absolutely capable of this. Enabling language 
especially after disasters would be welcome to us, especially 
after the fires and stuff that Mr. Garamendi spoke about.
    Dr. Babin. Thank you very much. As a former mayor, I 
appreciate what you said. Yes, sir.
    I yield back, Mr. Chairman, thank you.
    Mr. DeFazio. Thank you.
    Ms. Titus?
    Ms. Titus. Thank you, Mr. Chairman. You know, I am honored 
to be chairing the subcommittee that oversees FEMA. And if ever 
there was an example of the cost of doing nothing, it is in the 
case of resiliency. So it is great for me to hear, especially 
from my colleagues across the aisle, this recognition of the 
dangers and the damages caused by climate change, and the need 
to address that, moving forward. So we will be working together 
on those issues, thank you.
    My question to this very distinguished panel--and I thank 
you all for being here--has to do with priorities. As we have 
heard among the questions, everybody has got a project they 
really care about, whether it is a tunnel or a bridge or a 
water project or responding to some kind of disaster. In Nevada 
it is the highways, I-15. It is like a parking lot from my 
district to yours, Mayor. The extension of I-11 from Las Vegas 
to Phoenix.
    We have seen a number of studies that show that if we don't 
do something about expanding access, those roads are going to 
be like Labor Day every day. And if they are, people are going 
to travel less, which will affect the economy, which will hurt 
jobs, and will certainly hurt Las Vegas that depends on that 
kind of travel for our tourism economy.
    We don't have earmarks, unfortunately. I wish we did. You 
might want to comment on that, too. But then, because of that, 
we are going to have to set some priorities in this committee.
    Now, the Building America's Future has a call for a 
national infrastructure strategy. We have a national strategy 
for moving freight, for a highway program. Would it be a good 
idea to have a national strategy that looks at perhaps by State 
projects, maybe priorities some of those so that they will 
maybe move up the list for things that should be built, and can 
be more competitive for funding, and will put us with a more 
national reach, rather than just having to compete for little 
pieces? Would you address that, Mr. Secretary, and all of you?
    How could we come up with a strategy that makes this work? 
When we have the money, where do we put it, and when do we put 
it?
    Mr. LaHood. I think you can put language in the bill that 
is not earmarked language, but is language that gives priority 
to projects where there is intergovernmental cooperation, where 
there is interstate cooperation, where there is opportunities 
for States to cooperate, cities to cooperate. You could 
certainly make that a priority and include that as language.
    I just want to say this about earmarks, and I am sorry to 
take the time to do it. One of the reasons I left the 
Transportation Committee and got on the Appropriations 
Committee is so that I could help my district out. I never 
dreamed up one earmark on my own. All the earmarks that I ever 
got from my district came from constituents who came to me and 
said, ``Hey, we need a new health clinic,'' or, ``We need 
this,'' or, ``We need that.'' This idea that these things are 
dreamed up in Washington is nonsense.
    And if you don't have earmarks, then you are going to have 
bureaucrats or people running these departments deciding where 
the money goes unless you put language in the bill that says 
where there is cooperation, where there is collaboration, maybe 
they ought to have a higher priority for funding.
    Ms. Titus. Thank you. I am glad to hear you say that.
    Mr. Garcetti. I think America's mayors would support that, 
as well as earmarks, because we know the democratic process by 
which they come up. But absolutely, think about across State 
borders and think about regions, because oftentimes there are 
small towns that are part of larger regional cities and 
counties. When they work together--we see this in Minnesota--we 
got that passed when we did the Los Angeles County measure that 
I mentioned. I think there should be some sort of reward on 
that leverage piece.
    And three or four Members have now said it: let's not be 
parochial. Let's care about that bridge, you know, that is in 
somebody else's district. We in Long Beach and L.A. have a port 
that is important for America. And, you know, we spent--we get 
about $200 million that we generate from that Harbor 
Maintenance Trust Fund, and we get about $4 million back. So we 
are contributing greatly to all--every other harbor inland, on 
the coast, et cetera. So when we stop being parochial, we 
actually will move America forward because we are intertwined 
with each other.
    Mr. Walz. Well, the National Governors Association shares 
that. I can't speak for all of them on earmarks. I can speak 
from being there. And what the Secretary said is, ``I put them 
all online. I had requests from city managers, and a very 
conservative newspaper said, 'Well, we are usually against 
earmarks, except for these, because they are really good,' 
because local community put them in.''
    I trust you to make the decisions. You are the 
professionals. Go to your mayors, as I know you do. Bring those 
things forward.
    And then all of us have the courage here--we have in States 
where we prioritize projects. You can do that, too. If I were 
asking for money from my congressional district, and New Jersey 
made the case and it was a stronger one, maybe I am on next 
year.
    But I think Governors are already collaborative, working 
together. We are prioritizing projects. Those locks and dams on 
the Upper Mississippi River carry the bulk of this Nation's 
agricultural product. It is in all of our best interests that 
we are investing. That is not a Minnesota, a Wisconsin, 
Illinois project. It is a U.S. project.
    So I agree with you on that. I wish you would have the 
conversation about how do you make sure you are overseeing this 
money in a smart way. Certainly, as a Governor, I want to come 
to Congressman Stauber and ask him about the Twin Ports 
Interchange and why we need to get that done, and how that 
impacts this Nation's economy. That is a better way to do 
business.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Mr. Rouzer?
    Mr. Rouzer. Thank you, Mr. Chairman, and I am very 
appreciative to have such a distinguished group of--or two fine 
gentlemen here before us. And unfortunately, I see we lost our 
Secretary.
    But I have got a question for you, and I am searching for 
answers. And this ties into infrastructure and what we do as a 
Congress as we move forward. You have a tremendous amount of 
population shift from the Northeast into the Southeast, for 
example.
    I represent southeastern North Carolina. Of course, 
southeastern North Carolina, if you will recall, during the 
fall we had Hurricane Florence, which ripped right through the 
middle of my district. I have nine counties. All nine were 
federally declared disasters. Eight of the nine were under 
water and in some areas, in some places still under water, 
tremendous devastation. And, of course, a flood takes a long, 
long time to recover from. Folks lose everything. And soon, 
many people have their entire life savings, all their wealth 
creation in their house. And when they lose it, it is gone. It 
is a very, very sad situation for many.
    Well, in these States where you have such a huge increase 
in the population growth, you have extra roads, new bypasses. 
As part of an infrastructure package you will be having a lot 
of repair. New interstates, designated interstates, et cetera.
    And then, on top of that, you got all these new homes that 
are built. And many of them today are built, literally, where 
you would take one hand and you would touch one, and the other 
hand you can touch the other. I mean hardly 6 feet between the 
homes. And now, when it rains, all that rain hits those homes, 
it hits that surface, that hard surface, goes straight into the 
river.
    And we are approaching a point in North Carolina where, if 
you have a 5-inch rain in Raleigh, you are going to end up 
having the magnitude of a Hurricane Matthew or Hurricane 
Florence flood further east.
    So my question to you, and what I am searching for, are 
what are the things that are being done nationwide in various 
parts to mitigate flooding of that nature, just because of the 
sheer population growth that you have.
    North Carolina, as everybody knows, has really grown 
tremendously in the last 20 years. It is going to continue to 
grow tremendously in terms of population growth. So I would 
like to know if you have some examples of what has been done 
around the country to help mitigate this really, really 
tremendous problem.
    Mr. Walz. Well, I will speak on one in Minnesota/North 
Dakota, the Red River diversion project. Many of you have 
probably seen on TV where it is hard to imagine a flatter area 
where the flooding comes from. Those are the areas where it is 
the worst.
    And what I can tell you on this, Congressman, is these are 
emotional issues because of the reasons you stated. They are 
also emotional because, many times, the mitigation impacts 
others. So in the case of the Fargo-Moorhead diversion, we are 
going to route that river around the cities, which is, of 
course, going to flood farm land of families that were never 
impacted by flooding that may be now. And these are hard 
decisions we are going to have to make, as 500-year floods now 
become, as you said, 5-year floods.
    And I think, as a Nation, we are going to have to have this 
conversation about how do we send resources equitably. I say 
this as a State, that Minnesota is 47th in the return of 
Federal dollars. We spend, of--our tax dollars go out more than 
almost any other State, then come back to us. But our 
recognition is if that is going to States to improve the life 
and quality of North Carolina, as long as there is a 
recognition back with us--I think we have to think 
collaboratively on this, and cooperative in a way we haven't, 
because the real challenge for me is you are right, where you 
have more people and more concentration, there is going to be 
more infrastructure.
    What happens on that final mile? This is the reason that I 
don't have broadband in many parts of my State, because the 
private sector does a wonderful job of providing it out until 
that final mile, where there is no economy of scale and no 
return.
    So I think a new way of approaching this, a new way of 
looking at it, a new way of mitigating--but understand the 
mitigations are going to come with their own problems. They are 
going to come with the political problems, they are going to 
come with are you--every flood wall we build to protect floods 
the city downrange, downstream. And that becomes an issue.
    Mr. Garcetti. Thank you for the question, Congressman. And 
people don't think of Los Angeles as flooding, but we do. It is 
the reason the river--if you have ever seen Terminator 2 or 
Greased Lightning, it is actually a concrete channel, because 
it used to kill people whenever--it follows half the distance 
of the Mississippi in 51 miles that the Mississippi takes 2,000 
miles. So it is a very violent river.
    We changed our ordinances to look at something called low-
impact development of requiring permeable surfaces. So to your 
point of when you have--put more concrete down and it creates 
more flooding, you can actually change how homes are built. And 
you could put something in legislation that looks at that.
    Second, the zoning. This comes to Mr. Garamendi's questions 
on fires, too. We have let developers build right by fire 
areas, and--because they are going to make their buck, they are 
going to be gone. Same thing happening right now in flood-prone 
areas. We saw that in Houston. And I think the Federal 
Government can play a role saying no, there are certain places 
homes shouldn't be built, because we all, as taxpayers, wind up 
spending hundreds of billions of dollars mitigating what 
happens afterwards. Instead, encourage density where it should 
be, and reward that perhaps in some of the legislation.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you. We now go to Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman. And to Governor 
Walz, congratulations. It was an honor to serve with you over 
the last 6 years. And I know the Minnesotans were absolutely 
right in electing you Governor. So job well done.
    And Mayor Garcetti, I want to thank you for your bold 
leadership, really, at the national level on the issue of 
climate change. And I know your Mayors National Climate Action 
Agenda has really set a very high bar for others to follow, in 
terms of making Los Angeles a leading city, globally, on the 
issue of climate action and climate change.
    So, as you know, the State of California has passed 
legislation to require that, beginning in 2029, all new buses 
must be clean, green, zero-emission buses. So my question is a 
little bit more specific than some of the previous questions.
    But can you tell us what you think Congress and the Federal 
Government can do to help you with these goals? And do you 
think California's law would be a good law, nationally, as 
well?
    Mr. Garcetti. Absolutely. You know that half of the world's 
buses will be electric in the next decade. That is not driven 
by the United States of America right now, it is driven by 
China. And they have shown within a year or two, completely 
electrifying certain cities' bus fleets. The technology is 
there. I would like to see this be an American industry, 
because much of the technology on batteries and even some of 
the vehicles has been innovated here, even though it is being 
applied in other countries much more aggressively.
    In Metro, the system that I am a part of in Los Angeles 
County, we have made that pledge to, hopefully, by the time the 
Olympics come back to America in 2028, to be 100 percent 
electric. We said 2030, but I think we are going to rewind that 
a couple years by the time we do this.
    Where we need Federal help is on financing, quite frankly. 
I was an electric vehicle driver from 1997. I saved money in my 
pocket after the first 6 months. And we know that we can 
amortize this quickly, but it is a huge infrastructure build on 
the upfront piece. So what we need is a financing mechanism. 
This is one place where we don't need just grants, but we would 
love to see that in R&D, and keep that industry growing here.
    We could flip probably the entire system in a matter of 3 
or 4 years--maybe 5, because it is America and we move a little 
slower than other places. But we could do that within half a 
decade if we had the financing.
    And so, rewarding that--so both the electric grid, the 
charger infrastructure, and then the loans for the buses--we, 
as an agency, would pay that back 100 percent. I am 100 percent 
sure of that. Private companies are offering that to us right 
now. We would rather do it, I think, through Federal Government 
because the companies may be around or may not be around. Some 
of them are foreign companies, some of them are domestic. But 
we would get electric buses in L.A. in a matter of 5 years, I 
think.
    Ms. Brownley. Thank you for that. And another question that 
I wanted to ask, as well, is you have been doing a lot of work 
on workforce development and manufacturing. You have made 
reference to that earlier in your testimony.
    Can you tell the committee more about these economic 
development initiatives, and how you think they tie into our 
transportation future?
    Mr. Garcetti. Yes, it is great. I mean we have seen a 
hollowing out of the middle class in much of America, in 
American cities. We see this as kind of the come-back, the 
central pillar of that.
    When I said the 787,000 jobs that are created by one 
measure alone, we didn't want to just say that it is going to 
happen passively. We don't want them to just come from other 
places. We are now putting our community college district in 
line to do that training with our unions and some of our 
contractors.
    We are inviting folks--we are starting the first school, 
the high school, for kids that will be transportation careers, 
a public high school in Los Angeles, based on one that exists 
in New York City right now. So we really could see this as not 
only just expanding that infrastructure, but the human 
infrastructure and the way we benefit from this.
    Congresswoman Bass's legislation to hire locally, which I 
know can be controversial, but you see a subway coming through 
your area and nobody from your neighborhood working on it, that 
is a problem. We should be able to reward that, especially in 
cities where you have the pipeline for just as good workers as 
anywhere else.
    We have seen folks who are ex-offenders--I told this story 
in my State of the City Address of a woman who was arrested 
when she was young for a drug charge. She came out, she was 
trained. She is an African-American woman, there is not many in 
the building trades. She is now working on the Crenshaw line in 
South Los Angeles, and her son gets to visit Mom three blocks 
from where they live, working and building a great thing that 
will make her proud for the rest of her life.
    Ms. Brownley. Thank you, Mr. Mayor. And again, thank you 
for your leadership. And Governor, thank you for yours. And I 
yield back, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Mr. Westerman?
    Mr. Westerman. Well, technical difficulties down here, but 
thank you, Mr. Chairman. And thank you also for such a great 
title for today's hearing. I think maybe, instead of just the 
statement, the cost of doing nothing, it is more of a question 
to us, is what is the cost of doing nothing, because we all 
know there is a cost to doing nothing.
    Being a professional engineer and having done many projects 
in life, we never looked at an alternative project where we 
didn't first evaluate the cost of doing nothing. And there 
always is a cost of doing nothing. And we are seeing the cost 
of that in our infrastructure across the country.
    Now, I appreciate the gentleman from California, Mr. 
Garamendi, mentioning the forest. I think that is a great 
parallel to what we are seeing with infrastructure across our 
country. If we let our forests continue to grow and 
overpopulate, eventually there is going to be a day of 
reckoning when the forest catches on fire. We can apply sound 
scientific principles to that forest, and we can manage it, and 
we can make it more resilient, and life is better when we do 
that.
    But as we look at infrastructure and we think about this 
cost of doing nothing, I have a couple of areas I want to focus 
on, on the water side of things.
    First off, I want to go back to clean water. We have talked 
about that a little bit. And as I understood your testimony and 
understand the way the process works, with large cities and 
larger urban areas, with municipal bonds you can pretty much 
handle those projects. We see that where I live in Arkansas. I 
know it is all across the country.
    But also in my district I have a lot of rural areas. And 
you mentioned even with the fund to help give below-market 
loans for those projects, it sounds like there still needs to 
be more done to help these rural areas that just don't have the 
tax base to put clean water systems in.
    Could you elaborate a little bit more on what else needs to 
be done on top of the revolving fund?
    Mr. Walz. Yes, thank you, Congressman. And again, we see 
this more and more every year. And it is like many of them are 
reaching their life expectancy at about the same time.
    And you are exactly right where the problem is. And we do 
bond for it. We are talking about it, and we do some of this 
State bonding. But then it becomes the picking winners and 
losers amongst a--numerous small municipalities. It is just 
having more into that fund, I believe, the capacity to do it. 
It is us understanding that this is going to take a pretty big 
investment.
    And this is that hidden infrastructure that you don't see. 
But for example, a small town that--maybe their entire city 
budget is $10 to $12 million, the replacement of one of these 
water treatment plants is now $15 million. And there is just 
simply no way property taxes quadruple overnight.
    So in the State we are looking at ways we can be of 
assistance. I think the revolving fund--of making sure it is 
there, making sure there is some flexibility for us--again, I 
think that came up in numerous conversations.
    I don't think there is a lot of disagreement across 
political spectrum on this. There needs to be standards to do 
these things, but some of that flexibility helps us out. So 
some of these things are it takes too long to build them, they 
become a little more expensive, and having access to those 
funds. But in many cases we are going to have to do more than 
just loans to these, because these communities don't have the 
capacity to pay them back.
    Mr. Westerman. And on the water thing, but shifting gears a 
little bit, Minnesota, you utilize the navigational waterways, 
inland waterway systems, quite a bit. I have been doing a lot 
of indepth study on that. And there is billions of dollars of 
work that need to be done on those systems. They are out of 
mind, out of sight.
    Mr. Walz. That is right.
    Mr. Westerman. I think I have got a lot of them in my 
district, and I don't know that people even realize they are 
there a lot of times. But if one of those locks and dams fails, 
people will realize very quickly when they see all the 
additional trucks on the interstates.
    We move a tremendous amount of ag products down the 
Mississippi River through our inland waterways. It is the 
cheapest mode of transportation. It takes less fuel per mile 
than any other mode of transportation. It gives us a 
competitive advantage in rural areas for our ag products.
    These investments and these projects have returns of 10 to 
16 to 1, is what the literature says. So even if you went into 
debt to fix these inland waterways, you would be money ahead in 
the long run. And in 10 seconds would you like to comment on 
that?
    Mr. Walz. I will say amen on that, and the national debt 
matters. When I bought my home as a teacher, I was making 
$40,000 a year. I bought a $120,000 home. I was 300 percent of 
GDP in debt and it was the best investment I ever made. In this 
country--what Congressman Westerman said--is our infrastructure 
on the locks and dams, we are one accident away at that lock. 
That 75-year-old lock at St. Louis will shut down 83 percent of 
the exports of this country.
    This is not Mark Twain's Mississippi. This is hundreds of 
times more important even than it was then for the moving of 
products. And this is a crisis situation.
    Along with that we talked WRDA for many years here. Big 
WRDA. If you can do it, go for it.
    Mr. DeFazio. OK, thank----
    Mr. Westerman. Thank you, I yield back.
    Mr. DeFazio. Thank you. Thanks for raising that issue. We 
are not just here for surface today, so there are other areas 
that need critical investment.
    And with that, Representative Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    And Governor, it is good to see you back here. We miss you 
already. The people of Minnesota were very bright to bring you 
back home full-time.
    You know, I just want to echo something that you said, and 
I think we have the same philosophy on it. Getting into the 
specific projects that are important to our districts--and we 
are here to support our constituents and our areas, but we are 
the Transportation and Infrastructure Committee of the United 
States of America. So we have to have a broader outlook on 
other projects that don't necessarily always just pertain to 
our districts.
    And so I feel it is very shortsighted of some of our 
colleagues at times to make a statement, just, well, my--the 
people in my district could care less about a tunnel in New 
York and New Jersey. Well, that may be very well and true, but 
it is--I feel it is part of your job to articulate and bring 
understanding to why it is important to the Nation.
    If that tunnel crumbles, transportation on the eastern 
seaboard is shut down between Boston and Washington, DC. And I 
can remember being in New York with the Member from North 
Carolina, and I am sure he took the train through that tunnel 
to get from North Carolina to that meeting we were in in New 
York. So it has an impact.
    And so, as you said that you were 47th in your return on 
those monies, and--but you understand how important it is. So I 
wanted to thank you for that.
    And Mr. Mayor, in your testimony you discuss some of the 
investments and changes that have improved the Port of Los 
Angeles. You also mentioned investments that need to be made at 
ports across the Nation. I represent the Port of Newark, which 
is part of Port of New York and New Jersey and it is the 
busiest container port on the eastern seaboard.
    Could you unpack some of the technologies and investments 
that need to be made at our major ports across the country, and 
speak about how Congress can make sure our ports continue to be 
productive, while creating good-paying jobs?
    Mr. Garcetti. Well, thank you, and thank you for your 
leadership in Newark and for the Nation, because we know even 
in Los Angeles, Newark is an important port for us, and vice 
versa.
    You know, we need full utilization of, I think, a fair and 
equitable framework that takes care of our ports as a system, 
because they really are tied together. And I support--there is 
an approach that has been put forward by the American 
Association of Port Authorities--both of our cities are members 
of--that looks at funding for each region of the country, but 
also looking at small, emerging harbors. So it is not an 
either-or, it is a both, and for donor and energy transfer 
ports.
    As I mentioned before, we collect about $200 million from 
the Harbor Maintenance Trust Fund each year, the Port of L.A. 
And about $3 to $5 million of that is returned. Think about 
that for a second: $200 million we collect, $3 to $5 million 
returned. And yet, what we are doing there, together with Long 
Beach, 40-plus percent of the goods that come into America come 
through those ports.
    We are looking at a zero-emissions port, because usually 
communities of color live right by there, and they have the 
worst air quality. People forget one of those huge ships is the 
equivalent of tens of thousands of cars. So as we look at 
resilience and climate change, that is a great place to make an 
impact. And we take a very bold step in Long Beach and L.A. 
saying we will be the first zero-emission port not in the 
United States, but in the world. We are going to need some help 
on the technologies. We are working with private sector, those 
trucks, everything like that.
    Second, we are looking at new technologies. It is a great 
American export. Working with GE Capital, for instance, to 
predict which containers are coming in, match them up with the 
trucks before they get there, and now we are licensing that to 
other ports around the world, taking a cut of that, bringing it 
back to America. That is like American know-how.
    So again, the innovation around ports on logistics, on 
rail, on-dock rail, new generation of electric locomotives so 
that we can have zero-emission locomotives for those 
communities of color and those communities that are around 
ports, all of those things would be great to see, and a more 
equitable use.
    I hear loud and clear what Mr. Westerman said. I would love 
to see us take those harbor funds and help the entire system 
that ties together. We already do that. I would be willing to 
share some of that. But we need to get back more than 1 or 2 
percent of what we generate to do the good things for America 
and to make it work.
    Mr. Payne. Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Thank you.
    Mr. Gallagher?
    Mr. Gallagher. Thank you, Mr. Chairman.
    Governor Walz, you mentioned electric vehicle charging 
networks, ports, locks, dams, water systems, and other 
infrastructure. The modern versions of this would, in many 
cases, be equipped with smart technology, meaning internet 
connectivity, in many cases.
    What guidance exists in your State to protect smart 
infrastructure, new infrastructure from cyber attacks?
    Mr. Walz. Well, thank you for the question, Congressman. In 
fact, my second Executive order was issued yesterday, forming a 
blue ribbon panel on this very issue, on looking at over-the-
horizon technology challenges, making sure--and we saw it this 
week--when temperatures--the things I was monitoring on a 
minute-by-minute basis--when temperatures get to 70 below, an 
interruption in power generation or gas delivery is life and 
death. And so, when we had blitz and seeing things on the map 
going red, meaning we were losing some of that, trying to 
understand where it was. Some of those were switching issues, 
some of them were small issues. And the good news was it all 
came back up.
    But it highlighted the fact, again, that a sure way to 
attack this country at a time--is to attack infrastructure. And 
so we are starting to think forward. We are bringing in all the 
folks who are cutting edge on the front end of this, but 
thinking of where we haven't been yet.
    Because, again, if we move to autonomous vehicles, which we 
are trying to do some of these test projects, how protected are 
they? Because the havoc that can be caused by cyber terrorism, 
whatever it might be, as well as just an outage. So we are 
thinking about it, we have raised it to that level of 
importance that it will permeate all the decisions we make. And 
I think many of the States are looking for that again.
    This is one of those cases where I think the States are 
great innovators. We are looking at other States that have 
moved ahead--protecting the Port of Los Angeles I am sure the 
mayor will talk about--but we are going to need some help doing 
it, because we see it as a threat.
    Mr. Gallagher. And a similar question to Mayor Garcetti, 
but maybe comment specifically on whether cities are aware of 
the cyber vulnerabilities posed by Chinese technology 
companies, particularly Huawei and ZTE, and whether there is 
extant guidance about purchasing technology that could wind up 
in smart technology in the future from those companies.
    Mr. Garcetti. Yes. So we established the Los Angeles Cyber 
Lab. We think it is probably the best of any municipality in 
the country. It is now 4 years old. DoD, DOJ, HSD are involved 
in it.
    We have the busiest port in the Americas, the number-two 
airport in the country, and the largest utility owned by any 
municipality. So we have got vulnerabilities many, many places.
    We have also brought in the private sector with this, as 
well. Remember when the hack happened to Sony? The rest of the 
companies were like, phew, I am glad that didn't happen to me. 
Our enemies collaborate to share how they are going to attack 
us. But we, as friends, never share, especially in the private 
sector, because we see each other as competitors. We are 
breaking that down in Los Angeles.
    So we are--essentially, we have formed something from the 
smallest business that is vulnerable to the biggest company in 
our own enterprises to share that information right away, and 
to give patches and fixes in real time that we get from one 
company giving to another one. So people are signing up, and we 
would love to share that with you.
    In terms of the Chinese technology and other technologies, 
that is a part of what we talk about. Maybe we can talk about 
that a little bit more offline. But that is absolutely a piece 
of what we keep our eyes on.
    Mr. Gallagher. I would love to. And I just--for either of 
you or both, I mean, are States or municipalities aware of how 
much Huawei and ZTE products--they may have already purchased, 
or may be on----
    Mr. Garcetti. We don't purchase either of them.
    Mr. Gallagher. Any of them? Yes.
    Mr. Walz. At this time I don't know, Congressman. We need 
to--our cities and the larger cities--on how those purchases 
were made. That is one of the reasons why forming this task 
force, so there is an alignment of both goals and protections 
that go into it, because I think a lot of it is what you are 
asking. We don't talk to one another, and we may not know.
    Mr. Gallagher. Sure. And my simple concern is that, as we 
contemplate spending potentially $1 billion of Federal money on 
smart infrastructure, we want to make sure we are not building 
back doors into which our enemies could disrupt us in the 
future.
    And the final thing I would say for Governor Walz is go, 
Packers.
    [Laughter.]
    Mr. DeFazio. Thank you.
    Mr. Lowenthal?
    Dr. Lowenthal. Thank you, Mr. Chair, and thank you, my--
both our witnesses, my former colleague and dear friend, Tim 
Walz, and the great mayor of the city of Los Angeles, who I 
have great respect for. And I will come back and ask you a 
question in just a second.
    But I really want to preface my statement by, all of you, 
we have talked about the funding gap and what we need. But I 
don't think we have really spent enough time on the overall 
freight situation, and what we are talking about, in terms of 
freight.
    You mentioned, Mayor Garcetti, in your written testimony 
that we have over $2 billion in a freight funding deficit. That 
means more congestion, more emissions in our local communities. 
But it also means a delay in goods that really impacts both 
consumers and the manufacturers getting there. And as you 
pointed out, 43 percent of these goods come through the--our 
joint ports of Los Angeles and Long Beach.
    Soon I am going to--this is my public, you know, statement. 
I am going to be reintroducing my National Multimodal and 
Sustainable Freight Infrastructure Act, which I have introduced 
before, have had a lot of support. It is a bipartisan 
legislation which creates a dedicated revenue stream to 
specifically finance sorely needed freight improvements, from 
the ports to wherever they are going, throughout the Nation.
    And so I really think in part--it is important because, as 
has been pointed out by all of you, we are not going to have a 
single funding source. But the Federal Government needs to come 
up with creative sources. And I think creatively also in terms 
of targeting certain needs, and making sure that those, as we 
have learned with the highway gas tax, that we protect those 
monies.
    Especially I want to point out--I want to thank Chair 
DeFazio, Representative Napolitano, who is the chair of our 
Water Resources and Environment Subcommittee, for their 
leadership in making sure that we spend all the Harbor 
Maintenance Fund, and also that we then also begin to look at 
the relationship between the donor ports and the other ports.
    I think those are--because, as we pointed out, ports across 
the country--as my colleague, Mr. Payne, has pointed out--need 
to build the infrastructure that connects the maritime 
transportation system to the surface transportation system, and 
it is one real system. Even though we frequently think of them 
as separate, we are really talking about one system.
    And I hope we make tremendous--in the next 7 months--
improvements in those areas.
    But Mayor Garcetti, I want to ask you a question I think 
that Representative Brownley talked about, and my preface to 
that is that, you know, we talk a lot about infrastructure 
investments that create good family jobs and sustainable jobs. 
But it often takes an extra effort to make sure those 
investments benefit the local communities. And you talked about 
that, how the city of L.A. and L.A. Metro have set ambitious 
local hiring goals, and you took advantage of, as you pointed 
out, this Federal pilot project to allow for local hires that 
was put into our federally funded projects.
    You mentioned a little bit--I would like--there are three 
parts to this question. I would like you to spend a little 
time, if you can--whatever is left--what was your own 
experience with this? And maybe, more importantly, what 
happened as a result of DOT's decision not to continue? And 
what would you like this committee to do? That is the most 
important about this issue.
    Mr. Garcetti. Well, thank you so much, Congressman, for the 
question. I mean what Member of Congress doesn't want to 
deliver jobs back to his or her own district----
    Dr. Lowenthal. Right.
    Mr. Garcetti [continuing]. For his or her own constituents? 
I mean it is a question, I think, that has an easy answer.
    Now, in the past there has been those who say, well, we 
don't have enough of a workforce here, we have to bring them in 
from other places, other States, even. In Los Angeles we have 
people coming in from Ms. Titus's district and other places. 
Shame on us. Those are great workers, but shame on us for not 
growing them up.
    And the companies get a little bit lazy about just saying, 
well, we don't want to do it. We should be offering help to 
partner and pay for their trainee costs with our WIOA dollars. 
We have done that in Los Angeles, and the pilot was extremely 
successful. We have a generation of people now growing up that 
will have lifelong employment in the building trades and do 
significant things that they will look back on with their kids 
and their grandchildren and say Mom or Dad built that.
    Second, though, in a way we suddenly went back to companies 
saying, ``Hey, we don't have to do this,'' and these programs 
started to have problems. Now, we have so much infrastructure 
going, we can control that--at the airport, we are doing things 
on our Los Angeles River, the ports, et cetera, that we can put 
some of those folks to work.
    But I think it would be a real legacy of this committee and 
of this Congress to say not only are we going to put that in 
place, we are going to think through how training occurs, work 
with our community colleges, work with our unions and our 
trades to be able to put that forward.
    And for a Congress that just adopted historic criminal 
justice reforms, it is a great place to put people to work who 
are not going to go back to school and get a degree, but who do 
want to be contributing members of American society. And we had 
a huge percentage--I would say about 40 percent of the folks 
that are working now at the airport, on Metro, came out of 
serving some time, and this has changed their lives.
    Dr. Lowenthal. Thank you.
    Mr. Garcetti. Thank you.
    Dr. Lowenthal. And I yield back.
    Mr. DeFazio. Thank you.
    Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. I appreciate your 
friendship, your leadership on this committee. I look forward 
to working with you.
    And I also want to thank my leader, our Republican leader, 
Mr. Graves, for in a weak moment naming me the ranking member 
on the Highways and Transit Subcommittee. I don't think many 
people in this room know what you were thinking there, but 
thanks, buddy, I appreciate it.
    And hello, Governor. Good to see you again. Football 
meeting, the congressional football game is next week. We hope 
that you plan on coming to play again, even in your new 
capacity. Absolutely, we need you. We will beat the guards this 
time.
    And Mayor, great to see you again. I am a little 
disappointed that you did not nudge Secretary LaHood like I 
texted you to do earlier in this hearing. And I am sorry I 
missed my good friend, Secretary LaHood, because I had some 
questions for him.
    But all three of you, I think, bring a unique perspective. 
And we all see the need, Republicans and Democrats, to figure 
out how to pass an infrastructure bill. This can be the 
committee of bipartisanship. And many of the comments that each 
of you have made as I have been in and out of the hearing are 
very appropriate to our concerns.
    We have to have revenue. I am for diversification. How in 
the world do we create a 401(k) of funding sources to lower the 
volatility of just--like we currently have just one source now? 
Those are the debates that we should have in this room. But the 
cost of doing nothing actually also includes the regulatory 
environment.
    Now, as the Governor of a State, mayor of one of our 
largest cities, what can we do in this committee to reduce the 
cost of infrastructure investment on the regulatory side that 
you may not have addressed already? I will start with either 
one of you, whoever wants to go first.
    Mr. Walz. Well, I will get on this. This is a place of, I 
think, great collaboration that can happen in here that--none 
of us are saying that--of unfunded mandates that end up on the 
States, of regulatory burdens, as we were discussing earlier. 
We know that this can be done.
    The mayor talked about a freeway that was reconstructed 
after an earthquake. I talked about the I-35W bridge that was 
debated, voted on, funded, and built, and the ribbon cut within 
a matter of months. That is out there. I think it is working 
together to make the case.
    When people say that they are worried about a regulatory 
burden, not assuming that means they want to get out of 
something to make more money or to not follow the rules, it 
means that they see it as a regulatory burden. And those who 
say, ``But we are not willing to put people at risk,'' I think 
we can come to some common ground.
    The Governors, the National Governors Association, would 
welcome anything that you would do to help us be able to speed 
those things. Set the standard for us, keep it there, but give 
us at least enough flexibility that, in these changing 
circumstances, we are able to reach our goals, but not 
undermine or add costs to it.
    So we are in agreement with you, Mr. Davis. And I think 
this is the perfect time to do it. As you are talking revenues, 
ask for those changes that make this easier, and you will find 
support amongst the National Governors Association for it.
    Mr. Davis. Thank you, my friend. Great to see you again, 
too, Tim.
    Mr. Garcetti. Great to see you, Congressman. And, don't 
worry, Secretary LaHood is coming out to L.A., so I will give 
him a punch for you when he comes out next week.
    A couple specifics to answer. One is I would give 
incentives for how quickly people get things done. Because not 
just Federal regulation, sometimes State and local. And 
everybody loves a deadline.
    So if there is a piece of this funding that says it has 
deadlines that are shortened, trust me, States and local 
government will adjust. Those bureaucrats that work for us will 
say, OK, I got 30 days now to do it, and we will find a way to 
get to yes, instead of just slow it down to no. So that is one 
suggestion.
    Second is I think that we all want the truly environmental 
protections to be there. But what now is called environmental 
law is so often a way for people who are NIMBYs to slow things 
down, full stop. We know that, and this unifies us, whether we 
are Democrats or Republicans. There is--you know, sometimes 
unions will do it, sometimes businesses will do it, sometimes 
residents will do it.
    And people should have a way to petition their Government, 
but it all should be narrow windows, the cost of doing that 
should be at least something that people can't just, for a 
nickel, put in endless appeals. And where the Federal 
Government, again, either requires that States and localities 
align their laws to be that way, or if you have jurisdiction to 
put that down in these, that would be helpful.
    So those are two concrete suggestions, I guess pun 
intended, that we could get this stuff moving forward.
    Mr. Davis. I appreciate both of your comments. And we want 
to get things done here to make it easier for States and 
localities to be able to invest in the infrastructure 
improvements that we want to partner with you on.
    I wish Secretary LaHood was still here. He and I have 
talked about this before. The biggest impediment that I see for 
infrastructure investment is the discussion of impeaching the 
President. Ray LaHood has a unique perspective on the last 
impeachment proceedings that took place in the 1990s. He was in 
the chair of those proceedings. And I asked him at an event 
recently how many bipartisan agreements did you pass in 
Congress during the impeachment of President Clinton? Zero.
    We have got to come together as a Congress in a bipartisan 
way to put infrastructure on the forefront. I am glad Chairman 
DeFazio is doing it today, and I thank you for your time.
    And I have no time to yield back.
    Mr. DeFazio. Representative Lynch?
    Mr. Lynch. Thank you. Thank you, Mr. Chairman. Just as far 
as the previous comments go, I think Congress can do a couple 
things at once, if we need to.
    But Governor, Mr. Mayor, we appreciate your testimony, as 
well as Secretary LaHood. You do have a great perspective. Good 
to see you back, Tim. We miss you. But you are in a good place.
    We are in a very important juncture right now, and it is a 
great opportunity, because, while Chairman DeFazio is trying to 
cobble together, you know, a major infrastructure bill, we are 
also on the Committee on Financial Services, where we are 
trying to address the next iteration of our National Flood 
Insurance Program. And both of those, Chairwoman Napolitano and 
the flood insurance effort, really look at climate change and 
the impacts it is having on our communities.
    Los Angeles has a similar profile as Boston does, in my 
district. But there is a disconnect. There is a disconnect.
    I am a former iron worker. I was an iron worker for almost 
20 years. Strapped on a pair of work boots every day. Built 
bridges, basically. And high-rise towers. And right now, in my 
State, I have 483 bridges that are deficient. And that is a 
disgrace, to me, as an iron worker, you know? And you worry 
about your families traveling over those bridges, the ones that 
are still open.
    In my role as a Member of Congress, I talk to my Governor. 
He is a Republican, Charlie Baker. I ask him what his 
priorities are. I go to my mayors, Marty Walsh, Joe Sullivan, 
Tom Koch, Bob Hedlund, and I say, ``What are your priorities, 
as mayors,'' because they are on the ground. They have a real 
keen sense of what the priorities should be, and where the 
money would do the most good.
    I honestly think that the big question here is going to be 
on how do we get people behind the funding issue, if it is for 
raising the gas tax or whatever it is. And I think the way to 
link that up and to win the campaign for an increase in 
funding, you know, to put the trust back in to the Highway 
Trust Fund, is really to link those up. I would support a 
proposal that said earmarks are not going to come from Congress 
any more. Earmarks have to come from my board of selectmen, my 
town manager, my mayor, my Governor, my State reps and 
senators. It has to come from the local community.
    And then, of course, we have competing needs in all our 
communities, they have to come--those requests have to come to 
Congress and, obviously, would have to be the arbiter of what 
gets funded, in terms of need and the priorities that come from 
the States and local governments.
    So, you know, I just--is that a way--I would like to have 
your thoughts, because you are sort of at the so-called tip of 
the spear on all of this. You are hearing the complaints, you 
are dealing with this stuff. You know, if a bridge has got to 
be closed down for one lane because it can't handle the weight 
of two lanes of traffic, you know, it is the Governor and the 
mayor that are dealing with that.
    I would just like to hear your thoughts on trying to 
reconfigure what we are doing here, so that we take the 
distaste away from earmarks and restore, as I said, you know, 
that trust that I think has been lost because of some of these 
other projects that have, you know, been talked about in the 
press extensively about the misuse of power and resources.
    Mr. Walz. Well, I share your approach, Congressman. I trust 
mayors. They know best. They bring you these projects.
    We did something--some of you weren't here long enough--we 
used to have these Member-directed projects, earmarks. And one 
of the things that cleaned up a lot of this was just put them 
on the internet, put them out there, show who requested it, and 
allow for citizen comments.
    You can do these things, we can prioritize these things, 
and then come up with a way to deliver it. It is just a way, I 
think, of better accountability. I think it brings faith back 
into the system. People will--if they see where their tax 
dollars are going, it makes a big difference. And I think you 
have to bring faith back into it. And that does start to get at 
this funding piece on how you get there. And I think it starts 
by--you listening to your mayors makes a difference. That is 
who I listen to.
    Mr. Lynch. Yes.
    Mr. Mayor?
    Mr. Garcetti. I think it is a wonderful idea. I think that 
you got to trust democracy. It is either--small d, democrats, 
all of us are not. You think that people know what is best on 
their block and in their community.
    And using, I think, elected bodies at the State and local 
level are proof that Washington trusts democracy across 
America. It would be, I think, a big show of faith. So I think 
that would be a great way to do it. We would love to work with 
you at the U.S. Conference of Mayors, and maybe see about how 
that could be done, and how--you know, there is always going to 
be some cases in which, well, maybe my local body completely 
disagrees with me. But I think there are ways to work that, so 
you have multiple----
    Mr. Lynch. Yes.
    Mr. Garcetti [continuing]. Ways to input that.
    But, you know, specific projects get done. The American 
people need to know that specific projects get done. Who do you 
want deciding that, somebody who is not elected, who is a 
selected bureaucrat, or somebody who is an elected 
Representative? I think that is an easy answer.
    And I appreciate your restraint in not talking about 
football. Thank you.
    [Laughter.]
    Mr. Lynch. I yield back my time.
    Mr. DeFazio. Thank you.
    Mr. Balderson?
    Mr. Balderson. Thank you, Mr. Chairman. I would first like 
to begin this afternoon, now, by thanking Chairman DeFazio and 
Ranking Member Graves for holding this important hearing.
    It is critical that we invest in transportation and 
infrastructure today so Americans can prosper tomorrow. I am 
really excited about being on this committee and having the 
opportunity to work in a bipartisan manner and get something 
done.
    I am particularly excited to sit on this committee during a 
period in which it will likely consider a comprehensive 
infrastructure plan, as the President mentioned in his State of 
the Union Address just this week.
    I will move forward with my questions. And I, like several 
others here, I am sorry to see Secretary LaHood leave. But 
Governor, thank you for being here today, and these questions 
are directed to you.
    Having come from a perspective of being at the Federal 
Government and then going down to the States, where a lot of 
work does get done--and having served in the State legislature, 
I know that we move forward with a lot of projects. But I would 
like your insight on how Congress can expand and promote the 
development of the public-private partnerships, so that States 
can enhance this innovation.
    Mr. Walz. Well, thank you, Congressman. Congratulations for 
being here. And you are right, you are on the right committee 
here. And we do trust you. This entire conversation is about 
building the trust it is going to take to get this done.
    One of the things is--and you heard the mayor talk about 
that--a lot of those public-private partnerships, and 
rightfully so, are predicated on how safe they are, the return 
on investments that they make. So it is important for us to 
know that our Federal partner is there.
    I can't stress enough, again, just--so in the State of 
Minnesota, when the shutdown happened, we have a revolving fund 
where we pay our contractors forward and you reimburse us for 
it. The State of Minnesota is $120 million that we had floated, 
with no idea where we are getting it. We were losing our 
partners who wanted to work with us, because they didn't know 
how we were going to be able to do that.
    So one of the things is give us that consistency, give us 
some of the capacity to innovate and build and experiment. If 
you truly trust the States as laboratories of democracy, give 
us that capacity to do that. You hear the mayor talking about 
amazing things they are doing at the Port of Los Angeles. The 
States can do the same things. And then give us that ability to 
work across jurisdictions with other States a little bit to get 
some of those things done.
    Again, the stable funding stream, can't stress it enough; 
some capacity to be flexible and make sure that we are not 
having unfunded mandates. Let us be able to show our private-
sector partners that we are good operators in this, and we can 
get this done.
    And the mayor did bring up something important. Some of 
those--the carrot works a lot better than the stick a lot of 
times. Get this project done in this amount of time, and there 
will be a bonus for you. Give us some flexibility to be able to 
do that.
    I am not asking you to capitulate all your oversight, I am 
not asking you to block grant everything to us. But I am asking 
you to trust us as partners to deliver for you. And when you 
can go back to your constituents and say, ``You know what? We 
allocated this money, and not only did I get a good project in 
my State, I got one in Mr. Stauber's district,'' and that would 
be helpful.
    Mr. Balderson. OK, thank you. The next question I have for 
you, Governor, is my district contains urban and suburban 
areas. It also encompasses a very vast rural area. How do you 
ensure communication between your office, the Minnesota 
Department of Transportation, and rural areas to make sure that 
your constituent needs are being met?
    Mr. Walz. Well, this was central to my campaign for 
Governor. I ran on an idea of one Minnesota. I am the first 
Governor in over 30 years that comes from what we call Greater 
Minnesota, the rural areas of the State. But I think the way we 
facilitate it is that understanding of much of the conversation 
we are having here, we are in this together.
    As the Port of Los Angeles goes, so goes the Port of 
Duluth. As Mankato, Minnesota goes, so goes Marquette. Wherever 
it might be, making sure that we understand our 
interconnectedness, we are making sure to be very clear about 
this.
    One of the things that we are talking about is how we fund 
a little differently our rural communities, with an 
understanding--I talked about this. I was a high school teacher 
before I came to Congress. Fair isn't always equal. And for us 
to have that very difficult conversation, it doesn't mean 
dollar for dollar in some places. It is more difficult in some 
places. That means that there is going to be issues that take a 
broader investment in an urban core, because of density, and it 
also means sometimes it takes a broader investment to get up to 
Hallock, Minnesota.
    And I think, again, what you can help us--is to be good 
stewards of those taxpayer dollars, but give Governors the 
flexibility to be able to adjust to those differing needs 
between rural, urban.
    And I think the thing that gets forgotten in here--and I 
hear this a lot--that is suburban. And when I go to folks in 
Minnesota, when I got out to Hallock, they say there is urban, 
there is suburban, there is exurban, there is rural, and then 
there is frontier. We are the frontier. That is a different 
thing. And they were not even, you know, facetiously saying 
that; it is true.
    So I think what you can do is help us see that overall 
picture, give us that consistency, but then allow us to build 
those coalitions that show that it matters.
    Mr. Balderson. Thank you. And thank you both for being 
here. I appreciate your time.
    Mr. Walz. Thank you, Congressman.
    Mr. DeFazio. I would now recognize the vice chair, OK, 
Representative Carbajal.
    Mr. Carbajal. Thank you, Chairman DeFazio.
    And welcome to both of you, former colleague Walz and Mayor 
Garcetti, who I had the privilege of serving with on President 
Obama's climate action task force.
    I come from local government. I served as the county 
supervisor for many years. So I come with that perspective.
    Mayor Garcetti, as you know, 45 percent of the Nation's 
transportation infrastructure is owned by local governments. 
Today, in Santa Barbara County, in my district, we have a 
pavement condition index of 57 out of 100. And in San Luis 
Obispo County, which is the other major part of my district, it 
is 64 PCI. Just a decade ago, the PCI in Santa Barbara County 
was 70.
    But I know we are not alone in this accelerated degradation 
of our infrastructure and our roads. Local governments across 
the Nation experience this same challenge, and will continue to 
experience it in the future.
    How can we better partner with local governments to 
maintain a good state of repair of our Nation's infrastructure, 
one?
    And two, what are the advantages and disadvantages of 
creating a dedicated funding source to directly allocate 
resources to local governments for the improvement and 
maintenance of local roads and bridge infrastructure in 
America?
    And I ask that from your service as a local elected 
official, more than anything.
    Mr. Garcetti. Absolutely. Let me start with the second one. 
And great to see you, Congressman, and thank you for your 
amazing service here to the country and to California.
    You know, it always drove me crazy--I work now with Chair 
Waters--when CDBG grant dollars went out there. That is Federal 
dollars, but I always said thanks to the Councilman Blank and 
Mayor Blank. And we changed in Los Angeles the policy so it 
actually thanks the Member of Congress now, because those funds 
come from all of you. They come from the American people first, 
but you enable them.
    And I think, you know, the idea of this road funded by the 
Federal Government--and it is a road that people are going to 
use 90 percent of the time more than an interstate highway--is 
a beautiful idea, and one that would be embraced, and one 
that--there should be some sort of leverage to encourage local 
governments.
    Accelerated for America, the 501(c)(3) that I mentioned, we 
are on the ground helping folks from Florida to Ohio, Texas, 
Washington pass local infrastructure packages on 
transportation. At least half of that is always for road 
paving. So we are stepping up to do that, and we would love to 
see Federal Government, because that network doesn't work if we 
don't have the feeder, first mile/last mile roads, into there.
    And I think there has always been this strange disconnect. 
Why is that not Federal? And why, vice versa, do we have no 
responsibilities for the highways that go straight through our 
cities, where we could put cleaning crews, we could help folks 
there, we could take care of graffiti. It is kind of like, 
``Don't touch that, that is either State or Federal; local 
government does that stuff over there.''
    So I think we would be very interested in a dedicated 
funding resource that came to local governments, and it would 
be spent well. We know how to do that. And I know my number, 
too--because we went down every year until we were 61 when I 
became mayor. Now we are at 68. For the first time in decades 
we are going up. We have paved enough to go halfway around the 
world. I got 4 years left. I said I want to pave the equivalent 
of a street all the way around the world by the time I leave, 
as mayor. So I think that that would be very well received.
    And then how we can do this together, it is going to be 
very important for, I think, cities to be at the table, and 
States. Some cities are the size of States. But for us to have 
that, and writing this together--and the chairman has been 
really wonderful, and inviting us to be a part of that through 
the National League of Cities and the U.S. Conference of 
Mayors.
    But I think that we are going to need to see--looking at 
streets, not just as a place that you drive over them. There 
are people who--there are electric scooters now, there are 
people who walk on them. There is heat that comes off of them, 
there is water that goes through them. There are street trees 
that are important, there are curbs that are important. That is 
part of American infrastructure working.
    So we welcome the opportunity to help you cowrite that, and 
really value your perspective as a former local official in 
making that happen.
    Mr. Carbajal. Thank you, Mayor. To conclude, I wanted to 
ask if you feel that the Federal Government incentivizes or 
recognizes self-help municipalities who have taxed themselves 
and gone out on a limb. Residents have identified these types 
of measures as a top priority. Does the Federal Government, in 
your opinion, recognize that enough?
    Mr. Garcetti. If I can quote the Governor, he said no, we 
punish that. And it is quite the opposite actually, where we 
step up--and I get it. There are certain places that can't help 
themselves on things like water. But when people say, well, 
L.A. is a rich town, you can do that, we have 24 percent 
poverty. It is actually a high poverty town, too. Poor people 
are voting to tax themselves to get this stuff done. So let's 
erase that.
    No, we get punished for it, not helped. We should get 
rewarded. Not 100 percent, because you can't leave certain 
places behind. But there absolutely should be.
    The one place where there has been good, and I hope that we 
can, in the legislation, move forward is New Starts, because 
there has kind of been a walking away in the administration 
from New Starts. It is critically important. And there is 
almost a punishment, well, you are already paying for it. If we 
want those subways to be open by the Olympics in 2028, when we 
show America off to the world, we are going to need to continue 
that. We expect that. We budgeted that. We are always told 
that. But we need to ensure it.
    Mr. Carbajal. Thank you, Mayor. I yield back my time.
    Mr. DeFazio. Thank you. We move now to Representative 
Spano.
    Mr. Spano. Thank you, Mr. Chairman. And I very much look 
forward to serving under your leadership, so thank you for 
having me. And to the ranking member, thank you, as well, for 
your leadership.
    Thank you so much for being here, Governor and Mayor, we 
appreciate your time and your expertise. I represent a district 
that runs from East Tampa to west of Orlando. So, as you can 
probably imagine, that is a very, very rapidly growing area of 
the country. As a matter of fact, by some estimates, the most 
rapidly growing area in the country in the next 20 years. So 
obviously, infrastructure and transportation issues are very, 
very important to us and to my constituents.
    I have a couple questions, if I have time. First of all, I 
understand it has been referenced here--I think on at least a 
few occasions--the need for long-range, proactive-type 
planning, as it regards infrastructure and transportation. And 
what I think about, however, is the rapidly changing pace of 
technology, right?
    So you have those two things on either side. So talk about 
balancing the need for proactive, long-range planning with the 
need to be light on our feet, and nimble, and to be able to 
respond and react with new technologies that come on board.
    Mr. Garcetti. So that is a wonderful question. It gets to 
the heart of what I talked about at the beginning, in terms of 
rewarding innovation. Don't pass a 20th-century package here 
for the 21st century. You should be thinking beyond that.
    And we have tried to make Los Angeles a platform for 
innovation. A company comes in with a new product, somebody has 
an idea inside one of our departments or bureaucracies, we say 
yes, let's try it. Instead of being future-phobic, instead of 
being future-resistant or future-passive, we try to be future-
guiding.
    And when I gave you that list, like, Hyperloop may move 
goods before it moves people. I don't know if people want to 
get in the tube and go 800 miles an hour, but I bet goods have 
no problem with that. Moving that from a port to get to a 
district like Ms. Titus's and other places, to move more 
quickly, we need to have funds that can help innovate and move 
that forward.
    The Boring Company that Mr. Musk is doing, we have, you 
know, a gondola that is going to go up to Dodger Stadium, the 
most popular place to watch sports in the world, in terms of 
numbers of fans that go there each year. Scooters that we 
didn't even know about--if we were doing this a year ago, even 
here, we would be like, ``What is an electric scooter?'' Now 
they are everything. Some think they are the scourge, some 
think they are the answer.
    But we need to create an America that is a platform for 
innovation, and legislation that says if you are willing to 
innovate we are going to let you test, try, and then scale up 
what works. Right now we have old categories of things.
    We are very protective. Federal Government says let the 
local governments try it first. Local governments say, ``I 
don't want to be first, let that city figure it out before I 
do.'' In L.A., when we put ourselves at the front of the line, 
we have really reaped the bounty. When I talk about that GE 
Capital project, for instance, we are earning money off of 
containers being moved in other ports in other countries now 
that we can put back into our port.
    So I think that that is a great piece: reward the 
innovation, the research behind that, and people are willing to 
take a risk.
    Mr. Walz. Yes, thank you, Congressman. It is a great 
question. My brother is a constituent, by the way.
    The Governors--when I first got in this and started looking 
at it, one of the people I went to--this seemed very odd, but 
there is a school of thought out there--the futurists, and 
asked them to think about this as we started to go.
    One of the problems we all know is you want us to be really 
good stewards of taxpayer dollars, just like you are. We are so 
risk averse that, in business, you know, the old adage for a 
generation now is fail fast, but innovate on that and those 
things are going to happen. We are so risk averse and so, I 
think, brow beaten. If we take a risk and make a mistake we are 
punished for that.
    I am not advocating, you know, risky behavior to the edge 
with taxpayer dollars, but there has got to be some incentive 
for us to try some of these pilot projects for us to do 
autonomous vehicles to run from Rochester to the Twin Cities, 
where we have massive amounts of freight and people come in.
    We have got a town in southern Minnesota that is 100,000 
that is home to the Mayo Clinic that 2\1/2\ million people come 
to, and FedEx flies hundreds of thousands of packages to every 
day. You have got to give us some capacity, and we, as the 
States, have to be able to innovate to make sure we are 
thinking the way you are talking about. Because when folks come 
to me asking for money in our public sector, or our--in our 
safety sides of things, they are coming and asking for 
technology upgrades for fingerprint readers.
    I don't know at this point in time if fingerprint readers 
are even going to be around with facial recognition technology. 
Who is making those big decisions here? Who is thinking about 
that? And who is talking about making sure, if Hyperloop is 
working there, how are we going to be able to try and do some 
of that?
    So your question is right. I think it comes with 
flexibility, it comes with allowing us to take some risk, and 
it comes with having a little bit of patience with us to try 
and get there. And I think you will get some of these 
breakthroughs.
    Mr. Spano. Thank you both. I only have 15 seconds left, but 
I will ask this, and if you have time to answer it, great.
    If not, I understand, Mr. Chairman.
    But you mentioned resilient infrastructure, right? I mean 
give me, like, a practical example of what that is. I 
understand the concept, but give me a practical example of it.
    And are there any estimates that have been done, in terms 
of what the additional cost would be, right, over and above the 
traditional infrastructure approach that we can be looking at, 
if we want to pursue that direction?
    Mr. Garcetti. Sure. I mentioned white pavement before, 
because of heat. Plastic pipes, a lot of places you can't do 
plastic pipes. We have earthquakes and stuff like that. There 
are great American manufacturers of them, but they are usually 
banned because of old regulations. There is all sorts of stuff 
on resilience, whether it is earthquakes, whether it is floods.
    The zoning, you know, that is not a requirement, but it is 
more of a zoning thing where you say we shouldn't be building 
in certain places where we are all going to pay the price. I 
think those are ways to make resilience a central prism for 
everything you refract in this bill.
    Mr. DeFazio. OK? Do you have a quick one, Tim, or do you--
--
    Mr. Walz. No----
    Mr. DeFazio. OK, OK, good. All right.
    Representative Brown, Maryland.
    Mr. Brown. Thank you, Mr. Chairman, and it is a real 
privilege and honor to be able to serve with you and our 
colleagues on the Transportation and Infrastructure Committee 
during the 116th Congress.
    I want to return to public-private partnerships, or--I like 
to refer to them as private investments in public 
infrastructure, with the emphasis on public infrastructure. But 
also let me start by thanking both of you for being here, and 
thanks for your service in State and local government.
    In Maryland we have a number of examples of successful 
public-private partnerships. I agree with, you know, that 
school of thought, that you can't use P3s to finance every 
infrastructure project. Where you have revenue generating 
facilities, it is probably more likely that you will have a 
successful project.
    We have, for example, on I-95 travel plazas, and the 
revenue is the retail sales that support the lease payments 
made by the vendors at those plazas. We have also had 
successful public-private partnerships at the Port of 
Baltimore, and the user fees that support the port operators 
and their lease payments to the State. So that has been a 
successful one.
    And while Secretary LaHood mentioned the silver line to 
Dulles, we have got the purple line in Maryland, which we 
think--the jury is still out, but that should be a successful 
public-private partnership. And there, that is an example--and 
I know, Mayor, you suggested that water infrastructure may not 
be a candidate for public-private partnership, but I would 
suggest that it probably is, because as long as there are rates 
and there are some infrastructure facilities where user fees 
and rates don't cover the cost of operating that--that is true 
for transit, for example, fare box ratios rarely cover the 
cost--then there is some public subsidy, and availability 
payment can be made. And that is what we are doing on the 
purple line.
    But my question is--and it may be a followup to one of the 
questions that was already asked--is there more that the 
Federal Government can do and should do to really encourage 
public-private partnerships where they make sense?
    Most States, not all, have set up a public-private 
partnership statutory regime, where the private sector has 
confidence to make the investments, the public has confidence 
that there is transparency and accountability, but not every 
State has. Is there more that the Federal Government can do to 
encourage States?
    And the final part of that question is--and I will just--
Mayor, I notice there is something called the West Coast 
Infrastructure Exchange, a consortium, California, Oregon, 
Washington, and British Columbia, and are, like, encouraging 
things like those regional exchanges.
    So what do you think we could do better or more of?
    Mr. Garcetti. Absolutely. Starting at the end, that has 
been a very successful forum to bring best practices together 
and to come up with the governance models for this stuff. And 
it has helped to really accelerate the Western United States as 
becoming kind of the P3 capital of America, that we want to see 
that happen in other places, too.
    You know, it is funny that we talk about P3s like it is 
something new. The New York subway system was not even P3, it 
was P1, because they were private when they started, and they 
became public later because the maintenance piece became too 
expensive for the private sector, so the public bought them. 
And I think there is a lesson there to be learned of how we can 
share that over the long term.
    In transit it is the ripest place to do this, especially 
where the Federal Government--your question was can you do 
more. Yes, you can write into, I think, this bill allowing it 
in a protective way that would still keep these public assets, 
ways that there is some sort of reward for at least having that 
as an option. I don't think you want to reward P3s over non-
P3s, because that is going to be a decision locally. But places 
that don't even entertain that are missing at least the options 
on the table.
    We have two lines right now that we have had, you know, 
about 10 different companies come forward to bid on. Some of 
them want to design it, some of them want to maintain it, some 
of them want to fund it, some of them want to operate. And as 
much of those as they can have, the cheaper they can make it, 
they say.
    On the flip side, some people worry, well, if you are 
operating and maintaining it, is that loss of union jobs? Does 
that mean, you know, we don't get to build it? So there is real 
tough political things to wrestle with. But I think at least 
mandating that folks that are applying for New Starts in 
transit should have a P3 office is a great way to start that, 
and to push that forward and give that.
    Second, TIFIA loans and the loan piece, as interest rates 
go up, we will look back at how we are going to finance this. 
And if we can be cheaper than the private sector, that is 
another place I think the Federal Government, without losing 
money, but, you know, loaning it, can be helpful in 
accelerating P3s.
    Mr. Walz. Well, the mayor's example--and I think giving us 
the capacity--and the National Governors Association, trying to 
find creative ways, the Upper Midwest, the Great Lakes regions, 
of making sure anything you do statutorily allows us to be able 
to use some of these funds across State lines, working 
together, beyond the typical ones that are intercity passenger 
rail, things we are trying to enhance.
    But there is a lot of border areas that we share on 
infrastructure that I think States--again, going back to the 
question Mr. Carbajal had, I think it is a really, really 
important one.
    The Federal highway system, interstate system, State 
highways, the bulk of my folks on the roads are out there clear 
down to the township levels. And their ability to be able to 
participate is hard. And that is where I don't know at that 
point.
    I think your question is really good. How do we use public-
private partnerships in some of these things that aren't these 
big marquee projects, but they are more things that we need to 
get done?
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you. With that, I would turn to 
Representative Pence.
    Mr. Pence. Chairman DeFazio and Republican Leader Graves, 
it is an honor to serve alongside you here on the 
Transportation and Infrastructure Committee. It is why I came 
here and ran for office.
    Governor Walz and Mayor Garcetti, thank you for being here 
today. I am grateful for your time.
    I am a businessman by background, and I came to Congress to 
address the challenges facing our critical infrastructure, both 
in the short term and the long term.
    Indiana is proud to be known as the crossroads of America. 
The infrastructure in our State has contributed to the 
prosperity of not only Hoosiers, but, as was mentioned by the 
Governor, all Americans benefit from this.
    In Indiana we recognize the importance of modernizing and 
investing in our aging infrastructure, and we have made 
progress that we are very proud of. At home we are hoping to 
build a new shipping port on the Ohio River near Lawrenceburg, 
Indiana, which will be our State's fourth port. If we are to 
remain a logistics and manufacturing and transportation hub, we 
must make infrastructure investment a top priority. We must 
strengthen existing partnerships with the private sector, 
reduce the regulatory burden, and give States the flexibility 
to address the unique needs of their communities.
    As members of this committee, I am looking forward to 
embracing technology and innovation, as you mentioned, Mayor, 
to address some of our infrastructure challenges. I am 
optimistic that we can work across the aisle to craft a bill 
that uses Federal dollars as a hand up instead of a hand out, 
giving more flexibility to State and local governments.
    I have traveled Interstate I-70 my entire life, and just as 
soon as I cross the State line there is a world of difference 
in the quality of roads. It is no secret that some States have 
prioritized their infrastructure needs better than others. And 
I believe there is a role to be played by the Federal 
Government to encourage States to make these long-term 
investments that are so desperately needed. We must ensure that 
we are rewarding forward-thinking States like Indiana, who 
continue to be judicious when spending Federal tax dollars.
    To the Governor and the mayor, I ask how can we better not 
punish, as you just mentioned, and encourage and reward States 
like Indiana, who continue to think strategically and made 
long-term investments in their infrastructure, versus States 
that did not?
    Mr. Walz. Well, thank you, Congressman. And I appreciate 
your passion for the issue, and understand how it does impact 
our States.
    I think we have to do a better job in the States--and I 
think you see Governors across this Nation doing that--of 
providing measurable feedback, and in terms of metrics on when 
we are doing things. This is across the board, whether it is in 
human services or whether it is in transportation. Things that 
the public can see, things where they can have dashboards of 
seeing how much mileage are we getting out of this road, what 
is the life expectancy on it, how was the planning done, and 
show that.
    Because, again, people want to be reassured that their tax 
dollars are being spent wisely. We need to do a better job of 
showing that. And I think the mayor brought up a really good 
point--is reward innovation. Reward folks who are getting it 
done in a timely manner. Reward folks who are coming up with 
new ways of planning this, that are showing good project 
management, that you can measure those things.
    Some States are--not all States are created equal. Some do 
it better than others, as you stated. Make sure you are 
rewarding those folks, but at the same time helping those 
States understand what they can do better to get it up. Because 
again, it does us no good--and I know it is a--Governors do 
this all the time, we rank ourselves against others. It does me 
no good to say I am ranked here, and to heck with what is 
happening down here, trying to lift everyone up. But it should 
be done on the merits of how well we are doing, what are the 
results we are getting for, and can that be replicated 
elsewhere.
    And then learning. I know, as a Governor of this, my first 
thought is when my folks come to me with a plan--is somebody 
else doing this right now? And who is doing it better? Go learn 
from them.
    Mr. Garcetti. Thank you, Congressman Pence. I am proudly 
married to a Hoosier, and it is my probably second State, so I 
think I have some in-laws that are in your district, and glad 
to answer your question and to be here.
    I would say three things. One is put some shared funds 
aside. This is a pool that mandates that it be shared between 
local, State, and the Federal Government.
    Second is make sure it is a fair match. I think previously 
we had a plan that was going to put a 20/80 match, so 80 
percent from local or State, and 20 percent from Federal 
Government. That was just a dog that won't hunt, it won't go 
anywhere. We are not going to be able to see that leverage. It 
has to be a fair match of something, whether that is 50/50 or 
not.
    And then third, don't grandfather people out who have 
already stepped up to pass local and State measures, because 
that is going to be very important. Don't make the poor poorer 
and the rich richer, but don't also punish those. So whatever 
legislation, don't just encourage people to pass it in the 
future. Make sure they are not grandfathered out if they have 
done it in the recent past.
    Mr. DeFazio. OK, thank you.
    Mr. Pence. Thank you. I yield my time, Mr. Chairman.
    Mr. DeFazio. Great. Thank you. And now the Representative 
from New York, Representative Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman. As this is the 
first opportunity I get to speak before the committee, I want 
to thank you. I look forward to working with all the Members on 
these very pressing issues.
    Governor, Mayor, welcome, and thank you for your testimony.
    First I want to say that, as New York City's only member in 
this committee, we have great needs in the city of New York for 
infrastructure and transportation projects. I represent Harlem, 
East Harlem, Northern Manhattan, and the Northwest Bronx. And I 
like to take this time to highlight some of those priorities.
    First and most importantly, the mass transportation system. 
As you know, New York City's mass transportation system is 
really the heart, the engine of economic activity in the city, 
including our financial services community, which is, I think, 
in many ways the heart and soul of our revenue-producing 
machinery in the State.
    And so, in order for us to remain competitive, in order for 
the city of New York to continue to be a leading city in many 
sectors of our national economy, we must have a state of the 
art--we must have a reliable and competitive transportation 
system.
    And, of course, much has been said about our airports. We 
all know the line from Vice President Biden, when he landed at 
LaGuardia Airport. He thought he landed in some other country. 
And of course, Penn Station is a living nightmare.
    I happen to be pushing for the extension of the Second 
Avenue subway, which is a transit desert in my part of the 
district in East Harlem. We already have the first phase. That 
is a project that has been around for 100--literally, 100 
years. We were able to do this before, but now, all the sudden, 
we are wrestling with how to do it. And obviously, it is all 
about the money. So that is why I am happy to be part of this 
committee and advocate for the Second Avenue subway, for 
additional funding for the MTA, and the subway system.
    The subway system is, in many ways, a wear-and-tear system 
and a deep pocket issue. It is like your brake pads, you know? 
You can't drive your car for 100,000 miles and think that you 
are never going to have to change your brake pads. You have to. 
And if you don't, guess what? You have to pay for it, right? 
Because you are going to lose your front end, right?
    And so this is important. Penn Station, as I said. The 
Gateway project is an important one, not only for New York 
City, but for the region. And so these are some real challenges 
in infrastructure and transportation. I dare to say that we got 
to be bold and creative when we talk about infrastructure and 
transportation.
    Infrastructure is also a public housing system, because we 
are the landlords, right? Infrastructure is also a broadband 
and 5G. And if we are really going to build infrastructure, we 
are going to do this major infrastructure bill with $1 
trillion. I Googled trillion, and I didn't get anything back 
that I could understand.
    But we got to do it green. It is not just about doing it. 
How could we do it and we could feel proud about it in the rest 
of the world? You have all traveled across the world. It is 
kind of scary and sorry, you know, what we have in our country. 
We are no longer the leaders in infrastructure. We got to be 
the leaders. And in order for us to be the leaders, we not only 
got to build, we not only got to pass the infrastructure bill, 
but we got to do it the right way. And the green way is the 
right way. And it will provide jobs, opportunities, and it will 
be resilient, as well.
    So I think these are the things that we are going to have 
to debate in this committee, obviously. And how do we get the 
money, I think, is the bottom line.
    But I thank you, and I have some questions, but I think I--
New York, we all know how--you know, leave it to a New Yorker, 
we will overextend ourselves. I won't have much to say, but 
that I am the Mariano Rivera of this committee. I will probably 
be the last one, but I will close the game down if you give me 
an opportunity. All right, thank you so much for your 
testimony.
    Mr. Garcetti. Could I say one quick thing in the 30 
seconds?
    Mr. DeFazio. OK.
    Mr. Garcetti. Link housing dollars to transportation 
dollars. Our Governor just did that, and he said, ``You are not 
going to get transportation dollars in our State if you are not 
building the housing that is required,'' because we know when 
housing isn't close, that is what causes traffic, and it is the 
wear and tear on infrastructure. So anything you do to put that 
message through would be very forward-thinking.
    Mr. Espaillat. Thank you. Thank you both.
    Mr. DeFazio. Thank you. Making an announcement here, the 
mayor has to leave at 1 o'clock. There are a number of Members 
that have been waiting to ask questions. If you don't get to 
ask a question of this panel, you will be first on the next 
panel. By--you know, in lieu of having been inconvenienced.
    [Laughter.]
    Mr. DeFazio. So, with that, I would move on quickly to 
Representative Katko.
    Mr. Katko. Thank you, Mr. Chairman, and thank you for this 
hearing today. It has been terrific.
    And Governor, it is nice to see you again. We have had a 
lot of conversations in the locker room over the years, and it 
is--I miss those, and I congratulate you on your new position. 
And thank you, as well, Mr. Mayor. You have both been terrific 
witnesses. As you can see, this is a gigantic committee. And 
the way you have hung in there and been very professional and 
thorough in your answers is greatly appreciated.
    The conversation today makes it clear to me that 
infrastructure is badly needed, infrastructure reform, and 
sweeping infrastructure reform. It is also clear to me that it 
is going to take political courage from both sides of the 
aisle. So I challenge my colleagues to do just that in the next 
few months, and to get something done and get something really 
done for the American people.
    Last term, Governor and Mr. Mayor, myself and Elizabeth 
Esty, the former congresswoman from Connecticut, drafted a 
thorough report from the Problem Solvers Caucus, which is an 
equal number of Democrats and Republicans--which I think is 
exactly what this is going to be about, bipartisanship--about 
infrastructure reform. And it really had three buckets to it.
    One was streamlining the administrative processes and the 
funding processes that are so costly and ridiculously 
burdensome to Governors and local municipalities.
    The second thing was to have reform within the highway 
bill, the highway fund.
    And then it touched on the other things, such as the Harbor 
Maintenance Trust Fund, the airport fund, rural broadband, and 
all those things that need to be done. One of the overarching 
themes of that is that if you have a fund, it should be a fund 
that is not raided. If you have a fund, it should be a stand-
alone fund.
    But with all those things, I think it is apparent to me 
that the highway fund is where you start. And with the highway 
fund we are plugging huge deficits that are getting bigger 
every year, because we have not properly funded it for decades. 
So that is where I want to focus on today.
    And in my report--and I commend it to both of you, and I 
ask you to take a look at it--and I commend to all my 
colleagues, by the way--in that report we look at three things 
within the highway fund: number one is the adequacy of the 
current gas tax; number two are there alternatives to look at 
for the vehicles on the road, such as, you know, trucks and 
freight, and how that should be handled; and, number three, the 
hybrid issue and now the emerging electric issue, with vehicles 
that are going to be riding the roads and not paying anything 
if they are not gasoline powered.
    So I guess my question to you is we all agree--and we have 
been dancing around the elephant in the room--is tell us what 
it is that you would suggest if you could wave a wand and say, 
``Here is how I would fix the highway fund.'' Tell me what you 
would do with some specificity on how to fund it. We all know 
we need it. Tell us how you would fund it.
    Mr. Garcetti. I think I would--I don't speak for every 
mayor, other--the U.S. Conference of Mayors and the National 
League of Cities, I believe, as well, has endorsed the gas tax. 
We would--I would put in a gas tax, find a formula to get a 
pilot in for vehicle miles traveled, and then wean from the 
first to the second over time, as we electrify every vehicle in 
this country, which is going to happen. I mean I think there 
will be some niche, other vehicles, but 20 years from now we 
will say, ``Huh? What were we thinking?'' Everything is going 
to be moving towards that, I believe.
    I would also then--one thing I would add to that, too, is I 
would start--I think as has been discussed--who are the willing 
partners on vehicle miles traveled? I think that is in the 
private sector. I think that is with the trucking industry and 
others, who are saying that they would be willing to do that.
    And then, as we wean, I think it will be, at the same time, 
the technology changes, as well. So probably, you know, a good 
5 to 10 years of continuing gas tax, but have a formula that 
really looks at how much do we want to have, and works 
backwards, and allows you to have the triggers to move more 
quickly if the technology is moving, or to slow it down if it 
is not.
    Mr. Katko. And I will just reinforce what you are saying. 
When we were formulating our report I was stunned by talking--
we talked to hundreds of stakeholders in all different areas. 
And the trucking industry in particular is the biggest advocate 
for that, because they have done studies which show if we pay 
more--but it would be offset by the monies saved from the 
maintenance and wear and tear on our vehicles. So you are right 
about that.
    Mr. Walz. Well, Congressman, thank you for doing the 
report, and thank--you have got a long-time reputation here of 
trying to find solutions, rather than find the divisions. And I 
am grateful for that.
    This is one example of that. I think the mayor laid this 
out. The National Governors Association doesn't have a hard 
position on this. Their position is there are multiple funding 
streams, asking these questions you are asking.
    As a Governor of Minnesota, gas tax is a piece of it. I 
think the momentum of moving towards electric vehicles, we are 
looking at it. And, you know, one of the things was we wanted 
to encourage people to buy electric vehicles, so we used to 
give tax rebates and some of the offsets. Now we are thinking 
about do we charge them more when we register their vehicle? 
That is a good thing, because we have evolved where there is 
more on the road.
    But I think your approach to this, and the way you are all 
thinking about it is this is going to be multifaceted. It needs 
to be fair, and it needs to be forward-looking.
    What I will say on this is that this is going to take us 
time to get to that point. The gas tax is still fundamental and 
core at this point. It won't be in the future, but it has to be 
part of this discussion.
    Mr. Katko. Thank you, gentlemen.
    Mr. DeFazio. Thank you.
    Representative Stanton?
    Mr. Stanton. All right. Thank you very much, Mr. Chair. I 
am excited to serve on this committee. The work of this 
committee is going to be incredibly important. Passing an 
infrastructure bill, investing in America's infrastructure is 
critical to cities and communities all across the country. And 
we can't accomplish our goals as a country, we can't accomplish 
our goals in terms of job creation, economic development, we 
can't accomplish our goals when it comes to climate change and 
fighting the impacts of climate change, and climate change 
adaptation unless this committee successfully does its work and 
reaches bipartisan agreement in passing a significant 
infrastructure bill.
    You know, before I was elected to Congress just a few 
months ago I served as a mayor. I was a big-city mayor, mayor 
of Phoenix, Arizona, the fifth largest city in America. And I 
had the honor to work closely with Mayor Garcetti in the U.S. 
Conference of Mayors. And I can tell you, just as he has shown 
off today as he always does, he is one of the most well-
respected mayors in the United States of America, a leader 
among the mayors.
    So, Mayor, thank you for being here and all you do to 
support cities like Phoenix across America with your great 
work.
    In the city of Phoenix we understand this concept, that it 
is tough to go it alone. The Federal Government in the last few 
years has not been supportive of cities and communities. We had 
to go it alone. As mayor I put on the ballot a significant 
infrastructure investment, 35-year, $32 billion investment in 
light rail and road improvements, in dial-a-ride, in buses, and 
walkability and bikeability, without the expectation of Federal 
support.
    Mayor Garcetti did come and visit me in Phoenix when we 
opened our northwest extension of our light rail line, which is 
a great extension. Not a single Federal dollar in that line. 
The reality is that is good, but not good enough. Federal 
Government needs to be a partner with our local governments if 
we are truly going to be successful. A city like Arizona--
Phoenix in Arizona, the fourth fastest growing State, we need 
that Federal partnership.
    And, of course, when it comes to water and water 
infrastructure, we are in a drought. It is a significant 
drought. And the ability to move water more efficiently is 
critically important. We are going to need Federal partnership 
to get her done. So I can't wait to work in a bipartisan way to 
get it done. It will not be easy. It will not be inexpensive.
    So, Mayor, I want to ask you. You know, U.S. Conference of 
Mayors, you personally have been involved in helping to build 
support. But I still think we haven't done a good-enough job of 
making the case to the American public as to why this 
investment is so important. Advise about how you and other 
mayors in particular--because mayors are still the most well-
respected level of Government, cities and mayors--what they can 
do to help kind of build the case with the American people to 
support the work that this committee is going to do.
    Mr. Garcetti. Well, thank you. And you look great up here, 
Greg. It is great to see you, Congressman. It has been so much 
fun serving with you as a mayor, and I am so excited we have 
one of America's great mayors now serving in this United States 
House of Representatives.
    I also want to give my apologies to the front three here, 
Ms. Davids, Mr. Garcia, Mr. Rouda, because I have to meet 
with--my great other passion on homelessness--with Chairwoman 
Waters, which is why I am going to be--unfortunately, have to 
leave a little early, before your questions. But if you didn't 
hear, you are going to be first on the queue for the next ones, 
if not.
    Make it visceral is the answer. I will tell you a quick 
story with Measure M. We raised $10 million to run a campaign 
to pass this transportation infrastructure initiative in Los 
Angeles. We ran 2 weeks of ads. We need two-thirds vote in 
California. You might think of us as a liberal State, but we 
are very conservative when it comes to passing taxes; you need 
a two-thirds vote. And we were polling at about 63, 64, 65 
percent, so we knew it was going to be a tough lift.
    We ran 2 weeks of ads that were the typical infrastructure 
ads. Look at all these people paving streets, moving. Look at 
all the jobs. We are going to reduce your commute. Trains, 
roads, all that stuff. And 2 weeks into spending $5 million, we 
went down to 61 percent. And I said, ``Oh, no. This thing is 
going down.'' Put all my political capital on the line, built 
that up for 4 years, raised more money, called in every favor 
from everybody I ever knew.
    And my campaign consultant said, ``Let's try this 
differently. Let's get in your car and just drive. No script, 
and I will just film you.''
    And there we were, on Saturday afternoon in Los Angeles, 
and I said, ``Here we are in rush hour traffic,'' and I turned 
the camera. It was stopped traffic. The only problem is it is 
Saturday afternoon. And everybody in Los Angeles got that. It 
wasn't about the politician saying trust us, this miles, this 
much, it was like they got being stuck in traffic.
    And what I said when I opened I will close with, as well. 
We offer help on this. We are raising also hundreds of 
thousands. It will be in the millions of dollars to help 
support you, Mr. Chairman, Ranking Member, this entire 
committee, get the message out throughout America in districts. 
America's mayors are ready to do that. Accelerated for America, 
which is State, local officials, it is the private sector, it 
is Republicans, it is Democrats, it is labor, we will get this 
done.
    So whatever you put out there, we are going to be some wind 
behind those sails. But keep it visceral, keep it human. Don't 
talk about policies and statistics. Get those done in here. But 
when we start selling this, make it a human issue.
    Mr. Walz. If I could, Mr. Chairman, I would echo that, too, 
Congressman. Leverage us. This Nation's 55 mayors of the States 
and Territories will be here on the 23rd of February at a 
roundtable with the sole purpose of saying we are ready for you 
to do this, we are there to get your back, we are there to 
cover it and take the message. So we can do this.
    Now is your time. I think I heard it in here. Be great. You 
have got the opportunity to do it.
    Mr. DeFazio. Tim, thanks. I am going to interrupt, because 
we are going to have one more question from that side.
    Mr. Graves?
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Good to see you. Did you get your miles in this morning?
    [Laughter.]
    Mr. Graves of Louisiana. Oh, gosh, sorry about that. All 
right. Well, congratulations and welcome, Mayor. Thank you for 
being here.
    I wanted to bring up three topics and just ask you to 
respond whichever you feel you have the most expertise.
    Number one, the Federal Government today, we have 
infrastructure programs related to drinking water, wastewater, 
internet and broadband, housing programs, energy programs, 
disaster response, navigation, roads and bridges, you name it. 
We have an infrastructure program for everything. And the 
reality is that we come to the table and we prioritize in a 
very dynamic manner.
    You may have an administration that likes something one 
year, you may have a Congress that likes something the next. It 
changes. We are not a reliable Federal infrastructure partner, 
because we have so many programs.
    So first question is do you believe that we should look at 
which programs truly have a Federal nexus, prioritize those, 
divest ourselves of some of the others and perhaps let States 
and local governments be the reliable partner, reliable leader 
on those other things?
    Second issue is oftentimes, as this hearing notes, we 
believe that money is the solution to problems. And in some 
cases, it is. But in other cases--Mayor, as you have done a 
great job discussing--you have regulatory processes, you have 
planning processes.
    Our project development and delivery process is flawed at 
the Federal level, and we spend an awful lot of money going 
through that, and it doesn't ultimately deliver projects. In 
many cases, we are working on projects now that were conceived 
in the 1970s and 1980s. We are building projects--we are 
building solutions for the 1980s. You both talked about how we 
need to be looking forward, not looking backwards.
    And we are not taking advantage of maximizing the 
efficiency of existing infrastructure, and using the smartest 
planning mechanisms.
    Number three, the idea here is that there is a cost of 
inaction. And so, presumably, there would be a return on 
investment for action. You have both made reference to P3s. And 
how do we best allow for monetizing the investments, monetizing 
that success to where we can expand upon or incentivize P3s to 
be a complementary partner to the Federal Government in the 
projects that we build?
    Mayor, you and I served on a panel on infrastructure last 
year some time, and I made a statement there and I am going to 
say it again: Good projects are already paid for. And what I 
mean by that is that we are spending money that could be 
building the projects, but oftentimes the money is being spent 
on inefficiency, on waste, higher fuel cost, as Mr. Katko 
noted, maintenance, and other things. So----
    Mr. Garcetti. A few things. One, the categories, yes. 
Streamline them. Everybody is for that until you take their 
category away.
    Now, the reality is there is a lot of stuff that already is 
devolved to State and local government. Water, as we talked 
about, is one of those things. We are overwhelmingly--I think 
it might even be higher than 89 percent. Most of that is just 
done at the local, the State level, already.
    When it comes to transportation, I always worry a little 
bit about that, because it is like, well, maybe transit we 
shouldn't be in the business of, but the reality is in 
America's big cities we won't get transit done without that 
Federal match staying in there, and New Starts, and other 
things.
    So, in general, yes to the first piece. But specifically, 
we would have to look at that. And if you have proposals, we 
are more than happy to give you that feedback. There are 
probably some things we could kill off to add more to other 
places, especially as technology has changed.
    Secondly, we have said it and we will say it again and 
again. Whatever you can do to streamline processes, absolutely. 
That time is money. Anybody in the construction trades knows 
that that is probably the single biggest factor that is in our 
control. Other things, like the state of the economy, how much 
we have to pay our workers, all that, is really not always in 
our control. But our bureaucracy and our processes are. So I 
think both those are very important.
    Third, with the P3s, I would say that you are right, good 
projects attract a lot of attention. But the way we have made 
it work is we have tried to make sure that we have an honest 
and sober approach. We know there are certain lines and things 
that we are doing that are very attractive to the private 
sector. They love to run or own airports. They love to do 
certain transit lines when they know that there is a match. And 
there are other things that they won't touch, because they 
think it is the wrong neighborhood, or it is the wrong mode, or 
it is too rural, or it is too urban, or whatever it is.
    So I think as long as we have it as one of the arrows in 
our quiver, and we really expand--that we need every 
municipality, every State to have an office that can do P3s, 
that is the right thing to put out there, rather than mandating 
certain modes always need to be P3s, or we need to look at 
those first. Giving us that flexibility, but mandating 
potentially that we all have to have that somewhere in our 
arsenal is probably the best way forward.
    Mr. Walz. I will just add one closing thought, Congressman. 
And again, the--yes on the streamline. Yes, make it easier.
    The mayor said something really profound when he was 
talking about housing and transportation. One of the things 
about being a Governor is you get to do the budget. And the 
other thing is it has to be balanced. So you get to be really 
smart, and you can't silo up. So I asked my education 
department here if I can't spend any more money I can't have 
kids coming to school who sleep in cars, 17 percent of them, 
the night before. So how does our housing budget impact our 
education budget? How does our education budget impact our 
corrections budget? And start thinking across the lines like 
that.
    So you are right on this. All those funding streams, I 
think, could--again, if we take it away from--what I want is 
one thing. But if it works holistically, do it that way. Saves 
time. You came here to make a big difference. You have an 
opportunity in this transportation bill to do it.
    Mr. DeFazio. OK, I thank the panel. Thank you, Mayor. Thank 
you, Governor. I appreciate it. I appreciate you staying a few 
minutes over to accommodate some complaints from the other 
side.
    We will stand in recess for 5 minutes while the next panel 
assembles.
    [Recess.]
    Mr. DeFazio. The committee will come back to order. And we 
want to expedite things for this panel, so we want to get 
going.
    I want to thank you for coming to testify. I have on this 
next panel Mr. Richard Anderson, president and CEO of Amtrak; 
the Honorable Eric K. Fanning, president and chief executive 
officer, Aerospace Industries Association; Mr. Lawrence J. 
Krauter, chief executive officer, Spokane International 
Airport; Ms. Angela Lee, director, Charlotte Water, on behalf 
of the Water Environment Federation and the National 
Association of Clean Water Agencies; Mr. Rich McArdle, 
president, UPS Freight, on behalf of the U.S. Chamber of 
Commerce; Ms. Kristin Meira, the executive director of the 
Pacific Northwest Waterways Association; and, last but not 
least, Mr. Larry I. Willis, president of the Transportation 
Trades Department of the AFL-CIO.
    With that, the first witness, which is Mr. Anderson, would 
be recognized.

 TESTIMONY OF RICHARD ANDERSON, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, AMTRAK; HON. ERIC K. FANNING, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, AEROSPACE INDUSTRIES ASSOCIATION; LAWRENCE 
  J. KRAUTER, A.A.E., AICP, CHIEF EXECUTIVE OFFICER, SPOKANE 
 INTERNATIONAL AIRPORT; ANGELA LEE, DIRECTOR, CHARLOTTE WATER, 
ON BEHALF OF THE WATER ENVIRONMENT FEDERATION AND THE NATIONAL 
 ASSOCIATION OF CLEAN WATER AGENCIES; RICH McARDLE, PRESIDENT, 
UPS FREIGHT, ON BEHALF OF THE U.S. CHAMBER OF COMMERCE; KRISTIN 
    MEIRA, EXECUTIVE DIRECTOR, PACIFIC NORTHWEST WATERWAYS 
      ASSOCIATION (PNWA); AND LARRY I. WILLIS, PRESIDENT, 
           TRANSPORTATION TRADES DEPARTMENT, AFL-CIO

    Mr. Anderson. Thank you, Chairman DeFazio, Ranking Member 
Graves, and all the members of the committee. I am Richard 
Anderson. I have the privilege of serving as the CEO of Amtrak. 
I am here on behalf of about 32 million people that use Amtrak 
every year, and 20,000 employees.
    Obviously, infrastructure investment is core to the Federal 
Government and its role in our constitutional system, so we 
appreciate your leadership.
    Amtrak provides vital infrastructure services. We own, on 
behalf of the Federal Government, the Northeast Corridor, the 
railroad from Washington, DC, to Boston and out to Springfield. 
We also own and operate critical rail infrastructure around the 
United States.
    On the Northeast Corridor we serve 8 commuter agencies, 
from Virginia up to Massachusetts, that support 800,000 trips a 
day, people going to work, visiting their families, and 
otherwise supporting 20 percent of the GDP of the United States 
up and down the corridor.
    In addition, Amtrak, we think of ourselves as the vascular 
system of rail transportation in America. If you look at all 
the services and infrastructure we provide around the United 
States, we support 300 million intercity and commuter rail 
customers in 46 States, and serve 500 cities across the Nation.
    We cover about 95 percent of our operating costs--probably 
the most efficient passenger railroad in the world--with the 
goal of becoming break-even on operating income in the next 2 
years. But we must have investment on parity with other 
transportation modes in the United States for rail 
infrastructure.
    Investment in intercity passenger rail infrastructure is 
really going to become--it already is in many places, like San 
Diego to L.A. and New York to Washington, but it is going to 
play a greater and more critical role in solving the congestion 
problems in major metropolitan areas. If you look at the 
demographics of America, our preferences are changing. Ninety 
percent of millennials live in 11 megaregions of the United 
States, and they use ride sharing and mass transit, not 
individual cars. We see this when we see Amazon picking its 
headquarters in locations where there is significant commuter 
rail. That is because it is the most efficient and 
environmentally sensitive way to move people in dense urban 
areas.
    We are already seeing these changes: 85 percent of our 
ridership is in dense metropolitan areas. And our highway 
system cannot and will not support the 100 million additional 
people that will live in the United States by 2050. We have 
57,000 miles of interstate highway and, over time, we can't 
really add to corridors like I-95, I-90, and I-5.
    So the bottom line is, along with the infrastructure 
investment in surface transportation, we must include rail, 
because we are the most efficient way, in partnership with 
cities and States, for trips around 150 to 300 miles.
    We serve multiple stations, as we do up and down the 
corridor, and as we do in dense corridors like Milwaukee to 
Chicago, San Diego to Los Angeles, where, because of traffic 
congestion, we have become the preferred mode of 
transportation. The best example of that is New York City to 
Washington, where our market share versus air has grown from 37 
to 76 percent of the combined market.
    So the bottom line is we urge you, as part of your 
deliberations, to include passenger rail on parity with the 
other surface transportation investments, as we are the most 
efficient way to really provide efficient transportation in the 
100- to 300-mile megaregions around the United States.
    In fiscal year 2018 we made about $1.4 billion in capital 
investments. But the biggest infrastructure need on our network 
is the Northeast Corridor. We have approximately $30 billion of 
backlog of investment. Our youngest major asset on the 
Northeast Corridor is the Bush River Bridge, and we put it in 
operation in 1913. We have gotten our money's worth out of all 
these assets, and it is critical that we now undertake the 
major investments to replace the Hudson River Tunnels and the 
important bridges up and down the Northeast Corridor.
    We need a new paradigm for Federal investment 
infrastructure with our host railroads and our partners in 
State and local governments.
    And, most importantly, please ride Amtrak. Thank you.
    [Mr. Anderson's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Richard Anderson, President and Chief Executive 
                            Officer, Amtrak
                              introduction
    Good morning, and thank you Chairman DeFazio, Ranking Member 
Graves, and all of the members of this committee for holding this 
important hearing to discuss the urgent need to invest in our Nation's 
infrastructure.
    My name is Richard Anderson, and I serve as the president and chief 
executive officer of Amtrak. I started as CEO in 2017 and prior to that 
I served as the CEO for Delta Air Lines, CEO for Northwest Airlines, 
and the president of Commercial Business at United Health Group. It is 
my pleasure to testify before you today on behalf of our 20,000 
dedicated employees.
    Today, I am going to discuss why we should not delay investment in 
intercity passenger rail and the consequences if we do wait; I will 
describe some of the major infrastructure, equipment, and stations 
projects Amtrak plans to advance over the next 5 years; and I will 
provide context for why intercity passenger rail has a bright future if 
we make smart investments and decisions as we prepare for the next 
generation.
                       the cost of doing nothing
    Unseen by many, and unconsidered by most, the structures and assets 
that make up America's infrastructure lie at the heart of our economy 
and enable every one of us to live our lives in safety and comfort. 
Without our transportation, energy, and communication networks, we 
would not enjoy the freedom and convenience to raise our families, 
conduct our businesses, and live our lives as we do.
    We owe a great debt to generations past for making significant 
investments of time, talent, and treasure to build these networks. 
Americans across the country are relying on Federal leaders in 
Washington to help maintain and, where necessary, expand these networks 
to protect and improve the Nation's economic and social health and our 
collective defense. Generations to come are depending on us to be 
careful stewards of these assets.
    As the American Society of Civil Engineers observed in its last 
report card, passenger rail service, like nearly all modes of 
transportation, depends on some portion Government funding for its 
capital needs. As an asset-intensive industry with long-lived 
infrastructure, capital funding is the key ingredient for reliable 
service and effective networks. Yet, steady, reliable capital funding 
is precisely what America's intercity passenger rail network does not 
have, and that shortcoming is at the root of the problems I plan to 
cover in remarks today.
    Without this sort of reliable funding over the five decades of 
Amtrak's existence, significant portions of our infrastructure, 
stations, and rolling stock have become outdated and aged beyond their 
useful lives. At the same time, the network's assets are now being 
asked to accommodate far more traffic than they were designed to 
handle, making it more difficult to ensure safe, reliable, on time 
service.
    In an era where perpetual highway congestion and environmental 
concerns highlight rail's compelling advantages, we should be 
discussing the significant upgrades to achieve speeds and levels of 
service found around the world today. To do that, we need adequate and 
stable funding to address our insufficient and outdated passenger car 
fleet and the railroad bridges, tunnels, and supporting systems that 
date back to the 1930s, the 1910s, or even 1873 and are in clear need 
of replacement.
    Every day that goes by without a funded plan to address these 
projects brings us 1 day closer to a having an irrelevant 
transportation system stymied by unreliable structures creating reduced 
speeds and capacities, resulting in prolonged commute times and travel 
delays. These disruptions will impose significant costs--to 
individuals, to neighborhoods and cities, and to the Nation--all when 
the use of intercity passenger rail should be increasing across our 
country.
    The Northeast Corridor (NEC) is a prime example of the benefits of 
intercity passenger rail, as well as illustrate why delayed investment 
can have a profoundly negative impact to the region. The NEC rail 
network between Washington, DC, and Boston, Massachusetts is an engine 
of economic activity for the United States in the delivery of workers 
to jobs, businesses to clients, goods to market, and people to their 
friends, family, and leisure activities. The NEC region is home to more 
than 51 million people and four of the ten largest metropolitan areas 
in the country. The NEC connects interdependent markets that 
collectively are a national and global force. Its economy is the fifth 
largest in the world, ahead of France and just behind Germany. Its 
commuter rail and Amtrak intercity services provide 820,000 trips each 
day, moving a workforce that contributes more than $50 billion annually 
to the national economy. Job density is even greater around the NEC's 
rail stations. Within 1 mile of the NEC stations, the average 
employment density is 680 times higher than the U.S. average. Rail 
connections not only provide residents of outlying communities with 
access to a broader range of jobs, but it also provides them with 
access to better paying jobs. Commuter rail riders on the NEC earn, on 
average, approximately twice the national average.
    Passenger rail is a vital artery for this region. Amtrak carries 
more intercity passengers within the Northeast than all airlines 
combined. Service disruptions on the NEC caused by infrastructure 
failures, rail traffic congestion, and other factors already cost $500 
million per year in lost productivity. Without higher levels of capital 
investment, those losses are likely to grow. An unexpected loss of the 
NEC for 1 day alone could cost the Nation nearly $100 million in 
transportation-related impacts and productivity losses, roughly the 
daily economic output of cities like Winston-Salem, North Carolina, 
Portland, Maine, or Boulder, Colorado. Expert analysis suggests that 
should the NEC not receive the necessary investments to accommodate 
anticipated growth by 2025, the country will bear an annual $1.2 
billion cost in additional costs for the highway and aviation systems. 
If long-term, sustained, NEC investments are made, they will repay us 
with an annual $8.2 billion gained by 2040 in savings for the highway 
and aviation systems.
    All one needs to do is visit New York Penn Station, Chicago Union 
Station, or Los Angeles Union Station at rush hour to see how 
infrastructure enables careers, fuels businesses, and fosters 
opportunity. Yet at the same time, we have seen how an infrastructure 
failure can dramatically impact these major centers of economic 
activity. For example, a 2017 track failure in New York Penn Station 
caused a low-speed derailment, and subsequent investigation led Amtrak 
to launch a significant work program. For decades, Amtrak has 
maintained and repaired this aging infrastructure, some of which dates 
to the 1970s, while the demands placed on it have grown significantly. 
The 2017 examinations made it clear that full replacement was required. 
During the summer of 2017, Amtrak kicked off its Infrastructure Renewal 
at New York Penn Station, and continues it to this day. The 
Infrastructure Renewal program is one element of Amtrak's plan to 
modernize stations, infrastructure, and equipment on the NEC. I am 
proud to say Amtrak completed this work so far on schedule, on budget, 
and with no significant injuries.
    As important as the NEC is for Amtrak, the hub for our national 
network is Chicago, which is our fourth busiest station, with 3.3 
million boardings and alighting in FY2018. Eight of our 15 Long 
Distance routes and nine of our 29 State-Supported routes start or end 
in Chicago. Combined, this represents about 55 trains per day there and 
these trains carried 5.2 million people in FY2018. These customers are 
dependent on the smooth functioning of our facilities in Chicago, 
whether or not they actually travel in or out of the station.
    Intercity passenger rail delivers many similar benefits to cities 
outside of the NEC, too. Turning to Chicago, where Amtrak has joined 
with the U.S. Department of Transportation (USDOT), the State of 
Illinois, the city of Chicago, Metra, and the Nation's freight 
railroads to form a first-of-its-kind partnership: the Chicago Region 
Environmental and Transportation Efficiency Program (CREATE). Since 
2003, the CREATE Partners have worked to enhance the quality of life 
for Chicago area residents and the economic health of the Nation by 
investing in critically needed improvements to improve the efficiency 
of the region's commuter, passenger and freight rail infrastructure 
while mitigating community impacts. CREATE calls for $4.4 billion in 
infrastructure investment that over a 30-year period will generate an 
estimated $31.5 billion in economic benefits. Some of these benefits 
are already being realized with the projects constructed to date.
    Further west, rail has become an increasingly integral part of 
California's transportation system and will play a key role in 
accommodating the required growth in the coming years. Amtrak operates 
more than 70 intercity passenger trains per day in California, serving 
5.6 million boardings annually, up from 3.6 million a decade ago and 
now starting to approach our Northeast Regional service passenger 
counts. Additionally, California commuter rail ridership, some of which 
is operated by Amtrak, grew to nearly 33 million trips in 2016, up more 
than 50 percent from 21.6 million trips a decade earlier. These rail 
services connect to California's urban transit systems, which provided 
1.5 billion trips in 2014.
    To gain a sense of the scope and importance of our State supported 
trains, it is worth remembering that Amtrak partners with 21 agencies 
in 18 States to operate 29 State supported routes. In 2008, Section 209 
of PRIIA (spell out if necessary, depending on where this goes) 
required States to fund all routes less than 750 miles in length using 
a single, jointly developed, standardized cost-sharing methodology. 
This methodology became effective in October 2013. Together, State 
supported carry 15 million passengers annually, almost half of all our 
customers. This number has grown by two-thirds over the last 20 years, 
and this growth shows every sign of continuing.
    The trains that we operate under these agreements can be found 
across the country, from west coast where you can find the Cascades 
service in Oregon and Washington, and in California the Capitol 
Corridor, Pacific Surfliner, and San Joaquins. In the Midwest, Illinois 
and Wisconsin support the Hiawatha, Illinois and Missouri support the 
Lincoln Service, Illinois operates the Carl Sandburg, Illini, Illinois 
Zephyr, and the Saluki, Indiana supports the Hoosier State, Michigan 
supports the Blue Water, Pere Marquette, and Wolverine, and Missouri 
runs the Missouri River Runner. Further south, Oklahoma and Texas 
combine to run the Heartland Flyer.
    In the Northeast, the Downeaster runs from Maine down to Boston, 
Vermont and Massachusetts support the Vermonter, Vermont and New York 
run the Ethan Allen Express, Massachusetts and Connecticut cooperate on 
service to Springfield, and New York operates the Adirondack, Empire 
Service, and Maple Leaf. Moving south, Pennsylvania operates the 
Pennsylvanian and the Keystone Corridor, Virginia supports trains that 
run from DC down to Newport News, Norfolk, Richmond, and Roanoke. 
Finally, North Carolina supports both the Carolinian and the Piedmont.
    This growing network has seen recent extensions in Virginia and 
increased frequencies in Connecticut, Maine, Massachusetts, and North 
Carolina. Additional growth in 2019 is planned in California, 
Massachusetts, Oregon, Virginia, and Washington. A little further out, 
we anticipate expanding in Illinois, Kansas, Oklahoma, Pennsylvania, 
Texas, Vermont, and Wisconsin, and restoring service to the gulf coast 
between Mobile and New Orleans.
    Beyond that, there are numerous markets where either the 
introduction or expansion of service makes sense and significant local 
interest has been expressed. Examples include Coachella Valley, the 
Front Range, Illinois's Quad Cities, the Twin Cities, Indiana, and 
south of Richmond to Raleigh.
                        planning for the future
    In addition to the infrastructure challenges discussed today, our 
transportation system is facing unprecedented strains from several 
other important factors, including: population growth and urbanization, 
changing travel habits and demand, technological disruption, limited 
capacity, and network inefficiencies. Amtrak and intercity passenger 
rail can help, but to do so, Amtrak must modernize our passenger 
equipment, update our products, and expand our network. With a stronger 
foundation, we can provide more value to the Nation.
    If you look at today's Amtrak route map, it looks eerily similar to 
the one created in 1971. Yet, this Nation has grown and changed during 
this time period, and this is expected to continue, and in fact 
accelerate, for several reasons. Population and economic growth, and 
the continuous trend over the last 20 years towards urbanization, are 
driving congestion and demand in major metropolitan areas and the 
corridors that connect them. In particular, the millennial generation, 
set to become the majority of the U.S. population this year, is 
changing the overall travel landscape with their preference for 
flexibility, constant connectedness, and affordability. While highways 
and air capacity is limited and performance is likely to get worse for 
these modes, intercity passenger rail can help provide a solution for 
these future travel demands. This pressure appears to be inevitable.
    It is projected that the Nation's population will grow to between 
400 million and 450 million by 2050. It is anticipated that much of 
this growth will be in urban areas. We have already seen this growth 
trend begin in the 20th century; for example, the population of rural 
America has stayed relatively flat, but the urban population has 
exploded during this same, increasing as a percentage of the total 
population from 45.6 percent in 1910 to 80.7 percent in 2010. To be 
clear, this urban growth is not limited to the Northeast; it is 
actually happening at higher rates in metro areas outside the Northeast 
like the South, Mountain West and West.
    Unfortunately, many of these ``megaregions'' are underserved by 
intercity passenger rail. Just look at a map and you can see glaring 
gaps in Amtrak service to cities like Atlanta, Houston, Dallas, Orlando 
and Tampa, Denver, Salt Lake City, Las Vegas, Phoenix, Nashville, 
Austin, Cincinnati, New Orleans, and Birmingham. While some of cities 
are served by Amtrak, they only receive daily or tri-weekly service as 
part of our Long Distance network. These trains can only provide 
limited utility connecting such major population centers to adjacent 
cities and towns within intercity passenger rail's ``sweet spot'' of 
400-mile corridors or less because of the limited frequencies, often 
uncompetitive trips time, and very poor on-time performance, which only 
average 50 percent, owning to poor performance over many of our host 
freight railroads. The demand is clearly there for additional short 
corridor service throughout the U.S, which includes both additional 
frequencies for existing routes and establishing new routes between 
city pairs.
    This is reinforced when you look at where Amtrak is most successful 
today. Approximately 85 percent of Amtrak's ridership comes from the 
top 100 metro areas. Further, approximately 96 percent of Amtrak trips 
are less than 750 miles in length. In fact, the vast majority of our 
riders' trips are less than 250 miles. The present network simply does 
not fit the future.
    I mention this because in order for Amtrak to grow corridor service 
and better serve the Nation, we must confront several challenges head 
on. First, investment in infrastructure, equipment, and stations, 
similar to what has been discussed today, is critical to growth of 
intercity passenger rail. Second, the current process of negotiation 
with our host railroads has often made it very difficult for Amtrak to 
add frequencies and new routes; this too must be addressed if passenger 
rail is to respond to the growing demand. The reauthorization of the 
Fixing America's Surface Transportation (FAST) Act creates both the 
opportunity and the necessity to rethink the role of intercity 
passenger rail in the national network. We want a strong partnership 
with Congress and other stakeholders and later this year Amtrak plans 
to propose a comprehensive reauthorization proposal for your committee 
to consider. Together, there is a bright future ahead for intercity 
passenger rail in the United States.
    Now, as America needs more from its rails than ever before, I need 
you to consider these structures, to grasp their necessity, to learn 
their limitations, and to work with us to envision a new generation of 
infrastructure that will serve the country for future generations.
    Having tried to convey the importance of this topic, let me shift 
to a review of the sorts of assets Amtrak requires to fulfill its 
mission. When railroaders speak of infrastructure, we usually include 
three categories in that term: fixed assets like bridges, tunnels, and 
our rights of way; rolling stock made up of our locomotives, passenger 
cars, and trainsets; and our stations. For many outside of our 
industry, fixed assets are the most easily understood category, so I 
will start there.
                       fixed-asset infrastructure
    Amtrak owns and/or manages infrastructure nationwide with an 
estimated replacement value of $75.6 billion. Amtrak owns and operates 
363 route-miles (or 1,169 ``track-miles'') of main line infrastructure 
on the NEC main line connecting Washington, DC; Philadelphia, 
Pennsylvania; New York, New York; and up to the Massachusetts/Rhode 
Island border. Amtrak also owns branch lines of the NEC, is the 
responsible infrastructure manager for long-term leased infrastructure 
on the Empire Line, and Amtrak is also responsible for track 
infrastructure assets nationwide, including the segment between Porter, 
Indiana and Kalamazoo, Michigan; in Hialeah, Florida, and yard tracks 
and sidings in cities across the country.
    This portfolio of assets has served the region and the country 
well. Nonetheless, Amtrak's funding levels over the years has never 
been sufficient to address all of the capital needs that come along 
with a physical plant that is in many places at or beyond its useful 
economic life. Congress took an important step in addressing this 
chronic shortfall with the Passenger Rail Investment and Improvement 
Act of 2008 (PRIIA). Section 212 of that legislation established the 
Northeast Corridor Commission and charged it with developing a formula 
to allocate NEC capital and operating costs based on usage, making 
recommendations to Congress, and facilitating collaborative planning. 
The Commission is made up of 18 members, including representatives from 
each of the eight NEC States, the District of Columbia, Amtrak, and the 
USDOT. Amtrak, States, and commuter railroads will contribute 
approximately $3.1 billion over the next 5 years through the NEC 
Commuter and Intercity Rail Cost Allocation Policy, helping create a 
reliable source of funding for the capital renewal of basic 
infrastructure assets. The NEC has hundreds of miles of aging track 
bed, hundreds of century-old small bridges, over a dozen century-old 
major bridges and tunnels, and power supply and signal systems that 
still rely on 1930s technology.
    Unfortunately, Amtrak and the States alone do not have the funds to 
reduce the NEC state of good repair (SOGR) backlog, let alone address 
many of the major projects that are so critical to the region and the 
Nation. Simply put, these infrastructure projects are perfect examples 
of why we cannot wait to invest in our infrastructure.
Portal North Bridge
    The century-old Portal Bridge is a two-track swing bridge over the 
Hackensack River in New Jersey that rotates open for maritime traffic 
several times per month. 450 trains cross the bridge as they travel 
between Newark, New Jersey, and New York Penn Station every day. The 
bridge is a major bottleneck and source of delay for Amtrak and NJ 
Transit (NJT) trains--the aging mechanical and electrical components 
sometimes malfunction while opening and closing, causing a cascade of 
delays. It carries more passenger trains than any other rail bridge in 
the Western Hemisphere.
    The Pennsylvania Railroad constructed Portal Bridge in 1907 and 
began revenue operations in November 1910. The bridge earned the name 
``Portal,'' because it leads the NEC rail line to the ``portal'' of the 
North River Tunnel, located just 3 miles away. It consists of seven 
spans and totals 960 feet in length. The middle span is 300 feet long 
and pivots to open for marine traffic.
    The swing span and special ``miter rail'' configuration pose 
maintenance and operational challenges. Due to age and fragility, 
trains are restricted to a maximum of 60 miles per hour over the 
bridge. Only 23 feet of clearance separate the Hackensack River and the 
bottom of the bridge.
    Fully designed and permitted, early construction work on this 
project began in the summer of 2017. This work is funded by a 
Transportation Investment Generating Economic Recovery (TIGER) grant to 
NJT and includes the realignment of two 138kV transmission poles, the 
installation of new fiber optic cable poles, the installation of a 
construction access structure known as a finger pier, a steel bridge 
structure over the Jersey City Municipal Utility Authority water main, 
and a retaining wall just west of the Frank R. Lautenberg Station at 
Secaucus Junction.
    Funding for approximately 50 percent of the estimated project cost 
has been committed by funding partners Amtrak and NJT including up to 
$600 million of bond proceeds by the State of New Jersey. The project 
was accepted into the Federal Transit Administration's Capital 
Investment Grant (CIG) Project Development pipeline in July 2016. 
Construction of this nationally significant project can start as soon 
as a Federal financial commitment is in place. The new Portal North 
Bridge is estimated to cost approximately $1.6 billion. A financial 
plan and request to enter the next phase of the CIG process have been 
submitted to the U.S. Department of Transportation, so construction can 
proceed as soon as possible.
Hudson Tunnel Project
    The Hudson Tunnel Project is intended to preserve the current 
functionality of Amtrak's NEC service and NJT's commuter rail service 
between New Jersey and New York Penn Station by repairing the existing 
North River Tunnel. It will also strengthen the NEC's resiliency and 
ability to support reliable service by providing redundant capacity 
under the Hudson River for Amtrak and NJT trains. These improvements 
must be achieved while maintaining uninterrupted commuter and intercity 
rail service and by optimizing the use of existing infrastructure. The 
project involves design and construction of a new rail tunnel under the 
Hudson River as well as the rehabilitation and modernization of the 
existing 108-year-old North River Tunnel.
    The roughly 10-mile section of the NEC between Newark, New Jersey, 
and New York Penn Station is the busiest stretch of railroad in North 
America. Every day, 450 trains carry passengers making 200,000 
intercity and commuter rail trips over just two tracks that cross the 
century-old Portal Bridge and traverse the North River Tunnel en route 
to a space-constrained New York Penn Station. In October 2012, Super 
Storm Sandy significantly damaged the North River Tunnel when both 
tubes (each containing one track) were inundated with millions of 
gallons of brackish sea water. The water was pumped out, but salts and 
chemicals left behind continue to degrade systems including the track 
structure and the concrete bench walls that line both sides of the 
tunnels. Through these bench walls pass critical high-voltage cables 
and other infrastructure that powers NEC trains and the New York Penn 
Station terminal complex.
    While the existing tunnel is safe for use, certain elements of 
tunnel infrastructure remain in poor condition as a result of the storm 
damage and have required emergency maintenance that disrupts service 
for hundreds of thousands of rail passengers throughout the region. 
Despite ongoing maintenance, the damage can only be addressed through a 
comprehensive reconstruction of the tunnel.
    The benefits of completing this project are immense--it will 
preserve existing NEC service, improve reliability, add resiliency and 
system redundancy, and offer substantial environmental benefits. Not 
tackling this project invites disaster. A closure of just one tube of 
the North River Tunnel could reduce capacity by as much as 75 percent 
and force tens of thousands of commuters and travelers onto already 
congested bridges, tunnels, and highways in both New York City and New 
Jersey. The resulting congestion would lead to degradation of air 
quality throughout the region. The movement of people and goods to and 
from the Nation's largest regional economy would be severely 
constrained, putting 10 percent of America's gross domestic product at 
risk.
    Prior to issuing funding for the Hudson Tunnel Project, the Federal 
Railroad Administration (FRA) must consider the environmental effects 
of the Project in accordance with the National Environmental Policy Act 
(NEPA). On behalf of the local partners, NJT prepared and submitted an 
Environmental Impact Statement (EIS) to evaluate the Hudson Tunnel 
Project. Amtrak, in partnership with the PANYNJ, is conducting the 
preliminary engineering.
    Work on the EIS was completed by the local partners on an 
accelerated 24-month schedule, roughly half the time a project of this 
magnitude would normally require. The EIS has been under review by FRA 
and USDOT since February 2018. A Record of Decision (ROD) is required 
to move the project forward and meet the project schedule.
    In June 2018, as the 24-month period for advancing through the 
Project Development phase of the CIG process was ending, the PANYNJ 
transmitted a letter to the Federal Transit Agency (FTA) in which it 
reaffirmed the $5.5 billion in financial commitments by the Project 
Partners and assumed the role of NEPA Project Sponsor. The Final EIS/
ROD is the next needed element to advance through the CIG process. 
While it was originally on track for completion in March 2018, it is 
currently still pending. An updated draft of the Final EIS was 
transmitted to FRA in December 2018 and remains under review with no 
additional timeline given.
East River Tunnel
    The East River Tunnel (ERT) is actually made up of four single-
track tubes that extend from the eastern end of New York Penn Station 
under 32nd and 33rd Streets in Manhattan and cross the East River to 
Long Island City in Queens. The tracks carry Long Island Rail Road 
(LIRR), which make up 72 percent of the 810 trains that move through 
them daily, Amtrak trains travelling to and from New York Penn Station 
and points to the north and east (17 percent), and out-of-service NJT 
trains moving to and from Sunnyside Yard (11 percent).
    Following the inundation caused by Hurricane Sandy, Amtrak has 
conducted through analyses to ascertain the tunnels' conditions. While 
some cracks predated the storm, the urgency has accelerated post-Sandy 
as corrosion (and the associated steel expansion) likely increased due 
to saturation of various structural elements. Accordingly, the Final 
Design phase includes a specific Task for the prioritization and design 
of intermediate repairs that can be implemented as needed between now 
and the full reconstruction outages to maintain safe operating 
conditions within the tunnels. The FRA and Amtrak inspection personnel 
are eager to resolve the spalling concrete, leaks, and deflecting 
splice chambers within the ERT, which are in all likelihood 
contributing to increased electrical or signal system faults.
    The scope of the full reconstruction will include demolishing all 
interior components and systems of ERT 1 and 2 down to the concrete 
liner and rebuilding with modern electric traction, signals, and 
security systems, Direct Fixation Track, improved drainage, and a one-
high-one-low benchwall layout for improved egress and equipment access. 
This approach will improve safety, reliability, and resiliency by 
creating a modernized egress path, maintaining dryer conditions within 
the trackbed, and moving critical equipment out of the tunnels.
    Preliminary Design was initiated in Spring 2015 and culminated in a 
30-percent Design Milestone in November 2016. The Final Design Notice 
to Proceed (NTP) was issued on July 31, 2017, and design will continue 
into early 2020, contingent upon receiving the important required 
outages for engineering observations, geodetic survey, LiDAR 3D-
scanning, and material sampling that are essential to enable the design 
to progress. While tunnel track and station outages are always in 
demand for ongoing inspections, regular and emergency maintenance, and 
an increasing number of impacting projects and development, this 
project is a high priority for Amtrak and the region. Intermediate 
deliverables have already begun with a Value Engineering Workshop and 
Report. A Draft Repair Prioritization Report is expected in October to 
guide Amtrak on the priority and design of near-term repairs that can 
be implemented on an as-needed basis up to the time of full 
reconstruction. The cost of Final Design is approximately $20 million, 
in addition to the $3.25 million that has already been spent to date on 
Preliminary Engineering.
    The timing for these critical full-tunnel outages is under study by 
a Tri-Venture group consisting of Amtrak, LIRR, and NJT. Operations 
analyses are ongoing to evaluate the required level of schedule 
modifications for each carrier under various scenarios that mostly 
involve interaction with the East Side Access Project. Outage durations 
for ERT 1 and 2 are estimated at roughly 2 years each, excluding 
preparatory work.
    The latest cost estimate for the tunnel repair project is over $1 
billion, depending on a variety of factors including when the project 
commences.
Baltimore & Potomac Tunnel Replacement
    The Baltimore & Potomac (B&P) Tunnel is a two-track railroad tunnel 
running beneath central Baltimore City between Baltimore Penn Station 
and the West Baltimore Maryland Area Regional Commuter (MARC) station. 
This busy section of the NEC is used by Amtrak and MARC passenger 
trains, as well as Norfolk Southern Railway (NS) freight trains.
    Built just after the Civil War in 1873, the B&P Tunnel is among the 
oldest infrastructure along the NEC. Due to its age, the tunnel is 
approaching the end of its useful life. Its obsolete design creates a 
low-speed bottleneck on this high traffic section of the NEC. Both the 
constriction of tunnel volume from four tracks to two tracks, as well 
as the tunnel's tight curvature, require trains to reduce speeds to 30 
miles per hour, placing limitations on all train traffic. The tunnel 
requires replacement or will have to be taken out of service for 
significant rehabilitation to extend its useful life. Any closure of 
the tunnel will greatly jeopardize the intercity, commuter and freight 
rail traffic that relies upon the tunnel to move people and goods 
throughout the region.
    The B&P Tunnel system is approximately 1.4 miles long and is 
comprised of three shorter tunnels: the John Street Tunnel, the Wilson 
Street Tunnel; and the Gilmor Street Tunnel. The narrow, single-bored, 
double-track tunnel was originally constructed out of brick and stone 
masonry, though repairs have added additional building materials over 
time. Electrification was added in the 1930s, and the tunnel was 
rehabilitated in the 1980s. That work was not intended as a permanent 
fix and continuously increasing maintenance is required to address 
water infiltration and masonry repairs on the aging structure.
    The B&P Tunnel Project will improve service reliability and help 
make Amtrak and MARC less susceptible to maintenance-related delays. 
Its aging condition has resulted in increased maintenance needs. One 
such example is the high saturation of water in the soil beneath the 
tunnel; this causes the tunnel's aging floor slabs to slowly sink, 
forcing Amtrak to make repeated repairs. Amtrak performs thorough 
inspections and vigilant maintenance to ensure ongoing safety 
standards.
    The existing tunnel does not provide sufficient capacity to meet 
projected passenger and freight rail demand through 2040 and beyond. 
When completed, this project will create new capacity to support 
additional Amtrak, MARC, and freight operations. New tunnels could free 
the existing tunnels for renewal and other uses.
    The existing tunnel is not suited for modern high-speed train 
operations due to tight clearances and sharp curves, which limit train 
speeds. Replacement of the B&P Tunnel will allow for increased speeds 
through the Baltimore region. This improvement would contribute to 
unlocking the current bottleneck which now impedes operations along the 
most heavily traveled rail line in the country.
    The FRA, Maryland Department of Transportation (MDOT), city of 
Baltimore and Amtrak have cooperated on an EIS for a replacement tunnel 
as required by the NEPA.
    Funding is now needed to refine and finish design and start 
construction of the approximately $5 billion new tunnel system. Funding 
will be pursued through a combination of USDOT grant programs, funding 
for Amtrak, and local matches.
Susquehanna River Bridge
    Amtrak's existing two-track Susquehanna River Bridge crosses the 
Susquehanna River between the city of Havre de Grace and the Town of 
Perryville in Maryland--roughly mid-way between Wilmington, Delaware 
and Baltimore, Maryland. The highly used bridge serves Amtrak, MARC, 
and NS to carry passenger and freight trains across the Susquehanna 
River.
    Owned by Amtrak, the Susquehanna River Bridge is the longest 
moveable bridge on the NEC and is a critical link for intercity, 
commuter, and freight connectivity in the Mid-Atlantic. Built in 1906, 
the bridge is approaching the end of its service life and will need to 
be replaced with a new structure to maintain future rail services 
across the Susquehanna River. The age of the bridge and its 
constriction from four to two tracks limits the speed and number of 
trains that can use the bridge. The replacement of the Susquehanna 
River Bridge is necessary to preserve reliability and allow the future 
expansion of both commuter and intercity service. The project will also 
significantly improve the navigation channel for maritime users.
    The Susquehanna River Bridge was constructed in 1906 as a 4,000-
foot multi-span truss bridge. The limited number of tracks across the 
river, combined with the wide variety of trains utilizing the bridge 
and the need for continual maintenance, results in tightly managed and 
restrictive operations. While regular, major repairs have occurred on 
the bridge since the 1960s, few repairs and/or inspections can be made 
without disrupting rail operations. The existing bridge's movable swing 
span causes train delays when opening is required for marine traffic, 
and large crews are needed to operate the span because work must be 
done quickly. Each bridge opening introduces risks of significant train 
delays if a breakdown of the operating mechanisms were to occur.
    In addition to passenger rail, the bridge provides critical freight 
connectivity to the Ports of Baltimore, Maryland and Wilmington, 
Delaware, moving manufacturing, agricultural and raw materials 
throughout the region, Nation and around the globe.
    The benefits of pursuing this project are similar to the other 
projects discussed today--more reliable, flexible, and faster service, 
expansion of future freight, commuter, intercity, and high-speed rail 
operations, improved maritime navigation and safety, and enhanced trade 
connectivity for economic growth.
    With significant growth in passenger and freight rail service 
expected by 2040, the replacement bridge is being designed to 
accommodate future capacity needs. The new bridge design includes two 
new high-level, fixed bridges with a total of four tracks--doubling 
capacity compared to the current two tracks.
    One of the new bridges would be built primarily to serve high-speed 
trains operating at speeds up to 160 miles per hour. With 60 feet of 
vertical clearance, the new fixed bridges will support better maritime 
uses along the river by maintaining navigation and eliminating the need 
to open and close for tall vessels.
    Amtrak, the FRA, and MDOT have cooperated on an Environmental 
Assessment (EA) for a new replacement bridge, as required by the NEPA.
    Funding is now needed to finish design and construct the estimated 
$1.7 billion new bridge. Funding will be pursued through a combination 
of Federal grant programs, funding from Amtrak, and other State and 
local matches.
                             rolling stock
    Amtrak's equipment includes the railroad's fleet of passenger 
locomotives, railcars, and trainsets. The equipment is used to carry 
customers on the railroad's three intercity rail passenger service 
lines: Northeast Corridor, State Supported, and Long Distance. A 
significant portion of Amtrak's fleet is at or nearing the end of its 
useful service life.
    As of late 2018, the active fleet includes some 262 road diesel 
locomotives, 66 electric locomotives, 1,408 passenger cars, and 20 
high-speed trainsets. Additionally, Amtrak and various State partners 
own fleets of seven Talgo trainsets and 49 Alstom Surfliner railcars, 
with Amtrak owning 29 Talgo car equivalents and 39 Surfliner cars. 
Amtrak operates an additional 196 locomotives and railcars owned wholly 
by State partners.
    With the railcar fleet averaging nearly 33 years of age, diesel 
locomotives averaging nearly 21 years of age, and a long lead-time to 
procure any replacement units, Amtrak is focused on the continued 
modernization of its passenger car, locomotive, and trainset fleets. 
Railcars in North American mainline passenger service typically have a 
service life between 30 to 50 years. Road diesel locomotives typically 
have a shorter lifespan than railcars, as do high-speed trainsets. 
Where exceptions to such average lifespans exist, it is because 
equipment is rebuilt at considerable expense and/or the equipment 
accrues fewer annual miles than most Amtrak equipment.
    Amtrak plans to build upon our recent refleeting efforts to launch 
and/or complete nine major fleet initiatives to modernize Amtrak's 
passenger car, trainset, and locomotive fleets, which will largely 
feature replacement of most locomotives and railcars in Amtrak service 
today. Descriptions of each of the efforts follow, although more 
detailed explanations of all of them can be found in Amtrak's 5-Year 
Equipment Asset Line Plan.
New Acela Trainsets
    First, as Acela Express nears its twentieth anniversary of service, 
replacement has become necessary for the fleet. Worldwide, high-speed 
trainset fleets typically have shorter service lives than conventional 
equipment. Further compounding the need for replacement is the 
insufficient capacity available on Acela Express on peak trips. In 
FY2016 Amtrak placed an order with Alstom for 28 Avelia Liberty 
trainsets to replace the existing Acela Express fleet while expanding 
capacity to meet future demand. Twenty Acela Express trainsets with 304 
seats each will be retired when the 28 new trainsets with 380 seats 
each arrive, most in FY2021-FY2022. The additional sets allow for 
additional frequencies, including hourly New York-Boston service and 
half-hourly New York-Washington service during peak periods. The Alstom 
Avelia platform is a proven design currently operating in France and 
Italy, among other countries.
New Diesel Locomotives
    Second, Amtrak's fleet of 200 P40 and P42 locomotives, currently 
used on all Long Distance routes and most State-Supported routes, is 
rapidly approaching the end of its useful life. Additionally, the units 
were ordered before the Environmental Protection Agency (EPA) impose'd 
locomotive emissions standards and are noncompliant with modern 
emissions standards. Amtrak has launched its own process for acquiring 
new diesel locomotives to replace the P40/P42 fleet and following a 
request for proposal (RFP), on December 20, 2018, announced the 
contract award to Siemens for a base order of 75 Charger locomotives 
for Long Distance routes, plus additional options to permit order 
growth to address the long-term needs of the network pending Congress' 
reauthorization of Amtrak in FY2020 and the completion of the Amfleet I 
procurements described below, which could influence locomotive quantity 
requirements. Factors that will impact the specific quantity of 
locomotives required are discussed in more detail in our 5-year 
Equipment Asset Line Plan.
Replacement of Amfleet I
    Third, Amtrak's 457 active Amfleet I cars and 16 ex-Metroliner cab 
control coaches that support our Northeast Regional trains and many 
State Supported services are at the end of their commercial and useful 
service lives. In FY2018 Amtrak launched an Amfleet replacement RFI. To 
survey the greatest possible number of qualified vendors, technologies, 
and products in the global marketplace, Amtrak has expressed interest 
in solutions including, dual-powered, diesel or electric multiple units 
(MUs), unpowered trainsets, and single cars. While Amtrak's current 
fleet is mostly made up of individual railcars today, the global 
marketplace for intercity corridor rail passenger equipment since the 
1970s has shifted towards trainsets with cabs at both ends, which 
eliminate the need to loop or wye equipment between trips. Amtrak's RFI 
was designed to determine how the railroad can best tap into this 
global marketplace of products and expertise. Amtrak issued an RFP for 
Amfleet I replacement equipment on January 18, 2019, using information 
learned from the RFI process and a performance-based specification 
developed by Amtrak and other stakeholders. Amtrak plans to make a 
contract award for base orders of one or more equipment solutions to 
replace Amfleet I and ex-Metroliner equipment, with options for 
additional fleet expansion in FY2019. Deliveries of Amfleet I 
replacement units will likely occur during the early-to-mid 2020s, 
following deliveries of Avelia Liberty high-speed trainsets. As part of 
this procurement, one of the most significant service improvements that 
Amtrak is seeking from refleeting is the elimination of engine changes 
for trains which travel on both the NEC and State-Supported routes. 
Should Amtrak obtain a dual-power capability for through trains between 
the NEC and State corridors, Amtrak would realize several benefits, 
including scheduled trip times reductions of 15 to 30 minutes (a 
reduction that would cost billions to achieve through right-of-way 
improvements), a decrease in locomotive movements and platform capacity 
utilization in busy terminals, an increase in on-time performance as 
the delay risk of locomotive changes was eliminated, and passengers 
would not lose lighting, climate control, or working toilets during 
engine changes. This more attractive service would be less labor-
intensive, needing less mechanical and yard-to-station transportation 
work and less total travel time which train crews must work to complete 
a given trip. At this time, some 20 train consists switch between 
diesel and electric power each day on the affected routes, which 
translates into a need for approximately 25 new trainsets or dual power 
locomotives (including spare ratios) to convert existing through trains 
to dual power. The plans of Amtrak's State partners Virginia and North 
Carolina to expand through service from the NEC to their respective 
State corridors would benefit from additional dual power consists. The 
dual power method chosen, and base and options quantities of dual 
powered equipment purchases, will be determined during FY2019 as part 
of Amtrak's review of Amfleet replacement RFP responses and selection 
of a technology, and with the concurrence of relevant State partners. 
Dual power operations may commence by the mid-2020s along the affected 
routes.
Multilevel Fleet
    Fourth, Amtrak currently operates a multilevel fleet of 242 
Superliner I railcars built in 1979-1981 and 184 Superliner II cars 
built in the mid-1990s. These cars are used primarily on western Long 
Distance trains and on a few State corridors. Additionally, Amtrak 
operates a fleet of 49 Surfliner cars built around 2000 that is jointly 
owned by Amtrak and Caltrans and used exclusively on the Pacific 
Surfliner. Amtrak's California State partners also own 78 California I 
and II railcars that were built between 1993 and 2001; these cars are 
used exclusively on California State corridors. As this fleet is 
insufficient for current services, let alone future growth, Amtrak 
Superliners, Horizon/Amfleet equipment, and Comet IB railcars Caltrans 
acquired from NJT are also currently used to meet California State 
corridor service needs. California has seven Siemens Viaggio trainsets 
on order for use on the San Joaquin corridor but will need additional 
equipment to meet planned California State corridor growth in the 
coming decade. As a result of the age profile of Amtrak and 
California's multilevel fleets, a ``sweet spot'' appears between FY2026 
and FY2031 for an optimally timed multilevel railcar replacement 
acquisition to standardize, modernize, and expand equipment on current 
multilevel routes. Such a procurement process would need to be begun 
early in the next decade and a key topic for the next Federal 
reauthorization of Amtrak is the future of the Long Distance routes 
that use this equipment. Congress will need to make decisions about the 
long-term prospects of these routes and provide sufficient associated 
funding levels so that Amtrak can procure appropriate types and 
quantities of this custom rolling stock.
Single-Level Long Distance Coaches
    Fifth, while the current acquisition process focuses initially on 
the replacement of the Amfleet I and ex-Metroliner car fleets, Amtrak 
also has a smaller fleet of 139 active Amfleet II railcars that is also 
approaching the end of its useful service life. Built in the early 
1980s, Amfleet II railcars are primarily used on Long Distance routes 
originating at clearance-constrained New York Penn Station and also on 
a few State corridor routes. Amfleet II replacements may either be 
procured as options to the Amfleet I replacement procurement, or as a 
later separate procurement, depending on the Amfleet I replacement 
product chosen.
Refresh and Reconfiguration
    Sixth, Amtrak moved rapidly in FY2018 to refresh its Amfleet I and 
Acela Express fleets with new seat cushions, carpeting, lighting, and 
other passenger-facing features to help modernize passengers' 
experiences on board. Even with the significant and wholesale 
replacements of many car fleets recommended in this plan, equipment in 
additional car fleets will require refresh, and some car fleets will 
require a more comprehensive reconfiguration in order to provide a 
consistent, modern passenger experience. Amtrak intends that such 
refresh and reconfiguration work will continue, particularly for the 
following fleets: Amfleet II coaches to be refreshed in a manner 
similar to Amfleet I upgrades; Superliner I and II coaches and sleeping 
cars need refreshed passenger seating, light emitting diode (LED) 
lighting, and surfaces, while restrooms and plumbing systems may 
require more substantial work; and Horizon cars in a program similar in 
scope to Amfleet I, with a focus on carpet and seat appearance.
Mechanical Facilities
    Seventh, in the 35-40 years since Amfleets and Superliners were 
procured, many global rolling stock manufacturers have entered the 
market to service and maintain their manufactured fleets. Amtrak has 
taken advantage of original equipment manufacturer (OEM) expertise in 
the maintenance of Acela Express and has expanded the use of such 
capabilities to the ACS-64 and forthcoming Siemens Charger locomotives 
through Technical Services and Spares Supply Agreements (TSSSAs). In 
addition, Amtrak has signed a contract with OEM General Electric to 
replace most overhauls with Lifecycle Preventive Maintenance (LCPM) on 
the P40/P42 locomotive fleets. Further fleet procurements will likely 
continue this trend. As Amtrak moves further away from traditional 
heavy overhauls and towards smaller, more frequent component changes 
with increased vendor participation in maintenance, Amtrak's needs 
regarding back shops and terminal facilities will change. Amtrak 
currently operates three major back shops where heavy overhauls and 
restoration of damaged equipment occur: Wilmington, Delaware, which 
specializes in locomotives; Bear, Delaware, which specializes in 
Amfleet equipment; and Beech Grove, Indiana, which specializes in off-
NEC equipment. With the wholesale refleeting of Amtrak over the next 
decade, a cross-functional team will examine Amtrak's future mechanical 
facility and terminal needs following refleeting and the expanded use 
of TSSSAs and LCPM.
    The cost of outstanding fleet acquisitions will be significant and 
could approach some $3.5 billion through FY2024. This figure includes 
both Amtrak's cost of acquisitions and the full anticipated costs 
allocable to State partners under the PRIIA 209 Methodology that 
governs Amtrak and State cost sharing on State-Supported routes. It 
also includes some $525.1 million in nonpassenger fleet acquisition 
expenses, such as track inspection and maintenance equipment.
    In addition, Amtrak must secure funding to pay for its upcoming 
orders of locomotive options, Amfleet I replacement equipment, and 
single- and multi-level State Supported and Long Distance fleet 
replacement. While the exact quantities and product types chosen for 
Amfleet I and multi-level refleeting are still under development, 
Amtrak believes that the replacement of existing Amfleet equipment 
alone could approach some $1.4 billion through FY2024. Amtrak expects 
that a significant portion, to be determined, of the cost of the 
Amfleet I replacement equipment will be reimbursed to Amtrak by its 
State partners.
    Beyond FY2024, Amtrak estimates that an additional $1.0-$1.5 
billion may be necessary to complete the replacement of Amfleet I and 
Superliner I equipment and any related diesel locomotive options 
necessary to support such procurements, with costs to be allocated 
between Amtrak and its State partners. The costs of work necessary to 
convert mechanical facilities to support trainsets; replace Amfleet II 
and Superliner II fleets; and acquire additional equipment in to-be-
determined quantities for service expansion have not yet been 
determined but will be included in future 5-year plans.
    Amtrak must also continue to perform necessary work on its existing 
fleet of locomotives and railcars until they are retired. To that end, 
Amtrak anticipates completing some 2,089 car and locomotive unit 
overhauls through the end of FY2024, at an estimated cost of some 
$1.380 billion; a large portion of which will be reimbursed by Amtrak 
State partners under the PRIIA 209 Equipment Capital Use Charge.
                                stations
    The Amtrak network is currently made up of over 500 stations across 
46 States, the District of Columbia, and three Canadian provinces. Each 
station is unique to the community served, spanning small towns to the 
Nation's largest metropolitan areas, and provides the point of entry, 
resources and support to Amtrak's Northeast Corridor and National 
Network services, along with other transportation service. Amtrak is 
investing in critical projects that will enhance the passenger 
experience, sustain the national passenger network, provide much-needed 
additional capacity and improve reliability and safety.
    Amtrak is the owner and manager of a nationwide portfolio of assets 
including over 8 million square feet of station and maintenance 
facilities and five of our top 10 busiest stations. The asset portfolio 
is aging, suffers from decades of deterioration and needs modernization 
to meet growing demands. Despite these challenges, Amtrak's stations 
are community hubs and the surrounding markets present opportunities to 
extract value from our assets from commercial real estate development 
or partnerships with area institutions and the private sector.
    At the five Amtrak-owned stations with the highest ridership (Major 
Stations)--New York Penn Station (No. 1 in ridership), Washington Union 
Station (No. 2), Philadelphia William H. Gray III 30th Street Station 
(No. 3) (Philadelphia 30th Street Station), Chicago Union Station (No. 
4), and Baltimore Penn Station (No. 8), Amtrak has commenced Major 
Station Asset Development Programs. In these major urban markets, the 
challenges and opportunities facing Amtrak's asset portfolio are 
heightened. Projected ridership growth and regional economic growth 
create a substantial and increasing demand on Amtrak's Major Stations 
that will only exacerbate SOGR needs. However, there is high potential 
to attract investment for transit-oriented development that enhances 
intermodal connections and integrates stations with surrounding 
neighborhoods to create an exceptional station experience, one which 
will retain and grow a loyal customer base.
    Between now and FY2024, we plan to spend more than $1.8 billion on 
stations. This includes safety and mandates ($554.3 million), 
normalized replacement ($277.4 million), major backlog ($86.7 million), 
and improvements ($953.9 million). A large portion of the capital 
investments are directed towards major facilities that Amtrak owns. 
Work at many stations and facilities falls within more than one of 
these categories. While Amtrak is making good progress and has a strong 
5-year plan to invest in its stations, the needs far outweigh the 
available resources. Let me describe some of the major projects Amtrak 
is working to advance.
New York Penn Station
    New York Penn Station is the busiest rail station in America and by 
far the most important in Amtrak's national intercity network. Amtrak 
leases space in the station to the LIRR and NJT, two of the Nation's 
busiest commuter rail systems for which this facility is also the most 
important station. It serves more than 10 million Amtrak passenger 
trips annually, as well as over 100 million LIRR and NJT passenger 
trips. New York Penn Station accounts for more than $1 billion annually 
in Amtrak passenger revenue. These revenue and ridership totals are 
double those of any other station in the Amtrak network.
    New York Penn Station's physical plant sees very heavy utilization, 
hosting about 1,300 daily trains between the three railroads and about 
650,000 daily rail and subway passenger trips. Yet the station's 
passenger amenities, core capacity, track, platform, and vertical 
circulation were not designed for these high volumes and have not been 
substantially expanded as volumes have increased over the years. Its 
limited capacity and lack of long-term strategic planning and 
investment have limited Amtrak's opportunities to sustain ridership and 
revenue growth and has left key components of New York Penn Station's 
infrastructure in a state of disrepair.
    Even with today's crowded conditions, New York Penn Station 
ridership is increasing and is projected to expand substantially by 
2040. Increased passenger volumes will further stress the station's 
inadequate capacity on concourses and for customer circulation, retail, 
and back-of-house facilities. Amtrak is continuing a series of short-
term, customer-focused capital improvements; beginning the 
transformation of station facilities related to the relocation of major 
Amtrak passenger-facing and back-of-house services to the Moynihan 
Train Hall, opening in 2021; and preparing for an expected master 
developer solicitation for Penn Station.
    Longer term, New York Penn Station must be expanded to provide 
additional tracks and platforms. The track and platform expansion is 
included in the Gateway Program's terminal expansion phase.
Baltimore Penn Station
    The multiyear development and SOGR program addresses critical 
structural and building system repairs (including roof and building 
envelope); improves the customer experience with improvements to 
amenities, better ADA access and security; ensure capacity for 
ridership growth; and facilitates development of Amtrak-owned real 
estate assets at and near the station. Amtrak designated Penn Station 
Partners (PSP) in November 2017 as its master developer partner to 
implement the program. The scope of the master development project 
includes the creation of a master plan, critical SOGR of the historic 
headhouse, commercial development of the upper vacant floors of the 
headhouse, station expansion needed to meet passenger growth, a mixed-
use development of adjacent Amtrak-owned parcels, and ongoing life 
cycle and asset preservation maintenance of the headhouse and station 
expansion areas.
Philadelphia William H. Gray 30th Street Station
    The development and SOGR program at Philadelphia 30th Street 
Station will improve the customer experience and make the station 
future-ready by addressing station modernization and infrastructure 
needs while facilitating redevelopment of valuable assets at the 
station, including the retail concourse and office towers. In June 
2016, Amtrak completed a master plan known as the 30th Street Station 
District Plan which envisions station improvements that will double its 
capacity and improve station amenities and develop 10 million square 
feet at the station and above the adjacent rail yards. Amtrak initiated 
a search for a master developer partner to undertake redevelopment of 
the station with the release of a request for quotation (RFQ) on May 1, 
2018. The master development project, as defined in the RFQ, includes 
Station modernization and SOGR improvements, ongoing life cycle and 
asset preservation maintenance of the station building, office 
redevelopment, retail renovation, and operations and maintenance (O&M) 
management as near-term priorities, with concourse expansion and plaza 
improvements as potential future phases.
Chicago Union Station Master Plan
    The purpose of the multiyear Chicago Union Station Master Plan 
program (Program) is to advance near-term improvements to address the 
most demanding of station capacity, accessibility, service, and safety 
issues. This Program is informed by the Chicago Union Station Master 
Plan, led by Chicago Department of Transportation (CDOT) in 2012 and 
was developed further under the Master Plan Phase 1A work led by 
Amtrak, with support from CDOT, Metra, and the Regional Transportation 
Authority (RTA) (Project Partners) that has advanced preliminary design 
and planning across a suite of projects. The Project Partners are 
currently working together to establish a cost-sharing methodology and 
to identify funding to advance the program to final design.
Washington Union Station
    The Washington Union Station Second Century Program will improve 
SOGR, increase passenger and rail capacity, improve the passenger 
experience to sustain a loyal, existing customer base and attract new 
riders, create a safe and secure facility for all users, and integrate 
a new air rights development above the rail terminal at Amtrak's second 
busiest station. At Washington Union Station, Amtrak owns the tracks, 
platforms, and related infrastructure north of the station while the 
USDOT is the owner of the station and parking garage, which is managed 
by the Union Station Redevelopment Corporation (USRC). Amtrak has a 
sublease for space in the Claytor Concourse.
    In the near term (FY2019 to FY2026), the Second Century Program 
will redesign and expand passenger concourses, increase capacity, and 
improve operations in the station. Specifically, the near-term work 
will deliver a modernized and reconfigured concourse, improved station 
support spaces, as well as address key life safety issues. It will also 
advance construction of improvements to tracks and associated 
infrastructure and support facilities in the rail terminal such as a 
new crew base and satellite commissary.
    In the longer term (FY2026 and beyond), the Second Century Program 
will provide for new tracks and platforms integrated into an expanded 
station with development above to accommodate future demand and capture 
associated ticket revenues, while also addressing SOGR, accessibility, 
and life safety issues. Currently the long-term program is advancing 
the ongoing Union Station Expansion Project EIS in coordination with 
the project sponsor, USRC, as well as related studies for the long-term 
expansion and reconstruction of the station.
Moynihan Train Hall
    The Moynihan Train Hall expands the Nation's busiest train station, 
New York Penn Station, across 8th Avenue into the historic James A. 
Farley Post Office Building, the major component of a mixed-use 
redevelopment of the entire block. The Moynihan Train Hall will offer 
enhanced passenger facilities for Amtrak's Northeast Corridor, State-
Supported, and Long Distance travelers in a grand concourse featuring a 
dramatic sky lit atrium.
    Amtrak's Train Hall program goal is to reinvent the station 
experience to offer the best in customer amenities, technology, and 
operational efficiency. Amtrak's program includes several major 
initiatives: platform ventilation, back of house, ticketed waiting 
room, Metropolitan Lounge, subbasement improvements, construction 
support, and implementation. Several work streams have been formed to 
advance implementation planning including addressing agreements, 
wayfinding and customer information, security and policing, concourse 
and operations, engineering, communications and marketing and 
information technology.
    The Moynihan program requires extensive daily collaboration with a 
broad set of both internal and external stakeholders across a variety 
of disciplines on dozens of related initiatives. Amtrak is providing 
for the needs of Acela 2021 customers in New York City, Amtrak's most 
important market, while assuring pleasant, reliable, and efficient 
operations for all customers and employees. Capital improvements for 
Moynihan Station are included in the Acela 21 program described in the 
following section.
    Among the challenges in developing a plan to manage Amtrak's 
station assets are: working with other stakeholders, such as States, 
cities and host railroads that own many of the stations we utilize, and 
State DOTs and commuter agencies that either own or utilize stations 
served by Amtrak and have their own service goals; making improvements 
that align with new Amtrak guidelines for station aspects such as 
branding and signage so as to provide consistent and recognizable 
products and services; managing station roll-outs of technological 
updates such as ticketing and baggage handling upgrades; and 
coordinating Amtrak station management plans with our asset development 
and monetization initiatives.
                               conclusion
    As I hope my testimony makes clear, the United States cannot wait 
any longer to invest in intercity passenger rail; the cost of doing 
nothing is simply too great for this Nation to bear.
    Amtrak's mission, given to us by Congress, is to provide efficient 
and effective intercity passenger rail mobility consisting of high-
quality service that is trip-time competitive with other travel 
options. Our mission is consistent with, and is ultimately dependent 
upon, sufficient investment in our Nation's infrastructure. Therefore, 
Amtrak cannot do it on its own; we need Congress to take action, 
whether it is through an ``infrastructure bill'' that increases Federal 
funding into existing authorized programs or by establishing new 
Federal policies and grant programs through the forthcoming 
reauthorization of surface transportation programs. If Congress tackles 
the challenges I outlined today, I am confident Amtrak will provide 
safe, reliable, convenient, and comfortable service that will be a 
``game changer'' for Americans across the Nation.
    I look forward to working with each of you. While the challenges 
described today are difficult, they can be overcome. At Amtrak, we owe 
our customers, and your constituents, nothing less.
    Thank you for the opportunity to appear before you today, and I 
welcome your questions.

    Mr. Carbajal [presiding]. Thank you, Mr. Anderson.
    We will proceed next with Secretary Fanning.
    Mr. Fanning. Thank you, Mr. Chairman, Ranking Member 
Graves, members of the committee. Thank you for the opportunity 
to be here. I am Eric Fanning, president and CEO of the 
Aerospace Industries Association, representing a workforce of 
2.4 million people and an annual economic output of $865 
billion.
    AIA is celebrating its 100th year as not only the voice for 
America's aerospace and defense industry, but also a bipartisan 
convener, where people can come together to get things done on 
important topics, like infrastructure.
    Before I begin, I wanted to assure everyone here that, 
despite our name, our industry relies on everything my fellow 
panelists are advocating for today. We know the importance of 
investing in our infrastructure.
    We also know that our Nation's infrastructure is outdated. 
Congestion is at record highs, and environmental concerns are 
growing as people spend more time in their vehicles than ever 
before.
    While we recognize the need to address these issues, we 
also have a vision for the future that will change how we 
conceptualize infrastructure. Part of this involves unmanned 
aircraft systems, UAS, or drones. But the other part is 
rethinking the way people move through urban air mobility, or 
UAM.
    UAM is a concept that will change the way people connect 
with each other and travel through on-demand passenger 
transportation services. Imagine how much simpler a daily 
commute would be if you could bypass traffic, potholes, and 
construction by flying over them. And imagine how many more 
options those who are elderly or disabled would have with this 
new technology. The benefits are not only evident, but 
expansive, improving the lives of millions.
    UAM will also supplement existing transportation, giving 
urban areas another option to help ease congestion, reduce 
infrastructure strain, and provide environmental benefits.
    Last year the average commuter in DC spent 82 hours in 
traffic, and our national roads and bridges wore down even 
more. They now need about $800 billion in repairs and then 
another $150 billion per year for upkeep. What if a 
considerable amount of traffic was lifted up into the sky? That 
is the potential relief UAM could provide to our infrastructure 
and the amount we spend to maintain it.
    UAM is not a new concept. Over the decades the technology 
has advanced through cooperation between industry and 
Government. Congress has played an important role, passing the 
longest FAA reauthorization in recent history, and working with 
the FAA on the rewrite of part 23, which modernized how 
aircraft can be certified. And future UAS rulemaking will pave 
the way for safe aerospace integration of technologies like 
UAM.
    Today more than 70 companies have alone begun work in this 
area, and over $1 billion was invested in 2018. And we are 
seeing the results. Last month Bell Helicopter released its 
design concept for their new tilt-rotor Nexus air taxi. Boeing 
also made headlines this year with their first public-announced 
UAM test flight. Embraer released a concept for an electric air 
taxi capable of rooftop service during the 2018 Uber Elevate 
Summit.
    There are many other examples, and not just in the U.S. In 
the competitive global aviation market, other nations from 
Saudi Arabia to Brazil are investing to gain the technological 
and market advantage in this emerging sector. The European 
Aviation Safety Agency has already released a draft special 
condition for a path to aircraft certification for vertical 
takeoff and landing. Unless we act, the Europeans could define 
the regulations the world follows, not the U.S.
    Now is the time to ensure UAM becomes a reality with 
America leading the way. But there are major steps needed to 
get there. I have included many more in my written testimony, 
but I will focus on three here.
    First, we must continue to work on a regulatory path 
forward for UAM. AIA applauds efforts to ease the regulatory 
burden on businesses, but the so-called one-in, two-out rule 
makes it difficult for any agency to release new regulations, 
even if they are needed to usher new technology into the 
marketplace, or help address the Nation's surface 
transportation gridlock.
    Second, future standards should be performance-based, 
establishing a level of performance achieved through the 
aircraft's design for both the aircraft operations and design. 
This would keep industry innovating without feeling constrained 
by regulations in place.
    Finally, we must integrate unmanned aircraft system traffic 
management, which covers airspace under 400 feet, with air 
traffic management, which covers above 400 feet. There is only 
one airspace to share, regardless of the height at which an 
aircraft, manned or unmanned, operates. Full integration of the 
two systems is the only way to ensure safety.
    These are urgent recommendations, because the future of 
American infrastructure is coming. Whether through urban air 
mobility or any of the other incredible innovations coming from 
our industry, we look forward to not only continuing our 
partnership, but strengthening it over the next 100 years and 
beyond. Thank you.
    [Mr. Fanning's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eric K. Fanning, President and Chief 
          Executive Officer, Aerospace Industries Association
    Chairman DeFazio, Ranking Member Graves, and the rest of the 
committee, thank you for the opportunity to be here today. I am Eric 
Fanning, president and CEO of the Aerospace Industries Association 
(AIA).
    AIA represents the dynamic aerospace and defense (A&D) industry 
that keeps our Nation secure and has been moving, connecting, and 
inspiring people for over a century. It's an industry that brings 
different interests together, fostering the bipartisanship that leads 
to real action. Like you, we understand that aerospace and defense is 
at the heart of the American economy, generating $865 billion in sales 
and a trade surplus of $86 billion in 2017--the largest of any U.S. 
exporting sector. Moreover, our industry is supported by 2.4 million 
dedicated employees--representing nearly 20 percent of the Nation's 
manufacturing workforce--who are responsible for the continuous stream 
of innovations that improve American lives. We're proud that modern 
life is and will always be shaped by the innovation we create.
                              introduction
    AIA is celebrating its 100th year as not only the voice for 
America's aerospace and defense, but also a bipartisan convener where 
people--from different regions, backgrounds, and yes, even political 
parties--can come together to get things done on a number of important 
topics, including today's focus on infrastructure.
    It is no secret that our Nation's infrastructure is outdated. In 
2017 the American Society of Civil Engineers gave America's roads a D, 
bridges a C+, and infrastructure overall a D+.\1\ Congestion is at 
record highs. Environmental concerns are growing with the record number 
of cars and trucks idling and with people spending more time in their 
vehicles than ever. Our infrastructure is failing our Nation's 
citizens, so I applaud the committee for taking on this essential 
issue.
---------------------------------------------------------------------------
    \1\ ``America's Grades.'' ASCE's 2017 Infrastructure Report Card, 
American Society of Civil Engineers, www.infrastructurereportcard.org/
americas-grades/.
---------------------------------------------------------------------------
    As all of today's panelists know, we need to redouble our 
investments in traditional infrastructure. While some may not expect 
aerospace to be a voice for this investment, our industry also relies 
on roads, rail, airports and bridges every day. We know the importance 
of building and maintaining our traditional infrastructure networks.
    But we also have a vision for the future that will change the way 
people will move--and change how we conceptualize infrastructure. Going 
forward, the definition of infrastructure must extend beyond roads, 
rail, airports and waterways to include our National Airspace System 
(NAS)--to include the skies above us.
    We have considered aviation infrastructure before, but historically 
it has been limited to improving airports, creating and implementing 
systems like NextGen, and modernizing air traffic control systems 
generally. These are critical to keeping planes on time and our 
airspace safe. But the next innovation in the way goods and people move 
through the air has been in the works for years and is now edging 
toward reality.
    As you know, part of this involves Unmanned Aircraft Systems 
(UAS)--or drones--which will soon be integrated into the NAS. We are 
already using drones in a number of ways, from news imagery to 
responding to forest fires. But companies are on the cusp of the next 
step of this new technology, and in the coming years, it will be 
commonplace to use drones for delivering goods, maintaining and 
repairing pipelines, and surveying damage during natural disasters.
    But the not-so-far-off future will also require us to rethink the 
way that people move as well, and that is what I will focus my 
testimony on today.
    Urban Air Mobility (UAM) is a concept that will change the way 
people connect with each other and travel through on-demand passenger 
transportation services. Imagine how much simpler a daily commute could 
be if you could bypass traffic, potholes, and construction by flying 
over them. Now imagine how many more options those who are elderly or 
disabled will have with this new technology. The benefits are not only 
evident, but expansive--improving the lives of millions.
    In addition to the benefit of increased mobility for its users, UAM 
will also supplement our existing mode of surface transportation and 
provide urban areas an important option that will help ease congestion 
on our roadways (which costs more than 1 percent of GDP globally) \2\, 
reduce strain on existing public transportation networks, and provide 
environmental benefits.
---------------------------------------------------------------------------
    \2\ Bouton, Shannon, et al. ``Infrastructure for the Evolution of 
Urban Mobility.'' McKinsey & Company, www.mckinsey.com/business-
functions/sustainability-and-resource-productivity/our-insights/
infrastructure-for-the-evolution-of-urban-mobility.
---------------------------------------------------------------------------
    Last year, the average commuter in Washington, DC, spent 82 hours 
sitting in traffic.\3\ During that same time, our roads and bridges 
became more worn down. As this committee well knows, the U.S. 
Department of Transportation estimates that our roads and bridges need 
an estimated $800 billion in repairs and then an additional $150 
billion per year for upkeep.\4\
---------------------------------------------------------------------------
    \3\ Anderson, Tom. ``Endless Commutes Cost You $960 a Year.'' CNBC, 
10 Aug. 2016, www.cnbc.com/2016/08/09/commuters-waste-a-full-week-in-
traffic-each-year.html.
    \4\ ``The State of U.S. Infrastructure.'' Council on Foreign 
Relations, www.cfr.org/backgrounder/State-us-infrastructure.
---------------------------------------------------------------------------
    Now what if a considerable amount of traffic was lifted, literally, 
up into the sky. That's the potential relief UAM can mean for our 
infrastructure, not to mention the amount we spend on upkeep. So while 
UAM will not replace traditional means of transportation it will serve 
to complement it in highly congested urban areas.
                          how did we get here?
    UAM is not a new concept, and the technology to allow for it has 
slowly advanced--through cooperation between industry and Government--
over the decades.
    In 1941, the helicopter hit full scale production. This technology 
revolutionized the concept of '`Vertical Takeoff and Landing'' or VTOL.
    In the 1950s, the U.S. began to implement the most complex air 
traffic control system in the world, now known as Air Traffic 
Management (ATM). This system measured all aerospace above 400 feet and 
changed the way people were able to move around the country. It still 
allows the Federal Aviation Administration (FAA) to safely handle over 
43,000 flights per day \5\ and means more new technologies can be 
safely tested.
---------------------------------------------------------------------------
    \5\ ``Air Traffic By The Numbers.'' FAA Seal, 26 Nov. 2018, 
www.faa.gov/air_traffic/by_the_numbers/.
---------------------------------------------------------------------------
    Since then, industry has embraced the challenge of making UAM a 
reality, and today more than 70 companies worldwide are working on it.
    More recently, NASA and the FAA have laid the ground work for an 
air traffic system under 400 feet with the Unmanned Aircraft System 
Traffic Management concept (UTM). The FAA built on this work with the 
Low Altitude Authorization and Notification Capability (LAANC) system, 
making the approval process easier for airspace authorizations on 
unmanned systems. These two systems--working together with the ATM--
will ensure that all aircraft are managed safely and efficiently. This 
is an example of agencies seeing the need before the technology was 
available and then starting the work to get us there--it's that kind of 
drive that defines American ingenuity and success.
    Congress has played an important role, working with the FAA on the 
rewrite of regulations under CFR part 23. The part 23 rewrite means 
that manufacturers of aircraft could use consensus standards to meet 
airworthiness standards, ensuring that certification will not only be 
cheaper, but also possible for new types of aircraft. In addition, 
while the FAA Reauthorization Act of 2018 may not have addressed UAM 
specifically, it did address critical topics like integration of new 
technologies into the NAS, push DOT forward with regulations on systems 
for UTM, and begin to look at new regulatory concepts for emerging 
technology.
    Future UAS rulemakings will also pave the way for safe airspace 
integration of emerging technologies like UAS and UAM. New rulemaking 
on ``Remote ID'' will allow UAS to be tracked in real time. Rules on 
``Operations Over People'' and ``Beyond Visual Line of Sight'' are also 
critical to ensuring that UAS--and eventually UAM--will be fully 
integrated into the NAS and able to operate freely, safely, and 
securely.
    All of these partners working together have laid the groundwork for 
this new addition to aviation.
                        what is happening today?
    Today, many regions of the world--facing surface congestion and 
infrastructure strain--are focused on making UAM a reality. As 
mentioned above, more than 70 companies have begun work in this area, 
with newer startups joining traditional aviation companies--like Bell 
Helicopter, Boeing, and Embraer \6\--to push the boundaries of what is 
possible. In 2018, over $1 billion was invested in UAM \7\, and 
companies have announced partnerships with various cities and States 
around the world. While there are differences among various business 
models, they are all focused on getting this technology operational as 
soon as safely possible, and as soon as the regulatory environment 
allows them to do so.
---------------------------------------------------------------------------
    \6\ See example photos attached to this statement.
    \7\ Wolfe, Frank. ``Vertical Flight Society: More Than $1 Billion 
Already Invested in EVTOL Companies.'' Rotor & Wing International, 3 
Jan. 2019, www.rotorandwing.com/2019/01/03/vertical-flight-society-1-
billion-already-invested-evtol-companies/.
---------------------------------------------------------------------------
    Every day there seems to be another exciting news story on the 
topic. For example, last month, Bell Helicopter released its design 
concept for their new tilt-rotor ``Nexus'' air taxi.\8\ It features six 
tilting rotors to take off and carry it through the air. Bell hopes to 
have this design in place for widespread release to the public by the 
mid-2020s. Boeing also made headlines this year with their first public 
unmanned UAM test flight. Their all-electric aircraft has a range of 50 
miles.\9\
---------------------------------------------------------------------------
    \8\ Lavars, Nick. ``Bell Bounces into CES with a Tilt-Rotor Air 
Taxi Concept.'' New Atlas--New Technology & Science News, 8 Jan. 2019, 
newatlas.com/bell-nexus-tilt-rotor-air-taxi/57921/.
    \9\ Banse, Tom. ``Boeing Subsidiary's Self-Flying Air Taxi Makes 
First Flight.'' Oregon Public Broadcasting, Boise State Public Radio/
Idaho Public Television, 28 Jan. 2019, www.opb.org/news/article/self-
flying-taxi-boeing-company-aurora-flight-sciences/.
---------------------------------------------------------------------------
    While these are just two recent examples, there are many more just 
like them--and not just in the U.S. In the incredibly competitive 
global aviation market, other nations and their industries are 
investing time, resources, and money to gain the technological and 
market advantage in this emerging sector of aviation.
    Unfortunately, right now the United States is lagging behind much 
of the world. For example, the European Aviation Safety Agency (EASA) 
has already released a draft ``special condition'' for a path to 
aircraft certification for eVTOL.\10\ Unless we take action, it could 
be the Europeans defining the regulations the world follows, not the 
United States.
---------------------------------------------------------------------------
    \10\ ``Proposed Special Condition for VTOL.'' EASA, 
www.easa.europa.eu/document-library/product-certification-
consultations/proposed-special-condition-vtol.
---------------------------------------------------------------------------
    There are also many companies currently conducting test flights 
throughout Europe and partnering with cities through the European 
Union's UAM Initiative of the European Innovation Partnership on Smart 
Cities and Communities (EIP-SCC).\11\
---------------------------------------------------------------------------
    \11\ Butterworth-Hayes, Philip. ``Urban Air Mobility Takes off in 
64 Towns and Cities Worldwide.'' Unmanned Airspace, 17 Dec. 2018, 
www.unmannedairspace.info/urban-air-mobility/urban-air-mobility-takes-
off-63-towns-cities-worldwide/.
---------------------------------------------------------------------------
    Starting in 2017, Dubai tested both UAS flights beyond visual line 
of sight and even Aerial Taxi flights.\12\ They're working to roll out 
UAM by 2020.\13\
---------------------------------------------------------------------------
    \12\ Butterworth-Hayes, Philip. ``Roland Berger: `Close to 100,000 
Passenger Drones Flying by 2050.' '' Unmanned Airspace, 23 Nov. 2018, 
www.unmannedairspace.info/urban-air-mobility/roland-berger-close-
100000-passenger-drones-flying-2050/.
    \13\ Butterworth-Hayes, Philip. ``Urban Air Mobility Takes off in 
64 Towns and Cities Worldwide.'' Unmanned Airspace, 17 Dec. 2018, 
www.unmannedairspace.info/urban-air-mobility/urban-air-mobility-takes-
off-63-towns-cities-worldwide/.
---------------------------------------------------------------------------
    Singapore is also recognizing the potential benefits of UAM. In 
March 2017, their Ministry of Transport revealed that they would begin 
conducting test flights with the hope of having them ready by 2030.\14\
---------------------------------------------------------------------------
    \14\ Amour-Levar, Christine. How Airbus' Flying Taxis Could Be The 
Next Great Idea For Singapore's Congested Roads. Forbes Magazine, 5 
Feb. 2018, www.forbes.com/sites/christineamourlevar/2018/02/04/
singapore-air-show-airbus-flying-taxi/#7848ce0a1bd2.
---------------------------------------------------------------------------
    And in 2017, Brazil launched an on-demand helicopter pilot program 
to test the demand and promise of UAM.\15\
---------------------------------------------------------------------------
    \15\ Fuller, S.L., and S.L. Fuller. Brazilians Might Soon Hail a 
Helicopter Like an Uber With New Airbus Start-Up. Rotor & Wing 
International, 24 Aug. 2017, www.rotorandwing.com/2017/04/06/airbus-a3-
launches-beta-urban-air-mobility-helo-service-brazil/.
---------------------------------------------------------------------------
    These are just a few examples of the many nations taking a forward 
leaning approach toward this new technology.
    In the United States, companies have conducted many test flights, 
and multiple cities have announced plans to partner with companies to 
facilitate a UAM roll out in the near future. These cities have also 
begun to study and invest in infrastructure improvements that will 
allow UAM operations to take place. Various companies have also 
announced aggressive timelines showing when they expect to roll out the 
technology to consumers.
    These announcements are exciting, but there is still no national 
regulatory framework in place for UAM operations. While the United 
States may be taking a more calculated approach to certification and 
integration of UAM into the NAS, moving too slow risks other nations 
staking claim to global leadership in this area.
    As I mentioned before, industry and Government have worked together 
as partners to lay the groundwork for advancement in this area. For 
example, AIA and the General Aviation Manufacturers Association (GAMA) 
have worked closely with the FAA to build on the agency's current work 
on UAS. We believe U.S. industry and Government are up to the task and 
will continue to work together on crafting technology-based standards 
on UAM. But now is the time to take the next step and ensure UAM 
becomes a reality with America leading the way.
                          how do we get there?
    Full integration of UAM is not an ``if,'' but a ``when.'' There are 
still some major steps needed to get there, particularly if we intend 
to continue leading the world.
    First, it is essential that we continue to modernize the airspace's 
critical infrastructure, along with roads, transit systems, airports 
and waterways.
    Second, we need to continue to work on a regulatory path forward 
for UAM. As I've mentioned, there is no framework currently in place. 
This will take collaboration between industry and all levels of 
Government. Today's regulatory environment is also a challenge. AIA 
applauds efforts to ease the regulatory burden on businesses, but the 
so-called ``one in, two out'' rule \16\ makes it difficult for any 
agency to release new regulations, even if they are needed to usher new 
technology into the marketplace or assist in addressing the Nation's 
surface transportation gridlock.
---------------------------------------------------------------------------
    \16\ ``Presidential Executive Order on Reducing Regulation and 
Controlling Regulatory Costs.'' The White House, The U.S. Government, 
www.whitehouse.gov/Presidential-actions/Presidential-executive-order-
reducing-regulation-controlling-regulatory-costs/.
---------------------------------------------------------------------------
    Third, we must also ensure that technology is not stifled by 
regulations. Any future standards should be performance-based--
establishing a level of performance that must be achieved through the 
airplane's design--for both the operations of the aircraft and the 
design. This would allow industry to continue to innovate, without 
being unnecessarily constrained by regulations.
    The FAA's aviation standards were developed before UAM was even an 
idea, which is why it is hard to fit UAM into any specific FAA box as 
it exists today. There are also many unanswered questions that must be 
addressed. For example, how will these aircraft be categorized--will 
they be rotorcraft, fixed-wing aircraft, or something else? What 
performance standards will they need to be considered certified? These 
are just two examples, but they underscore the need for the strong 
partnership between the Government and industry to continue this 
discussion and reach proper decisions.
    Future UAS rulemakings will be critical to ensuring operations of 
UAM as well, especially the rules on ``Remote ID,'' ``Operations Over 
People,'' and ``Beyond Visual line of Sight.'' These will set standards 
that enable UAS and UAM to operate as safely and securely as possible. 
AIA urges this committee to carefully monitor the status of these 
rulemakings and ensure the administration moves swiftly forward with 
the rules to enhance operations of these emerging technologies in the 
NAS.
    Fourth, integration among UTM and ATM systems is needed. There is 
only one airspace to share, regardless of the height at which an 
aircraft--manned or unmanned--operates. Once UAM is fully operational, 
aircraft will need to constantly broach the airspace dividing line 
between UTM and ATM control systems (currently 400 feet altitude). Full 
integration of the two systems is the only way to ensure the safety of 
the aerospace, pilots, and passengers.
    Fifth, industry also needs certainty when it comes to spectrum 
allocations. Regardless of the design or external features, these 
aircraft will require spectrum to operate--not to mention some form of 
traditional aviation safety equipment. The aviation industry is excited 
about the promise of 5G, but it must be rolled out in a safe way for 
both traditional and emerging forms of aviation.
    For example, AIA and our members are concerned with the possibility 
of the 3.7-4.2 GHz spectrum band being reallocated for 5G, because of 
the high potential for interference with aircraft radio altimeters. 
This critical aviation system, that operates in the adjacent 4.2-4.4 
GHz frequency band, is vital to providing altitude data for safe 
landings not only for every commercial aircraft, but also for many 
helicopters and private aircraft. Prior to any reallocation of 
spectrum, the FCC and industry must work together to test the impacts 
of the new devices on both that specific band as well as any adjacent 
spectrum band.
    Finally, there must be collaboration between all levels of 
Government for UAM to succeed. Industry will continue to work with the 
Federal Government to set the standards and rules that will govern 
operations. However, local governments and their partners also have a 
key role in that process. Cities and States will need to update their 
infrastructure to allow for takeoffs and landings of the aircraft. 
Buildings, parking garages, and other surfaces could be repurposed to 
allow for UAM operations, but only with the active involvement of local 
governments. Before there is widescale operational use of UAM, cities 
will also need to work with industry and focus on developing emergency 
landing sites and other safety procedures. To take advantage of these 
emerging technologies, we ask States, cities, and counties to begin 
these analyses in their local areas. While widespread UAM flights may 
be a few years away, cities and States must begin preparing for them 
now.
    Because the future of American infrastructure is coming--and sooner 
than you think--through airbuses that provide an alternative to our 
commuter rails and rush hour drives; the new line of ambulances that 
arrive faster and more safely because they can fly over traffic; and 
the long-distance air transportation that connects rural and urban 
communities like never before.
                               conclusion
    The aviation industry is on the verge of a technological innovation 
that will revolutionize the way we move goods and people. Much like 
Henry Ford did with the Model T and the Wright Brothers did with the 
first flight, UAM technologies will change people's lives--and our 
world--for the better.
    And UAM is just part of this new world. I've already mentioned the 
role UAS and drones will play, but there are so many other new 
innovations with their own impact, from the supersonic planes that will 
be managed by new and improved air traffic systems to the commercial 
space flights that will make us rethink airports around the world--and 
beyond.
    This vision is not theoretical; it will happen. But in order for 
America to be the leader that gets us there, we must recommit to our 
partnership between industry and Government, including of course, the 
U.S. Congress.
    Industry and Congress have a historic relationship based in 
bipartisan cooperation. Just look to the formation of NASA's precursor, 
the National Advisory Committee for Aeronautics. Created in 1915 by an 
act of Congress, the committee worked with industry leaders--like 
Orville Wright, a founding member--toward achieving one shared mission: 
the advancement of aerospace science, an innovation to benefit our 
country.
    Over 100 years later, we have a new Congress and new industry 
leaders, but our mission is still the same: to imagine, to innovate, 
and to create the next generation of aerospace technology that will 
build a better world for the American people. Whether through Urban Air 
Mobility or any of the other incredible innovations coming from our 
industry, we look forward to not only continuing our partnership, but 
strengthening it over the next 100 years and beyond.
    Thank you.
                            example photos:
Bell Helicopter Nexus Air Taxi
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Boeing Passenger Air Vehicle
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Embraer Air Taxi
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carbajal. Thank you, Secretary Fanning.
    Mr. Krauter, you may proceed.
    Mr. Krauter. Thank you. Good morning, Chairman DeFazio, 
Ranking Member Graves, and members of the committee.
    Spokane International Airport is the primary commercial 
service airport for the intermountain Northwest. We are proud 
to serve approximately 4 million passengers a year who come to 
us across the State of Washington, Oregon, Idaho, Montana, and 
several Canadian provinces. It is my privilege to appear before 
you today to explain what the cost of doing nothing looks like 
for my airport and others like it across the country.
    I want to emphasize three key points from my written 
testimony for your consideration.
    The first is the overwhelming need for investment in our 
Nation's airport infrastructure. In Spokane our main terminal 
building dates back to the 1960s. Some of our baggage handling 
machines are so outdated that our maintenance team has to 
fabricate replacement parts from scratch. You literally can't 
buy them anymore.
    Our facilities are operating beyond capacity, even as our 
passengers and freight volumes continue to grow. We reached an 
all-time record level of passenger traffic in 2018, and have 
seen passenger activity increase 37 percent since 2013, with 23 
percent of that growth occurring in the last 2 years.
    The airport is an engine of economic growth for our 
surrounding region, but the reality is that it is an engine in 
need of repair. We are taking this on through a challenge 
project we call our terminal renovation and expansion program, 
or TREX. My written testimony details the full scope of the 
TREX project, but the primary elements are captured in a 
graphic that I have placed in front of you.
    Additional gate capacity is one of the primary tasks of 
TREX, as well as expanded modernized security screening and 
baggage claim facilities, all designed to meet demand. There is 
no question that our airport urgently needs this project. The 
only question is about the most fiscally responsible way to pay 
for it.
    That leads me to my second point, which is that the status 
quo is not working when it comes to funding airport 
infrastructure. There are two main sources of funding for 
airports.
    The Federal Government makes grants through the Airport 
Improvement Program, or AIP, but AIP funding has essentially 
been flat for many years. In addition, AIP funds are typically 
directed to air-side projects, runways and taxiways, not 
terminal buildings or other types of improvements that are more 
urgently needed right now.
    In 1990 this committee's forerunner wisely equipped 
airports with another capital development tool by authorizing a 
passenger facility charge, or PFC, on each enplaning passenger 
to fund terminal and other improvements. But the $4.50 cap on 
the PFC has not been adjusted since 2000, meaning that its 
purchasing power in today's dollars is about half of what it 
once was.
    Many airports, including ours, have increasingly used PFCs 
as a crutch to make up for flat AIP and its declining 
purchasing power. Even so, together, AIP and PFCs are only 
generating about one-third of the annual funding needed to 
maintain and expand our country's airport system.
    Flat AIP funding and a cap on PFCs that has not been 
adjusted in almost 20 years has created a cascading series of 
consequences for our airport. We have been forced to delay or 
restructure projects that ultimately result in greater cost and 
complexity. And limited funding strains our cash resources and 
threatens to require us to take on unsustainable levels of debt 
in order to make critical improvements.
    The situation underscores my final point, which is to 
strongly urge Congress to increase the PFC cap. This would 
provide immediate support for capital projects at the airports 
across the country, and it would ultimately save money for the 
traveling public. Let me explain using our TREX project as an 
example, and a graphic that is placed in front of you.
    The current PFC cap forces us to finance investments over a 
longer period of time, meaning that we ultimately pay almost as 
much in interest as we do for the project itself. If you look 
at the chart you will see that our TREX project is estimated at 
$191 million, and the interest associated with that is $151 
million. So this limited funding really does strain our 
resources and our ability to deliver other projects that would 
otherwise be funded.
    If you move down this table, you can see that just a modest 
increase in the PFC to $6.50 or $8.50 considerably reduces that 
interest, that interest burden, which means that we can go 
towards funding additional projects, and further improve the 
customer experience, and not pay all that interest to the bank 
with this locally directed user fee.
    If we go up to $8.50, and a combination of pay-go and bond 
financing, our interest costs could only amount to $18.7 
million over the term of the financing, or roughly one-quarter 
of what they would equal with the current cap.
    As airport operators we have to ask ourselves why our 
passengers should pay double the actual cost of the TREX 
improvements, when a modest increase in the PFC could 
significantly reduce our total costs. Why should PFC funds go 
towards projects that could have been funded with AIP, had its 
funding level kept up? Why should a PFC that has not been 
adjusted for nearly two decades force us to take on an 
unnecessary level of debt? These are questions that airport 
operators should not have to ask, not when the answer is so 
clear.
    Increasing the PFC cap is a fiscally prudent way to start 
improving our airports now. TREX is very important to our 
community, but small and mid-sized airports across the country, 
very likely in communities represented by Members who are here 
today, are working to plan, design, and build similar projects. 
I respectfully ask you to provide the resources we need to make 
these projects a reality.
    I strongly urge the committee to consider increasing the 
PFC cap, and I welcome your questions. Thank you.
    [Mr. Krauter's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Lawrence J. Krauter, A.A.E., AICP, Chief 
            Executive Officer, Spokane International Airport
                              introduction
    Good morning Chairman DeFazio, Ranking Member Graves, and members 
of the committee. My name is Larry Krauter and I am the CEO of Spokane 
International Airport. It is my privilege to appear before you today to 
explain what the ``cost of doing nothing'' looks like for my airport 
and others like it across the country. Like many airports, Spokane 
faces an overwhelming need for investment to maintain and improve our 
service to the public. Current funding availability is simply not 
sufficient to meet this need.
    At the outset, I would like to thank the committee for your work on 
the recent FAA Reauthorization Act of 2018, which responded to a number 
of issues of importance to us, such as: the certainty of a 5-year 
authorization, the contract tower program, the contract weather 
observer program, and prioritization of grants to northern tier 
airports with short construction seasons. We are eager for the 
committee to build on the bipartisan, commonsense approach reflected in 
the reauthorization to address our country's critical infrastructure 
funding needs.
    As members of this committee begin considering proposals to enhance 
our Nation's infrastructure, I urge you to adopt provisions that would 
help airports repair aging facilities and build critical infrastructure 
projects. Toward that goal, I urge you to adjust the outdated Federal 
cap on local Passenger Facility Charges (``PFCs'')--a move that would 
allow airports to finance a greater share of their projects with local 
revenue. I also urge you to reexamine the FAA reauthorization bill and 
consider increasing funding for the Airport Improvement Program 
(``AIP'') account. Adjusting the PFC cap and increasing AIP funding 
would help Spokane International Airport and airports around the 
country keep up with rising demand and increasing construction needs.
                  about spokane international airport
    Spokane is the largest city between Seattle and Minneapolis as well 
as between Calgary and Salt Lake City. Accordingly, we are a regional 
center for education, food and entertainment, finance, retail, 
medicine, manufacturing, transportation, and logistics for a vast area 
of small and rural communities. In addition, we are a popular year-
round leisure destination.
    Spokane International Airport is the primary commercial service 
airport for this region. Our market area includes eastern Washington 
State, northeast Oregon, north Idaho, western Montana, and the southern 
parts of the Canadian provinces of Alberta and British Columbia. In 
2018, we handled just under 4 million total passengers, which beat our 
all-time high record set in 2017 and represents an increase of 
approximately 37 percent since 2013. In the past 2 years, our passenger 
activity has increased nearly 23 percent. Freight activity has 
increased a little over 10 percent since 2013.
    Our airport is served by Alaska Airlines, American Airlines, Delta 
Air Lines, Frontier Airlines, Southwest Airlines, and United Airlines, 
which together operate approximately 60 flights per day to 16 nonstop 
destinations. Scheduled cargo service is provided by FedEx and UPS. 
Empire Airlines provides cargo service to smaller communities in the 
region and feeds into FedEx at Spokane International Airport.
    On the passenger side, our physical infrastructure consists of two 
terminal buildings: the original terminal building constructed in 1965, 
which has 11 loading bridge gates, and a second terminal constructed in 
1999, which has three loading bridge gates and four ground-loading 
positions. Together, the terminals offer a total of 14 gates and four 
ground-loading positions.
    The airport is owned jointly by the city of Spokane and Spokane 
County and operated by the Spokane Airport Board. In 2019, our 
operating budget is approximately $43 million and our capital budget is 
approximately $51 million. We have approximately 100 full-time 
employees and 50 part-time employees. We do not receive general fund 
support from our owners and therefore rely on revenues generated by 
leases, fees, and concession agreements to fund our operations and 
capital expenditures. Consequently, PFCs are crucial element of our 
fiscal self-sufficiency.
                our airport's capital improvement needs
    After 20 years without any gate capacity improvements, Spokane 
International Airport has reached a point of full saturation on both 
the landside and airside of the terminal facilities. On the airside, we 
have no additional gate space to offer existing airline partners for 
new service and no gates available for new entrants, particularly if 
they want to fly at peak times. For example, Alaska Airlines recently 
added new nonstop service to San Diego. Due to lack of gate 
availability, the new route uses one of the ground-loading positions, 
which forces customers to go outside in all weather conditions to board 
the aircraft. This boarding method is both dangerous and uncomfortable 
and does not provide the kind of customer experience that we are 
striving for. The lack of gate space also requires Alaska Airlines to 
remote park two Q400 turbo-prop aircraft, creating additional 
inconvenience and inefficiencies. When I recently returned to Spokane 
on an Alaska Airlines flight, we had to wait on the taxilane while they 
pushed back an empty aircraft off of the ground-loading gate to allow 
us to taxi in and deplane.
    Our landside facilities are equally saturated. We have a passenger-
screening checkpoint in each of the terminal buildings. Both 
checkpoints are severely constrained as they were jammed into existing 
space in the terminal buildings that were not designed for the 
extensive physical space needed to carry out passenger screening in the 
post 9/11 era. Some of our baggage-claim devices are original 
equipment, and our maintenance staff is required to machine replacement 
parts from scratch in order to keep them operational. The baggage 
carousel that serves United Airlines dates back to the 1970s. Our 
legacy HVAC system is just as aged, and we have trouble keeping our 
passengers and workers comfortable, as our system struggles to keep up 
with the heating or cooling loads during peak hours of activity.
    We have done an amazing job to extend the life of the terminal 
buildings and to make them work as best as they can; however, we now 
find ourselves up against both the age and capacity limits of the 
facility. If we do not invest now, the ability of the airport to 
facilitate continued economic growth of our region will be harmed. 
Spokane is not alone. Airports around the country are reaching their 
age and capacity limits. That is why it is so critical that Congress 
raise the Federal cap on local PFCs and provide airports with more 
Federal AIP funding.
  spokane's terminal renovation and expansion project (``trex'') plan
    Following an extensive planning process, we launched design of the 
TREX project to address the capacity and infrastructure issues 
described above. TREX is a $190 million capital improvement project 
focused on our most urgent needs, including security screening 
checkpoint capacity and configuration, baggage claim, gate capacity, 
legacy HVAC, IT and security systems, as well as adequate public 
circulation space and areas for proper configuration of law 
enforcement, dispatch, operations, and administrative functions. The 
core components of the TREX project are outlined in Exhibit A.
    TREX will connect our two existing terminals with a new space that 
also provides a consolidated baggage-claim area and a new consolidated 
passenger-screening checkpoint. Elevated walkways will connect the two 
terminal buildings beyond screening in the secure area, which is 
something that our customers have been asking for over many years so 
that they do not have to exit one terminal and go through the screening 
process at the other terminal. An expansion of up to six loading bridge 
gate positions on the C Concourse is under discussion with our airline 
partners as part of the current preliminary design process. TREX will 
also create new concession space to consolidate services to second-
level boarding areas that should lower costs, increase revenues, and 
provide a higher level of customer service. A curbside overhead canopy 
will also be added to provide better safety, four-season comfort for 
loading/unloading, and to tie the buildings together architecturally. 
The architectural rendering included in Exhibit A provides a 
perspective of the central baggage-claim hall and passenger security 
screening mezzanine.
    On the airside, TREX will add a new dual taxilane to accommodate 
the extension of the C gates and ensure that aircraft can circulate 
without being trapped in the alleyway. Finally, a new skybridge will 
connect the terminal to the parking garage to improve passenger 
movement, efficiency, and safety.
    The cost of the TREX project is currently estimated at 
approximately $191 million as shown in Exhibit A (in 2018 dollars). We 
anticipate that TREX can be constructed from 2020-2023 or later 
depending on project financing.
    TREX represents a responsible and measured approach to resolving 
the issues created when aging airport terminal area infrastructure 
collides with growth. Coming out of the Great Recession and our Master 
Plan Update in 2012, we could see that our terminal buildings would 
need to be improved and expanded even under the most conservative 
growth forecast. Our two disparate terminal buildings (constructed in 
the 1960s and the 1990s, respectively, and in both cases before 9/11) 
created unique burdens both from an age and operational perspective. 
Ideally, an airport in a community the size of Spokane would have one 
terminal building instead of two. As a result of our two-terminal 
structure, concession operators struggle with costs as they are 
required to adapt to spaces that were not designed for the post-9/11 
environment and split operations across two terminal buildings. The 
configuration also requires the airport to operate two parking garages 
and maintain an extensive curbside.
    Because of these challenges, the Master Plan concluded that in the 
long-range plan it would be better to go to a new greenfield site and 
build the correct configuration of a unified terminal building that 
offered substantial flexibility. The problem with that solution was the 
price tag of $400 million-$500 million and, at that time, a slow 
economic recovery combined with volatility in air service decisions and 
a slow return of capacity that was removed by the airlines during the 
Great Recession.
    As a result, we decided to take a more conservative approach and 
make ``lemonade'' out of the existing terminal complex and figure out a 
way to renovate and expand the buildings to accommodate projected 
growth--the solution reflected in the TREX project. This conservative 
approach required us to think about ways to make the terminal buildings 
work better together through a series of projects that would have 
independent utility but would be functionally related to the whole 
program. Our concern was that our air service environment had been 
volatile and as a result we did not want to overextend our building 
program and end up highly leveraged in the event that we continued to 
experience a slow economic recovery or that the airlines did not 
respond to the demand in our market with sufficient seat capacity and 
destinations.
    There are many airports across the country that are pursuing TREX-
like projects that can run anywhere between $50 million or greater 
depending on the scope of the needed improvements. A nearby example of 
that is in Missoula, Montana, which is pursuing a terminal renovation 
and expansion project that is estimated to cost in the $100 million 
range. To provide a comparison, Missoula handled over 848,000 
passengers in 2018, where Spokane handled nearly 4 million total 
passengers. I use this to illustrate that there is a common need for 
airports to renovate and expand terminal facilities in response to 
growth and the costs of these projects for smaller airports are in a 
consistent range.
              funding for trex: the cost of doing nothing
    TREX is crucial to the future of our airport and our region. 
However, current Federal policy with respect to AIP and PFCs creates an 
extremely challenging funding environment for airport development 
projects like this, one that unduly constrains our fiscally prudent 
financing options. The follow sections discuss the challenges created 
by each funding mechanism in turn.
                      airport improvement program
    AIP provides grant funding for certain airport capital projects, 
mainly related to airfield improvements. Although the FAA 
reauthorization bill signed into law last year was helpful in restoring 
stability and predictability to aviation policy, the law fell short in 
maintaining level funding for AIP at $3.35 billion annually. Of that 
amount, airports will receive approximately $3.2 billion each year 
after appropriations are taken to fund FAA administration, research and 
development, and small community programs. This amounts to less than 
half of the $7 billion each year through 2023 that the FAA's own 2019 
National Plan of Integrated Airport Systems (``NPIAS'') says is needed 
for AIP-eligible projects. Even then, as discussed below, the NPIAS 
estimate does not reflect the complete capital needs of airports, which 
also include projects that do not qualify for AIP funding.
    As AIP funding has remained flat over the past 12 years, its 
effective buying power in current dollars has declined to an effective 
$1.8 billion. In turn, the $5 million Spokane receives annually in AIP 
formula funds based on passenger and cargo activity for use on eligible 
projects has effectively declined in value to $2.25 million. The amount 
of this formula funding is often insufficient to address the total cost 
of an eligible project, so we must compete with other airports for 
discretionary funding from the FAA or divide a project into multiple 
phases, which is inefficient and costs more. We also find ourselves 
having to bid projects in multiple schedules to match funding 
constraints and ask the contractors to hold their prices from one year 
to the next, which is risky for them.
    An example of our situation is a current grant request that we have 
submitted to the FAA for reconstruction work on our runway intersection 
related to pavement rehabilitation, paved shoulders, drainage, and 
signage. Our total project request for the Runway 8-26 Improvements 
Project is $21 million, with $18.6 million from the FAA and $2 million 
from the airport in matching funds (which is, in itself, considerable). 
If this project were funded entirely through entitlement formula, we 
would be looking at obligating approximately 4 years of funding to pay 
for the project. As a result, we have requested discretionary funding 
from the FAA. At the same time, we have a need to realign our terminal 
building access road and prefer to use our entitlement funding for that 
project. If the FAA cannot come through with discretionary funding, we 
will have to substantially modify the runway project and/or jump over 
it and prioritize the roadway realignment project. This could create a 
considerable disruption to our Airport Capital Improvement Program that 
we have worked out with the FAA. Had our AIP funding been able to keep 
up with need, we would be able to pursue both projects without tying up 
our funding for several years or introducing a disruption into our 
capital program.
    Because AIP cannot meet our funding needs for eligible projects, it 
causes a cascading impact of phasing or deferral of airfield projects 
that ultimately results in greater cost and complexity. Another example 
is our project to relocate a road around the end of our primary runway 
that is currently within the Runway Protection Zone--one of the most 
critical safety areas that we are charged with protecting. This project 
is estimated to cost upwards of $20 million and we have been seeking 
funding partners at the State, metropolitan planning organization, and 
local level to help us leverage the relatively small amount of FAA 
funding that we can bring to the project. We prepared an application 
for a BUILD grant from the U.S. Department of Transportation for this 
project; however, off-airport needs in our region caused us to withdraw 
our application in favor of another project that was critically 
important to the community. This is an illustration of the way in which 
the diminished purchasing power of AIP funding causes airports to go in 
search of other sources and increases pressure on overall 
transportation funding sources, which are struggling to keep up with 
demand in their own right.
                       passenger facility charges
    Airports also have considerable capital needs for projects that do 
not qualify for AIP, especially terminal construction and maintenance 
projects. PFCs are a crucial source of support for these projects, 
because their proceeds may be used for a broader range of airport 
development projects than AIP grants and can be bonded to finance 
large, multiyear projects.
    Congress imposes a $4.50 per passenger per enplanement cap on PFCs, 
which is not indexed for inflation and has not been increased since 
2000. As with AIP grants, because the PFC cap has not been adjusted 
since 2000, the purchasing power in today's dollars is about half of 
what it was. Most airports today collect the maximum PFC amount because 
of the need to fund terminal infrastructure projects as well as the 
impact of construction inflation on project costs. While this effect 
varies by region, it is safe to say that average construction costs 
have increased considerably since 2000 when Congress last adjusted the 
PFC cap.
    In many circumstances, including Spokane's, the PFC is serving as 
an offset to the stagnation of AIP funding and the erosion of its 
purchasing power. In fact, a quick look at our PFC programs since 1993 
show approximately 11 airfield-related projects totaling a little over 
$37 million that would have been AIP eligible had AIP been able to keep 
up with need. We can throw in another $54.8 million in snow removal 
equipment and a snow removal equipment storage building. Over 26 years, 
this locally directed user fee has effectively acted as supplement to 
stagnated AIP funding in the amount of nearly $92 million or roughly 
$3.54 million on average each year. Overall, the PFC has funded nearly 
$150 million of projects in Spokane that would otherwise have had to 
compete, wait, or be cancelled due to a lack of AIP funding or would 
have had to have been debt financed or paid directly by the airlines.
                            the bottom line
    The airport industry trade associations, the American Association 
of Airport Executives and Airports Council International--North America 
(``ACI-NA''), routinely survey airports to assess their total capital 
needs. ACI-NA's most recent survey data indicates that annualized 
capital needs between 2017 and 2021 are approximately $20 billion. It 
is my understanding that this number will increase when the survey is 
next updated.
    Airports collect about $3.3 billion annually in PFC revenue. Add to 
that the AIP funding level of $3.35 billion and we are only generating 
about one-third of the annual funding needed to maintain and expand our 
airport system. This gap acts as a significant constraint on the 
funding and financing options available to airports like Spokane. Could 
you imagine what we could do if our AIP entitlement funding was nearly 
doubled annually and the amount of PFC capacity that could be freed up 
as a result?
          funding for trex: the urgent need for a pfc increase
    Spokane needs additional PFC funding capacity now more than ever as 
we head into the construction of the TREX project. This would help 
narrow the funding gap described above, and it would ultimately save 
money for the traveling public. Let me explain using the graphic in 
Exhibit A, which outlines our current and potential financing options 
for TREX.
    Here's how a higher PFC cap would help us reduce time and costs in 
Spokane: The lower right quadrant of Exhibit A illustrates concepts of 
how the airport can fund the TREX project through the traditional 
``bond it all and build it'' method and another method that we call 
``pay-go/borrow/bond and build.'' We have simplified the math to show 
the broad concept of the costs of doing nothing with the PFC cap and 
the benefits of increasing the PFC and using methods to reduce our 
interest costs.
    If we take the current estimated cost of the TREX project at nearly 
$191 million and go the traditional route of bonding the full amount, 
the airport and its local users effectively end up paying twice for the 
same thing as the total project cost becomes nearly $342 million. Just 
for purposes of illustration, at the current PFC level of $4.50 and not 
counting for inflation, that would straight line to 38 years of PFC 
obligation if we stayed at 2 million enplaned passengers a year. And 
this is a current problem today for many airports that are extended 
decades out on their PFC obligation, paying off projects that they have 
already built so there is no capacity to fund new projects.
    Moving down the table, we show the simplified effect of an increase 
of the PFC from $4.50 to $6.50, which reduces interest and brings down 
the PFC collection period from 30-plus years to 22 years. Then, on the 
bottom table, we show the impact of an $8.50 PFC level, which brings 
down the PFC collection period to 14 years. The reduced time that a 
higher PFC would create is relevant since the TREX improvements will 
likely have 15-20 years of life cycle before reinvestment. A higher PFC 
would also allow us to reduce our interest costs. Under this model, an 
$8.50 PFC would also allow us to reduce our interest costs from $151.2 
million to $66.3 million. In other words, an $8.50 PFC would allow us 
to save approximately $85 million in interest costs.
    The tables on the lower right of the quadrant on Exhibit A show an 
even better outcome if we collect an increased PFC for a short period 
of time and then use a combination of pay-go and debt financing (maybe 
even other than Airport Revenue Bonds if alternatives are attractive), 
and again we show these scenarios in increments of the current rate of 
$4.50 and a conceptual increase of the PFC to $6.50 or $8.50 per 
enplaned passenger. In that scenario, an $8.50 PFC would allow us to 
reduce our interest costs from $73.4 million to $18.7 million--a $54.7 
million savings. An $8.50 PFC would also allow us to reduce the payoff 
for the debt financing from 20 years to just 7 years.
    These tables are a simplified way to express the practical impact 
of a PFC increase as related to reduction in total project cost. Our 
example includes a small escalation factor in the 2018 costs. By far, 
the largest impact on the project cost will be the bidding environment 
that exists at the time. We also used a bond amortization rate of 4.25 
percent. With regard to present value impact, we assume that annual 
bond payments are fixed at debt issuance, discounted through interest 
rates at the time, and paid back with funds accumulated in future years 
at the fixed amount regardless of diminution due to inflation of the 
value of a dollar in a future year.
    As airport operators, we have to ask ourselves why should our 
passengers pay twice for a project like TREX when a modest increase in 
the PFC can substantially reduce that liability? Why should the PFC 
continue to make up for a stagnated AIP funding level that has not kept 
pace with demonstrated need? Why should a PFC that has not been 
adjusted for nearly two decades force us into an unnecessary level of 
debt that we would otherwise prefer not to take on? What are the 
impacts of losing all of our PFC capacity for decades in terms of 
deferred and cancelled projects? What are the impacts to our non-grant 
or PFC-funded capital program that is already underfunded by about $5 
million a year?
    Spokane's overall financial situation provides additional context 
for the discussion above. Spokane International Airport is currently 
mostly debt free with the exception of some modest very low-interest 
loans that we accepted from the State to construct hangars. While this 
is an enviable position, we were able to get there by changing our 
financial models to be more business-like and entrepreneurial, but we 
also deferred non-grant funded capital investment. Our goal was to 
build up our capacity in the worst-case scenario of having to go the 
traditional route of bonding all of the TREX project costs and paying 
them off over 25-30 years, as well as be able to fund other projects 
that are approaching that will not be PFC- or AIP-eligible, such as 
expanding our parking garage.
    We believe that it is in the best interest of the airport to avoid 
debt to the greatest possible extent, and when we need to use it, to 
limit it. I think we can all agree that this is a good way to operate 
just about any organization.
    Because we have a fully residual rates and charges agreement with 
the airlines, they also benefit by not having to support substantial 
levels of debt service as part of their costs. As a result of a 
combination of factors, our cost-per-enplanement (``CPE'') ratio in 
Spokane is low and fluctuates between $5.00-$6.00 per passenger. This 
places us in the lowest quartile of airports based on CPE. Much of our 
financial planning in terms of the impact of decisions on our operating 
and capital budgets is based on the impact to our CPE and our desire to 
remain within a reasonable CPE range.
    Given our financial discipline and policy choice to avoid debt, the 
airport uses its unrestricted cash to pay for capital improvement 
projects that are not eligible for grant or PFC funds and, in some 
circumstances, to advance fund planning, environmental, or design 
efforts needed to keep AIP or future PFC projects on schedule. It is 
important to point out, however, that ``unrestricted'' does not mean 
``available.'' Reserves are not included in the restricted definition. 
We look to maintain an Operations and Maintenance Reserve and Self-
Insurance Reserve (Other Post-Employment Benefits, Environmental 
Liability, etc.) in addition to funding the aforementioned capital 
projects. For accounting purposes, we define available cash as that 
which is on hand after reserves. At this point, I must address a 
popular misconception. Many groups rely on FAA Form 127 to assess 
airport cash balances. We believe this is an error because unrestricted 
cash is defined as ``not restricted.'' This can provide an inaccurate 
picture of cash available for use. In reality, much smaller amounts of 
cash are available and in the control of management. For example, in 
Spokane, the FAA Form 127 indicates that the 2018 forecast amount of 
Days Cash On Hand (``DCOH'') is approximately 385 days. In reality, the 
number of DCOH is 198 when reserves are applied. The reality is that 
the revenue we raise goes to fund our operating expenses and about $6 
million-$10 million to invest in non-grant funded projects and to match 
AIP projects (recall the $2 million match I referred to for the Runway 
8-26 Improvements earlier in my testimony).
    We are not sitting on piles of cash in Spokane with 6 to 8 months 
of available cash, but the good news is that we are not sitting on 
piles of debt, either. We have managed to this objective by limiting 
our non-grant and PFC-funded capital program, which is not in the long-
term best interest of the facility. Airports across the country 
reported almost $92 billion in debt in 2017, which is more than six 
times the amount of unrestricted cash that they reported that year.
    In our community, we would much prefer using a locally directed 
user fee to pay for projects than to incur debt that has the potential 
to stop us from being able to move forward on other important 
infrastructure projects that are not grant or PFC eligible or just 
saddles us with costs that drive up our CPE to unacceptably high 
levels.
    Finally, I would point out that as a practical matter, our airline 
partners do not want to tie up their capital investment dollars in a 
place like Spokane and in the vast majority of smaller communities. We 
do not see that as a negative. I think that the airlines are pleased 
that we have kept our PFC capacity available to take on the cost of the 
TREX project. We are good partners and understand their corporate 
objectives and how their investments in other types of infrastructure 
benefits our community. We are realists, and we embrace the 
responsibility to develop our airport terminal facilities by using the 
best self-help mechanism available: the PFC. I ask this committee to 
provide communities with the best possible means by which to fund 
airport infrastructure by supporting an increase to the PFC as part of 
an infrastructure bill or other legislation.
                               conclusion
    I am very encouraged that Chairman DeFazio and Ranking Member 
Graves are holding this hearing today to lead our country forward on 
addressing its infrastructure needs. Clearly, the cost of doing nothing 
is high, and we are already paying for it at the risk of harming the 
economic well-being of our community airports by underfunding AIP and 
artificially limiting their ability to deliver modern and efficient 
facilities as a result of an outdated cap on a locally directed user 
fee that has proven to enhance safety, efficiency, capacity, 
competition, and the customer experience. I strongly encourage you to 
consider raising this gap to provide airports like Spokane with the 
broadest range of funding and financing support as we work to deliver 
the 21st-century infrastructure that the American people deserve. I 
look forward to working with members of this committee as you put 
together an infrastructure package and future infrastructure 
legislation.
     exhibit a: terminal renovation and expansion (``trex'') with 
                    consolidated checkpoint project

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



------------------------------------------------------------------------
                                          Approximate     Construction
               Description                 Area (sf)     Costs (2018 $)
------------------------------------------------------------------------
Central Bag Claim (Ground Level-Five           70,000        $33,950,000
 Devices)...............................
Consolidated Checkpoint (Upper Level)...       55,000        $26,675,000
Basement Under Bag Claim (Half of Ground       35,000         $3,500,000
 Level Area)............................
Terminal A/B Remodel (Old Bag Claim and        17,500         $3,062,500
 SSCP)..................................
Terminal C Ticketing remodel (Old SSCP).        4,000           $700,000
Concourse C West Extension (Three Gates        50,000        $26,250,000
 at End of Concourse)...................
Concourse C West Extension (Ramp Level).       50,000         $6,250,000
Concourse C Central (East) Expansion           12,500         $7,500,000
 (Three Gates Above Ground Boarding)....
Concourse C Central (East) Expansion           12,500         $1,562,500
 (Ramp Level)...........................
Concourse Connectors....................       17,000        $10,200,000
Curbside Canopies.......................  ...........         $7,647,000
Apron For Concourse C Extension.........      174,700        $12,229,000
Dual Taxiline...........................      148,500        $10,395,000
Passenger Boarding Bridges..............            6         $4,500,000
Skybridge from Terminal to Parking......        9,750         $5,850,000
Landside Curbside Improvements..........  ...........         $3,500,000
Mechanical and Electrical Upgrades......  ...........        $15,000,000
Airport Operations Center...............       38,000        $12,160,000
                                                      ------------------
  Total..............................................       $190,931,000
------------------------------------------------------------------------

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                       

                                                                                                              

    Mr. Carbajal. Thank you, Mr. Krauter.
    Next we have Ms. Lee.
    Ms. Lee. Good afternoon, Chairman DeFazio--thank you. Good 
afternoon, Chairman DeFazio, Ranking Member Graves, and members 
of the committee. I am Angela Lee, director of Charlotte Water, 
the drinking water and wastewater utility serving the city of 
Charlotte and the Greater Charlotte region in North Carolina. 
It is my honor to appear before the committee today to discuss 
the importance of the Federal role and funding and financing 
wastewater and stormwater infrastructure.
    In addition to speaking on behalf of Charlotte Water, I am 
also representing the Water Environment Federation, which is 
the technical and professional association of clean water and 
stormwater professionals, and the National Association of Clean 
Water Agencies, the association representing clean water and 
stormwater agencies before Congress in the Federal Government.
    Charlotte Water maintains more than 8,600 miles of water 
and wastewater pipeline, with nearly 280,000 active 
connections, countywide. We employ over 950 people, with an 
operating budget of over $460 million. We have a 5-year 
community investment program of $1.5 billion. We are not only a 
provider of vital services for 1.2 million people, we are also 
an important provider and driver of economic prosperity for our 
region.
    Each member of this committee has at least one municipal 
wastewater utility in their congressional district. And many of 
you probably have several that are providing vital clean water 
services to your constituents and businesses. There are over 
15,000 wastewater utilities in the United States, with 75 
percent of the population, 244 million Americans, relying on 
well-built and maintained wastewater systems that treat 32 
billion gallons--that is 32 billion gallons--of wastewater 
daily.
    In fact, many of us washed, brushed, and flushed this 
morning, and it was a wastewater utility that took care of it. 
Without water utilities, businesses would not thrive, public 
health would be at risk, and our rivers and lakes and oceans 
would be in ruins.
    I urge each member of this committee to reach out to your 
local water and wastewater utility and take a tour of our 
operations and learn how we are protecting your communities, 
our communities, and helping them prosper.
    I respectfully urge you to read my full testimony. But for 
the purposes of this hearing I would like to focus on the 
challenges water utilities are having, and the importance 
Federal funding plays in helping us address them.
    As a member of the Water Environment Federation and the 
National Association of Clean Water Agencies, I can speak for 
my municipal water sector colleagues and communities across 
this Nation, that we support improving upon and increasing 
funding for existing water infrastructure programs and, when 
appropriate, developing new funding tools. Congress has made 
important strides in recent years to elevate water 
infrastructure as a national priority. But more needs to be 
done to ensure the Federal Government prioritizes investments 
to support a strong, modern water infrastructure network, as it 
does for other sectors.
    In 1977 Federal funding provided 63 percent of water 
infrastructure funding. Today only about 9 percent comes from 
Federal funding. There is strong support for increasing Federal 
funding for water infrastructure, as noted in a recent poll by 
the Value of Water campaign, which found that 78 percent of 
Americans said it is extremely important--extremely or very 
important that Congress develop a plan to rebuild America's 
water infrastructure, and that 88 percent of Americans agree 
that an increase in Federal funding is needed to rebuild water 
infrastructure.
    Actions this committee and Congress should take? 
Reauthorize the Clean Water State Revolving Fund, and increase 
funding for that program. Reauthorize WIFIA and increase 
funding for it. Create or reestablish some target Federal 
programs to aid lower income ratepayers' stormwater 
infrastructure and workforce sustainability.
    North, south, east, and west of this country, water 
utilities are united in protecting the environment of the 
communities we all serve. We all depend on water infrastructure 
to be dependable and operable. For without clean water, there 
would not be any public health, good public health. There would 
not be economic development and prosperity. And, most 
importantly, without clean water there would not be life.
    Thank you for the opportunity to testify on behalf of the 
water sector and this committee's interest in supporting 
increased funding for water infrastructure. I look forward to 
answering your questions.
    [Ms. Lee's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Angela Lee, Director, Charlotte Water, North 
    Carolina, on behalf of the Water Environment Federation and the 
              National Association of Clean Water Agencies
    Chairman DeFazio, Ranking Member Graves, and members of the 
committee:
    It is my honor to appear before the committee today on behalf of 
Charlotte Water, in partnership with the Water Environment Federation 
(WEF) \1\ and the National Association of Clean Water Agencies (NACWA) 
\2\, to discuss the importance of the Federal role in funding and 
financing wastewater and stormwater infrastructure. I am Angela Lee, 
director of Charlotte Water \3\, the drinking water and wastewater 
utility serving the city of Charlotte and the Greater Charlotte region 
in North Carolina. My testimony will focus upon three significant 
issues affecting wastewater and stormwater infrastructure:
---------------------------------------------------------------------------
    \1\ The Water Environment Federation (WEF) is a not-for-profit 
technical and educational organization of 35,000 individual members and 
75 affiliated Member Associations representing water quality 
professionals around the world. Since 1928 WEF and its members have 
protected public health and the environment. As a global water sector 
leader, WEF's mission is to connect water professionals; enrich the 
expertise of water professionals; increase the awareness of the impact 
and value of water; and provide a platform for water sector innovation.
    \2\ The National Association of Clean Water Agencies (NACWA) 
represents public wastewater and stormwater agencies of all sizes 
nationwide, with more than 325 public agency members. NACWA has been 
the Nation's recognized leader in legislative, regulatory and legal 
advocacy on the full spectrum of clean water issues, as well as a top 
technical resource for water management, sustainability and ecosystem 
protection interests. The Association's unique and growing network 
strengthens the advocacy voice for all member utilities, and ensures 
they have the tools necessary to provide affordable and sustainable 
clean water for all.
    \3\ Angela Lee is the director of Charlotte Water. Lee, who 
previously served as the chief of operations and division manager for 
Charlotte Water since 2004, stepped into her new role in January 2018. 
She has been a city of Charlotte employee since 1988. As director, Lee 
is responsible for the countywide water treatment and distribution, 
wastewater treatment and collection, and utilities planning and 
management activities. Lee holds a Master of Public Administration 
degree from UNC Charlotte and a Bachelor of Science degree in 
Industrial Engineering from North Carolina State University. She was 
the 2017 chair of the North Carolina American Water Works Association 
and North Carolina Water Environment Association (NC AWWA-WEA) and is a 
Grade A water distribution operator. Angela has been given many water 
industry awards including the prestigious Warren G. Fuller Award and 
the Arthur Sidney Bedell Award.

    <bullet>  Federal Funding of Water Infrastructure--Congress should 
provide robust support for existing and proposed Federal funding and 
financing programs, ensuring water infrastructure is a national 
priority on part with other vital infrastructure sectors.
    <bullet>  Benefits of Funding--community prosperity, public health, 
and environmental protection all benefit from Federal funding.
    <bullet>  Risks of Not Funding--without appropriate investment, 
ratepayers, businesses, and job growth are negatively impacted and 
environmental quality and public health are put at risk.
                              introduction
    Charlotte Water maintains more than 8,600 miles of water and sewer 
pipeline, with nearly 280,000 active water connections countywide. 
Charlotte Water employs more than 950 people with an operating budget 
of over $460 million, and a 5-year Community Investment Program budget 
of $1.5 billion. We are not only a provider of vital services, we are 
also an important provider and driver of economic prosperity for our 
region.
    Funding our extensive infrastructure is one of our greatest 
challenges as a utility. Like clean water agencies around the country, 
Charlotte Water has many competing pressures--including the need to 
reinvest in aging infrastructure, maintain and upgrade treatment 
processes, comply with Clean Water Act rules and regulations, make 
strategic long-term investments, and help support a high quality of 
life in our community while addressing household affordability 
constraints. Underlying all these challenges is the ongoing obligation 
to optimize our infrastructure and our performance for the protection 
of the public health and the environment.
    In making operational and investment decisions we also need to 
account for changing conditions--such as precipitation patterns that 
affect the volume and intensity of flows through our system. As an 
example, during Hurricane Florence in September 2018 and its aftermath, 
in some communities millions of gallons of untreated or partially 
treated wastewater were discharged into our waterways across North 
Carolina; drinking water systems were overwhelmed as well. As an 
agency, we strive to make every effort to protect our community and our 
environment. Environmental circumstances like the weather are outside 
our agency's control but are something to which we must adapt. The 
water services we provide are vitally important and depend in large 
part on having adequate funding and financing resources at our 
disposal. The funding challenge for water infrastructure investments is 
not only an issue for Charlotte Water--it's a national challenge that 
warrants national attention and support.
    The need for greater investment in our Nation's infrastructure, 
including wastewater and stormwater, is well known. This committee and 
congressional leaders were sent a letter on January 10, 2019, cosigned 
by 91 national, regional, and State organizations including WEF and 
NACWA urging Congress to include funding and financing for water 
infrastructure in the proposed major infrastructure package. The 
cosigners represent a wide diversity of larger, medium and small 
stakeholder organizations representing citizens from every corner of 
our Nation.
    Nationally, clean water infrastructure has received a D+ grade from 
the American Society of Civil Engineers' infrastructure report card, 
and the U.S. EPA calculates national investment needs just to fully 
comply with the Clean Water Act under current conditions at 
approximately $271 billion over the next 20 years. Some important facts 
about our Nation's water infrastructure system and its needs include:

    <bullet>  There are an estimated 15,000 Water Resource Recovery 
Facilities \4\ (a.k.a. Publicly Owned Treatment Works) in the U.S., 
with 75 percent of the US population--244 million Americans--relying 
upon well-built and maintained systems that treat 32 billion gallons of 
wastewater daily;
---------------------------------------------------------------------------
    \4\ Several years back WEF, NACWA and other organizations 
recognized that the staid model for treating wastewater did not reflect 
the tremendous opportunity that utilizing more advanced treatment 
processes has for recovering and using the energy, nutrients, and water 
resources available in wastewater. For this reason, the sector has 
renamed wastewater treatment facilities Water Resource Recovery 
Facilities (WRRFs).
---------------------------------------------------------------------------
    <bullet>  There are approximately 800,000 miles of wastewater 
collection and conveyance pipes in the U.S., many of which were built 
soon after WWII to help fuel our Nation's growth and have far exceeded 
their 50-year design life;
    <bullet>  According to the most recent U.S. EPA Clean Watersheds 
Needs Survey conducted in 2012, the capital investment need for 
wastewater for the Nation will need $271 billion over the next 20 
years. Further, the report states that the data underestimates 
stormwater infrastructure needs by roughly $100 billion;
    <bullet>  There are 6,500 communities with Municipal Separate Storm 
Sewer Systems (MS4) permits, covering more than 80 percent of the U.S. 
population. Of these, only approximately 1,500 have a dedicated revenue 
source for stormwater infrastructure investments, a growing cost to 
communities;
    <bullet>  Looking collectively at drinking water, wastewater and 
stormwater infrastructure, the U.S. needs to invest a total of $123 
billion per year above current spending levels over the next 10 years 
to bring systems to a state of good repair;
    <bullet>  While Federal contributions to transportation 
infrastructure have stayed constant at approximately half of total 
transportation capital spending, Federal investment in water 
infrastructure has declined from 63 percent to 9 percent of total 
capital spending since 1977. Today, more than 90 percent of all 
investments in water and wastewater in our country come from States and 
local ratepayers;
    <bullet>  The combined Federal, State and local spending on water 
infrastructure equals about $41 billion per year, which means our 
national water infrastructure investment gap is $82 billion per year. 
If current needs are left unaddressed, the annual gap is projected to 
rise to $109 billion by 2026 and $153 billion by 2040, as needs from 
prior years accumulate.
                federal funding of water infrastructure
    Despite many of these challenges, as a Nation we are fortunate to 
have the drinking water, wastewater, and stormwater systems that we 
have. We sometimes forget that many countries would love to have the 
water systems we enjoy. We established these systems many years ago to 
protect our people from outbreaks of cholera and other waterborne 
diseases. The result has been economic prosperity, public health 
benefits, and environmental restoration. It has been 50 years since the 
infamous 1969 fire on the Cuyahoga River that lead to making 
environmental protection of our waters a high priority through passage 
of the Clean Water Act in 1972. The environmental gains since then have 
been significant, but they were made through strong, consistent Federal 
support of funding and financing of water infrastructure.
    As a member of WEF and NACWA, I can speak for my municipal water 
sector colleagues in communities across the Nation that we support 
improving upon and increasing funding for existing water infrastructure 
funding programs and, when appropriate, developing new funding tools. 
Congress has made important strides in recent years to elevate water 
infrastructure as a national priority--but more needs to be done to 
ensure the Federal Government prioritizes investments to support a 
strong, modern water infrastructure network--as it does for other 
sectors. This strong support for increasing Federal funding for water 
infrastructure is a widely held position by a large majority of 
Americans, as demonstrated in a recent poll by the Value of Water 
Campaign \5\ that found that 78 percent of respondents said it's 
``extremely or very important'' that the President and Congress develop 
a plan to rebuild America's water infrastructure. The same poll found 
that 88 percent of Americans agreed that increased Federal funding is 
needed to rebuild water infrastructure.
---------------------------------------------------------------------------
    \5\ http://thevalueofwater.org/resources
---------------------------------------------------------------------------
    As stated above, Federal investment in water infrastructure has 
declined from 63 percent to 9 percent since 1977. This decrease is 
partially due to the replacement of the Construction Grants Program 
with the Clean Water State Revolving Fund (SRF). The Clean Water SRF 
program is one of the most successful Federal infrastructure funding 
programs ever, and it is now critical that Congress reauthorize it and 
increase the authorized fund levels to help address our national needs. 
The last three fiscal years, Charlotte Water has obtained over $84 
million in low-interest loans through the North Carolina SRF loan 
program. Below market interest rate loans help make sewer rates more 
affordable for our ratepayers, many of whom are low-income.
    The Clean Water SRF loans are administered through State 
infrastructure financing agencies, which is meant to ensure that 
funding is going to the most critical projects in a State. Generally, 
this approach has worked, but there are several ways that the loans can 
be delivered more effectively and the Federal capitalization grant to 
State-run SRF programs could be maximized better. As the committee 
develops an infrastructure package, WEF and NACWA encourage the 
committee to further explore some of these approaches to improve the 
SRF program. WEF and NACWA also urge the committee to look hard at how 
the SRF, as well as other current and potential Federal funding 
programs, can provide more funding for stormwater infrastructure and 
water reuse and recycling projects.
    I would also like to thank this committee and Congress for 
reauthorizing the Water Infrastructure Finance and Innovation Act 
(WIFIA) and authorizing the program to receive $50 million for each of 
the next two fiscal years, which is estimated to provide approximately 
$5 billion in Federal low-interest loans per year. The strong interest 
and support for the WIFIA program is evidenced by the fact that in 2018 
the program received 62 letters of interest from utilities worth $9.1 
billion in requests for Federal loans. Congress should continue to 
fully fund the WIFIA program and reauthorize it before its current 
authorization expires after fiscal year 2021.
    While low-interest loans through the SRF and WIFIA have proven to 
be a practical and costeffective approach for the Federal Government, 
Congress needs to restore some targeted grant programs to help in 
several key areas, which include, but are not limited to:
    Resilience--Resilience is not just building infrastructure designed 
to withstand the physical impacts of climate change, it also involves 
financial resilience, workforce resilience, technology resilience and 
long-term planning resilience. No other form of infrastructure will be 
impacted by the need for resilience more than wastewater and stormwater 
infrastructure--from extreme weather to population shifts to economic 
swings to regulatory changes. With over 17,000 wastewater utilities and 
6,500 community MS4 permit holders, they must make their systems more 
resilient to withstand short-term and long-term challenges. Technical 
and funding assistance to utilities, particularly medium and smaller 
ones, would be Federal dollars well spent now rather than in the future 
in response to a disaster or crisis.
    Stormwater--Communities need to make stormwater infrastructure 
investments in the next decade to ensure public safety and meet the 
requirements of the Clean Water Act. Date out of the most recent EPA 
Clean Watershed Needs Survey, which used 2012 data, projects a national 
need of $150 billion over the next 20 years for stormwater and Combined 
Sewer Overflow (CSO) infrastructure for communities to remain in 
compliance with the Clean Water Act. Communities are moving 
deliberately to secure sources of funding for stormwater and green 
infrastructure upgrades but lack funding sources and a comprehensive 
set of tools to construct and maintain the required improvements. 
Federal loans and grants for communities can help them pursue 
approaches to financing the required infrastructure.
    Workforce Sustainability--The Brookings Institution report--
Renewing the Water Workforce--estimates the entire water sector employs 
1.7 million people when accounting for utility staff, consultants, 
manufacturing and other jobs directly associated with the water sector. 
A 2010 report by the Water Research Foundation found an estimated that 
30 percent-50 percent of water utility workers will retire over the 
next decade. Just as with physical infrastructure, human infrastructure 
is a critical part of water infrastructure investment. Jobs in water 
utilities are local, career-long, green jobs that pay family-sustaining 
wages with a position for everyone from a GED to a PhD. At Charlotte 
Water, we have initiated a workforce development program this year to 
grow the pool of available water sector candidates. Participants serve 
under experienced water and wastewater professionals, learning 
important career skills and transferring institutional knowledge. 
Increased funding for water infrastructure investments by communities 
will help utilities find, train and retain the next generation of water 
professionals helping communities to prosper and have a clean 
environment.
    Affordability--For most communities, the most restrictive component 
to a utility increasing rates to pay for necessary infrastructure 
investments is the desire and responsibility of the utility not to 
overburden their lower income rate payers. Utilities in cities and 
rural areas with low-income populations, elderly and fixed-income 
populations, and jurisdictions with declining populations struggle to 
keep water affordable, while funding infrastructure needs to protect 
public health and comply with regulations. In many communities the 
lowest 20 percent of earners pay almost one-fifth of their income 
towards their water bill. Charlotte Water serves just over 285,000 
accounts but provided 58,636 payment arrangements in 2018. Public 
Utilities may be forced to delay much needed projects to avoid 
overburdening customers. The committee should explore approaches to 
help utilities address these burdens on lower income ratepayers. The 
committee is commended for its important work passing legislation last 
Congress to codify Integrated Planning for clean water obligations, an 
approach through which utilities can more strategically plan their 
clean water investments. Policy changes such as this will play a role 
in helping address affordability alongside funding.
                          benefits of funding
    Strong Federal investment in clean water infrastructure is 
paramount as cities and communities across North Carolina and the 
Nation work to meet the needs of their residents and support business 
growth. In my community, Charlotte Water is keenly aware of the impact 
our utility has on growth of the region. With the influx of new 
businesses, multi-family units and growth in industries like healthcare 
and craft brewing, my utility must keep up with providing water and 
wastewater infrastructure for the Charlotte business region to thrive. 
Without adequate wastewater infrastructure in the right place, at the 
right time, and in adequate condition, economic development stalls, 
developers seek other locations to invest and create jobs.
    Innovation and investments in sanitation in our country have been 
crucial to protecting public health by reducing the prevalence of 
waterborne diseases, allowing our communities to thrive and population 
to grow. Clean water investments not only largely eradicated life-
threatening diseases from the United States, they have helped protect 
and restore our lakes, rivers, and coastlines--giving children the 
opportunity to swim outdoors, fisherman to consume their catch, 
ecosystems to improve and new businesses to flourish. The protection 
and provision of water services is a core part of the public's trust in 
all levels of Government, and there is a local, State, and national 
imperative to helping ensure these life-saving and quality-of-life 
services remain strong.
    Having robust sources of Federal funding and financing do more than 
help communities make the important capital investments they need 
today. Reliable funding sources also help communities look to the 
future and do more to stretch limited dollars by investing more 
strategically. For example, as communities develop and implement long-
term plans not only for water and wastewater but also for roads, 
telecom, and other utilities, communities may find opportunities for 
pairing various projects (the ``dig once'' approach) and for phasing 
investments strategically over time. Communities may also be better 
able to adapt to changing environmental conditions to ensure that 
investments made today will be resilient in the future. In many cases 
upfront investments can save long-term costs, but without access to 
affordable long-term funding many communities on the ground find they 
do not have the luxury of planning as far ahead as they may like. For 
example, in Charlotte, having access to various funding options 
provides Charlotte Water flexibility to efficiently coordinate 
infrastructure improvements with the local stormwater utility, transit 
system, State transportation department and energy providers. Right 
now, we are working on a project in an area where the water and 
wastewater infrastructure is about 70 years old that will improve 
water, wastewater, stormwater and pedestrian infrastructure. Several 
agencies are coordinating to improve the quality of life in this 
neighborhood and impact the residents there only once through creative 
construction planning. Federal funding can also help support creative 
solutions with multiple long-term benefits and challenge communities to 
innovate.
    Additionally, as a sector, we are striving to make resource 
recovery a core element of treatment and modernization of wastewater 
infrastructure. Without investing in innovative and modern treatment 
technologies, valuable and money-saving resources such as energy, 
nutrients, and water recycling are being lost. Recovering these 
resources ensures communities are maximizing their current 
infrastructure investments, as well as planning for their future needs. 
This approach is captured in the Water Resources Utility of the Future, 
A Blueprint for Action \6\ guide that WEF, NACWA and other water 
associations developed. Charlotte Water for the last 2 years has been 
honored by Utility of the Future Today Recognition Program for our 
innovative and sustainable approaches to wastewater resources recovery.
---------------------------------------------------------------------------
    \6\ https://www.wef.org/globalassets/assets-wef/direct-download-
library/public/03---resources/
waterresourcesutilityofthefuture_blueprintforaction_final.pdf
---------------------------------------------------------------------------
                          risks of not funding
    Reliable and affordable clean water infrastructure is the backbone 
of our communities, both large and small, as they develop and grow 
economically. Families, businesses, schools, and hospitals need these 
essential clean water services to live, operate and continue to thrive. 
Public utilities are leaning more and more on ratepayers every year to 
meet these growing demands, placing strain on lower income households. 
The Federal Government can be an important partner in providing low-
cost financing tools and funding to help ensure that protections are in 
place to ensure households are not at risk of losing these vital 
services due to cost.
    Water affordability is one of the most vexing challenges facing the 
water sector. Nationally, the cost of clean water services has 
increased faster than the rate of inflation for 15 consecutive years, 
and these trends are anticipated to continue as infrastructure ages, 
communities work to address compliance obligations and new challenges 
emerge. For households with low or stagnant incomes, the amount they 
are spending on water often exceeds what EPA considers affordable. 
Municipalities also face significant pressure to set rates that are 
attainable for the often-growing percentages of low-income households 
in their service area--even if it means deferring investments.
    Federal investment in clean water can be a major economic driver 
for communities in meeting their growth potential. Those investments 
are wise economically for communities and the Nation--every $1 million 
invested in drinking water and wastewater infrastructure increases 
long-term GDP by $6.35, creates 16,000 new jobs, and provides $23.00 in 
public health-related benefits.\7\ Studies also show that the US 
economy would stand to gain over $200 billion in annual economic 
activity and 1.3 million jobs over a 10-year period by meeting its 
current water infrastructure needs. Without these investments, 
breakdowns in water supply, treatment and wastewater capacity are 
projected to cost manufacturers and other businesses over $7.5 trillion 
in lost sales and $4.1 trillion in lost GDP from 2011 to 2040.
---------------------------------------------------------------------------
    \7\ http://thevalueofwater.org/sites/default/files/
Economic%20Impact%20of%20Investing%20in
%20Water%20Infrastructure_VOW_FINAL_pages.pdf
---------------------------------------------------------------------------
    Further, Federal investment is needed for communities to continue 
making the water quality gains they have made over the past several 
decades under the Clean Water Act. As communities deal with aging 
infrastructure and increasing water quality challenges, Federal 
resources are important in helping public utilities meet these 
challenges head on and ensuring residents have the clean and safe water 
services they deserve. We cannot risk the incredible progress on 
environmental and water quality gains that have been made under the 
Clean Water Act due to stagnant Federal investment. And we also need to 
pay close attention to the real health and environmental risks 
associated with water services becoming too costly for households to 
afford.
                               conclusion
    This testimony has touched upon just a few of the water 
infrastructure challenges we at the local government level are faced 
with, and some of the remedies we believe will help lessen the 
financial impact on our citizens, particularly those who have so little 
income to spare. More Federal funding through existing programs and 
potential new programs will help us begin to make headway towards 
addressing in our wastewater and stormwater infrastructure needs. The 
return to the Nation for increased Federal funding will be 
environmental, public health and economic benefits critical to the 
health and safety of our country.
    Thank you, Mr. Chairman, Mr. Ranking Member and committee members, 
for your kind attention. I would be happy to answer any questions you 
may have.

    Mr. Carbajal. Thank you, Ms. Lee.
    Mr. McArdle, you may proceed.
    Mr. McArdle. Well, good afternoon, Mr. Chairman, Ranking 
Member Graves, and to all the members of the committee. And, 
first of all, thank you all for your public service.
    My name is Rich McArdle. I am the president of UPS Freight, 
which is based in Richmond, Virginia. I am here today 
representing the U.S. Chamber of Commerce, the world's largest 
business federation.
    For the past 37 years I have worked for UPS, a company you 
to know--or one extent or another, are very familiar with. We 
have employees, buildings, a variety of trucks, perhaps even 
airplanes, back office operations, UPS stores, or other 
multimodal operations in every single one of your congressional 
districts. We probably have delivered a package to your home 
some time this week or some time last month.
    This year represents our 112th as a company. My career 
parallels that of many of our senior leaders. I started loading 
delivery vehicles in Louisville as a part-time employee, a job 
that I assumed would last only until I graduated from college. 
One thing led to another, and I began a series of operational 
assignments with increasing responsibility. It led me from 
Kentucky to Colorado to California to South Carolina to 
Washington, DC, to Pennsylvania, and now down to Richmond.
    I personally have experienced congestion all over the 
country.
    As an integrated multimodal service provider, UPS engages 
in the movement of goods with every transportation mode 
represented here today. And that is why I want to thank you for 
the opportunity to testify.
    I won't spend any more time on UPS. Rather, I would like to 
emphasize a perspective we share with the U.S. Chamber, the 
American Trucking Associations, and many Americans. And that 
perspective--there is a cost of not addressing the 
infrastructure investment issue. As was mentioned many times 
this morning, that has already been pointed out. The cost of 
doing nothing is truly more than the cost of doing something. 
And that is what I want to discuss.
    For UPS and our customers, transportation infrastructure 
means something very different than an ongoing discussion about 
small government versus big government, devolution, long-term 
funding solutions, or any other term that seems to avoid the 
real action that needs to be taken. Transportation bottlenecks, 
including potholes, harm all of us, all of our businesses, as 
well as individual commuters. They compromise our ability to 
serve our customers, impede our ability to grow, and cost 
commuters at least 42 hours a year, on average, across the 
country.
    At UPS we pride ourselves on efficiency. However, today, in 
order to meet our service commitments, we may have to dispatch 
additional vehicles to mitigate the time spent in congestion. 
In doing so, like other transportation service providers, we 
are adding to the congestion problem.
    The problem is very simple. The primary funding mechanism 
for the surface transportation infrastructure, the Highway 
Trust Fund, is underfunded and does not provide the necessary 
resource to maintain and keep the network in a state of good 
repair, let alone provide the resources we have talked about 
this morning--we have heard--to modernize and incorporate 
technology, improve the fluidity, the velocity, and, most 
importantly, the safety of our networks.
    The annual shortfall in the Highway Trust Fund, $144 
billion since 2008, is being covered by the general fund. The 
majority of Americans across all parties will support an 
increase in the Federal gas tax to pay for roads, if that means 
less Government borrowing, which will reduce the burden of debt 
on future generations.
    We have to modernize our infrastructure. However, today we 
struggle to keep up with what we already have. Do you realize 
that 7 cents out of every dime is spent maintaining existing 
roads, 2 cents are spent adding capacity to the additional 
thoroughfares, and just one penny out of every dime is spent on 
brandnew roads?
    Congress can help us. We need an infrastructure 
modernization plan to encourage innovation, give States and 
cities who manage the highway network the flexibility to 
incorporate technology into our highways, and to support and 
improve mobility, whether that is autonomous vehicles, 
intelligent transportation systems, connectivity among other 
modes of transportation, they all need to be included as we 
move forward.
    In my written testimony I mention both the Chamber's plan 
and the American Trucking Associations' Build America Fund. 
Both staffs from both organizations are ready to go into detail 
of those plans with you. I think that you will find that they 
address innovation, they address ideas of how funds can be 
dedicated.
    And one other thing I will mention is that later this week 
or next week the American Transportation Research Institute 
will be releasing its next updated list of the top 100 
bottlenecks in America. I encourage you to take a look at that 
report when it comes out.
    I would like to conclude, hopefully, by conveying a sense 
of urgency. Will this be the Congress that stabilizes the 
Highway Trust Fund, which has been underfunded for more than a 
decade? Or will the can be kicked down the road one more time? 
From what I heard this morning, I know that is not the intent.
    Let's not allow our infrastructure that has long been the 
catalyst of our country's prosperity to deteriorate any 
further. The UPS, the Chamber, the ATA, along with other 
business leaders stand by ready to work with Congress to enact 
an infrastructure modernization bill this year.
    Remember, the cost of doing nothing is more than the cost 
of doing something.
    Thank you for your opportunity to speak with you today, and 
I look forward to your questions.
    [Mr. McArdle's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Rich McArdle, President, UPS Freight, on behalf 
                    of the U.S. Chamber of Commerce
     The Impact of Inaction on an Infrastructure Modernization Plan
    The U.S. Chamber of Commerce is the world's largest business 
federation representing the interests of more than 3 million businesses 
of all sizes, sectors, and regions, as well as State and local chambers 
and industry associations. The Chamber is dedicated to promoting, 
protecting, and defending America's free enterprise system.
    More than 96 percent of Chamber member companies have fewer than 
100 employees, and many of the Nation's largest companies are also 
active members. We are therefore cognizant not only of the challenges 
facing smaller businesses, but also those facing the business community 
at large.
    Besides representing a cross-section of the American business 
community with respect to the number of employees, major 
classifications of American business--e.g., manufacturing, retailing, 
services, construction, wholesalers, and finance--are represented. The 
Chamber has membership in all 50 States.
    The Chamber's international reach is substantial as well. We 
believe that global interdependence provides opportunities, not 
threats. In addition to the American Chambers of Commerce abroad, an 
increasing number of our members engage in the export and import of 
both goods and services and have ongoing investment activities. The 
Chamber favors strengthened international competitiveness and opposes 
artificial U.S. and foreign barriers to international business.
                               __________
                              introduction
    Chairman DeFazio, Ranking Member Graves, and members of the 
committee--thank you for the opportunity to provide testimony before 
the House Transportation and Infrastructure Committee on a policy issue 
of the utmost importance to our Nation. My name is Rich McArdle, and I 
currently serve as the president of UPS Freight. I submit these written 
comments, and appear personally before the committee, representing the 
United States Chamber of Commerce.
    The U.S. Chamber of Commerce is the world's largest business 
federation. The organization represent the interests of over 3 million 
businesses of all sizes, sectors, and regions, as well as State and 
local chambers and industry associations.
       the importance of america's transportation infrastructure
    America's transportation network is a vast and complex system that 
connects people and places, moves goods, boosts our economy, enhances 
safety, and improves our daily quality of life. The country's 
transportation system is comprised of roads, bridges, public transit, 
airports, railroads, seaports, and interchanges affecting thousands of 
communities, multiple industries, and virtually all job sectors. 
Without question, this system serves as the backbone of the Nation's 
economy.
    The current assets that make up our Nation's transportation network 
include:

    <bullet>  4.1 million miles of public highways
    <bullet>  600,000 bridges
    <bullet>  11,300 miles of public transit
    <bullet>  25,000 miles of navigable waterways
    <bullet>  114,600 miles of rail
    <bullet>  250 water ports
    <bullet>  19,500 airports

    Source: 2019 Bureau of Transportation Statistics Pocket Guide

    By any objective measure, America's transportation infrastructure 
has been the envy of the world. From the transcontinental railroad to 
electric streetcars, from subways to the Interstate Highway System, 
freight rail connections to the world's most advanced aviation system, 
our Nation's history of providing state-of-the art transportation 
infrastructure is impressive, and continues to evolve.
    As this committee knows, most of this system was built 60-150 years 
ago. The Chamber, and UPS, believe the time has come to enact a Federal 
infrastructure modernization plan to provide every American a 21st-
century system.
             the importance of networks to freight movement
    The Nation's goods movement and freight networks continue to 
experience significant strain. In 2016, our Nation's transportation 
system moved 17.6 billion tons of goods, worth $18.1 trillion, 
according to the U.S. Department of Transportation. Source: USDOT 2019 
Bureau of Transportation Statistics Pocket Guide
    The Nation's supply chain is also adapting to the rapidly advancing 
e-commerce environment. Supply-chain fulfillment operations, including 
thousands that we interact with at UPS, have transitioned from an 
inventory based ``manufacture-to-supply'' model to a ``manufacture-to-
order'' model. In fact, many of these orders are shipped directly to 
the end consumer. Emerging technologies such as vehicle-to-vehicle and 
vehicle-to-infrastructure communications and autonomous vehicles 
require modern infrastructure to allow these innovations to achieve the 
desired effects of maximizing the efficiency of the transportation 
network, while increasing safety for transportation workers.
                    the current impact of congestion
    According to the American Transportation Research Institute (ATRI), 
congestion on the Interstate Highway System alone costs the trucking 
industry nearly $74.5 billion in 2016 and wasted more than 1.2 billion 
hours. This number, from 3 years ago, equates to 425,000 drivers 
sitting idle for a full working year. Today, the situation has 
deteriorated even further. Source: ATRI Cost of Congestion to the 
Trucking Industry 2018 Update
    For UPS, this impact is real--if every UPS vehicle is delayed due 
to congestion 5 minutes a day, every day, it costs our enterprise $114 
million annually.
    For a company like UPS, this scenario has a legitimate, dramatic 
and daily impact, as we operate approximately 120,000 commercial 
vehicles and travel 2.9 billion miles in the United States each year. 
Ultimately, congestion requires UPS to build in operational 
redundancies to meet service commitments to our customers.
    Practically speaking, this means that every day we have to dispatch 
more tractor-trailers and delivery vehicles than necessary to complete 
our work under optimum conditions--therefore, and ironically, adding to 
congestion.
    A snapshot of UPS operations in the New York City metropolitan area 
may provide some insight into today's challenges. On average, UPS 
delivery drivers in New York City and northern New Jersey are delayed 
16 minutes per day due to traffic congestion. Since 2011, UPS has had 
to dispatch an additional 62 delivery drivers, every day, to meet 
customer service obligations in this geographic area due to gridlock. 
In addition, in the same New York-New Jersey area, congestion has 
forced UPS to dispatch an additional 21 tractor-trailer combinations 
(to handle the same amount of package volume moving between UPS 
facilities).
    Put simply--these additional vehicles only make a bad situation 
worse, let alone further negatively impacting the local communities in 
which we provide service. The average commuting time in the United 
States, at 48 minutes per day, is well above that of its peers due to 
congestion and inadequate public transit; it is 38 minutes in the 
United Kingdom and 31 minutes in Italy. Source: Council on Foreign 
Relations 2018 State of U.S. Infrastructure Report In addition, 
inadequate infrastructure also leads to vehicle damage. According to 
The Road Information Program, the average American experiences on 
average $599 of damage to their vehicle each year due to inadequate 
road conditions. Furthermore, congestion costs the average American an 
additional $960 annually meaning that the cost to the average commuter 
of doing nothing is over $1,500. Source: Texas A&M Transportation 
Institute (TTI) 2015 Urban Mobility Scorecard
              investment not meeting infrastructure needs
    Both the American Society of Civil Engineers (ASCE) 2017 
Infrastructure Report Card and the latest Department of Transportation 
Conditions and Performance (C&P) Report show current investment levels 
are not even maintaining the current infrastructure network, much less 
making improvements.
    The 2015 USDOT C&P report highlighted the current state of good 
repair needed for highways and bridges at an estimated $830 billion. Of 
the total backlog, $156.8 billion is required for the Interstate 
System; $394.9 billion for the National Highway System, and $644.8 
billion for Federal-aid highways. The USDOT C&P report also stated the 
current state of good repair needs for public transit at $89.8 billion.
    The ASCE Report chart below shows the estimated investment gaps for 
several types of infrastructure over the next 10- and 20-year periods:


         Estimated Changes in U.S. Infrastructure Sector Investment Gaps and Aggregate Investment Gap\\
----------------------------------------------------------------------------------------------------------------
                                                               Cumulative Gap Estimate   Cumulative Gap Estimate
                                                               in 2016 Failure to Act   Calculated for 2011-2012
                                                                 Analysis (Billions      Failure to Act Analysis
                                                                       2015$)            (Adjusted from Billions
                                                             -------------------------- 2010$ to Billions 2015$)
                                                                                       -------------------------
                                                               2016-2025    2016-2040    2016-2025    2016-2040
----------------------------------------------------------------------------------------------------------------
Surface Transportation......................................       $1,101       $4,334         $908       $3,931
Water & Wastewater..........................................         $105         $152         $113         $163
Electricity.................................................         $177         $565         $212         $743
Aviation....................................................          $42          $88          $46          $82
Ports & Inland Waterways....................................          $15          $43          $18          $42
                                                             ---------------------------------------------------
  Total.....................................................       $1,440       $5,182       $1,297     $4,961\\
----------------------------------------------------------------------------------------------------------------
\\ Note: Numbers may not add due to rounding.\\
\\ Source: Failure to Act: Closing the Infrastructure Investment Gap for America's Economic Future, American
  Society of Civil Engineers

efforts laying the groundwork for broader infrastructure modernization 
                                 debate
    The Trump administration has been vocal about the need to rebuild 
and vastly improve our infrastructure, and Congress, on a bipartisan 
basis, has also indicated its willingness to work on solutions. This 
committee is taking a leadership role on this issue and should be 
commended. This written, we should not confuse activity with 
accomplishment on this vital policy initiative. The time is now for 
elected officials in Washington to take charge and tackle the problem 
with both adequate funding and a long-term plan.
    For years, the U.S. Chamber of Commerce has supported meaningful 
action to reinforce our once-unequalled infrastructure, and we've 
continued to offer a slate of potential solutions to prove it.
    Last year, the Chamber laid out four pillars that the 
administration and Congress should consider including in the 
infrastructure modernization debate:
    <bullet>  Increasing the Federal fuel user fee by 5 cents a year 
for the next 5 years for surface transportation projects.
    <bullet>  Implementing a multifaceted approach for leveraging more 
public and private resources.
    <bullet>  Streamlining the permitting process at the Federal, 
State, and local level.
    <bullet>  Expanding the American workforce through work-based 
learning and immigration reform.

    The Chamber is urging Congress to utilize all user fee revenue in 
the Airport and Airway, Inland Waterway, and Harbor Maintenance Trust 
Funds to invest in much needed airport and water infrastructure 
projects.
    The Chamber is also open to other ideas to provide a long-term 
vision for transportation infrastructure and address the funding needs. 
At present, the Chamber is holding a competition offering cash prizes 
for ideas other than an increase in the fuel tax for surface 
transportation from everyone--students, academics, business leaders, 
the builders of the system, and the users of the system--to submit the 
best, most viable ideas for a long-term sustainable funding source. The 
Chamber will consolidate and publish all of the good ideas they 
receive, and has recently started publicly discussing these matters as 
on Tuesday of this week we hosted a signature thought leadership summit 
event: ``America's Infrastructure: Time to Invest.''
                       highway trust fund issues
    As has been discussed before the committee in the past, the Federal 
Highway Trust Fund (HTF) will run out of money shortly after the Fixing 
America's Surface Transportation (FAST) Act expires in 2020. The 
primary reason we are underfunding our highways and transit systems is 
that the HTF is experiencing an annual deficit of $11.8 billion in 
2018--spending $55.2 billion while only taking in $43.4 billion--which, 
according to the Congressional Budget Office, will increase to $25 
billion in 2029. Source: Congressional Budget Office The Budget and 
Economic Outlook: 2019 to 2029
    Congress has made up for this funding shortfall in two ways. First, 
it has transferred $144 billion into the trust fund since 2008 to 
prevent insolvency. Second, it has delayed and underfunded the 
maintenance of the country's roads, bridges and mass transit systems.
    The Congressional Budget Office further estimates the trust fund 
will need up to $150 billion infusion to enact a 6-year reauthorization 
that merely maintains current spending levels.
    With a growing Federal deficit, the ability for Congress to 
continue to inject General Fund revenue into the HTF is limited. This 
is one major reason the Chamber supports the budget-neutral mechanism 
of adjusting the Federal fuel user fee to address this issue and 
provide long-term stability for our highway and transit programs.
          how to increase investment in surface transportation
    To rebuild and expand our roads, bridges, and transit systems, the 
Chamber believes it is time for a modest increase in the Federal motor 
vehicle fuel user fee. The user fee was last raised in 1993. Since 
then, inflation has eroded over 40 percent of the value of the fee. In 
addition, vehicles are significantly more fuel-efficient than they were 
25 years ago. As a result, motorists use less fuel to drive the same 
number of miles, generating significantly less revenue to maintain the 
roads upon which they drive.
    The Chamber is calling for increasing the gas and diesel taxes by 5 
cents a year in each of the next 5 years for a total of 25 cents. The 
proposal would include indexing the tax for inflation and for future 
increases in fuel economy, so there would be no need to revisit this 
issue in the future.
    The proposal would raise $394 billion over the next 10 years, which 
would be invested in our highways, bridges, and transit systems in a 
fiscally responsible fashion. When combined with State, local, and 
private-sector funds, this would go a long way towards modernizing the 
Nation's once-great interstate system.
    In addition to my responsibilities at UPS Freight, I also have the 
pleasure of serving as a cochair of the American Trucking Associations 
(ATA) Infrastructure Task Force, which has explored various ways to pay 
for increased highway investment. Like the Chamber, ATA believes that 
an adjustment in the Federal fuel tax is the most efficient, equitable, 
and logical manner to increase transportation infrastructure investment 
in a budget-neutral fashion.
    The ATA proposal, the Build America Fund plan, calls for a Federal 
fuel usage fee built into the price of wholesale transportation fuels 
collected at the terminal rack, phased in at a nickel per year over 4 
years. The fee would be indexed to both inflation and improvements in 
fuel efficiency, with a 5-percent annual cap.
                               conclusion
    The bottom line is that the time to make important infrastructure 
investments is NOW. Delaying action only makes the decisions more 
difficult and projects costlier. From the business community's 
perspective, the question is not if we need to make these decisions, 
but when.
    The Chamber strongly supports modernizing the Nation's 
infrastructure. We need a fluid, efficient multimodal national 
transportation network that will support the transportation needs of 
businesses from origin to destination across the globe, and from the 
factory to the corporate headquarters, to main street retailers to 
medical centers, to everywhere in between.
    There is no single funding solution that will solve all of our 
surface transportation infrastructure problems. The Chamber believes 
communities should have a large toolkit of funding and financing 
options available that can be utilized to provide the infrastructure 
needed, not just to succeed, but to lead the world in providing 
economic and social mobility. Improving our current infrastructure is a 
necessary component of economic development for our country.
    Here's the bottom line: A robust, long-term Federal infrastructure 
modernization program, combined with greater investment by State, local 
and private stakeholders, can engender the partnership necessary to 
ensure our Nation has a 21st-century infrastructure network. But 
without a serious commitment from Federal lawmakers, our Nation will 
not make the kind of progress demanded by the challenges we'refacing.
    Enacting an infrastructure modernization plan this year would 
directly add demand and employment, as some 14 million workers, or 11 
percent of the total U.S. labor force, are currently employed in 
infrastructure-related sectors, according to the Brookings Institution. 
Source: ``Beyond Shovel-Ready: The Extent and Impact of U.S. 
Infrastructure Jobs.''
    Thank you for the opportunity to testify today regarding this 
timely and important issue. The Chamber and all UPSers look forward to 
working with this committee, the administration, and Congress to 
support this critical effort to provide the tools necessary to 
modernize America's highway and public transportation network, 
stabilize the Highway Trust Fund, and grow investment in the Nation's 
transportation infrastructure so each State and region can get out of 
the system what they need to be successful--whether that is moving 
goods or individuals.

    Mr. Carbajal. Thank you, Mr. McArdle.
    Ms. Meira, you may proceed.
    Ms. Meira. Thank you. Thank you, Mr. Chairman, Ranking 
Member Graves, members of the committee. Good afternoon. I 
represent the Pacific Northwest Waterways Association, and we 
thank you for tackling one of the most challenging issues in 
our country today, and that is the status of our 
infrastructure. I am honored to share with you some 
perspectives from the ports and navigation sector.
    And the Northwest region that I represent is truly a 
microcosm of the diverse national ports portfolio. We have big 
import centers, like the Ports of Seattle and Tacoma, which, 
together, is the third largest container gateway in the 
country. We have export gateways, like the Lower Columbia 
River, where over half of the Nation's wheat exports move out 
to feed the world. And we have a network of smaller ports on 
the Oregon and Washington coasts, which serve as commercial and 
recreational fishing hubs, and they home port critical Coast 
Guard operations. And that is just the view from the Northwest.
    Across the U.S. ports generate trillions of dollars in 
economic activity, and support millions of American jobs. And 
our prosperity depends on the efficiency of our ports, and 
infrastructure is key.
    When we think about the infrastructure needs of our coastal 
ports, an issue top of mind is the Harbor Maintenance Tax, or 
HMT. I heard it mentioned a number of times this morning at 
panel one, and you will hear about it a bit more from me.
    The HMT is collected mostly on imported waterborne cargo. 
It is intended to pay for 100 percent of the operations and 
maintenance needs of our coastal ports and harbors. But since 
2003, HMT collections have far exceeded the funds that have 
been passed along to the Corps of Engineers for harbor 
maintenance. So we now have a surplus that has grown to over $9 
billion. So, rather than being fully used for critical 
maintenance, that money has been held back to help balance the 
Federal budget.
    Now, our ports community has been working for years to 
support comprehensive HMT reform. The past few WRDA bills--and 
we have to say thank you for this--they had very important 
steps forward, including setting targets to get on the path 
toward full use of HMT revenues, a 10-percent set-aside for our 
Nation's smaller ports, and authorizing funding for donor and 
energy transfer ports.
    As we look ahead, we continue to advocate for full use of 
all HMT monies collected. In our region alone, HMT dollars 
helped to maintain places like Grays Harbor in Washington, 
where traffic has increased over 400 percent in the last 15 
years; Everett, Washington, where nearly $30 billion worth of 
U.S. goods are exported annually; and Newport, Oregon, which is 
the home port for NOAA's Pacific fleet.
    And this fund is also important to our Nation's small 
coastal ports. Just one example in our region are the Ports of 
Ilwaco and Chinook in Pacific County, Washington. Combined, 
they bring in a total of 16 million pounds of fish valued at 
$22 million for a county of just 22,000 people. And without 
basic maintenance dredging, Federal dredging, the life blood of 
that entire community would evaporate.
    We also have a significant backlog of deferred maintenance 
for structures like jetties, pile dikes, breakwaters, and more. 
And unlocking the HMT is key.
    Our association also supports a broader conversation about 
the HMT. I mentioned earlier the Ports of Seattle and Tacoma. 
They are naturally deep import centers, where significant 
amounts of HMT are collected, yet relatively little maintenance 
activity is required.
    And for ports that are close to a border, that can also 
play a role in their competitiveness. So we support an ongoing 
dialogue about how to support all U.S. ports, including small 
and donor ports.
    And as we think about a broader infrastructure package 
beyond navigation, our ports want to be a part of that 
conversation, too. With the committee looking to build upon 
improvements made in the FAST Act, we encourage development of 
specific freight element in that new legislation, with programs 
that are truly multimodal.
    Our Nation's ports also support funding for first and last 
mile road and rail projects to expand capacity and efficiently 
connect our ports to surface transportation systems. We look to 
continue to build on programs like BUILD, INFRA, RRIF, and 
others for facilitating port improvements. And for ports which 
operate airports, I would be remiss if I did not mention the 
need to increase that PFC that Mr. Krauter mentioned before. 
Allowing an increase in that fee will allow for critical 
investments at our Nation's airports.
    And woven into all these priorities is the need for 
resiliency planning, and I hope to talk about that more during 
the Q&A session.
    Thanks for the opportunity to share our views. We look 
forward to partnering with you as you get to work on 
modernizing our U.S. infrastructure. Thank you.
    [Ms. Meira's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Kristin Meira, Executive Director, Pacific 
                    Northwest Waterways Association
    Chairman DeFazio, Ranking Member Graves, members of the committee:
    Good morning. My name is Kristin Meira, and I am the executive 
director of the Pacific Northwest Waterways Association, or PNWA. PNWA 
is a nonprofit trade association that advocates for Federal policies 
and funding in support of regional economic development. Our membership 
includes over 140 public ports, navigation, transportation, trade, 
tourism, agriculture, forest products, energy and local government 
interests in Oregon, Washington, and Idaho.
    Thank you for holding this important hearing. I am honored to be 
here today to represent ports and navigation.
                        ports drive the economy
    The Northwest region I represent is truly a microcosm of the 
national ports community. We have significant import load centers like 
the Ports of Seattle and Tacoma, which together serve as the third 
largest container gateway in the Nation. We have export gateways like 
the Lower Columbia River, which ships over half of the Nation's wheat 
to overseas markets. And we have our smaller coastal ports, the 
commercial and recreational fishing hubs that provide critical access 
to the open ocean and house Coast Guard facilities needed to ensure the 
safety of all mariners.
    That is just the view from the Northwest. Across the U.S., ports 
and harbors are the economic drivers for their local communities, their 
States, regions, and the Nation. Seaports account for over a quarter of 
the U.S. economy and generate trillions of dollars in economic 
activity. Cargo handling at America's seaports support more than 23 
million American jobs and generate over $320 billion in annual Federal, 
State and local taxes. In addition, all but 1 percent of the Nation's 
overseas trade moves through maritime facilities. Clearly, our Nation's 
prosperity depends on the efficiency of our ports.
    Infrastructure is key when it comes to the continued viability of 
our Nation's ports. Ports are often where all modes of transportation 
come together to provide efficient, reliable and safe movement of goods 
and people. Whether you are talking about highways, rail, bridges, 
waterways or aviation, funding port infrastructure is a smart 
investment and keeps America's economy moving.
unlocking the harbor maintenance tax is vital to keeping ports open for 
                                business
    When we think about the needs of our coastal ports and harbors, an 
issue top of mind is the Harbor Maintenance Tax (HMT). The HMT was 
established in the Water Resources Development Act of 1986 to help pay 
for Corps of Engineers maintenance needs at coastal and deep draft 
harbors. At the time it was established, the HMT was levied on the 
value of imported, exported and domestic cargo. But in 1998, the U.S. 
Supreme Court found that taxing exported goods was unconstitutional. 
Today, the HMT is levied primarily on imported waterborne cargo, and is 
intended to provide for 100 percent of the operations and maintenance 
(O&M) needs of deep draft and coastal waterways throughout the U.S. 
However, since 2003, HMT collections have far exceeded funds 
appropriated for harbor maintenance, with a surplus that has grown to 
over $9 billion. Rather than being used for critical channel 
maintenance, HMT revenues have been used to help balance the Federal 
budget.
    The ports and navigation community has been working to support 
comprehensive HMT reform for a number of years. One of the key pieces 
of legislation in support of this effort was the Water Resources Reform 
and Development Act of 2014. WRRDA 2014 set important goals for the 
full use of Harbor Maintenance Trust Fund (HMTF) revenues each year. It 
also provided a 10-percent set aside for our Nation's small ports and 
authorized $50 million annually for donor and energy transfer ports. 
Because of the work of this committee, further HMT improvements were 
made in the Water Resources Development Act of 2016 and today coastal 
maintenance spending is at nearly 91 percent of HMT collections.
    We continue to advocate for full use of all HMT monies collected. 
Full spending of the trust fund is vital to ensuring that our ports and 
harbors remain competitive players in the global marketplace. The 
monies provided to the Corps through the HMTF are critical to address 
annual dredging needs throughout the country. In our region alone, HMTF 
dollars maintain gateways like Grays Harbor, WA, where traffic has 
increased over 400 percent in the last 15 years, in Everett, WA, where 
nearly $30 billion worth of U.S. goods are exported annually and at 
Newport, OR, which homeports NOAA's Pacific fleet tasked with critical 
data collection activities to protect marine mammals, manage commercial 
fish stocks, and keep mariners safe.
    HMTF dollars also fund maintenance of our small coastal ports. 
These ports are home to fishing fleets, marinas and recreational 
facilities, and they are critical to the economic survival of their 
communities. Each year, millions of pounds of fish cross the docks of 
small ports, bringing billions of dollars to the national economy. Just 
one example in our region are the Ports of Ilwaco and Chinook in 
Pacific County, Washington. Combined, they bring in a total of 16 
million pounds of fish valued at $22 million. Think about the direct 
and indirect benefit that has on a county of just 22,000. Without basic 
maintenance dredging, the economic lifeblood of this community would be 
at risk. Many of these projects also have breaking bars, serve as 
Harbors of Refuge for commercial and recreational fishing vessels, and 
provide critical access for Coast Guard Search and Rescue missions.
    And it is not just dredging needs that we see on the horizon. There 
are other elements of navigation infrastructure that often go unfunded 
for years, like jetties, pile dikes, breakwaters, and more. It is in 
the best interest of the Federal Government to take care of these 
repairs now, rather than add to the already significant backlog and 
deferred maintenance of the Corps of Engineers.
    Our association also supports a broader conversation about the 
HMTF, to address the concerns of ports which may not need typical 
dredging or other maintenance, but who have other needs in order to be 
efficient. In the Northwest, the Ports of Seattle and Tacoma are like 
other naturally deep import load centers where a significant amount of 
HMT is collected, yet relatively little maintenance activity is 
required. For U.S. ports that are close to a border, this can also play 
a role in their competitiveness. We support the ongoing dialogue about 
how to support all U.S. ports, including our naturally deep water 
import centers.
         navigation infrastructure investments in the northwest
    In the Pacific Northwest, we've seen what happens when our Federal 
Government takes a proactive approach to infrastructure.
    Early in the last decade, our colleagues at the Portland and Walla 
Walla Districts of the U.S. Army Corps of Engineers recognized that our 
aging locks would require strategic repairs to remain operational and 
reliable. Our group worked with the Corps to advocate for a strategy 
that would have the least impact to our regional and national economy.
    It is important to remember the scale of our navigation 
infrastructure projects. A catastrophic failure of one of our lock 
gates would translate to at least a 1-year closure of that project. 
That is how long it takes to design, fabricate, and install a lock gate 
of that size. We do not have back-up locks at our projects. Allowing 
our locks to degrade to the point of failure simply is not an option. A 
closure of one of our projects creates a bottleneck for the entire 
system.
    Beginning in 2006, the Portland and Walla Walla Districts, 
Northwestern Division, and PNWA partnered to discuss the highest 
priority repairs, funding estimates, and proposed timeline. The result 
of those partnering efforts was a 2007 plan for how repairs would be 
pursued. The goal: minimize planned and unplanned system closures.
    The Corps began working with stakeholders to prepare for new 
downstream gates at three of our projects, and major repairs at three 
other locks. A tremendous amount of coordination went into what 
eventually was a 15-week complete closure of our inland navigation 
system. This type of long-term planned closure had never been done on 
any inland waterway in the United States.
    We worked closely with the Corps for over a year to prepare 
growers, shippers, ports, towboaters, steamship operators, fuel 
companies, media, legislators, and the States of Oregon, Washington, 
and Idaho for this unprecedented closure. Special emphasis was placed 
on outreach to grain buyers overseas who were accustomed to sourcing 
U.S. wheat from the historically reliable Columbia Snake River System. 
Every moment of the 14 months leading up to the closure was necessary 
to ensure that both domestic and international stakeholders were 
prepared for the shutdown of our system.
    I'm pleased to say that this effort was a complete success, and a 
project of which the Corps, stakeholders, and Congress can truly be 
proud. Because of the outstanding partnership between the Corps and its 
customers, impacts to our regional and national economy were minimized. 
The lock maintenance closure demonstrated how the Corps can efficiently 
deliver projects while having a minimal impact on the economy. The 
approach was so successful, a similar planned closure for additional 
repairs was carried out 6 years later. This is a great example of 
targeted investments which protect the continued efficiency and 
reliability of a navigation system.
    We have also seen how navigation construction projects can lead to 
increased capacity and efficiency. In 2010, the region celebrated the 
completion of the Columbia River Channel Improvement Project. The 
Federal Government, the States of Oregon and Washington, and ports on 
the Lower Columbia River invested over $183 million to deepen the 
Columbia River navigation channel to 43 feet. Channel deepening 
solidified the Columbia Snake River System's position as one of the 
Nation's leading international trade gateways. Ports, grain terminals, 
rail lines and towboat companies up and down the Columbia/Snake made 
significant private investments to capitalize on the successful Federal 
project. The result is an increase in tonnage on the system from 44 
million tons of cargo in 2010 to over 50 million tons in 2016.
    Grays Harbor on the coast of Washington is another example of the 
benefits to the U.S. economy as a result of infrastructure investment. 
The Port of Grays Harbor is a deep water port with a strategic coastal 
location, making it one of the most important international shipping 
hubs in the Northwest. Marine activity at the Port includes deepwater 
ship and barge transfer of products from local and national 
manufacturers to domestic and foreign markets. More than 90 percent of 
Grays Harbor's shipping activity is related to exports, with more than 
80 percent of their cargo arriving by rail from the Midwest and 
Intermountain region.
    Like most ports, the Port of Grays Harbor has had a number of 
deepening projects over the years. The most recent Corps of Engineers 
deepening program commenced at the Port in October 2016. The project 
was completed in December 2018 and is already seeing ships loaded with 
10 percent more cargo at the Port's Terminal 2, the largest soymeal 
export facility on west coast. The deepening, as well as continued 
maintenance of the Federal navigation channel, has resulted in recent 
private investment of more than $220M at Port terminals.
    The Northwest Seaport Alliance, a marine cargo partnership between 
the ports of Seattle and Tacoma, is also planning for the future. As 
many of you know, the container business is extremely competitive and 
transportation costs can be the deciding factor in where to ship and 
source goods. We need to do everything we can to be efficient, and 
being ``big ship ready'' is key. Seattle is at the forefront of these 
efforts as one of the first projects in the Nation to complete the 3 x 
3 x 3 planning process, culminating in a WRDA 2018 authorization for 
their deepening project. Tacoma also recently began planning for their 
deepening study this past year. Both ports are already making landside 
infrastructure investments to complement this effort. These deepening 
projects will ensure that we grow both our import and export capacity, 
increase the number of ships calling on U.S. ports, maintain U.S. jobs, 
and serve our farmers and manufacturers who depend on these ports to 
get their goods to market.
    These are just a few examples of the ways our economy benefits when 
we focus on navigation infrastructure and the supply chains they serve 
throughout our Nation. We know there are similar success stories and 
similar needs all around the United States, and we can't wait to make 
these investments. The competitiveness of U.S. growers, manufacturers 
and countless industries relies on the efficiency of our ports.
                 port infrastructure--beyond the water
    As we think about a broader infrastructure package beyond dredging 
and other navigation maintenance, our ports want to be part of the 
conversation. As the committee works to build on improvements made in 
the Fixing America's Surface Transportation (FAST) Act, we would like 
to highlight the desire for a specific freight element in any new 
transportation initiative. In particular, we would like to see freight 
funding programs that are truly multimodal. Freight funding programs 
created in the FAST Act have limitations on non-highway projects. New 
programs that raise or eliminate caps on existing programs for 
multimodal projects would be helpful to our ports sector.
    Our Nation's ports also support funding for first- and last-mile 
road and rail projects to expand capacity and efficiently connect our 
ports to surface transportation systems. These investments are needed 
to truly modernize port infrastructure and keep our Nation competitive 
well into the future. Our members are very appreciative of the work 
done by this committee in the past, to ensure that programs are in 
place to provide infrastructure investments. Programs like BUILD, 
INFRA, RRIF, and others are critical to facilitating port improvements, 
and we encourage the committee to build on these programs in the next 
infrastructure bill.
    For ports which operate airports, we would be remiss if we did not 
mention the need to increase the passenger facility charge (PFC). 
Increasing this user fee could help offset the cost of building and 
modernizing airport infrastructure, and support much needed 
improvements to aviation facilities, technology and equipment. This 
will allow airports to better meet current air traffic demands and 
prepare for the future needs of the Nation's aviation transportation 
network.
    Woven into all of these priorities is the need for resiliency 
planning. Investing in resilient port infrastructure should be a 
priority as Congress looks at not only current operations, but the 
ability of our ports and harbors to continue operating in the face of 
earthquakes, extreme weather, and other natural or manmade disasters. 
In the Northwest, experts have predicted the possibility of a 9.0 
Cascadia Subduction Zone earthquake and tsunami along the Washington 
and Oregon coasts. This would devastate our entire region, wipe out 
portions of our coastlines, and require years, if not decades of 
rebuilding. With ports on the front lines of search and rescue 
operations, recovery efforts, and the ability to bring in medical and 
rebuilding equipment, it is even more important for their 
infrastructure to be ready when disaster strikes rather than seek 
relief after a catastrophic event. While we anticipate that this will 
be an ongoing collaboration among Federal, State and local governments, 
we recommend that resiliency planning be a priority as the committee 
evaluates infrastructure in the coming year.
    As you plan your priorities for the coming year, please note that 
ports and navigation stakeholders in the Northwest and throughout the 
Nation stand ready to help in your efforts. Our ports, roads, rails and 
airports need to be at the forefront of conversations this year and 
well into the future, as we seek to modernize U.S. infrastructure and 
ensure our Nation remains a global leader in reliable, safe and 
efficient goods movement.
    Thank you for the opportunity to share our views. I welcome any 
questions you may have.

    Mr. Carbajal. Thank you, Ms. Meira.
    Mr. Willis, you may proceed.
    Mr. Willis. Thank you. Good afternoon. First of all, it 
really is an honor to be here at the first hearing of the 
Transportation and Infrastructure Committee. I know he stepped 
out, but I have to mark the chairmanship of Mr. DeFazio and Mr. 
Graves becoming ranking member. I am really looking forward to 
working with both of you. And congratulations to the new and 
returning members of this committee. You are on an important 
committee for, really, you know, critical issues for our 
country and for front-line workers that I am proud to 
represent, as the president of the Transportation Trades 
Department of the AFL-CIO.
    In fact, more often than not, this committee has 
demonstrated to the American people that party affiliation in 
Washington can represent a wealth of good ideas, and not just 
lines in the sand. Your willingness to work across those lines 
has been proven through the recent passage of the FAA 
reauthorization bill, water resources, and, of course, surface 
transportation.
    And while these were all good pieces of legislation that 
the labor movement was proud to support, they are simply not 
enough. They are not enough to meet the demands of our 
transportation system today. They are not enough to meet the 
needs of our transportation system in 10 years. And they are 
nowhere near enough to what we need to leave: a legacy of 
economic stability and world-class infrastructure for our 
children, the way that our parents and grandparents did for us.
    Past generations, they did more than just build the 
Interstate Highway System, rail lines that connected New York 
to California and every State in between, and an aviation 
system that sets the global standard. They also created the 
middle class by ensuring that those who built this country and 
contributed to this economy enjoyed the benefits of a strong 
union contract. Sadly, today, we are well past the point where 
we run the risk of letting these legacies crumble away.
    We know failure by the Federal Government to invest in the 
infrastructure hurts working families. We know that it hurts 
our economy and leaves good union jobs on the table. And that 
is why today I want to take you past GDP indicators, past the 
report card scores, and past the dizzying array of numbers that 
any of us can point to, and instead briefly focus on the ways 
that failing to invest in infrastructure takes a toll on 
individuals.
    The people that I am talking about are front-line 
transportation workers who want to build and operate a first-
class system. They are Americans from all walks of life and all 
corners of our country, who depend on safe and efficient 
transportation.
    I am talking about office workers who miss out on time with 
their families because they are stuck in hour-long commutes to 
or from work; the family in Des Moines, Iowa, who cannot afford 
a car lives in part of the community where bus lines don't run, 
and must walk 2 miles just to get to the grocery store; 
employers in South Carolina, employers who are desperate for 
better transportation options so that their employees can get 
to work; truck drivers right here in the Port of Virginia who 
regularly lose out on pay because they are stuck, sometimes for 
hours on end, in traffic jams caused by outdated infrastructure 
that cannot keep up with demand; air traffic controllers, FAA 
inspectors and technicians, pilots, mechanics, flight 
attendants, transportation security agents, our aviation system 
that are forced to do more with less every day; the 
disadvantaged youth of Chicago and Minneapolis who want to 
work, who are qualified to work, but who have no way of getting 
to where the jobs are actually located.
    You know, we used to pride ourselves in being a Nation that 
dug deeper, built higher, and went faster. But now we are 
holding our economy and working families hostage by failing to 
fund our most important projects, like Gateway in the 
Northeast, Soo locks in the Midwest, and jeopardizing still too 
often California high-speed rail.
    Let me be very clear. Our members stand ready, willing, and 
able to drive the buses, build the roads, move freight, fly 
planes, and dare to dream big on projects like Gateway. The 
policy solutions we have talked about them already, and they 
are not complicated. We need to stabilize the Highway Trust 
Fund. That includes looking at a gas tax and VMT. We must 
return the Harbor Maintenance Trust Fund to its intended 
purposes. And Federal infrastructure investments must be paired 
with strong labor policies and Buy America rules, so that 
taxpayer dollars will be used to create good, middle-class jobs 
that we can be proud of.
    Finally, if we want to improve transportation and 
infrastructure in this country, we have got to stop shutting 
down the Federal Government. It is embarrassing, it is 
counterproductive, and it is the political equivalent of 
shooting yourself in the foot and then wondering why you are 
bleeding.
    By showing the courage that this crisis, our infrastructure 
crisis, deserves, we can leave behind a legacy better than 
crumbling roads, bridges, and struggling transit systems, 
better than congested ports and airports. Working families are 
ready. It is now your turn to show America that you are ready 
to meet this challenge head on. Thank you.
    [Mr. Willis's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Larry I. Willis, President, Transportation Trades 
                          Department, AFL-CIO
    On behalf of the Transportation Trades Department of the AFL-CIO 
and our 32 affiliated unions, I want to first thank Chairman DeFazio 
and Ranking Member Graves for inviting me to testify before you today. 
And let me offer my congratulations to the new and returning members of 
this committee.
    Each of you asked to serve on this committee because you recognize 
the incredible and important role our transportation network plays in 
creating and sustaining good paying jobs and facilitating the world's 
most advanced economy.
    And, more often than not, this committee demonstrates to the 
American people that party affiliations in Washington, DC, can 
represent a wealth of good ideas, and not just lines in the sand.
    Your willingness to work across those lines, which too often divide 
us as a country, was evident last year when you passed a long-term 
reauthorization of our Nation's air transportation programs and when 
you continued the committee's tradition of funding our water resources 
projects. It was also evident 3 years ago when you passed a 5-year 
reauthorization of our transit, highway, and rail programs.
    These were not easy jobs. Nonetheless, many of you here today 
worked together to get them done.
    Let me be clear, though: while these were all good pieces of 
legislation that included hard-fought provisions for America's working 
families, I am sad to say, they simply are not anywhere near enough.
    They are not enough to meet the demands that we place on our 
transportation system today. They are certainly not enough to meet the 
demands that are going to be placed on it in 10 years. And they are 
nowhere near what we need to leave a legacy for our children, the way 
our parents and grandparents did when they had the courage to build 
something as impossible-seeming as the Interstate Highway System and 
world-class urban and rural transit systems in every part of our 
country. Rail lines that connected New York to California and nearly 
every State in between. A network of more than 900 ports through which 
99 percent of overseas trade passes. And an aviation system that set 
the global standard for moving people and goods safely and efficiently 
across our skies.
    Yes, past generations built a system of transportation 
infrastructure that inspired a Nation. But they did more than that. By 
demanding that working people have a voice on the job and earn living 
wages, our parents and grandparents helped define the American Dream. 
They created an economic system that allowed a middle class to grow and 
thrive by ensuring those who built this country and contributed to its 
economy enjoyed the protections and benefits of a strong union 
contract.
    Sadly, today we are well past the point where we run the risk of 
letting those legacies quite literally crumble away.
    We know that it hurts working families when the Federal Government 
fails to invest in infrastructure.
    We know it hurts our economy.
    We know that when the Federal Government fails to invest in 
infrastructure it leaves good union jobs on the table and delays the 
ability of goods and services to get to American manufacturers, 
business owners, and household consumers.
    That is why, today, I want to take you past GDP indicators, past 
the report card scores, past the dizzying array of numbers any of us 
can point to, and instead, focus on the ways failing to invest in 
infrastructure takes a toll on working families. I am talking about the 
young adult who is ready and willing to work, but cannot find decent 
full-time employment. The single parent who burns the candle at both 
ends and is still barely able to scrape by. The office workers who want 
to spend more time with the people they love, but are held hostage by 
hours-long work commutes. The transit operators who, in city after 
city, wonder when, not if, backlogs of deferred maintenance will lead 
to another tragic incident. All because of our failure to invest.
    The people I am describing are real people. They are the frontline 
transportation workers who want to operate and build a world-class 
system. They are the nurses, teachers, veterans, Government employees, 
and business professionals who depend on a safe, efficient 
transportation network. They are your constituents back home. And the 
impacts they feel today are only going to get worse if we decide that 
current Federal measures are simply good enough.
    Take for example, an Iowa family who lives in an isolated corner of 
Des Moines. Like many Americans, they are struggling just to make ends 
meet, and cannot afford a car. A lack of public transit options means 
this family is forced to walk for 2 miles along the shoulder of a busy 
highway, often in poor weather conditions and feet from speeding cars 
and trucks, just to get groceries. Sadly, many of their neighbors face 
the same problem. The local transit authority is looking at options, 
but tight budgets mean the authority is already struggling with 
existing routes.
    Federal investment here could mean a safer, more reliable commute 
for the families of Des Moines, and the creation of good operating and 
maintenance jobs for the community.
    Lack of reliable, affordable public transportation is not lost on 
business leaders, either. In Greenville, South Carolina, employers 
representing more than 1,000 businesses in the area called on the 
county and the city to come together and identify solutions to provide 
better public transportation. Without it, they simply will not be able 
to access enough workers to meet the needs of rapid economic growth in 
their city. Put simply: a lack of resources to provide transportation 
options may stifle what should otherwise be a model success story for 
economic growth in a small American city.
    Down the road in Fort Mill, employers have hired thousands of 
workers across multiple sectors. But highways that are in desperate 
need of expansion have left commuters facing traffic headaches and 
safety issues so serious that they are beginning to look for work 
elsewhere--leaving County officials worried that the rapid growth they 
have enjoyed could be brought to a grinding halt.
    Underinvestment is harming Americans in small and large cities 
alike, and takes a particular toll on those who are already underserved 
in so many other areas of their lives. Take, for example, Chicago, 
where young black adults face an unemployment crisis of startling 
proportions. Unemployment in Illinois is at 4.3 percent, yet 60 percent 
of black 20- to 24-year-old Chicago residents do not have jobs. A 
recent study identified lack of public transportation options as a 
primary reason for that. The majority of jobs in Chicago are located 
downtown and on the city's Northwest Side, far from Chicago's 
traditionally black neighborhoods. This is the very definition of what 
it means to be disadvantaged. The same thing is happening in 
Minnesota's Twin Cities, where researchers noted that disadvantaged 
jobs seekers are often qualified for entry-level positions located in 
the suburbs, but have no way of actually getting to those jobs.
    Failing to invest in transportation infrastructure goes well beyond 
getting people to and from jobs that allow them to support their 
families. Just ask truck drivers at the Port of Virginia, who come face 
to face with America's lack of infrastructure investment on a regular 
basis. Surges in containers from increasingly large ships regularly put 
the port over capacity, creating traffic jams that can be 13-lanes 
wide, 10-trucks deep, and take eight hours to clear. Port congestion 
not only means truck drivers lose out on pay, lessening their 
purchasing power and placing a strain on their communities, but it 
means the shipment of goods and raw materials to retailers, small 
businesses, and farmers is severely delayed.
    At our Nation's airports, the situation is not much better. At LAX, 
the fourth busiest airport in the world, air traffic controllers 
regularly work overtime because of severe staffing shortages, raising 
concerns about fatigue, traffic volumes, and basic quality of life. 
Sadly, the issues found in the LAX control tower are just the tip of 
the iceberg. Across the aviation system, frontline workers, including 
those in other types of safety sensitive positions like systems 
specialists and transportation security agents, are increasingly 
required to do more with less because of America's failure to invest. 
In fact, air and ground congestion at major airports has been 
identified as the biggest economic threat to our aviation industry, yet 
inconsistent funding, sequestration, and Government shutdowns have 
hobbled efforts designed to increase capacity.
    We used to be a Nation that was not afraid to dig deeper, build 
higher, or go faster. But today, we have turned a blind eye to projects 
that will make us better. By failing to tackle some of our Nation's 
largest and most pressing needs, we are putting our country's entire 
economy on the line.
    Consider the Gateway Tunnel on the Northeast Corridor. The 
Northeast accounts for 30 percent of all jobs in the U.S. and 
contributes $3 trillion annually to the U.S. economy. It is home to 51 
million people--one in seven Americans--a figure expected to hit 58 
million by 2040. Yet, in the busiest rail corridor in the country, we 
continue to move people and goods at maximum capacity through a 100-
year-old tunnel that has been in dire need of expansion and 
modernization for the past 25 years.
    At the Soo locks in Sault Ste. Marie, Michigan, only one lock--the 
Poe lock, built in 1896--is capable of handling the large lake 
freighters used on the upper Great Lakes. One hundred percent of the 
iron ore mined in the United States comes through this one lock. If it 
were to fail for 6 months or longer, the U.S. Department of Homeland 
Security estimates that it would have a $1.1 trillion dollar economic 
impact on our country and cause 11 million jobs to be lost. Yet this 
project is still waiting on crucial Federal funding for the 
construction of a second lock.
    Meanwhile, America's first truly high-speed rail project, which 
will lead to an estimated $7.6 billion in new business sales and $3 
billion in new wages, faces continuous threats by Congress.
    This is what good enough looks like.
    Our members stand ready, willing, and able to drive those buses in 
Des Moines and Chicago, to build those roads in Fort Mill, to modernize 
and move freight in and out of our ports, to make the most advanced 
aviation system in the world even more efficient, to build the 
infrastructure we need today for the electric vehicles that are coming 
tomorrow, and to dare to dream big with you on projects like the 
Gateway Tunnel and California High-Speed Rail.
    And yet we sit here today, still trying to pay for a 21st-century 
transportation network on a 1993 budget. Still seemingly unwilling to 
make the difficult political choices that, frankly, we do not think are 
all that difficult.
    The policy solutions are no great mystery.
    We know that a user-fee supported system works when it generates 
enough revenue to meet our needs. But that is simply no longer 
happening with the Highway Trust Fund. Since 2008, Congress has 
transferred $140 billion into the Highway Trust Fund from the general 
treasury, and even then, it is just barely enough money to keep pace 
with current spending levels. Spending levels that do not even begin to 
address the larger investment gaps I have discussed today. Spending 
levels that we know must be dramatically increased if we are to compete 
in the world economy and provide mobility options that working families 
are calling for.
    We have long supported efforts for a modest increase in the Federal 
gas tax, which remains the most efficient and reliable means to raise 
revenue for our surface transportation network. Yes, an extra 25 cents 
per gallon at the pump will increase costs for some consumers by 
roughly $100 per year. But this calculation overlooks the fact that 
investing in American infrastructure will raise household income, by a 
recent estimate, to the tune of $1,400 per year.
    We would also support any serious effort in this Congress to lay 
the groundwork for a transition to a mileage based user fee. As 
gasoline powered vehicles become more efficient and electric vehicles 
become more prevalent, contributions to the Highway Trust Fund will 
continue to dry up, leaving us back in the same position we are today. 
At a minimum, Congress should spearhead an immediate effort to 
dramatically expand the testing of a mileage-based fee.
    We should take the Harbor Maintenance Trust Fund off budget and 
stop raiding it to pay for other priorities. America--not one of our 
competitors--should be home to the best ports the world has ever known. 
What's more, when Congress cannot show responsibility with the money 
they collect for our trust funds, it harms the public's faith in your 
work. In a very real way, this is about the health of our democracy. I 
applaud Chairman DeFazio's tireless efforts to see that this happens.
    I should note that if we fix our Highway Trust Fund and if we 
utilize the Harbor Maintenance Trust Fund for its intended purposes, it 
will free up limited Federal dollars for transportation needs that do 
not currently have access to a trust fund or user fee revenue.
    We know that jobs created by smart investments in transportation 
and infrastructure are good jobs that people can raise families on. In 
part, this is because of high union density is some of these sectors 
and in part because of the Federal policies that have been associated 
with these investments. In particular, labor standards specific to 
construction and transportation have been included in past 
infrastructure investment statutes and together have resulted in a 
high-road labor model and ensured a skilled workforce is utilized. 
These standards and other employee protections should be expanded and 
applied to future investments considered by the committee. In addition, 
Buy America rules should be aggressively applied to Federal 
infrastructure programs so that we can grow our manufacturing base as 
we seek to reverse decades of under-investment. It would be a grave 
mistake for the health of our Nation to use an infrastructure bill to 
attack these important laws or to undercut collective bargaining rights 
that are essential to the good jobs that can and should be created in 
this space.
    Finally, we are here today to talk about our Nation's 
infrastructure and what happens if we don't invest. But there is 
another piece of the puzzle that must be stated clearly and loudly: we 
have to stop shutting down the Federal Government. During the last 
shutdown--the longest in U.S. history--two agencies vital to our 
transportation system, the U.S. Department of Transportation and U.S. 
Department of Homeland Security, went unfunded for 35 days. Grant money 
was not awarded to transit authorities. Accident investigators stayed 
home. And critical frontline transportation workers, including air 
traffic controllers, FAA inspectors and technicians and transportation 
security officers, were forced to perform safety-sensitive work without 
pay, or in some cases, not come to work at all. If we want to improve 
transportation infrastructure in this country, the very least we can do 
is put a stop to needless, self-inflicted wounds by way of Government 
shutdowns.
    By taking these steps today, we can leave behind a legacy better 
than crumbling roads and insufficient transit. Better than seaports 
that no longer compete with our neighbors to the north and to the 
south. Better than airports where we ask our workforce to do more with 
less every single day. Better than an economy where the ultra-wealthy 
only get richer at the expense of everyone else.
    It is your turn in Congress, now, to show America's working 
families that you are ready to meet this challenge. To show our 
children the kind of courage and leadership that our parents dared to 
show us. The kind of leadership that inspired a Nation to invest in the 
economic wellbeing of its people by building the Hoover Dam, the Panama 
Canal, the Interstate Highway System, and countless other projects 
named after great Americans who dared to dream bigger than we seem 
capable of today.
    We must not find ourselves back at this table in 10 or 30 years 
asking what went wrong. Why nobody rose to meet the challenge. And so I 
challenge each of you and all of us to seize the opportunity before us.
    With that, I am happy to answer any questions.

    Mr. Carbajal. Thank you, Mr. Willis. And now we will 
proceed with questions from Members. Each Member will have 5 
minutes, and we will start with the Members who were not able 
to ask questions, but were here for the previous panel.
    And we will commence with Representative Davids. You have 5 
minutes.
    Ms. Davids. From the great State of Kansas, thank you all 
for being here today. I really appreciate hearing from all of 
you. And I am going to start off just kind of--Mr. Willis, I 
will probably direct the only question I get to to you.
    One, I am coming from a State where we just elected a new 
Governor in Laura Kelly, who, in our State of the State, came 
out immediately with her priority of investing in 
infrastructure, whether it is roads, bridges, our air system.
    And the Highway Trust Fund is something that, literally, 
everybody on the last panel talked about. It is prevalent in 
all of the testimony. So I appreciate all of you continuing to 
bring that up. I think that it is going to be important as we 
move forward here.
    One of the things, though, that I want to kind of shift 
to--although in the Kansas City metro area, in my district, in 
Johnson County and Wyandotte County, we have the U.S. 69 
corridor, which is definitely in need. Secretary Chao came out 
and looked at that. We have got a north loop project in 
Wyandotte County. And all of these things will benefit from us 
addressing the Highway Trust Fund issues.
    But you literally just touched on the thing that I have 
been thinking a lot about, which is the effects of the 
shutdown, and what it brought to light, in terms of what we 
need to be thinking about and investing in. Particularly, I am 
concerned about the air traffic controllers. I went out to--we 
have the--in Olathe we have a regional air traffic control 
center. And I am particularly concerned about our pipeline of 
an ability to not only attract, but retain and maintain a 
workforce.
    And can you talk a little bit about the importance of--the 
air traffic controllers are organized, and I would love to hear 
a bit from you about the importance that you see there, and how 
that is going to help us attract and maintain people, as we 
move forward.
    Mr. Willis. Well, thank you, and it is a great question.
    The staffing crisis that air traffic controllers are facing 
was really exacerbated by the shutdown and the fact that the 
training facility, you know, went dark for 35 days. Right now, 
across the country, 18 percent of certified air traffic 
controllers are eligible for retirement. That number goes up 
considerably when you look at some of the high-traffic areas in 
New York and elsewhere.
    So, you know, you start shutting down the Government, you 
start withholding pay from these workers, it gives them a real 
added incentive to walk out the door. So you have a staffing 
crisis today, you see those people hit the--you know, the 
retired button, and you have got a real problem.
    And, by the way--and it is not just limited for 
controllers. We have FAA inspectors, which is a critical 
component of the FAA. These are the people that go out, inspect 
airlines, pilots, aircraft repair stations both in this country 
and abroad. They have a staffing crisis, as well.
    And, of course, screeners we saw, you know, by some 
estimates, 1,800 people leave during the shutdown. And, quite 
frankly, they have got trouble staffing up on normal days. So 
it really set us back on those categories and other--that 
problem would exist in any event. But again, the shutdown 
really highlighted it and exacerbated it.
    Ms. Davids. As a followup, can you talk a little bit about 
whether--I suppose the importance of having an association 
being able to be organized and attracting or maintaining 
employees, losing 1,800 people that quickly--and that is just 
one sector that you were talking about--can you talk a little 
bit more about that?
    Mr. Willis. Sure. Just to be clear, the 1,800 was the 
screeners, represented by--you are right, the air traffic 
controllers are represented by NATCA, and the FAA inspectors by 
another union called PASS. But yes, NATCA is very active in 
trying to recruit air traffic controllers, trying to work with 
the FAA to make sure that that training program gets back up 
and running. That is, you know, probably their number-one 
focus, in addition to making sure that their members are 
getting paid.
    So yes, the union is very involved in making sure that we 
have a steady stream of qualified controllers going through the 
school or otherwise getting into those positions, because it 
can take a long time, not only for the training, but for the 
high-traffic places you can't just go in there from the 
schools. You have to have experience elsewhere. So it is a 
process that the unions are very involved with.
    Ms. Davids. Thank you.
    Mr. DeFazio [presiding]. Mr. Smucker?
    Mr. Smucker. Thank you, Mr. Chairman. I appreciate you 
holding this hearing as our first hearing of this session.
    You know, I certainly agree that there is an opportunity 
cost here if we do not make the decisions that need to be in 
regards to investing our infrastructure. And I believe that it 
is an opportunity. We have an opportunity right now, this 
session, to get that done. This is one area where I think we 
can work together on a bipartisan basis.
    We know we have a President in office who has made 
infrastructure a priority, and would be willing to, I think, 
sign a bill that would include additional investment in our 
infrastructure system. So, you know, I hope this is the start 
to what will be a good outcome out of this committee. So thank 
you for scheduling this.
    I wanted to share just a little of experience that I have 
had in regards to infrastructure, passage of an infrastructure 
bill in the Pennsylvania Legislature when I was there in the 
State senate. We passed Act 89. Now, this is Highway Trust 
Fund. And in my district, when we talk infrastructure, it is 
roads and bridges, primarily, being in Pennsylvania.
    But you know, the earlier panel--and I didn't get to ask a 
question from the earlier panel--I just wanted to point 
something out, pushing back a little on what the earlier panel 
had said. They said no member of any legislature had ever lost 
an election because they voted for infrastructure. That is not 
true.
    In fact, in Pennsylvania, after I voted for an 
infrastructure package, it did become an issue in my campaign, 
and there was at least one State senator who lost an election 
primarily because he had voted for a transportation bill.
    Now, I mention that not because I do not support investment 
in infrastructure, but the importance of convincing the 
American public of the need for this investment. People 
understand, when you talk to them about it, that 
infrastructure--everything from highways to ports to air--is 
absolutely critical for a growing economy. Everyone here 
understands that. We have talked about it.
    But they also want to understand that their dollars are 
being spent efficiently and effectively, and they need to 
believe that the dollars that will be raised from additional 
revenue will be put to use, not only to improve the 
infrastructure system, but will improve the infrastructure 
system in their area, and will benefit them.
    And what we went through in Pennsylvania was a strong 
effort by the administration at the time, by the secretary of 
transportation, by the industry, and by legislators, I should 
say--who believed in this, who went out and talked to the 
public about the importance of additional investment. That is 
what we need now, here, to generate this support.
    And nobody should think this is an easy vote. And you know, 
people are here to do the right thing, but at the end of the 
day they are going to represent the will of the people in the 
district that they represent. So it is important that we think 
about and build the support for the kind of investment that we 
all need. People will respond when we talk to them about the 
need, and share with them how it will benefit them.
    So, having gone off on that for a little while, I do have a 
question. You know, I understand the Chamber idea--and, Mr. 
McArdle, this will be a question for you--I understand the 
Chamber idea on a gas tax. It is obviously a declining source 
of revenue, but potentially for 5 years you do something in 
that regard.
    There is another proposal out there that you may have 
referred to, but I wanted to get your thought on it, 
particularly from UPS, and that would be something called the 
BOLD Act, which included, essentially, a highway transportation 
services tax, or a tax on freight, if you will. And then also 
a--I think a--like a Federal registration on electric vehicles 
that are not paying into the system at all, if it is all based 
on the gas tax.
    I just wanted to get your comments on whether you would 
support something like this. My understanding is that truckers 
association potentially is supporting that, and wondering 
whether you would.
    Mr. McArdle. Well, I will tell you. Let me--to the--
regarding the BOLD Act, I am not as familiar with that. I can't 
get too deep with you on that.
    But what I can tell you, that--the first reaction would be 
that we have to make sure it is equitable. And any time I hear 
targeted towards freight, my radar goes up on that, and we 
would have to look at that a little bit closer.
    But I would like to comment about the electric vehicles and 
the tax and the--how does a highway tax incorporate electric 
vehicles? Probably the first thing to let you know is that I 
think we are one of the largest, if not the largest, private 
holder of your alternate fleet, the private company that has 
got the largest alternate fleet out there. We are looking 
heavily at electric vehicles, as well, not just for the final 
mile, but we have also got 125 Tesla trucks on order that 
should be out here in 2020.
    So looking at all that is available is important to us. But 
when you get to the question--I think there is about 20 States 
that have put a registration fee on electric vehicles. I think 
that one of the things that can be looked at relatively quickly 
is looking at a Federal registration fee on electric vehicles, 
perhaps even a battery fee. Batteries are going to be charging 
electric vehicles.
    But you are right, there--you know, that is a gap that is 
only going to grow. I think about 1\1/2\ to 2 percent of the 
vehicles, registered vehicles, right now are electric. But that 
number will grow.
    So it is--it becomes part of--I think I heard earlier this 
morning a 401(k) portfolio of how are we going to fund our 
highways. That has got to be looked at, as well.
    Mr. Smucker. Thank you.
    Mr. DeFazio. Next, Ms. Finkenauer, Representative 
Finkenauer.
    Ms. Finkenauer. Thank you, Chairman DeFazio, and thanks to 
all those on the panel, and also the panelists earlier, as 
well. I am happy to be here and work on this issue that I know 
we have been talking a lot about the last couple of years.
    And I hope we--I am sure this joke has already been made 
today, but I hope we finally get Infrastructure Week. I know 
that is something that is incredibly important in my State of 
Iowa, in particular, given that we have got the most 
structurally deficient bridges in the entire country.
    And I know Chairman DeFazio mentioned earlier that I sat on 
the Transportation Committee in the State house for 3 years, 
and I know worked a lot on these issues, and understand not 
only the need for investment in infrastructure, but 
specifically the fact that we also have a workforce issue.
    And Mr. Willis, I would like to address this question to 
you, given, you know, your work, obviously, on this topic. You 
know, right now, specifically in Iowa, we need a lot of truck 
drivers and building trades workers, and I am concerned about 
the workforce shortages and making sure we have enough quality 
apprenticeships and training programs in place to meet future 
workforce needs, not to mention the bigger retirements we are 
seeing today, as well.
    Mr. Willis, given the work you have been doing by 
representing transportation workers at the AFL-CIO, can you 
tell me how important workforce development is when thinking 
about infrastructure, from trucking to construction to water, 
and what you would like to see on a Federal level for 
investment in this area? And what is working now that we could 
expand? And what would you like to see?
    Mr. Willis. Well, thank you. So, obviously, workforce is a 
huge component of this. You know, the building trades are well 
known for the tremendous apprenticeship programs that they 
provide, and opportunities for workers that, quite frankly, 
wouldn't exist but for the programs that they have. And they 
can come in and talk to you in more detail about that.
    I will say, you know, at a transit level, I think that is a 
part that often gets missed. There are significant training 
needs on the bus and rail side, both, you know, mechanics and 
operator, elevator, escalator, you know, there is a lot that 
goes into these systems that I think gets lost.
    And, you know, to your point, there are opportunities--you 
know, and this was included in the FAST Act--you know, money 
for front-line training for apprenticeship programs on transit. 
I think, quite frankly, those should be expanded. And we are 
part of a specific labor management program that we are very 
proud of, again, both management and labor at the table, 
figuring out these training programs and how to get them 
implemented.
    So I think looking for funding opportunities in the 
context, whether it is an infrastructure bill or 
reauthorization, is definitely something that needs to be done.
    Ms. Finkenauer. Thank you. And I would like to open this 
question up, too, to anyone else on the panel who would like to 
answer. How are your industries working to attract and retain 
the transportation workforce of tomorrow? And how can the 
Federal Government be a partner in those efforts?
    Mr. McArdle. Congresswoman, I would be glad to--you know, 
from the trucking industry viewpoint, one of the challenges we 
are worried about is the retiring workforce, as well, as the 
need for drivers continues to grow.
    Not known by many people is that the operator of a tractor 
trailer, class A vehicle, within States can get that license at 
about 18 years of age.
    Ms. Finkenauer. Yes.
    Mr. McArdle. To cross State lines you are going to have to 
be 21 years of age. And we lose quite a heck of a population in 
there. Now, we are not encouraging that it is completely open 
to 18-year-olds without some rigorous testing.
    What we would like to see is--and we have worked, you know, 
with legislators--that if--looked at--or they are putting 
together some proposals of how we can pull together some really 
qualified trainers, trainers with 2 or 3 years of experience 
under their belt with impeccable safety records, and they can 
begin to mentor the employees that work for us at that young 
age, to get them into the seats and to fill the jobs that we do 
have.
    The other thing that we are encouraged about is the 
technology that is coming to the cab is attracting folks more 
so than just shifting the gears and getting on down the road. 
There is--you know, our objective is to look for folks entering 
our workforce as they are coming out of high school, before 
they get into a first trade or a second trade, and then they 
turn to the trucking industry.
    Ms. Finkenauer. Great, thank you.
    Ms. Meira. And Congresswoman, I can echo that from the 
ports industry. I can speak to the Northwest, where our ports, 
our towboat companies, our other folks who care very much about 
a working waterfront and protecting that, they are getting out 
to the high schools to let folks know, to let these young 
people know that we have family-wage jobs that are there, 
waiting for them.
    And it is largely an unseen industry at times. You don't 
drive on it, you don't see it sometimes, but the ports are 
there. And so we are working hard to get to the high schools.
    Ms. Finkenauer. Great. Thank you.
    Thank you, and I yield back my time.
    Mr. DeFazio. Thank you. And now we turn to Representative 
Stauber.
    Mr. Stauber. Thank you very much, Mr. Chair and Ranking 
Member Graves. It is a privilege to be serving with you. I am 
really excited that we are going to have the opportunity to put 
an infrastructure bill that is going to help the entire 
country.
    Just a couple of questions that I have, and my colleague 
from Iowa just talked--questioned Mr. Willis about the 
workforce. If this country--and I hope we do put--puts together 
an infrastructure package, do you think we will have the 
workforce, the blue collar union workforce, to build it in a 
timely fashion?
    Mr. Willis. You know, absolutely. And I think that, again, 
the apprenticeships program on the construction side that I 
mentioned is a key component of it.
    And, look, one of the reasons that we invest in 
infrastructure, A, the needs are crazy. But the other good 
reason, they create really good jobs, not only on the 
construction side, but they leave great operating jobs behind 
and you are moving goods to market faster. And so our 
manufacturing unions care about it. And if you do Buy America 
right, you again make the manufacturing employers much busier.
    So there is a lot of different components of how these good 
jobs get created. From a construction perspective, the workers 
will definitely be there. But I think it is more than that. 
So----
    Mr. Stauber. Thank you. And the reason I ask that question 
is the prior session we talked about getting the 
infrastructure, the appropriations, out to the communities, out 
to the States in a timely fashion. So hopefully, if there is 
appropriations, it is not 9 or 10 years before the community 
sees that Federal project. Historically, it has been that way. 
So I am glad to hear your answer, that we are ready for that.
    And then I just have a comment to Mr. Krauter on the 
airports. I am very excited to be on the Aviation Subcommittee. 
And aviation, it is a sector that is growing. We have--in 
Duluth, Minnesota, Cirrus Aircraft is the biggest seller of 
piston-driven airplanes in the world. And they need to expand, 
so they are working on expanding in our airport.
    And I am looking forward to helping communities across this 
Nation with the airport concerns and issues, because that is a 
growing industry. And I think that, as we look forward to, you 
know, how we are going to fund it, et cetera, when you have the 
projects ready and some of the funding, we can package it 
together, not only from local, but State and some of the 
Federal dollars.
    So I think I heard my colleagues talk earlier in the 
session, and they talked about putting projects forward that 
have the collaboration with the communities, because I think 
that is where we are going. And so it sounds like you are set 
for that.
    Mr. Krauter. Thank you, Congressman Stauber. I have had the 
pleasure to fly in a Cirrus some days ago. Fantastic airplane, 
one of the safest airplanes manufactured in the world for 
general aviation.
    I think the takeaway also with regard to that is that 
increasing the PFC will actually help general aviation in 
general aviation airports. We commonly flex AIP money from our 
airport, the international airport, over to our general 
aviation reliever airport, which I am very proud of, it is a 
world-class facility. So I do think that your comments are 
consistent and aligned with where we want to go with the PFC 
increase, as well. Thank you.
    Mr. Stauber. Thank you.
    Mr. Chair, I yield back my time.
    Mr. DeFazio. Thank you. Thanks for those questions. Now we 
got Representative Garcia.
    And after his questions are concluded, the committee will 
recess for votes on the floor. There are four votes, and so it 
will probably be a half hour or so, the way this place works.
    So Representative Garcia?
    Mr. Garcia. Thank you, Mr. Chairman and Ranking Member 
Graves, for organizing this most important hearing. And, of 
course, thanks to all of the panelists before us this 
afternoon.
    I come from Chicago, and I represent a district that is 
both city and suburban. And as all of you know, Chicago is part 
of the Nation's transportation networks, including rail, 
highways, waterways, and also home to two major airports, 
including one of the Nation's busiest. At its root, good 
transportation and urban planning means access to good jobs, 
access to health care, and access to school and job training.
    I would also like to shed light and shift some focus within 
this committee to the needs of those too often overlooked in 
our urban planning and policymaking processes. I represent a 
district that has many foreign-born individuals like myself, 
and majority Latino. And I know all too well that, for too 
long, people of color in immigrant communities have not been 
given a seat at the table.
    And surprisingly, urban planning--and I will confess I am 
an urban planner from the University of Illinois at Chicago--
and transportation policies frequently fail to adequately 
address the needs of working-class and minority populations.
    I am only one of two Members of color on this panel who 
hail from the Midwest, and the only one of Hispanic descent. I 
pledge to my constituents back home and to those without a seat 
at the table that I intend to be a voice for those communities 
that have been adversely affected by this lack of 
representation.
    Studies from the Transportation Research Board confirm that 
immigrants in general and Hispanics and Asians are the fastest-
growing users of public transit in the country. The gentleman 
from Amtrak, of course, knows this.
    In Chicago, inadequate investment in Latino and African-
American communities has led to people moving out. A 
neighborhood in my district, Logan Square, for example, has 
lost over 23,000 long-term Hispanic and African-American 
residents due to rising home costs, increasing problems in 
transit, frequency, and reliability, and increasing congestion. 
The lack of inaction not only hurts us as a Nation, but the 
impacts to communities of color and working-class families are 
profound and lasting.
    So I would ask any of the panelists who could address this 
to talk about how we ensure, if we do an infrastructure bill--
and I, of course, am very enthusiastic about it--how do we 
address those inequities? How should we begin to think about 
them? I think that is an important lens to introduce into the 
conversation.
    And lastly, how do we ensure that we do projects like 
transit-oriented development that in Chicago, for the most 
part, have contributed to gentrifying communities, as opposed 
to being inclusive in helping create more livable working-class 
and lower income communities?
    Mr. Willis. Well, let me take a stab at that. In part, 
Congressman--because I am from outside Chicago, and have family 
there, so I understand exactly the issues that you are talking 
about. And we talked about this in my written statement.
    Chicago is a perfect example of where there are jobs in the 
area, there is no doubt about that, but we have trouble 
connecting the right communities to those jobs. And, obviously, 
it starts with transit, but it starts really drilling down at 
looking at those transit programs to figure out, you know, 
where those bus lines are going to go.
    And quite frankly, while money doesn't solve all problems, 
and you can't just throw money at this problem, money is a big 
part of this. So if we do a big infrastructure bill, we run it 
through the existing transit programs, maybe refine them. I 
think that we can help solve that problem, because that is why 
we are here at the table. That is why the labor movement--we 
care about this issue for a lot of different reasons, but that 
is a big part of it.
    So we are committed to figuring out how to deal with those 
issues, because we know there is a real disparity there on 
connecting those people to those jobs.
    Mr. McArdle. Mr. Congressman, real quickly, from the 
American Trucking Associations workforce development committee 
that we are looking at, as well, we are just--have just 
initially started to have conversations where we can do things 
in the city of Baltimore.
    There are folks inside the cities that really do not know 
what the opportunities are within our industry. That is clearly 
understood. And now we are taking a look to see how we can 
penetrate to be able to look to make those--make our industry 
available to those folks that really don't have an idea of, 
really, all the careers and the high-paying jobs that could be 
reached in our industry.
    Mr. DeFazio. With that, the committee will be in recess 
until the conclusion of the votes.
    [Recess.]
    Mr. DeFazio. With that I would recognize Representative 
Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you to the panel 
for enduring all this activity all day long.
    Mr. Anderson--yeah, right? On your testimony--I was reading 
through your testimony that--it must have been the Hackensack 
River Bridge in New Jersey there is your youngest asset? I 
think I heard you say, built in the early 1900s. I see in your 
testimony 450 trains cross that bridge every day. In a 24-hour 
period that comes out to about a train every 3 minutes.
    I got to ask you. With that kind of utilization, how did 
Amtrak let an asset like that get depleted--such a situation, 
that many years old, and didn't take care of it, or didn't, you 
know, put a new bridge in? I mean----
    Mr. Anderson. Well, we own it on behalf of the Federal 
Government.
    Mr. Gibbs. What was that?
    Mr. Anderson. Excuse me. We own it on behalf of the Federal 
Government. And there has never been an appetite to provide the 
proper funding to invest in the infrastructure up and down the 
Northeast Corridor.
    So when you look at the asset base we have, the winner is 
the tunnel in Baltimore that was dedicated by General Grant, 
President Grant at the time, in 1873. And that is typical of 
what we see in the corridor, which is the busiest railroad in 
America, which is the spine to the economic development in the 
Northeast. And we just haven't, as a country, had the appetite 
to make the kind of investments that I think the people that 
live up and down the corridor expect.
    Mr. Gibbs. Yes. I mean just kind of blows me away, the 
asset is that old, and that kind of utilization. You know, it 
really addresses the question, you know, what Amtrak has been 
doing. They can blame it on the Federal Government, that is 
fine, but that is multiple Congresses, multiple 
administrations. It just raises a red flag with me. So I just 
want to highlight that, OK?
    Mr. Anderson. No, it is----
    Mr. Gibbs. I am not trying to be disrespectful to you, or 
anything like that.
    Mr. Anderson. No, it is a good question. I will say that we 
do and the people at Amtrak do a very good job maintaining a 
railroad that was built by the Penn Central Railroad at the 
turn of the century. And our people do a very good job----
    Mr. Gibbs. Yes, the last century, right?
    Mr. Anderson. Yes. Yes, that is true. Got to get my 
centuries right.
    Mr. Gibbs. Well, I think, you know, we look at the private-
sector railroads, you know, especially the ones out West. They 
seem to be doing pretty well.
    So I got to move on because I only got a couple minutes 
left and I want to get to Mr. Fanning--Fanning is how you say 
it?
    Mr. Fanning. Fanning, yes.
    Mr. Gibbs. I am really kind of intrigued here. You talk 
about the urban air mobility, UAM. And I was reading through 
your testimony. I don't think I am living--I think I understood 
this right. You could have passenger vehicles, cars, that could 
actually go airborne and--we actually had a hearing last 
Congress, recently, where they said we are not that far away 
from--``The Jetsons,'' you know? I asked the question, ``Are we 
getting close to where we are coming back to `The Jetsons'?'' 
And the person said yes. Do you remember that, Chairman?
    Mr. DeFazio. I remember.
    Mr. Gibbs. It just, like, kind of blew me away. So can you 
maybe talk a little bit about that?
    And I think I heard in your testimony you talked about 400-
foot level.
    And then also, of course, with the interaction with drones, 
too, because we see all this stuff happening with--Amazon is 
talking about drone deliveries, et cetera, et cetera. So----
    Mr. Fanning. So we already have vehicles in testing, and 
there are some photographs that we submitted from member 
companies who have developed and are testing things. There are 
vertical takeoff and landing vehicles. I actually took a 
reference to ``The Jetsons'' out of my testimony because people 
come up with it on their own.
    So those vehicles do exist. The issue is the technology is 
not mature yet, battery capability, the power of those electric 
engines for that takeoff and landing. So there is still some 
more work that needs to be done on that. And----
    Mr. Gibbs. I would assume the technology, too, would 
include anticollision technology, right?
    Mr. Fanning. Well, that is a part of what industry and 
Government are working on right now, exactly, to make sure that 
we have the proper systems, framework, and processes, and 
regulation in place to make sure of that. And that is that 
cutoff at 400 feet, the different airspaces. But it needs to be 
thought of as one airspace when all this is up and flying.
    But absolutely, there has to be a regulatory regime in 
place, and systems in place, much like we have now, to make 
sure----
    Mr. Gibbs. So----
    Mr. Fanning [continuing]. We don't have those kind of----
    Mr. Gibbs. I only got 30 seconds, but interaction with 
drones?
    Mr. Fanning. So some people call these drones, too.
    Mr. Gibbs. Oh, OK.
    Mr. Fanning. That is a part of what--that is a part of the 
framework that is being developed right now, thought through 
right now, which would lead to something like the air traffic 
management system we have now, or an extension of that, to 
track and cover everything that is in that airspace below 400 
feet.
    Mr. Gibbs. Interesting. Well, future society. Thank you. I 
yield back, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Representative Carson?
    Mr. Carson. Thank you, Chairman DeFazio. The importance of 
completing the Gateway program cannot be overstated. I think we 
know that. The Hudson River Tunnels and the Portal Bridge move 
about 200,000 commuters every day. These tunnels are also a 
part of the larger Northeast Corridor, or the NEC, which 
carries 800,000 passengers every day and contributes $3 
trillion to the national GDP.
    The 10-mile stretch of the NEC is the focus of the Gateway 
program, which includes vital infrastructure that is more than 
a century old, and was badly damaged by Superstorm Sandy.
    Given the significance of this corridor, can you describe--
Mr. Anderson, you can take the lead, or anyone else--the 
regional and national impacts of failing to complete the 
desperately needed infrastructure upgrades called for in the 
Gateway program and along the NEC?
    Mr. Anderson. We did. The Northeast Corridor Commission, 
which was put together by section 212 of PRIIA, which are all 
the States up and down the corridor that contribute to the 
operation of the corridor. They did a study in 2016 and 
estimated that if the Northeast Corridor were out of commission 
for 1 day, it is $100 million a day in economic impact.
    I would actually submit that if you did not have the Hudson 
Tunnels and you had everyone trying to get over to Manhattan, 
it would basically ensnare the whole region into gridlock. And 
the follow-on effects of that would be so significant that I 
think--we shouldn't get to the point where we think that is 
what it is going to take for us to prioritize this as an 
investment.
    If the President has said the money has been set aside for 
Gateway and Hudson Tunnel funding, we are ready with the Portal 
Bridge. We have done the design, the design is complete. We 
have gotten all the environmental approvals. We are ready right 
now and, in fact, have some preliminary construction underway 
on the first piece of that that is really important. But in our 
view, this is the most critical piece of transportation 
infrastructure in America today.
    Mr. Carson. In addition to that, Mr. Anderson, I represent 
the largest passenger rail maintenance facility in the country 
in Beech Grove, Indiana. The work done at this facility is 
critically important--I think you know that--to the safe and 
efficient operation of our passenger rail system.
    I have heard numerous concerns that there may be plans to 
cut back on the operations and possibly personnel at the 
maintenance facility. Is this true? And if so, please explain 
what you all are planning.
    Considering the short time here, I am going to ask you for 
a separate briefing on any plans to significantly change or 
reduce the work performed at the maintenance facilities.
    Mr. Anderson. Right, and I would welcome the chance to come 
by your office----
    Mr. Carson. Sure.
    Mr. Anderson [continuing]. And sit down and talk through 
where we are.
    The--we are refleeting the--both the locomotion on Amtrak, 
so we just placed an order to replace the P42 fleet, because it 
was in violation of EPA regulations, about 30 years old. That 
fleet is maintained in Beech Grove. Over time we are--we have 
to refleet the Amtrak rolling stock.
    In the current plans, current budget, there are no plans to 
close Beech Grove. We have been bringing down some of the work 
there. And I think, over the longer term, we have a much bigger 
effort underway to figure out where we are going to do our 
maintenance work.
    We have two big construction projects underway right now at 
Amtrak to build maintenance facilities in Seattle and Oakland. 
And we have major work on the east coast on the--in Brooklyn 
and in Sunnyside Yard, and down here, in DC, in Ivy City.
    So we have four big construction projects underway to 
expand our maintenance capability, but I think that footprint 
is going to change over time, because we are moving to much 
more modern equipment. And I will be glad to come by your 
office and sit with you and talk about what it means.
    Mr. Carson. Does that change equate to significant layoffs 
or a complete shutdown?
    Mr. Anderson. No, it doesn't to layoffs at all. Because as 
we have to morph how we do business at Amtrak, we can't do it 
on the backs of labor. It has to be in a way where we mediate 
the issues in a way that doesn't impact people, because there 
are changes that we need to make in our network and changes in 
the way we do business to modernize from a 1970s railroad to a 
railroad that will meet the demand of millennials today. But as 
we go down that process, we have to be very mindful of its 
impact on our people.
    Mr. Carson. I look forward to speaking with you in the 
future. Thank you, Mr. Anderson.
    Chairman, I yield back.
    Mr. DeFazio. Mr. Massie?
    Mr. Massie. Thank you, Mr. Chairman.
    [Audio malfunction in hearing room]--allowing airports like 
yours to--more flexibility to set their own passenger facility 
charge is that you won't spend the money responsibly.
    Is it true that you are going to build an amusement park 
ride with the extra PFC money you might generate?
    Mr. Krauter. No, sir. It is not.
    Mr. Massie. Can you tell us how PFCs would allow you to 
improve your airport, and what type of improvements those would 
be?
    Mr. Krauter. Thank you, Representative Massie. I really 
appreciate the question. Our terminal renovation and expansion 
project is really a very conservative project. As I pointed out 
in the graphic, it is effectively making lemonade out of a 
1960s terminal building and a 1999 terminal building, both 
built, obviously, before the--post-9/11 environment, and both 
very, very difficult to figure out how to make as efficient as 
possible.
    Alternatives to that could have been going out into the 
greenfield and building the perfect terminal building, but that 
would have been $400 to $500 million, and we said that is just 
not going to be the right approach for our community. And so we 
looked at a more conservative approach, and that is how we 
developed the terminal renovation and expansion program.
    It is about a $191 million program, and that will give us, 
probably, some functional life--15 years, potentially more--and 
some much-needed gate capacity, a consolidated passenger 
screening checkpoint, a consolidated baggage claim area. These 
are not things that are unnecessary or could be, I think, in 
any way, shape, or form defined as being frivolous or 
irresponsible in terms of a capital improvement program.
    Mr. Massie. So it would cost $190 million, and how many 
passengers do you accommodate every year?
    Mr. Krauter. Right now just under 2 million.
    Mr. Massie. So one of the other arguments I hear about--
against giving airports more flexibility to set their own PFCs, 
passenger facility charges, is that you will set them 
astronomically high. Would you--you know, how much would you 
have to raise your passenger facility charge to finance a 
project like that over, say, 15 years, or----
    Mr. Krauter. I think we would end up somewhere in the $7 to 
$7.50 range if we wanted to, say, get somewhere between a 12- 
to 15-year payback on that.
    But I would also like to point out----
    Mr. Massie. Is that $7.50 in addition to $4.50?
    Mr. Krauter. No, sir.
    Mr. Massie. OK.
    Mr. Krauter. It is $7.50, total.
    Mr. Massie. So $3 extra passenger facility charge lets you 
build this facility?
    Mr. Krauter. Yes, sir.
    Mr. Massie. OK.
    Mr. Krauter. And the other thing I would like to point out, 
too, is that the idea that we would be in a position where we 
would just set a passenger facility charge at a very high rate 
doesn't really make sense, because we are trying to manage to 
an objective in our industry. And managing to that objective is 
the cost per enplaned passenger.
    We are very aware of the impact of our capital program on 
the cost per enplaned passenger to the airlines. And so it 
would not make any sense for us to price ourselves out of a 
market, of a competitive market, by having a very high CPE. So 
keeping that CPE competitive in a--you know, amongst our peers, 
is very important. So I think that that serves as a market 
regulatory function for all airports that are looking at how 
they are going to finance their capital programs.
    Mr. Massie. So what do airlines charge to check a bag now 
at your airport?
    Mr. Krauter. Up to $30.
    Mr. Massie. Up to $30. And what are you allowed to charge 
for the use of your airport to a passenger?
    Mr. Krauter. On the PFC, a maximum of $4.50, which I get 
$4.39 back.
    Mr. Massie. So $4.50. So, like, one-sixth of what they are 
charging to check a bag, you--to use a bag. You get to charge 
to use an entire airport.
    Mr. Krauter. For capital improvements. Yes, sir.
    Mr. Massie. Right, for capital improvements. So if there--
if, like, the bag fees and those sorts of things have such an 
effect on the price of a ticket, and you would be able to 
improve with just $3 extra on your passenger facility charge 
your facility, why do you think airlines are opposed to 
modernizing airports using PFCs?
    Mr. Krauter. I am not sure it--that they are entirely 
opposed. I think in small airports in particular, where they 
don't have the concentration in their market to warrant their 
personal corporate investment in facilities--I think at smaller 
airports I think they like the fact that there is PFC capacity, 
because they don't have the corporate interest necessarily in 
coming in and building their own specific facilities.
    So I think that in my case, in Spokane, I think the 
airlines are delighted that we have been very fiscally 
responsible and have significant PFC capacity available to 
build the TREX project.
    Mr. Massie. Well, I hope you appreciate I am playing 
devil's advocate here a little bit. I support giving airports 
the flexibility to set their own passenger facility charges, 
and so do a lot of conservative organizations and a lot of my 
colleagues on the other side of the aisle.
    So thank you, Mr. Chairman, for holding this hearing. I 
agree there is a big cost to doing nothing or being stuck 20 
years prior in history. We haven't adjusted the passenger 
facility charge cap in a long time. So I support that, and I 
yield back, Mr. Chairman.
    Mr. DeFazio. Thank you. And now we would--what we are doing 
is that we had to abbreviate the first hearing, and I said at 
that time anyone who was here at the end and had been waiting 
would get to go first. And then, after that, we would go to 
other people who didn't have an opportunity during the first 
panel, but you weren't here at the end. So this--that is how 
this order was established.
    So, Representative Larsen is up next.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Krauter, I guess without going into too much detail, 
what do you collect in revenues per year, and how much goes to 
operation, and how much goes to reserves and borrowing costs 
and so on? What are you left with? And I am getting at the 
question of why don't airports just finance terminal 
construction themselves.
    Mr. Krauter. Thank you, Representative Larsen. Basically, I 
think what you--what we are getting at is how much unrestricted 
cash does my airport generate, and how much unrestricted cash 
do I have available for capital improvements.
    So I am just going to talk a little bit very quickly about 
what unrestricted means, because it means different things to 
different people, the way it is defined. But to us it does not 
mean available, because we define available cash as that which 
is on hand after reserves. And we maintain a number of 
reserves, such as operations and maintenance reserve, other 
post-employee benefits reserve, environmental liability 
reserve, et cetera.
    So after all of that, what we have available in funding of 
a $4 million to $6 million a year, non-grant-funded capital 
program is 6 to 8 months of cash on hand.
    Mr. Larsen. And can you build a terminal in a timely manner 
with that?
    Mr. Krauter. I cannot build a terminal in a timely manner. 
We are good at--really good at what we do, sir, but we are not 
that good.
    Mr. Larsen. Well, you are pretty good in Spokane. You are 
pretty good.
    Mr. Krauter. Thank you, sir.
    Mr. Larsen. I want you to go home and say that, that I said 
it. They will never believe it.
    On your chart I think it is important to point out--well, I 
would like you to explain. You have the chart, you got the 
blues and the reds, and this is the chart that you handed out 
beforehand. Is the interest cost strictly based on the payoff 
that you have chosen? Or is it a combination of factors?
    Mr. Krauter. The interest cost, really, is running at--on 
its own there. It is--if you look at the upper left corner of 
the graphic, you see the actual cost of TREX at $191 million, 
and then another $151 million, give or take, in interest over 
the course of the bonds. And you can see we have effectively 
figured that we would have general airport revenue bonds that 
would probably be 25 to 30 years, plus payoffs.
    And so we go down from the top of the graphic to a scenario 
of what would that interest break decrease to, or interest 
total decrease to if we were able to charge a higher PFC. And 
we picked $6.50 in this particular example. You can see the 
interest beginning to disappear. And then, at $8.50 you can see 
that the interest goes from $151 million a--in the total 
project cost down to $66 million.
    Mr. Larsen. So in your world who pays that red bar?
    Mr. Krauter. The passengers.
    Mr. Larsen. The passengers pay that interest?
    Mr. Krauter. Yes, sir.
    Mr. Larsen. Do the general taxpayers at all pay that?
    Mr. Krauter. No, sir. It is the users of the airport that 
pay for it. We do not rely on any taxpayer assistance to run 
our airport system.
    Mr. Larsen. This is how that works, OK.
    Why is the AIP a less attractive method to pay for terminal 
improvements? Or is it an option at all?
    Mr. Krauter. A couple reasons. First is that AIP has been 
flat for a very long time. And if you look at its purchasing 
power--we have talked about the decrease in the purchasing 
power of the PFC. But AIP has also had a corresponding decrease 
in its purchasing power. So the $3.35 billion per year after 
the FAA takes out what it needs to manage the program is $3.2 
billion. But effectively, it is about worth $1.8 billion.
    And so most AIP is actually--71 percent of AIP is directed 
towards air field projects only. And on top of that, we can't 
bond off of AIP.
    Mr. Larsen. You can't bond off AIP, all right. I want to 
switch gears a little bit with Mr. Fanning.
    What is the single most--what is the one thing that FAA can 
do, from a regulatory perspective, to address or to advance the 
UAM?
    Mr. Fanning. Well, first of all, it is getting the right 
regulation in time. Other countries are focused on this. And if 
we don't have the regulatory schemes in place in time for the 
realization of this technology, other countries will get there 
first. So it is not just a matter of slowing down the United 
States, it is ceding that market to other countries.
    But what is also important--and Congress has taken 
leadership on this--is making sure it is the right regulation, 
that these are performance-based regulations, because these 
companies are approaching this in different ways, and this 
technology is very iterative. And so, if we use old, 
prescriptive regulation, it will slow down the advancement and 
utilization of this technology.
    Mr. Larsen. OK. And the other part of your answer is get 
the remote ID rule done?
    Mr. Fanning. Get the remote ID rule done, yes.
    Mr. Larsen. That is what I thought you were going to say 
next.
    Mr. Fanning. There are a number of things in the framework 
that--operations over people, operations beyond the line of 
sight--that we have got to figure out. But remote ID is 
definitely part of that.
    Mr. Larsen. Got it. Thank you, Mr. Chairman.
    Mr. DeFazio. OK. Representative Balderson?
    Mr. Balderson. Thank you, Mr. Chairman. My first question 
is directed to Mr. Krauter. And thank you so much for being 
here. It is quite a privilege to have a fellow Ohioan, O-H----.
    Mr. Krauter. I-O.
    [Laughter.]
    Mr. Balderson [continuing]. Here this afternoon. I recently 
had the privilege of touring the air traffic control facility 
at the John Glenn Columbus International Airport, and I believe 
Congress must ensure that our air traffic controllers have 
access to necessary tools and the resources to keep us safe.
    Earlier this afternoon I agreed with concerns shared today 
about how Government shutdowns impact the FAA and the aviation 
workforce, which is a major reason I, along with another fellow 
Ohioan, introduced a piece of legislation called End the 
Government Shutdown Act here.
    But prior to the shutdown, the partial shutdown that we 
just had, there already was a shortage of qualified air traffic 
controllers in this country. And right now there is only one 
training facility for air traffic controllers in the United 
States. Do you believe it is important to increase the number 
of such training facilities?
    Mr. Krauter. First of all, I started my career at Port 
Columbus, Representative Balderson, so I know the airport very 
well. And I do believe that there should be a number of 
different approaches taken to try and increase the controller 
workforce. I do think that regionalization of that training 
curriculum would be very helpful. We have had similar 
conversations, actually, with other Government agencies, like 
the TSA, in similar fashion.
    I think we need to also recognize the importance of the 
United States contract tower program, which serves as a 
training ground for many controllers across the country. The 
U.S. contract tower program is 253 towers out of the 513 towers 
in our country. And it is a meaningful and important incubator 
for our future controllers.
    Mr. Balderson. A followup to that would be are there other 
ways that we can expand and recruit folks out there to get 
involved in this industry, and encourage them, and encourage 
students to invest their future in this industry?
    Mr. Krauter. There are. There are many ways. And there are 
many different organizations that are on the oars, trying to 
get that done. Even at the local level we have engagement with 
the Experimental Aircraft Association, with Aircraft Owners and 
Pilots Association, with our State aviation associations, with 
our Federal associations like the American Association of 
Airport Executives, in particular. And also with our DOT and 
FAA partners. I think everybody is really trying to look at 
ways to fill that pipeline of future aviation workforce.
    I think one of the things we need to do a better job of is 
coordination of all of it. And I do think that Congress can 
play a meaningful role in helping us do a better job of 
coordination. And I think the infrastructure bill might be an 
opportunity for us to look at that--you know, that--methods 
that we are using right now to try to increase workforce.
    Mr. Balderson. OK, thank you. One last question. Can you 
discuss the difficulty small- and medium-hub airports may have 
receiving the same tolls as the larger commercial airports?
    Mr. Krauter. Absolutely. There is definitely an emphasis 
being placed on equipage of larger airports. And I am concerned 
about that, coming from a smaller airport, also an airport that 
operates a general aviation reliever facility with a contract 
tower.
    And so, to me, I do think that it would be more helpful in 
the future if we could see a strategy pursued by the FAA, in 
which they are equipping the system, both from the top down and 
the bottom up. And--because I don't think it is right that you 
have to fly through time when you fly from a large community to 
a smaller community.
    Mr. Balderson. I agree. Thank you. My last question is for 
Mr. McArdle, with UPS.
    Sir, could you speak on how UPS is utilizing the drone 
technology to help alleviate some of your traffic congestion?
    Mr. McArdle. Thank you for the question. UPS is--we have 
looked at drones for quite some time. And right now we do find 
a practical use where we are helping with humanitary needs 
across the world, not just--as a matter of fact, not within the 
U.S., but outside of the U.S. Certainly you can imagine when 
there are needs when it is very tough to get to wherever blood 
or wherever medicine is needed, drones are a perfect way to do 
that. So through our foundation we partnered with that.
    When it comes to the commercial use of drones, we have 
looked at it, we have tested it. We continue to look at it and 
test it. We stay active in--where, you know, the--where the 
space is going to go, and we are at the table with it. But it 
is certainly something that looks like it could be promising 
for extreme rural-type deliveries.
    Mr. Balderson. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. DeFazio. Thank you.
    Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman, and I thank all the 
witnesses for their patience being here today.
    We are working on an infrastructure bill, we are here 
talking about that. We also--part of that also is we want to 
make sure that this is going to be a green infrastructure 
bill--that is, the transportation infrastructure that we help 
out and choose we make more green. And certainly rail is more 
green of a way to move both freight and also move people. 
Passenger rail is the greenest intercity and probably also for 
intracity.
    So Mr. Anderson, I happened to have an opportunity to speak 
with you yesterday. I am glad we--yesterday we talked in my 
office about labor issues. I am glad that when we were talking 
about what--earlier you had mentioned in terms of work that you 
are doing to, say, streamline Amtrak, that you said we can't do 
it on the back of labor, and I am very happy that you said 
that. And we have to make sure that that is the way things move 
forward.
    But I wanted to ask you, Mr. Anderson, about--you know, I 
am, obviously, as everyone knows, from Chicago. I have worked 
on CREATE since I have been here. We have made a tremendous 
amount of progress on CREATE. But there is still more work to 
do, as you told me yesterday about the issues of Amtrak getting 
into Chicago.
    So I want you to--I want to ask how important is it in 
doing an infrastructure bill, if we are going to help passenger 
rail--not just Amtrak, it would also help, you know, the 
commuter rail. It would help also move freight in Chicago. How 
important is it that we, in this infrastructure bill, put more 
money into the Chicago rail system?
    Mr. Anderson. Look, it is really important, not just for 
intercity passenger rail, but for Metra and for freight rail. 
When you come from Indiana and you get outside of Chicago, it 
is just a whole series of interlockings and a lot of delay and 
congestion. And so Amtrak has provided letters of support and 
matching funding for various aspects of the CREATE project, so 
we are supporters of it.
    I would note for you that for intercity passenger rail we 
would like to build a direct line that is passenger-only from 
Indiana straight into Union Station, as being the long-term 
best solution to separating the freight traffic from the 
passenger traffic.
    But in summary, we are big supporters. We have done matches 
when the local community has asked us to. We filed letters of 
support. And we think it would go a long way, not just for 
Amtrak, but for Metra and the freights.
    Mr. Lipinski. And also important, as we had discussed 
yesterday about Union Station and work on Union Station making 
sure that the track areas get the work, the update that they 
need. And I want to make sure we continue to be focused on 
that, and I know--with anything else that may be moving forward 
with Union Station in redevelopment.
    So I want to turn to Mr. McArdle. We have talked about--a 
little different issue here--we have talked about how we are 
going to pay for--what we are going to do for the Highway Trust 
Fund. And I just wanted to ask what your thoughts were.
    I know that, for example, Germany has a VMT for heavy 
trucks. We have talked about moving to a VMT, but it seems like 
it would be easier than for cars and light trucks right now to 
move more quickly to VMT for heavy trucks. And I was just 
wondering what your thoughts were on that.
    Mr. McArdle. Well, Congressman, thank you for the question. 
I am not sure why it would or would not be any easier. I think 
VMT is certainly one of those programs that needs to be tested.
    We encourage pilots, true pilots, proof-of-concept pilots, 
pilots that will test the--you know, the personal security 
behind VMT, pilots that are going to test the--you know, the 
evasion rates behind VMT-type models. Who are those that are 
going to try to avoid it? Pilots are going to really understand 
what the true costs are with the VMT program.
    Mr. Lipinski. But that would be easier for--right now, to 
do it for the heavy trucks, rather than--I mean easier than for 
passenger vehicles, though, because we already do some tracking 
of miles for trucks, right?
    Mr. McArdle. We do. And then it gets into the equitable 
side with the VMT. We want to make sure that--when you look 
at--between passenger cars and vehicles, that the right 
approach is taken.
    Just one other comment on the VMT. I think it does need to 
be evaluated and looked at, but when you take a look at the 
number of registered cars out there--there are, you know, what, 
close to 280 million registered vehicles out there--that we are 
going to have to make sure that we have a good handle on what 
we will be doing when it comes to the VMT.
    So I think I heard it mentioned earlier today. It is the 
transition to the future, but I think the bridge to the future 
right now is still the Highway Trust Fund.
    Mr. Lipinski. Thank you, I yield back.
    Mr. DeFazio. Thank you.
    Representative Westerman?
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here today. I appreciate Mr. Lipinski 
talking about efficient green modes of transportation.
    You know, the one that comes to my mind is on our inland 
waterways, where it is our most green mode of transportation, 
it is the lowest cost and one of the highest efficient ways to 
move material where those waterways are available. But like all 
infrastructure in our country, it is facing its challenges, as 
well.
    Ms. Meira, when you look at deepening projects and other 
authorized but not yet initiated or completed projects, what 
economic benefits are being forgone on the inland waterways 
that we could be realizing if those projects were done?
    Ms. Meira. Thank you, Congressman. So out in our part of 
the country we have our own inland waterway. We have the inland 
Columbia-Snake River System. So once you leave the Portland, 
Oregon, area, you go 365 miles east, all the way to Lewiston, 
Idaho, and that is a 14-foot-deep barging channel between, 
again, Portland, Oregon, and Lewiston, Idaho. You go past eight 
navigation locks, four on the Columbia, four on the Snake. And 
these are the highest lift locks in the United States. So over 
100 feet of lift at each of those locks. And we have one lock 
at each of those dams. So we have one chance to get it right.
    And so, when you have infrastructure that is that massive 
as those projects are, you think long and hard about what their 
needs are, what components are reaching the ends of their 
design lives, what your plans are for repair, replacement.
    And we have got, really, a wonderful story to tell out in 
the Northwest. We have had two extended lock maintenance 
closures. We learned from the Corps of Engineers that if we 
were to have a failure of one of our lock gates, it would take 
a year to design, fabricate, and then install one of those 
gates. So the idea of our system being down for a year was 
unacceptable.
    So we worked with the Corps in a proactive way to get after 
those needs, and plan for them. And we had two extended lock 
maintenance closures, 15 weeks each, where we took the entire 
river system down. And it was well broadcast with all of our 
growers, our shippers, even our overseas buyers of soft white 
wheat, one of our main products we ship. It was a total success 
story. That is the way to do it, not to wait for a failure.
    Mr. Westerman. Not to do it on an unplanned basis.
    Ms. Meira. Absolutely.
    Mr. Westerman. So, you know, as we look in other places 
around the world, we know that the Panama Canal project, it was 
conceived, designed, implemented, operational in a 10-year 
timeframe. Sometimes it takes twice that long just to do a 
feasibility study to see if we want to do a project in our 
country.
    What do you think could be changed to make that process 
much more effective?
    Ms. Meira. Well, the Corps of Engineers and the ports 
community, they have gotten to work on something called the 3 x 
3 x 3 initiative, meaning that studies should take no more than 
3 years, $3 million, and three levels of review. So let's get 
through the study and planning process faster so we can get to 
an authorized and then a constructed project and get those 
benefits out to the U.S. taxpayer. That is the way we should be 
building and doing these channel deepening projects.
    Out our way we have had a successful--one already go 
through that 3 x 3 x 3. That is the Port of Seattle. They are 
ready to deepen. They are ready to go to 56 feet. The Port of 
Tacoma is just behind them. They are getting ready to go into 
the study process.
    Contrast that with one of our more recent deepenings, one 
that concluded in 2010. That is the Columbia River Channel 
deepening. That project took 20 years, 20 years to get through 
studies, planning, the inevitable litigation, and then finally 
to authorization and appropriations and actually deepening.
    Mr. Westerman. But you finally got there.
    Ms. Meira. We sure did.
    Mr. Westerman. So, yes, I personally understand why we need 
ports. You mentioned the port and the deepening project. But 
what would you tell people in other parts of the country who 
may be far away from a port why that port is important to them, 
even though it is on the west coast and they are living in the 
middle of the country?
    Ms. Meira. Well, and first we have to say thank you to this 
committee for raising awareness over the past 6 or so years 
about the importance of WRDA and how everybody is connected 
here to ports. So whether you are growing and making things and 
you want to be part of the export community, you want to get 
your goods out overseas, ports are important to you. Or if you 
are going to the shelves and picking something up for your 
family, ports are important to you. It is the key to our 
everyday life here.
    Mr. Westerman. Thank you.
    I yield back, Mr. Chairman.
    Mr. DeFazio. Thank you. At this point now we are--
Representative Pappas?
    Mr. Pappas. Thank you, Mr. Chair. It is great to be with 
you all. Thank you to the panel for being here. It is exciting 
to be in a room of folks that are so excited about 
transportation and infrastructure they can talk about it all 
day, literally. And that is what we have been doing here today. 
So I really appreciate you being part of this.
    You know, one of the exciting things of being a new Member 
of Congress is connecting with constituents. I have been doing 
that over the last several weeks, holding town halls, getting 
out there to local communities. And without fail, if I am 
visiting with a town manager, a city council, a mayor in a city 
mid-size or a real small community, they always bring up 
infrastructure as their top concern: they have a bridge that is 
not open, they have a culvert that is inadequate, they have a 
rail project that needs to be worked on.
    So I think the folks around the country are really looking 
to this committee and the work that we are going to be doing to 
help advance the discussion over this in a way that is going to 
produce benefits at the local level.
    What we have seen, as the chairman said in his 
introduction, over the past 10 years or so, was a 19-percent 
decrease in the Federal share of transportation investment. And 
we have a multibillion-dollar backlog that exists.
    At the State level I have worked on developing our State's 
10-year transportation plan. Always more needs than we have 
resources available. But we felt the pinch of the decreasing 
share of Federal investment, and it has resulted in more 
deficient bridges at the end of the 10 years than we have at 
the beginning, not keeping up with the paving, not to mention 
all the other investments in ports and water systems and things 
like that, that we are not able to adequately address.
    So one of the bigger picture questions I had for the panel 
is this. You know, we talk about investment and funding streams 
that are available. We can also talk about financing projects. 
And I am wondering if you could all assess sort of what works 
best for your interests. Is it financing some of these large-
scale projects over time? Or is it funding streams that could 
ensure that we don't crowd out future priorities?
    I am thinking in particular of water infrastructure. I 
don't know if, Ms. Lee, you might be able to address that 
first.
    Ms. Lee. Thank you for the question, Congressman. What 
works well for Charlotte Water is when we can get those State 
revolving loans in terms of funding and financing. The last 3 
years, Charlotte Water has gotten $83 million from our State 
revolving loan fund. And what that does for us is that that 
allows us to manage our rates for our ratepayers.
    So when you--you know, you think in terms of water and 
wastewater systems. It is really the ratepayers who are funding 
and, you know, who support our systems. And so just having 
financing available where we can get grants for the smaller 
systems and zero- to low-interest financing for the large 
systems like Charlotte, it really is very helpful and helps us 
maintain the infrastructure that we have.
    Mr. Pappas. Well, thank you for that. And certainly the 
backlog is great.
    And I am interested in hearing from Ms. Meira. I have an 
issue in my district. I have the 18 miles of New Hampshire's 
coastline in my district. There is a harbor that has some real 
serious shoaling going on to the point where there are many 
hours of the day where boats can't come in and out. I am 
wondering if you support fully utilizing the Harbor Maintenance 
Trust Fund to deal with the backlog that exists of about $2.3 
billion of projects.
    Ms. Meira. Absolutely. We have examples like that all 
around the country, where we are just not getting the funding 
out there that is required to do basic maintenance dredging of 
these Federal channels. All these channels were constructed for 
a reason in these communities. They are providing value. We 
should be out there maintaining them so they can continue 
supporting the communities, their regions, their States.
    We have got so many examples back where we live, and it is 
not just the channels. The dredging ends up being a Band-Aid 
sometimes because we never get enough funding to take care of 
the structures that would, in some cases, help reduce the 
amount of dredging needed.
    So it is not the most cost-effective way forward, and we 
are shortchanging ourselves in the long run. So yes, we need to 
spend that HMT.
    Mr. Pappas. Thanks. I hope so.
    And just for the entire panel--we just have a few seconds 
left here--I am wondering if anyone on the panel is earning the 
same amount of money that they did in 1993. And if you are, 
could you please raise your hand? That was the last time, of 
course--oh.
    [Laughter.]
    Mr. Anderson. I am not paid.
    Mr. Pappas. Well, Amtrak is benefitting as a result. But 
thank you for your service. And how about since 2000? Anyone 
had a stagnant pay since 2000 on the panel?
    Well, thanks. I look forward to the increased investment, 
Mr. Chairman.
    Mr. DeFazio. OK. Mrs. Miller?
    Mrs. Miller. Thank you, Mr. Chairman. And thank you all for 
being here today to share your expertise with us. Chairman 
DeFazio, thank you for the opportunity to come together to 
discuss the many opportunities to rebuild and improve our 
Nation's infrastructure. I think the panels that you have 
assembled have a wealth of experience to share with us.
    My home State of West Virginia is at a critical juncture. 
We have land that is abundant in resources and natural beauty, 
but we do not have the infrastructure to match. Much of my 
district lacks easy access to highways and interstates. This 
makes it difficult for my constituents in the rural parts of 
West Virginia to access services only available in more 
populous areas, such as health care, groceries, and other 
necessities.
    The King Coal Highway, Route 2, Route 10, and the 
Coalfields Expressway are critical access points for my 
district, and need to be completed. I recognize the need to 
maintain and improve these roadways, while also working to 
improve safety and access for my constituents. These roads 
transport coal and energy and facilitate economic development 
for us.
    My home town of Huntington is the home of the Port of 
Huntington Tri-State, which is one of the largest inland water 
ports in the United States. This port brings important commerce 
to West Virginia, and lets us share the bounties of our State 
with the entire Nation and world. I am proud to have this port 
in my home town, and I am excited to work in this community to 
improve our Nation's waterway.
    Finally, rebuilding our infrastructure means jobs. These 
jobs can breathe new life into our communities, and give our 
constituents new opportunity. The aspect of improving West 
Virginia's infrastructure is very exciting to me. This means 
connecting our most urban and most rural areas, bettering our 
clean water access, revamping our rail, and enhancing our 
ports.
    My first question is to Ms. Lee. In West Virginia the water 
infrastructure in our rural communities is aging and out of 
date. What are the best practices on the Federal level for 
working with our localities to improve our water 
infrastructure?
    Ms. Lee. One of the best practices is to reauthorize the 
State revolving loan program. To pass funds from the Federal 
through the States to the local utilities, it is much needed. 
Aging infrastructure is an issue across this country.
    As I stated before, we have gone from, in 1977, from 63 
percent of water infrastructure being funded federally down to 
9 percent. And so, ideally, that trend needs to change for the 
water and wastewater utilities in the country.
    Mrs. Miller. Thank you.
    Mr. McArdle, as you are likely aware, West Virginia is an 
incredibly mountainous State, which poses safety issues for 
freight transportation. In your testimony you mention the 
importance of technology to improve safety for drivers and 
others on the road. Could you elaborate on this?
    Mr. McArdle. Yes, and thank you, Congresswoman. The 
technology that we are speaking about is making sure that, as 
we look forward in the future, we leverage not only the virtual 
technology, the vehicle-to-vehicle, the vehicle-to-
infrastructure, the vehicle-to-pedestrian, but also at the same 
time to making sure that, you know, our roadways are designed 
to handle the traffic they have now, to make sure that crashes 
that could be avoided, the types of crashes along the roadway 
sides, that vehicles and tractors and commuters could be 
protected. There is infrastructure that is in front of us every 
single day that could be improved to improve the safety of the 
roadways.
    Mrs. Miller. Thank you so much.
    And to the panel as a whole, in my district I have a bridge 
to nowhere, nowhere. It just stopped. We have 3.8 miles of road 
that never were completed. How can we better facilitate 
coordinating and completing projects?
    [No response.]
    Mrs. Miller. You look as dumbfounded as I feel.
    Mr. Krauter. I will take a shot at that, Congresswoman.
    Mrs. Miller. OK.
    Mr. Krauter. Having served on metropolitan planning 
organizations for many, many years, I do think that that tells 
me that we have some opportunities to do a better job in our 
planning process, and to make sure that when we are 
anticipating a project, that it has a rational nexus, it is 
going to end up somewhere.
    Mrs. Miller. Thank you.
    I yield back my time.
    Mr. DeFazio. Thank you. Now we would go to Representative 
Craig.
    Mrs. Craig. Thank you so much, Mr. Chairman. We started in 
Minnesota with Governor Walz, back to Minnesota here for just a 
moment.
    As you may be aware, my congressional district is a mix of 
really rural agricultural communities, as well as suburban 
communities just outside the--south of the Twin Cities of 
Minneapolis and Saint Paul.
    So my question, really, to the panel--but perhaps we can 
start with Mr. Willis--is how can we make sure that any 
comprehensive infrastructure package that we come up with on 
this committee will really strengthen our rural communities 
throughout Minnesota's Second Congressional District and 
communities like mine? I want to make sure that we understand 
that America is a big place, and my towns and townships and 
cities all are very important, and we need to make sure that is 
represented in an infrastructure package.
    Mr. Willis. Well, it has to be a priority. And I think one 
of the issues that gets to it is the question that we were 
discussing earlier: funding versus financing. And obviously, 
both of those have a role to play in sort of figuring out how 
you fund our Nation's infrastructure.
    But I think especially in rural areas and what you are 
talking about, you have to do the funding. You know, financing 
can be a little tricky. You have got to find projects that are 
going to have some toll or some return or some way to pay that 
back. Again, there is a role there. But there is a lot of 
projects--rural, some rail projects--that are going to need 
direct funding from the Federal Government.
    And that is why we are a big advocate of the gas tax to 
stabilize the Highway Trust Fund. I think it is always great 
when the labor movement and the AFL-CIO can agree on an issue, 
and this is one we agree on.
    So I think doing the funding right gets to your rural 
issues quite well.
    Mrs. Craig. Thank you so much. Anyone else have any 
comments on how we make sure we prioritize the balance?
    [No response.]
    Mrs. Craig. Perhaps then my second question. You know, 
importantly, we have talked about workforce development and 
recruiting, and what can be done to make sure we have a 
workforce to deliver on the infrastructure needs. What we 
haven't talked about is the impact, more broadly, on those 
working families across our Nation.
    So again, Mr. Willis, I am going to pick on you in a very 
good way today, because I think we haven't talked a lot about 
the knock-on effect of just making sure we have that kind of 
economic, robust growth plan for the country.
    Mr. Willis. Well, you know, as we have discussed earlier in 
the hearing, we are involved in these issues for a lot of 
reasons. Obviously, you create jobs when you do these projects, 
you have good operating jobs.
    But we are also at the table because the labor movement 
broadly represents workers that have to get to work every day. 
And many of our members drive and take the bus and rail, and 
there is a lot of multimodal needs out there. And there are a 
lot of mobility problems in both cities and suburbs and rural 
areas, where people have trouble getting to work. And 
businesses are suffering, and we are hearing about it from our 
members.
    So it is not just--when we talk about this creates good 
jobs, it is not just about the jobs it immediately creates and 
people that work in the system, it is the ability to get people 
to the jobs that we know are out there. So it is a big part of 
why the labor movement participates in this debate.
    Mrs. Craig. Thank you so much. And I was the former head of 
HR--don't hold it against me--for a major Fortune 500 company 
for a number of years in the Twin Cities. And, you know, my 
observation was when we have public sector investment, that 
certainly private-sector investment follows--if not 
immediately, soon after.
    So if I could ask, does anyone have any thoughts on just 
what impact it would have on your organization--perhaps UPS or 
others--if, in fact, that private-sector growth followed public 
sector investment?
    Mr. McArdle. Sure, Congresswoman, I would be glad to 
comment on it.
    Two programs that come to mind right off the top of my head 
at UPS, one is in the Chicagoland area, The other one is in 
Louisville. And we have found a way to where, when we need a 
workforce, we are able to go into the community, provide 
education assistance, if you would--meaning tuition, and it is 
not so much a tuition reimbursement, it is actually helping 
employees within the local colleges come together, create 
programs, create criteria, curriculums that not only support 
what we may need, but is important to the Chamber, the 
businesses around our community in Louisville. We can support 
in that fashion. We have a similar program in the Chicagoland 
area.
    I will tell you it works where there is a mass, and you 
need the mass to make it work. But the--those are just two 
examples, and we found those to be extremely successful 
programs for both the community, as well as the company.
    Mrs. Craig. Thank you.
    Mr. Chairman, I yield back my time.
    Mr. DeFazio. Thank you. We would turn to Mr. Rouda, 
Representative Rouda.
    Mr. Rouda. Thank you, Mr. Chairman.
    Hi, I am Harley Rouda from Orange County, California. My 
district represents about 80 percent of the coastline there. 
And what I want to talk about is the intersection of 
infrastructure and climate change.
    I talk a lot with my constituents about how climate change 
is the greatest threat facing humankind. And I predicate that 
on the fact that where we have built our homes, our cities, our 
farms are all based on predictable weather patterns over the 
last 1,000 years. And if you shift those predictable weather 
patterns by changing the ambient temperatures of the atmosphere 
in a matter of a few short generations, where we have built our 
homes, our cities, and our farms have been built in the wrong 
place. And we are talking about an infrastructure issue far 
greater than the widening of the 405 in Orange County.
    And I am hopeful that I can get from you maybe some ideas 
where, in the infrastructure that you have participated in, 
that you have built, that you can share with the committee 
specific examples where you have used infrastructure as an 
opportunity to address climate change. Please.
    Mr. Anderson. As we have said earlier, and as I said 
earlier in my remarks, passenger rail is the most efficient way 
with the most minimal carbon footprint to move people through 
urban areas.
    So at Amtrak we have invested in a new Acela train set to 
increase the capacity in the Northeast Corridor by 40 percent 
over the next 8 years.
    Second, we had the most foul diesel locomotives in our 
national network. I think, but for being Amtrak, owned by the 
Federal Government, we wouldn't have gotten a waiver from the 
EPA. We marshaled our resources and just placed a large order 
to buy tier 4, the most modern diesel-electric locomotives.
    So I think we all have that same obligation to, in all of 
our businesses, to face up to what global warming really means 
in our businesses, and make real commitments.
    In a prior life I was the chairman of the International Air 
Transport Association, IATA, and we adopted the first global 
framework around aviation to reduce aviation emissions 2 
percent a year, ongoing from 2015, and to move to carbon 
neutrality by 2050, but by 2025 to be on a reduction basis.
    So I think that you can find many of those kinds of 
concrete examples in industry.
    Mr. Rouda. So in your planning process for any 
infrastructure project--and, look, I know we have got extreme 
overdue maintenance. The U.S. spends about 2.5 percent of our 
GDP on infrastructure, which is about half of what the European 
Union nations spend, and about one-third of what China spends.
    What are you seeing, though, in the long-term planning in 
these projects, taking into account the impact of climate 
change and the fact that there are estimates of 200 million 
climate change refugees by 2050, which will be impacting in so 
many different ways?
    Mr. Anderson. We do it from a macro perspective of 
continuing to reduce Amtrak's carbon footprint by year, with a 
goal across the top of the company. Our goal is to really 
reduce our footprint and gain efficiencies of about 2 percent a 
year. But that is going to need to accelerate, given the 
statistics that you just gave us.
    Mr. Rouda. Anybody else on the panel who would like to 
weigh in? Please.
    Ms. Meira. I know in the ports community the Corps of 
Engineers in our ports think about climate change whenever they 
are thinking about channels, about jetties, about the 
structures and the things that are in and adjacent to the 
water, which may have to survive higher wave heights, different 
temperatures, et cetera.
    And then, within the ports industry itself, there is a lot 
of retrofitting of engines. The towboat community, they are 
repowering their towboats to use cleaner, greener engines.
    And then, in the Northwest, we have a big focus on 
hydropower production. It is a green, renewable, outstanding 
source of energy. We are blessed with it in the Northwest, and 
we are always holding that up as a high priority to preserve.
    Mr. Rouda. I can't let that moment go by to not point out 
that if everybody would give up their cars and get on trains 
and California high-speed rail in LOSSAN and the Capitol 
Corridor, that is the biggest impact we can have on the carbon 
footprint.
    Mr. McArdle. Mr. Congressman, I--we don't build 
infrastructure at UPS, but one of the things, certainly, our 
investment in alternative fuel fleets has been significant. It 
has been significant for the last 10 years. We have reduced our 
carbon footprint by about 18 percent since 2007. We have got 
close to 10,000 alternative fuel vehicles out there.
    And speaking of the railroads, one of the things that is 
not well known is that we probably move about 3,000 containers 
a day on the rails. We have been one of the largest customers 
of the rails. So rails are important to not just our company, 
but to our industry, as well.
    Mr. Rouda. Thank you for your comments.
    And Mr. Chairman, I yield back.
    Mr. DeFazio. I thank the gentleman. With that, we would 
move to Representative Malinowski.
    Mr. Malinowski. Thank you so much, Mr. Chairman. Thank you 
for your emphasis up front on the Gateway project, which is, of 
course, extremely important to my constituents, as it is to the 
whole country, and for your intention to take the committee to 
take a closer look at that 10-mile stretch of the Northeast 
Corridor.
    I had a chance to do that a couple of weeks ago with some 
members of our State delegation, and it was quite striking. I 
had been through and over that infrastructure probably hundreds 
of times in my life, but in the tunnel no one ever turned the 
lights on before until we stopped in a special train, and 
indeed turned the lights on. And you could see just what a 110-
year-old tunnel looks like, close up. You could see just how 
close it is to, I think, what all of us would consider a 
catastrophic failure.
    And of course, Mr. Anderson, you know some 200,000 people 
pass through and over that infrastructure every single day. 
Many tracks narrow down to two tracks----
    Mr. Anderson. Right.
    Mr. Malinowski [continuing]. Over the Portal Bridge and 
through the Hudson River Tunnel. And it is not just the 
incredibly frustrated New Jersey and New York commuters. It is 
all of the rail traffic in the Northeast Corridor.
    And I wonder if you could maybe expound for us a little bit 
on the importance of that 10-mile piece of transit 
infrastructure to everything from North Carolina to New 
England.
    Mr. Anderson. We, actually, at Amtrak, think of the 
Northeast Corridor as running from Maine down to North 
Carolina, because we--when we sell tickets and people travel 
across that infrastructure, it is connecting people all the way 
down from North Carolina, even down into Florida, all the way 
up through the east coast to Maine and into Canada. So it is 
really an interconnected network, and we run that network on an 
interconnected basis with all of our commuter partners.
    So it is really pretty remarkable, when you think about it. 
We run 24 trains an hour. And Amtrak maintains and dispatches 
all of that traffic, because it is our railroad. But we take it 
as our responsibility to make NJT, LIRR, VRE, SEPTA, all of our 
partners, we have to do a really good job for them.
    So when you think about that 24 trains an hour, if you had 
one of those go down we would be running 6 trains an hour. And 
at six trains an hour you would put New York City in gridlock, 
and all those connections that we sell from down in North 
Carolina and down in Florida up through the Northeast would all 
be cut off.
    And the impact would ripple all up and down the east coast, 
because, when you think about it, all the big--New York is the 
banking center of the world. Well, many of those banks have all 
of their infrastructure and operations in New Jersey. And the 
banking system relies upon--just like all the industry in New 
York and the financial services industry--relies on Amtrak.
    And there is no way that you can somehow or another put 
that traffic over the George Washington Bridge or the Holland 
Tunnel. It is just not enough capacity to be able to do it. So 
in effect, you would shut down the economic activity in 
Manhattan.
    Mr. Malinowski. Exactly. Now, just this afternoon President 
Trump, in an interview with Newsday, said that he is now open 
to funding the Gateway project. I hope that is true. I would 
certainly welcome it if it is true. He said we have the money 
set aside, we haven't decided to use it yet, which is an 
interesting statement.
    I want to ask you about the next step in the process, 
should the commitment be there. My understanding is that for 
the Hudson River Tunnel, that would be getting the final 
environmental impact statement done. Now, is that correct? And 
you have submitted all the paperwork, all the reports necessary 
for that.
    Mr. Anderson. The--yes, we have.
    Mr. Malinowski. OK.
    Mr. Anderson. The first piece is the Portal Bridge, so 
the----
    Mr. Malinowski. Right. That is all ready, that is right----
    Mr. Anderson. That is ready to go. And New Jersey has given 
their half-a--you know, basically, a 50-percent match. And we 
are ready to begin construction on the Portal Bridge 
replacement. Everything is ready to go. The design is done, 
NEPA is done, we are set.
    The Hudson River Tunnel, we have continued at Amtrak--and 
this is back to what we have been doing the last 3 years--we 
have been trying to be really good stewards, so we have 
continued the design process on the tunnels. In other words, 
while we are restricted by our FRA grant from spending anything 
on major construction, we are spending the money to do the 
design and the engineering. And the environmental approval is 
right now at DOT.
    So the--and fortunately, the States of New York and New 
Jersey are both in the process of passing legislation to create 
the Gateway Development Corporation. We are fortunate at Amtrak 
to have Tony Coscia, who--as our chairman, who was the former 
chairman of the Port Authority of New York and New Jersey. He 
was in charge of building the tower. He is the chairman of the 
Gateway Development Corporation. And Stephen Gardner, behind 
me, who knows more about this project than anybody on earth, 
are the leaders of that effort for Amtrak.
    So we get that legislation passed, then we have a recipient 
for the Federal funding. And you know, there is an 
inevitability that this is going to get built. So why we spend 
all this time gyrating around, it is not a Republican issue or 
a Democratic issue. It is an American issue. And what we ought 
to do is just fund it and get on with it, because a 1906 tunnel 
under the Hudson River just doesn't get it done for this 
country.
    Mr. Malinowski. Thank you so much.
    Mr. DeFazio. Thank you. Now Representative Fletcher. Thanks 
for your patience.
    Mrs. Fletcher. Thank you so much, Chairman DeFazio. I want 
to thank you and Ranking Member Graves for holding this 
important hearing today, and I want to thank all the witnesses 
for coming. Your testimony has been extremely helpful and 
useful as we set about our work and think about the cost of 
doing nothing.
    I represent Texas's Seventh Congressional District in 
Houston. And as many of you can probably imagine, I am very 
interested in these issues. It is a big part of why I decided 
to come to Washington.
    Houston is a metropolitan area now of just under 7 million 
people, ranking as the fourth largest in the Nation. More than 
250 people move to Houston every single day. And our 
infrastructure is feeling the challenge.
    In particular, though, what we have talked about is the 
incredible infrastructure need we have in our community 
following Hurricane Harvey, which many of you will remember 
from August of 2017. And so I want to focus my questions, for 
the purpose of this hearing, on a concept that we have heard 
from some of you about, but I want to specifically follow up 
with Ms. Lee and Ms. Meira about: the conversation about 
resiliency planning and what it looks like to plan a resilient 
infrastructure.
    I think not only for the Greater Houston area, which is on 
the gulf coast, but for coastal communities across the country, 
when we talk about rebuilding our infrastructure, we are 
talking about rebuilding resilient infrastructure. And I think 
we really need to understand what kinds of specific things that 
you think, Ms. Meira, in terms of ports and, Ms. Lee, for you, 
in terms of especially the stormwater conveyances and systems.
    But the water systems in general, when we talk about what 
would make these more resilient, what are the things that you 
specifically would like to see? And how would you define that 
resiliency, or the kinds of things we should be doing in our 
ports and in our water systems?
    Ms. Meira. Great. So I will start off, and I will tell you 
that in our part of the world we worry about earthquakes. And 
so we are actively planning for a 9.0 Cascadia subduction event 
to happen somewhere in the Portland-Seattle area. We are part 
of that ring of fire there. And so, when we have that 
earthquake, there is a high likelihood that it will be 
accompanied by a coastal tsunami.
    So Portland is about 100 miles inland--river miles, at 
least--from the Pacific Ocean. But out on the ocean side there 
will likely be a tsunami that comes in and devastates our 
coastal ports. So we will have two things to respond to. We 
will have all of those folks in our metropolitan areas who will 
be without all of the basic services, and we will have hurting 
people out on the coast. And likely, all of the bridges down 
between Portland and the coast.
    Those are the things that the State of Oregon and the State 
of Washington, our ports, the Federal--all of our Federal 
partners, we are all thinking about that and planning for that 
now, determining where we will actually shut down operations 
and say those folks are going to have to concentrate on their 
families, we are shifting the headquarters, whatever group it 
is, inland hundreds of miles, because we know that the impacted 
areas won't be able to respond.
    So it is a combination of planning, but then also being 
thoughtful about the infrastructure that comes after it.
    Mrs. Fletcher. Thank you very much.
    Ms. Lee?
    Ms. Lee. Yes. I definitely echo her comments regarding 
planning.
    What we look for would be controllable and uncontrollable 
impacts to our infrastructure. And the water sector is really 
implementing and evaluating a number of strategies regarding 
infrastructure resiliency. We are looking at our resource 
recovery, we are looking at energy, we are looking at ways to 
recycle our water and nutrients and nitrogen and phosphate. And 
so, you know, we are looking at technologies that will allow us 
to look at the controllable and the uncontrollable impacts.
    Mrs. Fletcher. Thank you. I guess one question I have in 
hearing about the ports, Ms. Meira, we experienced that same 
concern about storm surge and coastal storm surge. Have you all 
been working on plans, or do you have ideas about how we can 
create physical infrastructure to address the storm surge 
concerns?
    Ms. Meira. Yes, absolutely. So our--the State of Oregon is 
working with our ports, working with the Coast Guard, working 
with the Corps of Engineers to understand exactly what our 
coastal ports can currently withstand, as built, trying to get 
a sense of what the tsunami will look like, and then trying to 
determine what infrastructure will be left.
    Will we be able to land any kind of vessels at those ports, 
or will they have been essentially scrubbed clean? And then you 
are looking at parking offshore assets, and helicoptering in 
relief efforts. Those are the kinds of conversations we are 
having. It is likely to be devastating, and to take not weeks 
or months, but years to recover from.
    Mrs. Fletcher. Thank you very much.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. DeFazio. Thank you. I thank the gentlelady. And now, 
last and not least, Representative Mucarsel-Powell from 
Florida.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman. The last one, 
and the most interesting one. I can't tell you how excited I am 
to finally ask.
    I have 1,000 questions. I don't know if I can do all of 
this in 5 minutes. But thank you so much for being here with us 
this afternoon.
    I represent south Florida, all of the Florida Keys, Monroe 
County, and parts of Miami-Dade County. So, as you can imagine 
my excitement when I was chosen to be a part of this committee, 
because we definitely are ground zero for sea level rise, the 
impacts of climate change, and our infrastructure is crumbling.
    So you know, we have been hit by major hurricanes, floods, 
and extreme weather events. In 2017, Hurricane Irma was the 
strongest hurricane in history coming from the Atlantic Ocean. 
We really saw there the cost of Federal inaction.
    You can imagine how urgent it is for us to invest in 
protecting--we have seven bridges that ties Monroe County, all 
of the Florida Keys, to the mainland. One of them is the Card 
Sound Road Bridge, which is right now in dire need of 
investment and infrastructure. And I am wondering--and I--my 
first question, because I do have several. I don't know who 
would take this question, but you can tell me.
    What do you think, with this bridge, which is only one of 
two bridges that connects the northern part of the Keys to the 
mainland, if we only have--if we were to invest in trying to 
get that bridge up to par with where it needs to be, what would 
that mean, if we only have one reliable means of evacuating to 
the mainland in the event of an emergency? So you would only 
have one road. Can you speak to us about the public safety 
risks that this would possess?
    Mr. McArdle. Congresswoman, I can just tell you that, 
certainly from a transportation standpoint, motor carriers, a 
service, a delivery service option, any way that--you know, 
even to feed the goods and services to--or goods to the 
businesses that are on the wrong side of that traffic jam, it 
would be something to take a very, very long time to get 
through. It is going to be very, very difficult.
    And you know, and then it is just--it is going to compound 
into what becomes the priority: evacuations, getting goods 
delivered, the rebuild time. I can see it would be a heck of a 
challenge for you, for all of us.
    Ms. Mucarsel-Powell. And my community down in the Keys also 
has really seen the cost of not really investing in our 
infrastructure. Our local governments have fronted significant 
funds toward the implementation of the Florida Keys water 
quality improvement program. And, as a result, Keys residents 
have footed a majority of the bill for the water treatment 
system in the region.
    We have also a very serious issue of leaky septic tanks in 
the southern part of Miami-Dade County, as well. And we have 
seen on a regular basis the consequences of having an 
insufficient system.
    So I wanted to ask, Director Lee, if you could talk about 
the importance of the Clean Water State Revolving Fund, and 
building and maintaining a sufficient septic system. Because, 
as you can imagine, it is unacceptable that in our country and 
in south Florida we only have half of the septic tanks that 
function during parts of the year. So, if you could, speak 
about that.
    Ms. Lee. Thank you for the question, Congresswoman. That 
fund is so important to utilities across the country, across 
the Nation. And that is a vehicle for us to be able to fund the 
infrastructure improvements that are needed. The cost is passed 
on to our ratepayers.
    And so the more funding we can get for utilities, then 
there is a direct correlation to what our ratepayers will be 
paying. We need the--we just need that local funding. We need 
the State revolving loans. We need funds going down to the 
public utilities across this country, because aging 
infrastructure is an issue. It is not going away. Water and 
wastewater services are basic to human life, and you have given 
some examples of the impact of not being able to fund that 
infrastructure appropriately.
    So if I could leave you with something, really consider 
reauthorizing State revolving funding, reauthorizing WIFIA in 
fiscal year 2021, and ensuring that we have got funds that can 
be passed down to the local level to take care of the basic 
infrastructure that is really responsible for human life.
    Ms. Mucarsel-Powell. Thank you.
    Thank you, Mr. Chairman. Yes, do I have more time?
    Mr. DeFazio. No, you don't.
    Ms. Mucarsel-Powell. I have, like, 10 more questions. Yes.
    Mr. DeFazio. You are over, sorry.
    [Laughter.]
    Mr. DeFazio. OK, this will be--I think I will be the last 
one. I will go quickly.
    And first, I wish to discuss the PFC. And I know that 
important people are listening. And so here is the argument I 
have been having for years with the airlines.
    So if you put another dollar, $2 on the ticket, no one is 
going to fly again. They are just going to walk away. And I 
said, ``Well, what about bag fees?'' Well, that is part of the 
passage and the ticket, and all that.
    But to me, a big part of the experience is, when you walk 
into the airport, is it properly configured for security so you 
are not standing in these lines forever? You know, when we go 
out, are the gates adequate for the number of people? Do you 
have enough gates so you don't sit on the tarmac idling, and 
wasting fuel, which is happening more and more and more and 
more frequently for people.
    So I think it is all part of the experience. It is one 
experience. And I just quite can't get to the bottom of it. And 
I want to ask this question.
    So if I look at your option 1, the 30-year payoff full 
bonding, there is $151 million of interest over 30 years. Now, 
who is going to pay that?
    Mr. Krauter. The users.
    Mr. DeFazio. The users, OK. And that would be both the 
airlines and their passengers, right? Because you are going to 
get to renegotiate your gate contract somewhere in that 30--I 
am sure you don't have longer than 30-year contracts, do you?
    Mr. Krauter. No, sir.
    Mr. DeFazio. So, one way or another, the airlines and/or 
the passengers are going to pay for that.
    Mr. Krauter. That is correct, Mr. Chairman.
    Mr. DeFazio. And so, if we look at your last--well, I won't 
even be that extreme.
    Go to your next-to-the-last option, we are at $34,200,000. 
So we subtract that. So--OK, that takes us down to $117, $118 
million of difference. So wouldn't it be prudent to do it now 
and not waste $118 million, and send it to the banks, or Wall 
Street, or wherever you borrowed the money?
    Mr. Krauter. We believe that it would be prudent. We do not 
want to take on unnecessary debt.
    Mr. DeFazio. Right.
    Mr. Krauter. And on top of that, we don't want to be 
extended out 38 years on our passenger facility charge to pay 
for all that.
    Mr. DeFazio. Right.
    Mr. Krauter. We have a lot of other projects that we would 
like to build, instead of paying the banks the interest.
    Mr. DeFazio. And you are not building a--you are not like 
Singapore, wherever they are putting in the waterfalls and the 
Taj Mahal, and the--all that stuff. I mean in the United States 
we restrict how you can use the PFC money.
    Mr. Krauter. That is correct, Mr. Chairman. We have a very 
robust consultation process with our airline partners, and an 
approval process with the FAA. Our terminal renovation and 
expansion project is very modest, very lean, answering all 
those issues that you pointed out at the beginning of your 
question.
    Mr. DeFazio. OK. And I would like Ms. Meira to answer just 
one--I mean--how about, you know, we have shutdowns, we have--
you know, we don't know what is going to be in the President's 
budget or what Congress is going to appropriate on an annual 
basis, in terms of harbors, who is going to get dredged, who 
isn't, whose jetty is on the, you know, very long list the 
Corps has for reconstruction, and how much more will it fail 
before we fix it.
    Could you just address how important it would be to have 
more predictability, let along more money being invested?
    Ms. Meira. If we have both, if we have more consistent 
funding--so more funding and more consistency--we would have 
more efficient projects, and we would have better return on 
investment for the U.S. taxpayer.
    We have seen in the Northwest what it looks like when the 
Corps is, at times, adequately funded for a particular project. 
They are very efficient. They work very well with stakeholders. 
We have got some great success stories. And I know that you are 
aware of them. But we also have a lot of failures, and that is 
because we are not funding the Corps the way we should.
    And some of those failures, they lead to unsafe conditions. 
And you are very aware of them on the southern Oregon coast, 
some of the most challenging bar crossings in the United 
States. They are, literally, a matter of life and death. That 
dredging, those jetties, they matter, not just to the mariners 
who are trying to get out to make a living at a commercial 
fishery. But when they are put in harm's way, you have Coast 
Guard personnel who are having to go out and make countless 
more search and rescue missions, putting their lives at stake 
and their assets at stake. It all adds up.
    So if we can be more thoughtful in the way we fund the 
Corps, have more predictability, it is better for the taxpayer, 
it is better for everyone.
    Mr. DeFazio. I think that is a great place to end. Thank 
you very much.
    Thanks to all of the panel. Wait, I am going to have to 
say--I have to read something, but I want to first--before I 
get to that part I want to thank you for your testimony. You 
know, this is a really important issue confronting this 
committee, and I think the things we heard today are going to 
help us to come together in a bipartisan way, and make some of 
the investments we need.
    So I ask unanimous consent that the record of today's 
hearing remain open to such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments or information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again, and I have 
nothing to add.
    Bob, do you have anything to add?
    Mr. Gibbs. Well, I would like to say thank you to our 
witnesses, too. And I just wanted to--just for the record on 
the Army Corps stuff, it has been very bipartisan to get more 
of that Harbor Maintenance Trust money where it is supposed to 
go. And we did on the last couple WRDAs, the Inland Waterway 
Trust Fund, we did increase that. And we got--kind of off 
budget that saved a lot--brought a lot of money in.
    So it has been very bipartisan. When we were in the 
majority we worked very hard to make those improvements. So 
that is bipartisan.
    Mr. DeFazio. I agree. I started actually working on turning 
that trust fund into a real trust fund with Bud Shuster in 
1996. We are almost there.
    With that, the committee stands adjourned.
    [Whereupon, at 4:26 p.m., the committee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Statement of Hon. Rick Larsen, a Representative in Congress from the 
                          State of Washington
    Thank you, Chair DeFazio for calling today's hearing on ``The Cost 
of Doing Nothing: Why Investing in Our Nation's Infrastructure Cannot 
Wait.''
    This morning, we are here to discuss why the Federal Government 
must invest now in the Nation's infrastructure and what is at risk if 
we do not. You cannot have a big-league economy with little league 
infrastructure. The backlog of infrastructure projects spans roads, 
bridges, ports and airports across the country. If Congress does not 
act and address these infrastructure needs, we not only risk the safety 
of travel, but also the U.S. economy. Without a 21st-century 
infrastructure network, our ability to move goods, engage in trade and 
enjoy a robust economy will be impossible.
    Robust infrastructure investment is especially important for my 
home State of Washington, where transportation means jobs. According to 
the Association of Washington Business, Washington State alone needs 
$190 billion in infrastructure investment to help relieve congestion, 
improve safety and build on the State's economic growth by putting 
folks in the Pacific Northwest to work. Last year, I hosted a series of 
roundtable discussions with transportation and infrastructure 
stakeholders across Washington's Second District. During these 
discussions, I heard about the need to invest in modernization and 
maintenance of the regional highway system. Small and mid-size cities 
play a critical role in powering Washington's economy, but you would 
not know it based on how Federal transportation and infrastructure 
funding is allocated.
    My legislation, the TIGER CUBS Act--which I will reintroduce this 
Congress--will help these cities earn their stripes as competitors for 
Federal infrastructure dollars to restore local roads, bridges and 
highways and creating good-paying jobs. Specifically, my bill would 
set-aside 20 percent of the funds for smaller and medium-sized cities 
made available through the popular Transportation Investment Generating 
Economic Recovery (TIGER) grant program, now known as BUILD.
    According to a recent industry \1\ scorecard, U.S. drivers spend 
more than 40 hours each year in traffic during peak hours.
---------------------------------------------------------------------------
    \1\ INRIX, INRIX 2017 Global Traffic Scorecard, http://inrix.com/
scorecard/ (last visited Aug. 29, 2018).
---------------------------------------------------------------------------
    In Everett, Washington, commuters spent more time stuck in traffic 
than anyone else in 2017, with a congestion rate of 28 percent on 
highways in and out of the city. Washingtonians travelling on the U.S. 
2 trestle between Everett and Lake Stevens know this congestion and its 
related safety concerns all too well. Although Washington State has 
raised $1.8 million dollars in local funds to upgrade the U.S. 2 
trestle, this allocation still does not cover its full design cost 
projected at $15 million. As the State considers additional funding 
options to complete the U.S.2 trestle project, either through an 
increased gas tax or public-private partnerships, robust Federal 
investment can play a key role in getting this project across the 
finish line.
    Local officials in my district have also told me that improving at-
grade rail crossings in Northwest Washington is critical for safety and 
efficient traffic flow. For instance, in the city of Marysville in my 
district, an overcrossing on Grove Street is needed to increase the 
flow of east-west traffic through the downtown core, which is 
significantly impeded by train traffic. Further, at-grade rail crossing 
accidents and fatalities are on the rise and pose a significant barrier 
to the region's transportation network. With a single at-grade crossing 
project estimated to cost localities up to $30 million, increased 
Federal investment is critical to making needed infrastructure 
improvements that will save lives.
    The Fiscal Year 2018 Omnibus provided a $525 million increase to 
the Consolidated Rail Infrastructure and Safety Improvement Grants 
Program, also known as CRISI, which will help reduce rail congestion, 
improve rail infrastructure and increase the deployment of safety 
technology. However, more can be done to increase Federal funding for 
rail safety. I am working to reintroduce legislation to enhance 
eligibility and make a series of technical improvements to ensure 
Federal funding for at-grade crossings and separations are more 
accessible for States and localities.
    The expansion of reliable and efficient transit options is vital 
for commuters in Washington's Second District and across the Pacific 
Northwest. Recently in my district, Community Transit secured a $43.2 
million Federal Capital Investment Grant to support their Swift Green 
Line bus rapid transit project. Without this Federal investment, this 
long-awaited transportation project would not have made it across the 
finish line. Investing in this project ensures commuters have safe, 
reliable transit options to work, school and home.
    Outside of investments in ground transit infrastructure, Federal 
investment in the Nation's ports keeps the U.S. maritime system 
competitive, encourages new, good-paying maritime jobs and helps to 
ensure a healthy environment in the Pacific Northwest. According to 
Washington's Department of Commerce, the State's maritime industry 
contributes over $21 billion in gross business income and directly 
employs more than 69,500 people. Small ports across the United States, 
like the Ports of Skagit and Bellingham, drive economic activity across 
various sectors from fishing and manufacturing, to shipbuilding and 
recreation.
    At the Port of Skagit, a new cycle of dredging is needed for the 
Swinomish Channel and will cost an estimated $2.4 million. 
Additionally, the preferred alternative to raise the Goat Island Jetty 
to reduce sedimentation will cost $3.75 million. Despite a $172 million 
increase for the Army Corps of Engineers in the recent Fiscal Year 2019 
Energy and Water appropriations minibus, only $2,000 was allocated for 
the Swinomish Channel project. Congress must work to fund small and 
donor ports nationwide to ensure they are properly maintained.
    Many often forget that infrastructure needs are not limited to the 
ground. As Chair of the Aviation Subcommittee, I also look at 
infrastructure investments through this lens. The Aviation Subcommittee 
will have a forward-looking aviation and aerospace agenda. This 
subcommittee will explore ensuring aviation safety, fostering 
innovation in U.S. airspace, improving U.S. competitiveness in the 
global marketplace; and enhancing the air travel experience for 
passengers. To that end, I am pleased that we have two witnesses today 
to speak strictly to what infrastructure investment means for the 
aviation system.
    I would like to personally introduce Larry Krauter, the CEO of 
Spokane International Airport, from my home State of Washington. Mr. 
Krauter will testify today from the perspective of a small hub airport 
in Washington State about their capital needs, and how a simple change 
to a local fee could have a dramatic impact on airports' ability to 
maintain and modernize safe infrastructure, and plan for the future. 
Without increasing investment to public-service airports, they will be 
capacity constrained, unable to meet growing passenger demand and in 
some cases, be forced to deny new service to local communities.
    In other words, a failure to act may be tantamount to a reduction 
in air service. Reducing air service hurts the traveling public and 
local communities by reducing robust competition and preventing 
regional economic growth. The United States has one of the most robust 
commercial passenger air service markets in the world. Airports need an 
influx of new capital to keep up with current capacity constraints and 
to plan for and build to accommodate future passenger growth.
    These investments are not just needed at large hub airports. The 
U.S. aviation system is just that, a system that relies on large 
airports like SeaTac in Seattle, to smaller hubs, like Skagit Regional 
Airport or Paine Field in my district, all the way down to airports 
that provide a lifeline to rural and remote communities. Congress has 
an obligation to ensure Federal and local investments are in place to 
maintain the incredible connectivity these airports provide to 
communities across the U.S.
    While I am proud of the passage of the recent Federal Aviation 
Administration (FAA) Reauthorization Act of 2018, there is one area 
where the bill fell very short: addressing the growing capital needs of 
airports. Despite many efforts, the bill holds flat Federal 
infrastructure investment in airports for the next 5 years. In other 
words, airports will receive the same Federal investment for 12 years 
in a row, while their needs continue to grow every year.
    From 2012 through 2023, the Airport Improvement Program (AIP) 
grants will provide $3.35 billion annually to airports for critical 
safety airside projects. According to a leading industry survey, 
airports have capital needs over the next 10 years of $130 billion (or 
$13 billion annually). Washington State alone is estimated to need 
$12.6 billion in aviation infrastructure investment. You do not need to 
be an economist to see the Federal infrastructure investment in 
airports falls far short of meeting airports growing needs. However, 
there is an easy solution to closing this gap.
    The passenger facility charge (PFC), is a federally authorized 
local charge that airports can collect on most passengers that travel 
to and from their airports. Congress needs to lift the cap of what 
airports can charge. This change does not even require Federal 
investment. It simply requires Congress to allow local airports to work 
with local communities to identify their needs and set fees 
accordingly. Raising the cap on the PFC, which has not been raised in 
almost 20 years, is a simple solution to a very big problem. And it 
will not cost the Federal Government a dime.
    The current cap on the PFC is $4.50. In 2000, the value of the 
dollar went much further than a dollar goes today. Which is why this 
outdated and artificial cap on what a local community can collect to 
meet their needs should be updated, lifted, eliminated or simply 
adjusted for inflation.
    In today's dollars, the PFC adjusted to inflation would be $10. 
This would double the amount of revenue airports could use to invest in 
critical terminal and capacity projects. The time to act is now. This 
decades-old fight must come to an end. The PFC is a local fee to help 
local communities decide what type of air service they want to attract 
and maintain.
    I would like to also welcome Eric Fanning, CEO of the Aerospace 
Industries Association, who will discuss a very different side of the 
aviation system: the impact new technology can have on the Nation's 
growing congestion problems. Passenger air vehicles (PAVs) are slated 
to present a dramatic change in the transportation in and around urban 
centers in the very near future. With recent advances in design and 
technology, PAV concepts in development will have the ability to reduce 
traffic congestion and the demand on our roads and bridges by carrying 
everyday commuters through the air, at low altitudes, to work and other 
nearby destinations.
    Of course, before this occurs there are many questions that will 
need to be answered to safely integrate them into complex airspace. 
This effort will require the FAA to develop a comprehensive regulatory 
framework to integrate these operations into U.S. airspace. As more 
users enter the U.S. airspace, safety must be Congress' number one 
priority.
    Again, thank you Chair DeFazio for calling today's hearing.
    And thank you to today's witnesses for being here to discuss this 
important issue. I appreciate your work to develop innovative solutions 
to address transportation and infrastructure needs across the country.
    I look forward to this discussion.

                                 <F-dash>
 Statement of Hon. Colin Z. Allred, a Representative in Congress from 
                           the State of Texas
    Good morning Chairman DeFazio and Ranking Member Graves. First, I 
want to say how pleased I am to serve on this committee. I am 
encouraged by the spirit of bipartisanship with which this committee 
operates, and I look forward to working with all Members to deliver 
solutions to the infrastructure challenges currently facing north 
Texans and the American people.
    I also would like to thank Chairman DeFazio for holding this very 
important hearing to discuss the real consequences of our lack of 
investment in infrastructure. Nationwide, we have seen a deterioration 
of our airports, roads and bridges. Traffic congestion in cities across 
the country are costing businesses billions of dollars a year in 
revenue and productivity loss. This problem is all too real to the 
constituents of Texas' 32nd Congressional District, where our region is 
rapidly growing, and that growth is not going anywhere. According to 
one study conducted by a transportation consulting firm, Dallas ranks 
as the 10th most congested city in the United States and 22nd globally. 
Every year, Dallas commuters spend an average of 54 hours in traffic 
and incur traffic congestion costs of $1,654 per driver. I am committed 
to pursuing innovative solutions to address these traffic congestion 
challenges.
    We must also place a greater focus on emerging transportation 
technologies such as smart highways and high-speed rail projects and 
develop new solutions for resilient infrastructure renewal. Doing so 
will put thousands of Americans to work revolutionizing the way we 
travel. In my home State of Texas, a network of local, regional, and 
State agencies and research institutions is using collaboration and 
innovative research to address mobility challenges and infrastructure 
needs across the State. For example, the Center for Infrastructure 
Renewal at Texas A&M University focuses on innovating new materials, 
technologies and processes to create solutions that last longer, have 
lower costs, and can be built in less time. Leveraging this type of 
research will be vitally important as we seek to modernize our Nation's 
infrastructure.
    America deserves a competitive and modern transportation and 
infrastructure system and I look forward to working with Members on 
this committee to make that a reality.

                                 <F-dash>
    Statement of the Airports Council International--North America 
                Submitted for the Record by Mr. DeFazio
    Mr. Chairman, Airports Council International--North America (ACI-
NA)--the trade association representing local, regional, and State 
governing bodies that own and operate commercial airports throughout 
the United States--thanks you for holding this important hearing today.
    The recent Federal-government shutdown highlighted the critical 
role the aviation industry plays in our national economy. Federal 
staffing and other resource shortfalls brought on by the shutdown 
threatened air service to communities across the country, harming air 
travelers, businesses, and regional economies all over America. The 
shutdown also slowed progress on important infrastructure projects at 
America's airports, investments we can ill-afford to put on the back 
burner. We are grateful that the shutdown is over, but it revealed to 
everyone the myriad of problems that could develop when the aviation 
system is not properly maintained and funded.
    While we look forward to a final resolution to the Fiscal Year 2019 
appropriations bills that will provide the U.S. Department of 
Transportation and U.S. Department of Homeland Security with the 
funding they need to staff and oversee aviation operations, we know 
that America's airports are falling further behind in their effort to 
upgrade their facilities and improve the overall experience of their 
customers. Airports strongly agree with you that the cost of doing 
nothing is further paralysis of the aviation system, and we are eager 
to work with you and this committee to advance a meaningful funding 
plan that will finally address our country's growing infrastructure 
needs.
                   airports are terminally challenged
    America's airports are a fundamental component of our nation's 
transportation infrastructure. In 2017, 1.8 billion passengers and 31.7 
million metric tons of cargo traveled through U.S. airports. With a 
national economic impact of $1.4 trillion, airports contribute more 
than 7 percent to the U.S. gross domestic product and support over 11.5 
million jobs around the country. To meet the capacity demands of the 
future with safe, efficient, and modern facilities that passengers and 
cargo shippers expect, airports need to make new investments to 
maintain and modernize our nation's airport infrastructure.
    While passenger and cargo traffic through airport facilities 
continues to grow at a record pace, our outdated aviation 
infrastructure is not keeping up with demand. As a result, far too many 
airports around the country are overcrowded and cramped. ACI-NA's most 
recent infrastructure-needs survey shows that America's airports 
require more than $100 billion in infrastructure upgrades over a 5-year 
period, with 60 percent of those needs coming within airport terminals.
    Inadequate airport infrastructure that fails to meet the growing 
needs of local businesses and tourists puts in jeopardy the continued 
economic growth of American cities, States, and regions. From 
established metropolitan areas to burgeoning growth regions to small 
communities, sustained economic growth depends on the expansion of, and 
investment in, local airports. As the U.S. economy has recovered from 
the significant economic downturn experienced during the Great 
Recession, the national unemployment rate has decreased and personal 
discretionary spending has increased. As such, enplanements nationwide 
have dramatically improved, growing at a compound annual growth rate of 
3.8 percent between 2013 and 2017, putting further pressure on our 
already overloaded airport facilities.
    Airport investment also promotes much-needed competition in the 
airline industry. New investments in airports can be valuable tools in 
helping local communities attract new air carriers, which increases 
competition and leads to lower airfares for passengers. Airports need 
additional resources to build the terminals, gates, and ramps necessary 
to attract new air carriers and entice existing ones to expand service. 
The traveling public gets more choices and lower airfares when airports 
can build the facilities that provide more airline options and more 
service alternatives.
    In addition to the impact on local economies, deferred airport 
investment over the past two decades has challenged the ability of 
airports to deal with the evolving threats posed to aviation security. 
We live in vastly different times than when most U.S. airports were 
built, and the airports we have today simply were not designed and 
outfitted for a post-9/11 world that requires us to maximize both 
efficiency and security.
            addressing the infrastructure-funding shortfall
    With America's airports facing over $100 billion in infrastructure 
needs across the system, it is time to find the means to rebuild our 
nation's aviation infrastructure and improve the passenger experience 
for millions of air travelers.
    It is a common misconception that airports are funded with taxpayer 
dollars or a general tax on all citizens. In reality, though, 
infrastructure projects at U.S. airports are funded primarily with 
Federal grants through the FAA's Airport Improvement Program (AIP), a 
local user-fee called the Passenger Facility Charge (PFC), and airport-
generated revenue from tenant rents and fees. Airports often turn to 
private-capital markets to debt-finance projects, using both PFC-
revenue and airport-generated revenue to repay the bonds.
    Traditionally AIP grants--which prioritize safety improvements--
have been used on airfield projects, while PFC user fees--with greater 
funding flexibility--have gone toward terminal, ground-access, and 
major-runway projects. Both are essentially reimbursement programs used 
to pay for past or existing projects. In the case of PFCs, airports 
often have committed this revenue-stream for years or decades into the 
future to repay past projects, meaning they have no new money coming 
into the system to fund future projects. Federal law requires airports 
to be self-sustaining, yet it also artificially distorts and constrains 
the very funding mechanisms designed to ensure market competition and 
airport-infrastructure growth, as the Federal cap on the PFC has been 
in place since 2000, and Federal grants through the AIP have remained 
stagnant for over a decade.
    Thus, under the industry's current financing-funding model airports 
lack stable, predictable funding sources that keep pace with travel 
growth, rising construction costs, and inflation for these intensive 
capital projects. The PFC cap--last adjusted 20 years ago--has seen its 
purchasing power eroded by 50 percent in the past two decades. And 
Federal airport grants through the AIP have been stagnant for nearly a 
decade, and will remain so for another 5 years under the recently 
enacted FAA reauthorization legislation. Moreover, many airports--even 
those with sterling credit ratings--have reached their debt capacity 
and either cannot finance new projects or have had to phase in their 
projects over a longer timeframe, increasing the costs and delaying the 
benefits for passengers.
    Fortunately, we can rebuild America's airports without raising 
taxes or adding to deficit spending by modernizing the Federal cap on 
the PFC. Modestly adjusting the anti-competitive Federal cap on local 
PFCs would allow airports to take control of their own investment 
decisions and become more financially self-sufficient. Airports could 
build the appropriate facilities--terminals, gates, baggage systems, 
security checkpoints, roadways, and runways--to meet the travel demands 
and customer expectations of their community.
    It is important to note that PFCs are not taxes--they are local 
user fees determined locally and used locally to help defray the costs 
of building airport infrastructure that benefits customers by improving 
the passenger experience and spurring airline competition. PFCs are 
imposed by States or units of local government; so they are not 
collected by the Federal Government, not spent by the Federal 
Government, and not deposited into the U.S. Treasury. Instead, PFCs go 
directly to fund local airport projects approved by the FAA, with input 
from airlines and local communities.
    At a time of mounting pressure on our Federal budget, modernizing 
the Federal Government's cap on the PFC is the simplest and most free-
market option for providing airports with the locally controlled self-
help they need to fund vital infrastructure projects. It would give 
airports more flexibility to self-finance and leverage private 
investment without the need for additional taxpayer dollars, thereby 
allowing airports of all sizes to generate more local revenue for 
terminals, gates, runways, and taxiways that would increase capacity, 
stimulate competition, enhance safety and security, and improve the 
overall passenger experience. Ultimately, modernizing the PFC is the 
best way to meet the travel demands of today and challenges of 
tomorrow.

                                 <F-dash>
Letter from Catherine Chase, President, Advocates for Highway and Auto 
        Safety, et al., Submitted for the Record by Mr. DeFazio
                                                  February 6, 2019.
Hon. Peter A. DeFazio
Chairman
Hon. Sam Graves
Ranking Member
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves:
    As you prepare for tomorrow's hearing, ``The Cost of Doing Nothing: 
Why Investing in Our Nation's Infrastructure Cannot Wait,'' we urge you 
to prioritize safety as you consider the needs of America's roads and 
highways. Each day on average, over 100 people are killed and 8,500 
more are injured in motor vehicle crashes. This preventable toll also 
comes with a serious financial burden. Annually, crashes impose 
comprehensive costs of over $800 billion on society, $242 billion of 
which are economic costs--amounting to a ``crash tax'' of $784 per 
person each year. Yet, available solutions to the problems that 
perpetuate crashes continue to languish. Moreover, year after year 
proposals are considered to weaken or repeal the minimal safety 
protections that do exist. We respectfully request your consideration 
of our positions during the hearing and that this letter be included in 
the hearing record.
    This hearing is well-timed considering that just this week the 
National Transportation Safety Board (NTSB) released the 2019-2020 Most 
Wanted List of safety improvements. The Most Wanted List calls 
attention to several areas that are directly relevant to issues that 
will likely come before the Transportation and Infrastructure Committee 
this Congress including: distraction; fatigue; alcohol and drug 
impairment; collision avoidance technologies in highway vehicles; 
speed; medical fitness, specifically obstructive sleep apnea; and, 
occupant protection. We look forward to working with you to improve 
safety on the nation's roads and to advance the improvements outlined 
by the NTSB.
    Truck crashes deaths continue to rise. In 2017, 4,761 people were 
killed in crashes involving a large truck. This was a 9 percent 
increase from the previous year and a staggering 41 percent increase 
since a low in 2009. Additionally, in 2016, the latest year for which 
full data are available, 145,000 people were injured in crashes 
involving a large truck. Commercial motor vehicle (CMV) crashes 
amounted to $134 billion in costs that same year. These grim statistics 
are unacceptable and more must be done to prevent this needless 
carnage.
    Proven countermeasures that would bring about safer conditions for 
both truck drivers and those with whom they share the road must be 
implemented. Technologies including speed limiting devices, automatic 
emergency braking (AEB), and comprehensive underride guards could be 
saving lives now if they were fully deployed. Similarly, a required 
minimum number of behind the wheel hours should be established as part 
of entry level driver training. We urge Congress to take swift action 
on legislation requiring these crucial upgrades.
    We ask the Committee to also oppose efforts that would weaken or 
repeal existing truck safety rules. In the last few years, special 
interests have been relentless in their attempts to increase truck 
driver hours of service and evade compliance with the electronic 
logging device (ELD) rule, despite the known dangers associated with 
``tired truckers.'' It is also alarming that efforts have been underway 
to allow for ``teen truckers'' by lowering the age to obtain an 
interState commercial driver's license (CDL) from 21 to 18. This ill-
conceived concept is especially egregious because truck drivers under 
the age of 21 are anywhere from 4 to 6 times more likely to be in a 
fatal crash, according to studies of intraState truck drivers. These 
dangerous proposals pose a direct threat to the safety of all road 
users and should be resoundingly rejected.
    Bigger, heavier trucks would endanger all motorists and our 
infrastructure. Congress should oppose all attempts to further degrade 
safety by increasing truck size and weight limits. According to the 
2017 Infrastructure Report Card from the American Society of Civil 
Engineers, America's roads receive a grade of ``D'' and our bridges 
were given a ``C+''. Nearly 40 percent of our 615,000 bridges in the 
National Bridge Inventory are 50 years or older and one out of 11 is 
structurally deficient. The U.S. Department of Transportation (DOT) 
Comprehensive Truck Size and Weight Study found that introducing double 
33-foot trailer trucks, known as ``Double 33s,'' would be projected to 
result in 2,478 bridges requiring strengthening or replacement at an 
estimated one-time cost of $1.1 billion. This figure does not even 
account for the additional, subsequent maintenance costs which will 
result from longer, heavier trucks. In fact, increasing the weight of a 
heavy truck by only 10 percent increases bridge damage by 33 percent. 
The Federal Highway Administration (FHWA) estimates that the investment 
backlog for bridges, to address all cost-beneficial bridge needs, is 
$123.1 billion. The U.S. would need to increase annual funding for 
bridges by 20 percent over current spending levels to eliminate the 
bridge backlog by 2032.
    Longer trucks also come with operational difficulties such as 
requiring more time to pass, having larger blind spots, crossing into 
adjacent lanes, swinging into opposing lanes on curves and turns, and 
taking a longer distance to adequately brake. And, not surprisingly, 
trucks heavier than 80,000 pounds have a greater number of brake 
violations, which are a major reason for out-of-service violations. 
According to a North Carolina study by the Insurance Institute for 
Highway Safety (IIHS), trucks with out-of-service violations are 362 
percent more likely to be involved in a crash. This is also troubling 
considering that tractor-trailers moving at 60 mph are required to stop 
in 310 feet--the length of a football field--once the brakes are 
applied. Actual stopping distances are often much longer due to driver 
response time before braking and the common problem that truck brakes 
are often not in adequate working condition.
    There is overwhelming opposition to any increases to truck size and 
weight limits. The public, local government officials, safety, consumer 
and public health groups, law enforcement and first responders, truck 
drivers and labor representatives, families of truck crash victims and 
survivors, and even Congress have all rejected attempts to increase 
truck size and weight. It is clear that increasing truck size and 
weight will exacerbate safety and infrastructure problems, negate 
potential benefits from investments in roads and bridges, and divert 
rail traffic from privately owned freight railroads to our already 
overburdened public highways. Also, despite claims to the contrary, 
bigger trucks will not result in fewer trucks. Following every past 
increase to Federal truck size and weight, the number of trucks are on 
our roads has gone up. Since 1982, when Congress last increased the 
gross vehicle weight limit, truck registrations have more than doubled. 
The U.S. DOT study also addressed this meritless assertion and found 
that any potential mileage efficiencies from the use of heavier trucks 
would be offset in just 1 year.
    Motor vehicle crash deaths have stagnated despite available, proven 
technology. Tremendous focus has been placed on the future potential of 
autonomous vehicles (AVs), also known as driverless cars, to eliminate 
crashes. While it is claimed that AVs may someday make meaningful 
reductions in deaths and injuries, this promise is still likely decades 
away. Further, at least three people have already been killed in 
crashes involving vehicles equipped with self-driving technologies. The 
real risks posed by experimental driverless cars must be addressed 
through a strong Federal Government role--including safety standards 
and oversight--before AVs are deployed on a large scale. However, a 
number of proven technologies such as automatic emergency braking, lane 
departure warning and blind spot detection should be made standard 
equipment on all new vehicles now. We urge Congress to require the U.S. 
DOT to establish minimum performance requirements for these lifesaving 
technologies and require that all new vehicles be equipped with them.
    Infrastructure upgrades will be critical as driverless cars are 
deployed. As AVs are tested and eventually commercialized on our 
nation's roads, it will be vital that infrastructure improvements be 
made to ensure their safe operation. For example, research shows that 
driverless vehicles can easily be confused by poor infrastructure 
conditions leading to dangerous errors. In one experiment a standard 
stop sign with only a few alterations was interpreted by a driverless 
car as a 45 mph speed limit sign. The potential consequences of these 
types of mistakes could be catastrophic. Substantial investments in our 
infrastructure that benefit human drivers now and help to prepare our 
roads for self-driving cars should occur before driverless vehicles are 
ubiquitous on our streets. Additionally, despite claims that driverless 
technology will improve our congested roads, transportation experts 
have already found that the proliferation of mobility services like 
Lyft and Uber (precursors for mass deployment of driverless vehicles) 
have instead increased congestion and reduced mass transit use. In 
addition, a recent study predicted that AVs could exacerbate clogged 
arteries by constantly traveling at low speeds instead of parking while 
waiting for their next trip. These, and numerous other, issues must be 
comprehensively addressed before driverless vehicles are deployed on a 
large scale. In order to realize the full potential of AVs to be a 
catalyst for positive change, protections must be put in place to 
ensure the safety of all road users.
    As the title of this hearing aptly states, ``The Cost of Doing 
Nothing'' and complacency with the status quo of high crash fatalities, 
injuries and costs from crashes is unacceptable. Effective solutions 
are readily available to save lives now. We look forward to working 
with the Committee this Congress on passing important legislation that 
will advance safety for everyone using our surface transportation 
systems.
        Sincerely,
                    Catherine Chase, President, Advocates for Highway 
                            and Auto Safety
                    Georges C. Benjamin, MD, Executive Director, 
                            American Public Health Association
                    Harry Adler, Executive Director, Truck Safety 
                            Coalition
                    Jason Levine, Executive Director, Center for Auto 
                            Safety
                    Daphne Izer, Co-Founder, Parents Against Tired 
                            Truckers (PATT)
                    Janette Fennell, Founder and President, 
                            KidsAndCars.org
                    Dawn King, Davisburg, MI, President, Truck Safety 
                            Coalition Board Member, CRASH Daughter of 
                            Bill Badger Killed in truck crash 12/23/04
                    Jane Mathis, St. Augustine, FL, Vice President, TSC 
                            Board Member, PATT Mother of David Mathis, 
                            Mother-in-Law of Mary Kathryn Mathis, 
                            Killed in a truck crash 3/25/04
                    Peter Malarczyk, Hastings-on-Hudson, NY, Volunteer, 
                            Truck Safety Coalition Injured in a truck 
                            crash 12/29/15, Son of Ryszard and Anita 
                            Malarczyk, Killed in a truck crash 12/29/15
                    Santiago Calderon, Arcata, CA, Volunteer, Truck 
                            Safety Coalition, Injured in a truck crash 
                            4/10/14
                    Joan Claybrook, Chair, Citizens for Reliable and 
                            Safe Highways (CRASH) and Former 
                            Administrator, National Highway Traffic 
                            Safety Administration
                    Jack Gillis, Executive Director, Consumer 
                            Federation of America
                    Steve Owings, Co-Founder and President, Road Safe 
                            America
                    Stephen W. Hargarten, M.D., MPH, Society for the 
                            Advancement of Violence and Injury Research
                    Sally Greenberg, Executive Director, National 
                            Consumers League
                    Rosemary Shahan, President, Consumers for Auto 
                            Reliability and Safety
                    Andrew McGuire, Executive Director, Trauma 
                            Foundation
                    Jennifer Tierney, Board Member, Citizens for 
                            Reliable and Safe Highways (CRASH) 
                            Foundation
                    Ron Wood, Washington, D.C., Volunteer, Truck Safety 
                            Coalition, Son of Betsy Wood, Brother of 
                            Lisa Wood Martin, Uncle of Chance, Brock, 
                            and Reid Martin, Killed in a truck crash 9/
                            20/04
                    Kate Brown, Gurnee, IL, Volunteer, Truck Safety 
                            Coalition, Mother of Graham Brown Injured 
                            in a truck crash 5/2/05
                    Michelle Lemus, Los Angeles, CA , Volunteer, Truck 
                            Safety Coalition, Injured in a truck crash 
                            4/10/14
                    Tami Friedrich Trakh, Corona, CA, Board Member, 
                            CRASH, Sister of Kris Mercurio, Sister-in-
                            Law of Alan Mercurio, Aunt of Brandie 
                            Rooker & Anthony Mercurio, Killed in a 
                            truck crash 12/27/89
                    Monica Malarczyk, Hastings-on-Hudson, NY, 
                            Volunteer, Truck Safety Coalition Injured 
                            in a truck crash 12/29/15, Son of Ryszard 
                            and Anita Malarczyk, Killed in a truck 
                            crash 12/29/15
                    Beth Badger, Columbus, GA, Volunteer, Truck Safety 
                            Coalition, Daughter of Bill Badger, Killed 
                            in truck crash 12/23/04
                    Paul Badger, Davidson, NC, Volunteer, Truck Safety 
                            Coalition, Son of Bill Badger, Killed in 
                            truck crash 12/23/04
                    Gary Wilburn, Weatherford, OK, Volunteer, Truck 
                            Safety Coalition, Father of Orbie Wilburn 
                            Killed in a truck crash 9/2/02
                    Jackie Novak, Hendersonville, NC, Volunteer, Truck 
                            Safety Coalition Mother of Charles 
                            ``Chuck'' Novak Killed in a truck crash 10/
                            24/10
                    Laurie Higginbotham, Memphis, TN, Volunteer, Truck 
                            Safety Coalition Mother of Michael 
                            Higginbotham Killed in a truck crash, 11/
                            18/14
                    Vickie Johnson, Hartwell, GA, Volunteer, Truck 
                            Safety Coalition, Wife of Curt Johnson, 
                            Step-mother of Crystal, Johnson, Killed in 
                            a truck crash 10/1/2009
                    Debra Cruz, Harlingen, TX, Volunteer, Truck Safety 
                            Coalition, Injured in a truck crash 8/8/
                            2008
                    Linda Wilburn Weatherford, Board Member, PATT, 
                            Mother of Orbie Wilburn, Killed in a truck 
                            crash 9/2/02
                    Vincent Laubach, Reno, NV, Volunteer, Truck Safety 
                            Coalition, Truck Crash Survivor
                    Larry Liberatore, Severn, MD, Board Member, PATT 
                            Father of Nick Liberatore Killed in a truck 
                            crash 6/9/97
                    Christina Mahaney, Jackman, ME, Volunteer, Truck 
                            Safety Coalition, Injured in a truck crash 
                            7/19/2011, Mother of Liam Mahaney, Killed 
                            in a truck crash 7/19/2011
                    Tina Silva, Ontario, CA, Volunteer, Truck Safety 
                            Coalition, Sister of Kris Mercurio, Sister-
                            in-Law of Alan Mercurio, Aunt of Brandie 
                            Rooker & Anthony Mercurio, Killed in a 
                            truck crash 12/27/89
                    Kathleen Laubach, Reno, NV, Volunteer, Truck Safety 
                            Coalition, Truck Crash Survivor
                    Bruce King, Davisburg, MI, Volunteer, Truck Safety 
                            Coalition, Son-in-law of Bill Badger, 
                            Killed in truck crash 12/23/04
                    Kim Telep, Harrisburg, PA, Volunteer, Truck Safety 
                            Coalition, Wife of Bradley Telep, Killed in 
                            a truck crash 8/29/12
                    Cindy Southern, Cleveland, TN, Volunteer, Truck 
                            Safety Coalition Wife of James Whitaker, 
                            sister-in-law Anthony Hixon and aunt of 
                            Amber Hixon Killed in a truck crash 9/18/09
                    Marc Johnson, Hartwell, GA, Volunteer, Truck Safety 
                            Coalition, Brother of Curt Johnson, Killed 
                            in truck crash 10/1/2009
                    Morgan Lake, Sunderland, MD, Volunteer, Truck 
                            Safety Coalition, Injured in a truck crash 
                            7/19/13
                    Steve Izer, Lisbon, ME, Board Member, PATT Father 
                            of Jeff Izer, Killed in a truck crash 10/
                            10/93
                    Sandra Lance, Chesterfield, VA, Volunteer, Truck 
                            Safety Coalition, Mother of Kristen Belair, 
                            Killed in a truck crash 8/26/2009
                    Bernadette Fox, Davis, CA, Volunteer, Truck Safety 
                            Coalition Best friend of Daniel McGuire 
                            Killed in a truck crash 7/10/2014
                    Julie Branon Magnan, South Burlington, VT, 
                            Volunteer, Truck Safety Coalition, Injured 
                            in a truck crash 01/31/02, Wife of David 
                            Magnan, Killed in a truck crash 01/31/02
                    Amy Fletcher, Perrysburg, OH, Volunteer, Truck 
                            Safety Coalition, Wife of John Fletcher, 
                            Killed in a truck crash 1/24/12
                    Alan Dana, Plattsburgh, NY, Volunteer, Truck Safety 
                            Coalition, Son of Janet Dana, Uncle of 
                            Caitlyn & Lauryn Dana, Brother-in-law of 
                            Laurie Dana Killed in a truck crash 7/19/12
                    Nancy Meuleners, Bloomington, MN, Volunteer, Truck 
                            Safety Coalition, Injured in a truck crash 
                            12/19/89
                    Ashley McMillan, Memphis,TN, Volunteer, Truck 
                            Safety Coalition Girlfriend of Michael 
                            Higginbotham Killed in a truck crash, 11/
                            18/14
                    Marchelle Wood, Falls Church, VA, Volunteer, Truck 
                            Safety Coalition, Mother of Dana Wood, 
                            Killed in a truck crash 10/15/02
                    Melissa Gouge, Washington, D.C., Volunteer, Truck 
                            Safety Coalition, Cousin of Amy Corbin, 
                            Killed in a truck crash 8/18/97
                    Randall Higginbotham, Memphis, TN, Volunteer, Truck 
                            Safety Coalition, Father of Michael 
                            Higginbotham Killed in a truck crash, 11/
                            18/14
                    Frank Wood, Falls Church, VA, Volunteer, Truck 
                            Safety Coalition, Father of Dana Wood, 
                            Killed in a truck crash 10/15/02
                    Michelle Novak, Delevan, NY, Volunteer, Truck 
                            Safety Coalition Aunt of Charles ``Chuck'' 
                            Novak, Killed in a truck crash 10/24/10
                    Ed Slattery, Lutherville, MD, Board Member, PATT, 
                            Volunteer, Truck Safety Coalition, Husband 
                            of Susan Slattery, Killed in a truck crash 
                            8/16/10, Sons Matthew & Peter Slattery 
                            critically injured

                                 <F-dash>
 Letter from Agribusiness & Water Council of Arizona et al. Submitted 
                     for the Record by Mr. DeFazio
                                                  January 10, 2019.
Hon. Nancy Pelosi
Speaker, U.S. House of Representatives, Washington, DC.
Hon. Mitch McConnell
Majority Leader, U.S. Senate, Washington, DC.
Hon. Kevin McCarthy
Minority Leader, U.S. House of Representatives, Washington, DC.
Hon. Charles E. Schumer
Minority Leader, U.S. Senate, Washington, DC.
    Dear Congressional Leaders,
    The undersigned organizations write to urge Congress to include 
funding and financing for drinking water, wastewater, water reuse and 
stormwater infrastructure in any infrastructure package considered 
during the 116th Congress. Given the well-documented needs of our 
nation's aging water infrastructure, an infrastructure package 
represents an excellent opportunity to provide necessary resources to 
meet long-term economic, public health and environmental goals.
    The U.S. EPA estimates that America's water and wastewater 
infrastructure requires nearly $750 billion worth of investment over 
the next 20 years just to maintain current levels of service, and 
independent estimates place this figure over $1 trillion. Local 
ratepayers will shoulder much of this burden, but all levels of 
government must be part of the solution.
    Aging infrastructure replacement needs account for much of the 
investment gap. In addition, federal regulatory requirements over the 
last three decades have steadily grown to account for a significant 
portion of the cost associated with investment needs. While federal 
contributions to transportation infrastructure have stayed constant at 
approximately half of total capital spending, federal investment in 
water infrastructure has declined from 63 percent to 9 percent since 
1977.
    America's future economic strength depends on investments made 
today in water infrastructure. These investments create jobs and 
support the economy. Every $1 invested in drinking water and wastewater 
infrastructure increases long-term GDP by $6.35, creates 1.6 new jobs, 
and provides $23.00 in public health-related benefits. These new jobs 
in the water sector are also high-paying ($64,000/year), skilled, and 
largely recession proof since many are in municipal government. Studies 
also show that the US economy would stand to gain over $200 billion in 
annual economic activity and 1.3 million jobs over a 10-year period by 
meeting its current water infrastructure needs. Without these 
investments, breakdowns in water supply, treatment and wastewater 
capacity are projected to cost manufacturers and other businesses over 
$7.5 trillion in lost sales and $4.1 trillion in lost GDP from 2011 to 
2040.
    In a recent survey of American's opinions on the value of investing 
in our water resources, 78 percent of respondents said it's ''extremely 
or very important'' that the President and Congress develop a plan to 
rebuild America's water infrastructure. The same survey found that 88 
percent of respondents agreed that increased federal investment was 
needed to rebuild water infrastructure.
    As Congress develops a comprehensive infrastructure proposal, we 
urge you to remember that water infrastructure is often co-located with 
transportation infrastructure, such as roadways and bridges. When 
roadways are dug up or bridges rebuilt, it would be less expensive to 
rehabilitate water lines at that point in time instead of digging them 
up again.
    In addition, the cost of water service to low-income customers is 
an increasing concern and the U.S. federal contributions to water 
infrastructure finance help local utilities cushion the costs of water 
service to customers.
    Our nation has faced many challenges over the last two centuries, 
but through collaboration and perseverance we have found solutions. Our 
organizations applaud Congress for its past efforts to take action to 
address the nation's infrastructure challenges. We strongly encourage 
you to include water infrastructure as a major component of the 
infrastructure package in 2019.
        Sincerely,
                    Agribusiness & Water Council of Arizona
                    Alabama Water Environment Association
                    American Council of Engineering Companies
                    American Membrane Technology Association
                    American Public Works Association
                    American Rivers
                    American Society of Civil Engineers
                    American Sustainable Business Council
                    American Water Works Association
                    Arizona Water Association
                    Arkansas Water Environment Association
                    Association of California Water Agencies
                    Association of Clean Water Administrators
                    Associated General Contractors of America
                    Association of Metropolitan Water Agencies
                    Association of Regional Water Organizations
                    Association of State Drinking Water Administrators
                    California Association of Sanitation Agencies
                    California Water Environment Association
                    Central States Water Environment Association
                    Clean Water Action
                    Chesapeake Water Environment Association
                    Conservation Voters of Pennsylvania
                    Colorado Wastewater Utility Council
                    Connecticut Association of Water Pollution Control 
                            Associations
                    Connecticut Water Pollution Abatement Association
                    Council of Infrastructure Financing Authorities
                    Design-Build Institute of America
                    Endangered Habitats League
                    Florida Water Environment Association
                    Freshwater Future
                    Georgia Association of Water Professionals
                    Green Mountain Water Environment Association
                    Gulf Restoration Network
                    Hawaii Water Environment Association
                    Illinois Association of Wastewater Agencies
                    Illinois Council of Trout Unlimited
                    Illinois Water Environment Association
                    Indiana Water Environment Association
                    Iowa Water Environment Association
                    Kansas Water Environment Association
                    Kentucky-Tennessee Water Environment Association
                    Michigan Water Environment Association
                    Maine Water Environment Association
                    Mississippi Water Environment Association
                    Missouri Public Utility Alliance
                    Missouri Water Environment Association
                    Narragansett Water Pollution Control Association
                    National Association of Clean Water Agencies
                    National Association of Sewer Service Companies
                    National Association of Water Companies
                    National Consumer Law Center, on behalf of our low-
                            income clients
                    National Latino Farmers & Ranchers Trade 
                            Association
                    Natural Resources Defense Council
                    National Rural Water Association
                    National Water Resources Association
                    Nebraska Water Environment Association
                    New England Water Environment Association
                    New York Water Environment Association
                    North Carolina AWWA-WEA
                    North Dakota Water Environment Association
                    Ohio Environmental Council
                    Ohio Water Environment Association
                    Oklahoma Municipal Utility Providers
                    Oklahoma Water Environment Association
                    Oregon Association of Clean Water Agencies
                    Pacific Northwest Clean Water Association
                    Passaic River Coalition
                    Pennsylvania Council of Churches
                    Pennsylvania Water Environment Association
                    Rural Coalition
                    Rural Community Assistance Partnership
                    Sierra Club
                    South Dakota Water Environment Association
                    Southeast Watershed Alliance of New Hampshire
                    Southern California Alliance of Publicly Owned 
                            Treatment Works
                    Southern Environmental Law Center
                    Texas Association of Clean Water Agencies
                    The Sustainable Business Network of Greater 
                            Philadelphia
                    Trout Unlimited
                    US Water Alliance
                    Vermont Rural Water Association
                    WE ACT for Environmental Justice
                    Water & Wastewater Equipment Manufacturers 
                            Association
                    Water Environment Association of South Carolina
                    Water Environment Association of Texas
                    Water Environment Federation
                    WateReuse Association
                    WESTCAS
                    West Coast Infrastructure Exchange
                    West Virginia Water Environment Association

                                 <F-dash>
Statement of Mr. Jason Hartke, President, The Alliance to Save Energy, 
                Submitted for the Record by Mr. DeFazio
    Thank you for the opportunity to submit a written statement 
regarding the Committee's hearing titled, ``The Cost of Doing Nothing: 
Why Investing in Our Nation's Infrastructure Cannot Wait.''
    We look forward to working with you in the 116th Congress to 
develop bipartisan policies for rebuilding American infrastructure, and 
we submit this statement to highlight the role that energy efficiency 
can play in sharply reducing both the costs and carbon footprint of 
infrastructure projects.
    Infrastructure, of course, is more than roads and bridges. It's the 
foundation that determines where and how we fuel our vehicles, deliver 
electricity and natural gas, and treat and distribute water. It's our 
airports, seaports, transit hubs and other critical public buildings. 
These facilities have an enormous impact on U.S. energy consumption, 
and a nationwide infrastructure initiative presents an opportunity to 
``get it right'' and save consumers and taxpayers decades of wasted 
energy costs.
    Transportation is now the greatest source of greenhouse gas 
emissions in the United States and the second highest expense for 
households. Exciting breakthroughs in electrified transit, efficient 
alternative fuel vehicles, ridesharing, and other tools that have the 
potential to enhance travel experience while reducing energy waste, 
congestion and emissions.
    Similar energy-saving opportunities exist across other 
infrastructure sectors. Water treatment and distribution facilities, 
for example, are typically the largest energy users in their local 
communities, often accounting for a third or more of a municipality's 
total energy consumption. Cutting their energy use by a modest 10 
percent could save $400 million a year, according to the EPA. And, 
there are enormous opportunities for savings in modernizing public 
buildings. The Federal Government alone spends $6 billion annually on 
energy for its buildings.
    We must avoid the temptation to look only at short-term costs and 
build a truly modern infrastructure network that locks in savings over 
decades and lays the foundation for a more competitive and productive 
economy. In some cases, infrastructure projects can pay for themselves 
through public-private partnerships and innovative financing around 
energy savings investments. Incorporating energy efficiency can also 
provide a host of additional benefits, such as reducing harmful 
emissions and improving power grid reliability and resilience--all 
while creating good-paying jobs.
    Already, energy efficiency supports more than 2.2 million U.S. 
jobs, with an employment growth rate double the national average. Seven 
in 10 of energy efficiency jobs are in construction and manufacturing.
    We encourage you incorporate energy efficiency in any 
infrastructure proposals from the start to make the best, most-
efficient use of taxpayer investments. The Alliance to Save Energy's 
infrastructure priorities include:
    <bullet>  Laying the foundation for an efficient transportation 
sector. The transportation sector is undergoing rapid transformation 
due to innovation in new technologies, business models and 
connectivity. These new tools could enable a more efficient, effective, 
clean, and affordable transportation system, but their success depends 
heavily on effective infrastructure development. For example, for 
emerging alternative vehicle markets, especially electric vehicles, 
hydrogen fuel cell and renewable natural gas vehicles, the lack of such 
infrastructure presents a market barrier to deployment for highly 
efficient vehicles that have great potential to reduce energy waste and 
climate emissions in light-, medium-and heavy-duty sectors. Stronger 
transit systems have an outsized positive impact on the lives of low-
income, elderly, and disabled communities, which rely on these services 
for mobility. Smarter traffic systems and system optimization at ports 
and distribution centers can enhance the longevity of infrastructure by 
controlling traffic congestion and optimizing the vehicles used, 
reducing maintenance costs while enhancing safety. And autonomous 
vehicles and ridesharing could change the shape of urban mobility. 
Congress should pursue opportunities to support these emerging trends 
to ensure that the infrastructure built today will be ready for 
tomorrow's needs.
    <bullet>  Promoting adoption of updated building energy codes, 
high-performance buildings, and high-efficiency equipment. Buildings 
account for roughly 40 percent of U.S. primary energy use and 76 
percent of the electricity we use, and recent climate assessments and 
reports consistently point to reducing building energy consumption as a 
top solution to reduce greenhouse gas emissions. As we invest in 
building and rebuilding the very places where people and commerce meet, 
we should ensure these structures meet the highest standards for 
efficiency. The latest model building energy codes deliver 30 percent 
more efficiency than codes of just a decade ago, which will result in 
more than $5 billion in annual savings for U.S. homes and businesses 
from, for example, improved thermal envelopes and high-efficiency 
heating and cooling equipment and lighting fixtures. Just as important, 
the experiences of States and communities demonstrate that more 
efficient buildings are key to enhancing energy system resilience in 
the face of extreme weather events. Congress should ensure that any 
infrastructure proposals encourage States and local governments to 
adopt and enforce updated building energy codes and promote energy 
efficiency retrofits of existing buildings that will deliver long-term 
savings to homeowners, renters, and commercial building owners and 
tenants and improve the health and resilience of communities. Energy 
efficiency delivers savings to all households and consumers, including 
those with limited incomes, and would ensure that the benefits of an 
infrastructure package will help the Nation as a whole.
    <bullet>  Expanding opportunities for public-private partnerships 
to finance projects. The burden of paying for infrastructure does not 
need to fall solely upon the shoulders of taxpayers through direct 
appropriations. The Federal Government should show leadership by 
addressing critical buildings and energy infrastructure upgrades 
through public-private partnerships that leverage private funds to 
implement resilience-enhancing energy-and water-conservation measures. 
To address the backlog of $165 billion in deferred maintenance projects 
in Federal facilities, any infrastructure package should encourage 
performance contracting and other financing mechanisms at all levels of 
government to install high-efficiency equipment and systems in 
individual buildings and across campuses with little to zero upfront 
cost to taxpayers and tremendous resilience benefits for mission-
critical public facilities.
    <bullet>  Applying life-cycle cost-effectiveness analysis to all 
appropriate projects. To deliver the best long-term return-on-
investment to taxpayers, Congress should avoid short-sighted decisions 
based on incremental first-costs and instead take into account costs 
and benefits over the expected lifetime of physical infrastructure. 
This focus on lower up-front costs rather than lower operations and 
maintenance costs tends to encourage an under-investment in energy-and 
water-saving technologies that then saddle unsuspecting homeowners, 
consumers, and businesses with an unpredictable burden of higher 
utility bills. A missed opportunity now means future generations of 
taxpayers will be paying for our mistake for decades to come.
    We are eager to work with you and your colleagues to identify 
specific programs, activities, and projects that can help achieve our 
mutual goals and build a smarter, less expensive and more sustainable 
infrastructure system.
                   about the alliance to save energy
    Founded in 1977, the Alliance to Save Energy is a nonprofit, 
bipartisan alliance of business, government, environmental and consumer 
leaders working to expand the economy while using less energy. Our 
mission is to promote energy productivity worldwide--including through 
energy efficiency--to achieve a stronger economy, a cleaner environment 
and greater energy security, affordability and reliability.

                                 <F-dash>
Statement of the American Association of Port Authorities Submitted for 
                       the Record by Mr. DeFazio
    Chairman DeFazio and Ranking Member Graves, thank you for allowing 
the American Association of Port Authorities (AAPA) to submit testimony 
to this timely hearing. AAPA looks forward to working with you both 
throughout the 116th Congress.
    It is a critical time for making needed Federal investments in the 
nation's port-related infrastructure. Rising freight volumes on all 
three coasts and the Great Lakes means we must upgrade our waterside 
and landside infrastructure to accommodate larger ships and the 
accompanying freight volume and passenger surges. AAPA members have 
identified $66 billion in landside, waterside and inside the gate 
funding needs over the next 10 years. We are submitting an overview and 
breakdown of these needs for the record. AAPA is also submitting the 
FAST Act Reauthorization Platform for the record.
    Nowhere is there such a stark example of our country's 
infrastructure needs and the failure to keep pace with our growing 
economy than with freight- and port-related infrastructure investments.
    To put our national state of freight into perspective, it's been 
more than 60 years since President Eisenhower proposed and began 
building out the Interstate Highway System in 1956. But until the FAST 
Act, freight had not been fully considered or realized as a national 
policy priority.
    However, during the same 60-year period, there have been eight 
evolutions of the containership, starting with vessel capacities of 500 
twenty-foot equivalent units (TEUs), evolving to ships with capacities 
of 18,000 TEUs and beyond, which are as high as a New York skyscraper 
and as wide as a 10-lane freeway. This means that that shipping 
industry has reinvested in their ships eight times, while our country 
has relied upon essentially the same infrastructure to accommodate and 
facilitate an astronomical growth in freight volumes. While the ports 
and private sector have been and continue to modernize and invest, it 
has been the Federal investment in infrastructure and modernization 
that's been lacking to fully connect and upgrade the connecting port 
infrastructure to the surface transportation network.
    Maritime cargo volumes have also seen marked increases over the 
past six decades and have continuously impacted our freight 
infrastructure. Total U.S. waterborne tonnage roughly doubled between 
1956 and 2017, but this is due almost entirely to U.S. foreign trade 
growth which has seen nearly a 500 percent increase during that 
timeframe, based on U.S. Army Corps of Engineers data.
    In the last 17 years alone, container volumes have increased by 71 
percent, passengers through our cruise port terminals increased by 98 
percent, and total foreign trade in short tons increased by 37 percent.
    Ports are national resources and we must invest in them as a 
Nation. Communities adjacent to ports and inland States rely on us for 
jobs and to connect them to the global economy, as well as to the 
occasional vacation aboard a cruise ship.
    The infrastructure investments we make at ports, be it highway 
connectors or rail access projects, directly impact our partners in the 
rail and trucking industry. Just as important, targeted investments at 
maritime facilities provide a level of certainty and efficiency to a 
growing and interconnected supply chain.
    Ports are the initiators and facilitators of the supply chain. Mega 
shipping alliances, operating mega-large vessels, have a cascading 
effect when their ships arrive at U.S. ports. This includes the need 
for larger cranes to load-and off-load containers, additional port-
related labor, more chassis on which to move the containers in, out and 
around the terminals, and adjusting truck gate times to address the 
changing work load.
    In 2015, America's seaports took a big step forward after passage 
of the FAST Act. With the creation of two funding programs; Projects of 
Highway and Freight Significance (discretionary) and National Highway 
Freight Program (formula), the FAST Act provided a total of $11 billion 
in dedicated freight funding over 5 years. However, of that total, only 
$1.13 billion is multimodal eligible, far below what is needed to build 
out a 21st century multimodal freight network. Only $200 million of 
multimodal eligibility remain for the INFRA program.
    Last year, in The State of Freight III report, AAPA members 
identified more than $20 billion in multimodal funding needs for public 
port authorities alone over the next decade. A top priority for the 
port industry continues to be multimodal funding.
    The immediate challenges confronting the freight programs are 
funding levels and project eligibility. The current freight programs 
are funded out of the Highway Trust Fund, which means that eligible 
projects are primarily highway focused. Highways are important to our 
freight network, but ports are multimodal facilitators, meaning trains, 
trucks, ships and barges all need access to them.
    To build off the work in the FAST Act, AAPA recommends that all 
freight program funding should be 100 percent multimodal. A first step 
in accomplishing this would be to lift the multimodal cap on the INFRA 
grants and the formula program.
    As Congress begins the process of reauthorizing the FAST Act, MARAD 
has several freight infrastructure programs that are important tools to 
be included and leveraged within the national freight portfolio. 
Specifically, the America's Marine Highway and the Port Infrastructure 
Development programs are currently authorized initiatives that will 
need to be revised, updated and refocused to meet the evolving supply 
chain needs of the multimodal freight network. AAPA is very supportive 
and appreciative of the recently passed FY 19 THUD appropriations bill 
which included $292.7 million in the Port Infrastructure Development 
account. AAPA looks forward to continuing to work with both the 
authorizing and appropriations committees during the reauthorization 
process and during future appropriation cycles on this program.
    As stated in the previous paragraph, AAPA strongly supports Senate 
Commerce, Science and Transportation Committee Chairman Roger Wicker's 
PORTS Act, which updates MARAD's Port Infrastructure Development 
Program to provide resources to ports for first- and last-mile 
multimodal projects that connect ports to the surface transportation 
network. We would also like to work with the committee in updating 
America's Marine Highway Program so that it can meet the needs of ports 
and shippers and continue to be a viable supply chain tool. AAPA 
recommends that Congress include these programs as a maritime supply 
chain title in the next reauthorization bill.
    Having additional maritime freight supply chain resources and 
updating the existing authorizations will leverage existing resources 
and programs, providing a more comprehensive approach to building out a 
21st century freight network.
    An example of refreshing prior authorizations from the last 
reauthorization bill would be the inclusion and consolidation of the 
Federal Railroad Administration (FRA) grant programs into the CRISI 
program in the FAST Act. In this program, multimodal and port rail 
access are eligible projects. In AAPA's The State of Freight III--Rail 
Access and Port Multimodal Funding Needs Report, a third of ports 
identified pressing rail project needs that will cost more than $50 
million over the next decade. In fact, rail access is so important to 
the port and supply chain industry that within this same timeframe, 77 
percent of ports said they are planning on-dock, near-dock or rail 
access projects.
    Additionally, AAPA strongly supports the multimodal USDOT grant 
programs such as BUILD, CRISI and INFRA grants. But the BUILD program, 
and its TIGER predecessor, has been more than just a discretionary 
program to the port industry. It was the first program that ports were 
eligible for and is multimodal. It also brought ports into the surface 
transportation fold, which meant that whether ports received a TIGER/
BUILD grant or not, they were encouraged to coordinate a project with 
their State and local MPO before submitting it. That meant ports were 
becoming part of the planning process and freight was beginning to get 
a seat at the table.
    Further, international trade through seaports accounts for over a 
quarter of the U.S. GDP. At the center of trade and transportation are 
America's seaports, which handle approximately $6 billion worth of 
import and export goods daily, generate over 23 million jobs, and 
provide more than $320 billion annually in Federal, State and local tax 
revenues. Seaports also are projected to handle nearly 12 million 
cruise passengers from around the country and around the world.
    While highly supportive of the BUILD program, AAPA is concerned 
that port States are penalized by the 10 percent maximum per State 
called for in previous appropriation bills, as well as the set asides 
for metropolitan and rural areas. Because seaports have such a national 
and international reach--ports are national infrastructure resources 
that support metropolitan and rural supply chains--that any port 
project award should not count against a State, rural or metropolitan 
cap.
    Long-term, sustainable multimodal funding is critical, and we 
encourage you to start looking at solutions. AAPA has endorsed the 
concept of a 1-percent waybill fee as an equitable approach to provide 
immediate and long-term funding for multimodal freight infrastructure 
challenges. Additionally, AAPA supports a gas tax increase as well as a 
Vehicle Miles Traveled (VMT) program. With all increased funding, AAPA 
recommends that any new funding be multimodal eligible. AAPA also 
strongly supports Chairman Peter DeFazio's Penny for Progress 
legislation and looks forward to working with him to get it enacted.
    The Build America Transportation Investment Center, or BATIC, which 
was codified in the FAST Act, can also be a tool for ports to explore 
ways to access private capital in public-private partnership. The Rail 
Rehabilitation Innovation Financing (RRIF) program has been in 
existence since 2002, and only late last year did a port (Port of 
Everett) receive a RRIF loan. One recommendation to make RRIF more 
accessible to ports is to provide 100 percent financing. AAPA members 
responded that there were potentially 75 BUILD/TIGER projects that 
would become RRIF-financed projects if the financing fee was removed.
    On the operational front, the Federal Government has a vital role 
to play with freight flow performance. For our ports to perform 
efficiently, CBP must be adequately funded and staffed. In 2015, the 
last time CBP was funded to hire additional staff, only 20 of 2,000 
staff were assigned to seaports. As an industry, with growing volumes 
in freight and passengers, we would like to see, at a minimum, annual 
hiring of CBP staff to 500 annually, over and above attrition. This may 
sound like an appropriations or Homeland Security issue, but it is a 
supply chain problem.
    Another supply chain challenge is proper maintenance of Federal 
navigation channels. AAPA has a legislative proposal to make full use 
of Harbor Maintenance Tax (HMT) revenues, based on a fair and equitable 
funding framework that was agreed to last year by the nation's public 
ports. The current system to maintain Federal navigation channels to 
our nation's ports is broken and must be fixed. A comprehensive 
solution must provide both full use of the annual HMT revenues, as well 
as address tax fairness and cargo diversion problems.
    Last year, after years of debate, AAPA identified a comprehensive 
proposal to fix the HMT problems. It calls for guaranteeing full use of 
the annual revenues of the HMT and outlines a funding structure for HMT 
spending that ports agreed would be fair and equitable. It makes 
maintenance the highest priority, provides protections to address small 
port and regional port needs, provides increasing equity to large HMT 
donors that subsidize the system, and acknowledges Congress's priority 
to provide support to energy transfer ports. AAPA urges this HMT 
solution be enacted.
    Finally, in response to the Administrations infrastructure 
investment program, AAPA identified $66 billion in maritime 
infrastructure needs, $34 billion on the waterside and $32 billion on 
the landside of ports. The waterside includes full use of HMT revenues 
over the next 10 years, estimated at $18.6 billion--use the $9 billion 
HMT paid, but unappropriated funds to maintain Federal navigation 
channels, $3.1 billion for congressionally authorized navigation 
channel improvements passed in recent WRDA's and an additional $3.1 
billion for projects currently under study to receive authorization 
during this 10-year period. The landside includes $29 billion for vital 
road and rail connectors to ports and $3.2 to improve port facility 
infrastructure.
    AAPA looks forward to working with you throughout the 116th 
Congress.
                 aapa fast act reauthorization platform
    Retained in the Committee files and available at: http://
aapa.files.cms-plus.com/PDFs/
AAPA%20FAST%20Act%20Reauthorization%20Platform.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 
    Statement of Mr. David Lawry, President, and Mr. Scott Grayson, 
 Executive Director, American Public Works Association, Submitted for 
                       the Record by Mr. DeFazio
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, on behalf of the American Public Works Association (APWA), 
we are honored to provide this testimony for the record.
    APWA represents all aspects of public works--a fact that sets us 
apart from other associations and makes our members an effective voice 
for public works throughout North America. The hearing entitled ``Why 
Investing in Our Nation's Infrastructure Cannot Wait'' could not come 
at a more appropriate time. APWA appreciates this body's quick action 
to hold a hearing on a subject that we can all agree needs immediate 
action.
    With a membership of more than 30,000, APWA includes not only 
personnel from local, county, State/province, and Federal agencies, but 
also private sector personnel who supply products and services to those 
professionals. Although originally chartered in the United States in 
1937, APWA has roots in two predecessor groups that reach back to 1894, 
and has 63 chapters in North America, which includes eight chapters in 
Canada. A 17-member Board of Directors, all of whom are elected by 
Association members, governs APWA.
    APWA appreciates this opportunity to submit testimony regarding the 
importance of addressing the state of America's infrastructure. It is 
certainly well known that our aging roads and bridges are 
deteriorating, traffic is increasing, and deaths on our roads are 
unacceptably high. Our nation cannot remain economically competitive if 
our transportation network is not maintained and improved. APWA 
professionals believe that continued investment in our country's 
transportation infrastructure is needed now. As the members of this 
Committee are keenly aware, the Federal Highway Administration (FHWA) 
estimates that every $1 billion invested in transportation creates 
about 27,800 jobs and up to $6 billion in gross domestic product.
    Additionally, our nation's water infrastructure is in dire need of 
reinvestment. The Environmental Protection Agency (EPA) estimated in 
2018 that the nation's drinking water infrastructure needs nearly $500 
billion of investment over the next 20 years. Meanwhile, the Agency's 
2012 estimate of investment need for clean water infrastructure is 
nearly $300 billion over the next 20 years. These needs are matched by 
the economic benefits of such investments. The US Department of 
Commerce Bureau of Economic Analysis (BEA) estimates that for every 
dollar spent on water infrastructure, about $2.62 is generated in the 
private economy. And for every job added in the water workforce, the 
BEA estimates 3.68 jobs are added to the national economy.
    APWA has identified three top policy priority areas which are 
Transportation, Water Resiliency and Emergency Management and Response, 
copies of which are included as attachments with this testimony. Please 
find a brief mention of each of the priorities as follows:
    Transportation: Supporting more fiscally viable methods of paying 
for transportation systems such as increasing and indexing the Federal 
motor fuel tax, and collecting revenue based on road usage such as 
vehicle miles traveled, or similar fee, to ensure all road system users 
pay their fair share. Additionally, APWA calls for continued investment 
and support of programs like High Risk Rural Roads, Safe Routes to 
Schools, Highway Safety Improvement Plan funds, and local bridges, as 
well as strong support for utilizing technology to improve safety while 
protecting users' privacy.
    Water Resiliency: Providing robust funding for existing Federal 
programs that support water and wastewater infrastructure, such as the 
State Revolving Funds, Water Infrastructure Finance and Innovation Act, 
Rural Utilities Service, Public Water System Supervision grants, and 
the Public Works and Economic Development program.
    Emergency Management and Response: Promote and enhance 
interoperable emergency communications systems to connect public works 
agencies to other responders, including law enforcement, fire, and 
emergency medical professionals during response and recovery 
operations. Developing national cybersecurity guidelines/best practices 
to significantly and constructively impact public works whose services 
require a 24-hour a day, 365-day a year operation should be considered.
    APWA applauds this Committee for holding such an important hearing 
and we stand ready to work with and assist the Committee, and the other 
Members of Congress as you outline and discuss proposals to best serve 
the American people with the first-rate infrastructure they deserve and 
require. The needs of the nation's users of our infrastructure continue 
to evolve and we ask that you consider APWA a resource in your efforts 
to upgrade our national infrastructure.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 
Statement of the American Society of Civil Engineers Submitted for the 
                         Record by Mr. DeFazio
                              introduction
    The American Society of Civil Engineers (ASCE) \1\ appreciates the 
opportunity to submit our position on the importance of long-term, 
strategic investment in our nation's infrastructure systems. ASCE also 
wants to thank the U.S. House of Representatives Committee on 
Transportation and Infrastructure for holding a hearing on this 
critical issue. ASCE is eager to work with the Committee in the 116th 
Congress to find ways to further improve our nation's vital 
infrastructure systems.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents more than 150,000 civil 
engineers individually in private practice, government, industry, and 
academia who are dedicated to the advancement of the science and 
profession of civil engineering. ASCE is a non-profit educational and 
professional society organized under Part 1.501(c) (3) of the Internal 
Revenue Code. www.asce.org,
---------------------------------------------------------------------------
    ASCE has long been an advocate for maintaining and modernizing the 
nation's infrastructure. ASCE's 2017 Infrastructure Report Card \2\ 
rated the overall condition of the nation's infrastructure a cumulative 
grade of ``D+,'' with an investment gap of $2 trillion.
---------------------------------------------------------------------------
    \2\ https://www.infrastructurereportcard.org/
---------------------------------------------------------------------------
    Historically, our nation invested in infrastructure projects with 
long-term benefits, such as the Hoover Dam and Interstate Highway 
System, that strengthened the economy while the project was being 
designed and built, and for generations to come. ASCE has sought to 
raise awareness of the United States' pressing infrastructure 
challenges, and some incremental progress has been made since ASCE 
released its first Infrastructure Report Card in 1998.
    These past successes inform us that the next major investment in 
American infrastructure will require bold vision coupled with 
thoughtful planning. If we are to achieve lasting progress for our 
infrastructure, the Federal Government must commit to not only 
financing infrastructure programs but to funding them. This funding 
must supplement--rather than replace--long-term solutions, regular 
appropriations, and scheduled reauthorizations. Further, all levels of 
government and the private sector must do their part to increase this 
investment in order to restore America's world-class infrastructure.
failure to act: closing the infrastructure investment gap for america's 
                            economic future
    Infrastructure is the foundation that connects the nation's 
businesses, communities, and people, serves as the backbone to the U.S. 
economy, and is vital to the nation's public health and welfare.
    In 2016, ASCE released Failure to Act: Closing the Infrastructure 
Investment Gap for America's Economic Future \3\. This economic study 
analyzed the impact of current infrastructure investment trends on 
America's GDP, jobs, personal income, and businesses. The study 
determined that the U.S. is on track to invest only half of what is 
needed in infrastructure over the next decade. This underinvestment 
will cause our infrastructure to further degrade, resulting in a loss 
of 2.5 million jobs, $3.9 trillion in GDP, and $7 trillion in lost 
business sales by 2025. In addition, poor infrastructure will cost each 
American family $3,400 a year, which is $9 a day, in personal 
disposable income. To catch up and fill in the investment gap, we must 
invest an additional $144 billion each year, which is an average 
investment of just $3 per day per household. This small investment 
would put $3,400 back into the wallets of American families each year 
for a three to one return.
---------------------------------------------------------------------------
    \3\ Failure to Act: Closing the Infrastructure Investment Gap for 
America's Economic Future. (2016) www.asce.org/failuretoact
---------------------------------------------------------------------------
    Failure to Act found that our infrastructure challenges are 
significant, but solvable. Surface transportation categories, including 
roads, bridges, transit, and commuter rail, face the largest investment 
gap. We must invest an additional $1 trillion throughout this network. 
Airports require an additional $42 billion to close the funding gap, 
and inland waterways and ports need $15 billion. It is time to invest 
in our nation's infrastructure because the longer we wait, the more it 
will cost.
Fundamental Criteria for Future Infrastructure Investment
    ASCE believes that all infrastructure programs and projects 
supported by infrastructure investment legislation must meet the 
following fundamental criteria:
    <bullet>  Investments must provide substantial, long-term benefits 
to the public and the economy;
    <bullet>  The cost of a project over its entire life span--
including designing, building, operating, and maintaining the 
infrastructure--must be taken into account;
    <bullet>  Projects should be built sustainably and resiliently; and
    <bullet>  Federal investment should leverage State, local, and 
private investment, not replace these other critical sources of 
infrastructure funding.
    ASCE urges the House Committee on Transportation and Infrastructure 
to focus first on prioritizing those aspects of our infrastructure most 
in need of repair, replacement, and modernization, to sustain our 
economy, public health, and safety.
    The first step for the 116th Congress should be to address three 
major infrastructure priorities at the Federal level: fixing the 
Highway Trust Fund, increasing the cap on the Passenger Facility Charge 
to modernize our nation's airports, and ensuring all funds in Harbor 
Maintenance Trust Fund are utilized.
                           highway trust fund
    Fixing the Federal Highway Trust Fund (HTF) is a critical component 
of any plan to rebuild and modernize our infrastructure. Presently, 
many of our surface transportation system assets have reached the end 
of their design life, and in ASCE's 2017 Infrastructure Report Card, 
our bridges, rail, road, and transit received grades of ``C+,'' ``D,'' 
and ``D-,'' respectively. Despite these dismal grades, the Federal 
motor fuels tax rate hasn't been raised since 1993, and inflation has 
cut its real value by 40 percent. As a result of not increasing the 
Federal motor fuels tax, HTF revenues are not keeping pace with demand. 
By 2029, it is estimated that there will be a collective shortfall of 
$159 billion.
    Because of this long underinvestment and inadequate support for the 
HTF, a large and growing investment gap of $1.1 trillion over the next 
10 years has emerged. This gap must be closed if we hope to both repair 
and modernize our surface transportation infrastructure systems to be 
competitive in the 21st century. Our nation's surface transportation 
investment gap and subpar grades are a result of our dated Federal 
motor fuels tax and inability to properly fund the HTF and our current 
transportation infrastructure needs.
    Our nation's elected leaders need to act quickly to address the 
ever-growing revenue gap. The Federal Government has historically been 
the leader in strengthening our surface transportation network. Because 
of this Federal leadership role, we urge Congress to:
    <bullet>  Fix the HTF by increasing the Federal motor fuels tax by 
5 cents a year for 5 years. The current user fee must be raised and 
tied to inflation to restore its purchasing power. This idea has been 
led by the U.S. Chamber of Commerce and would provide a much-needed 
infusion of $394 billion over 10 years and combat the $1.1 trillion 
investment gap of surface transportation capital needs.
    <bullet>  Establish a broad pilot program to better understand how 
a Mileage-Based User Fee (MBUF) could be implemented in the future.
    <bullet>  Include a tax on electric vehicles that would account for 
their presence on our nation's roads.
                       passenger facility charge
    U.S. airports serve more than two million passengers every day. The 
aviation industry is marked by technologically advanced and 
economically efficient aircraft; however, the associated infrastructure 
of airports and air traffic control systems is not keeping up. 
Congestion at airports is growing; it is expected that 24 of the top 30 
major airports may soon experience ``Thanksgiving-peak traffic volume'' 
at least 1 day every week. In ASCE's 2017 Infrastructure Report Card, 
our nation's airports earned a ``D'' due to a lack of investment in our 
aviation infrastructure assets.
    Because of an outdated, federally mandated cap on how much airports 
can charge passengers for facility expansion and renovation, airports 
struggle to keep up with investment needs, creating a $42 billion 10-
year funding gap. Raising or eliminating the cap on the Passenger 
Facility Charge (PFC) will allow airports a much-needed revenue boost 
and the ability for long-term planning and modernizing of our aviation 
system for the 21st century.
                     harbor maintenance trust fund
    The nation's 926 ports support over 23.1 million jobs and are 
responsible for $4.6 trillion in economic activity. Notably, our ports 
serve as the gateway through which 99 percent of America's overseas 
trade passes. To remain competitive in the global market and to 
accommodate larger vessels, ports have been investing in their 
facilities and plan to spend over $154 billion from 2016 to 2020 on 
expansion, modernization, and repair. However, ports are contending 
with larger container ships and do not always have adequate access to 
the user-fee funded Harbor Maintenance Trust Fund (HMTF), which would 
help these facilities prepare for larger vessels. Underinvestment in 
our nation's ports has resulted in, by some accounts, a 25 percent 
decrease in port productivity in the past 10 years.
    ASCE supported the provision in the Water Resources Reform & 
Development Act (WRRDA) of 2014 designed to encourage the use of the 
HMTF revenues for its designated purpose. The HMTF's balance currently 
sits at over $9 billion, but full appropriations of these funds have 
not yet occurred. Once fully funded, it will take 5 years of complete 
HMTF funding to dredge and restore channel depths and widths. ASCE 
urges the Committee to continue implementing the WRRDA 2014 agreement 
and to increase expenditures accordingly.
    In addition, ASCE recommends Congress increase funding for key 
areas of infrastructure, such as:
Dams & Levees
    Our nation's 90,580 dams and over 30,000 miles of levees are 
critical components of risk reduction and protect communities, critical 
infrastructure, and trillions of dollars in property. However, it is 
estimated that $80 billion is needed in the next 10 years to maintain 
and improve the nation's levees, while the Association of State Dam 
Safety Officials estimates the cost of rehabilitating our nation's 
Federal and non-Federal dams to exceed $64 billion. Included in this is 
the U.S. Army Corps of Engineers' (USACE) estimate that more than $25 
billion will be required to address dam deficiencies for Corps-owned 
dams; at the current rate of investment, these repairs would take over 
50 years to complete. ASCE's 2017 Infrastructure Report Card gave our 
nation's dams and levees each a grade of ``D.''
    Investment is needed to rehabilitate deficient dams and to complete 
the national inventory of levees outside of the USACE's authority. ASCE 
supported the WRRDA 2014 reauthorization of the National Dam Safety 
Program and the Water Infrastructure Improvements for the Nation (WIIN) 
Act's authorization of the High Hazard Potential Dam Rehabilitation 
Program. However, ASCE is concerned that the National Dam Safety 
Program consistently receives only a portion of its annual $13.9 
million appropriations, while the High Hazard Potential Dam 
Rehabilitation Program has yet to receive any appropriations. Likewise, 
WRRDA 2014 created a new National Levee Safety Program to promote 
consistent safety standards, create levee safety guidelines, and 
provide funding assistance to States for establishing participating 
levee safety programs, yet it has received no funding other than 
funding for the levee inventory.
Inland Waterways
    The USACE operates and maintains a vast network of 25,000 miles of 
inland waterways and 239 locks that support half a million jobs, 
deliver more than 600 million tons of cargo annually, and are the 
nation's connection to inland and ocean ports and international 
markets. Barge transport is the most fuel-efficient mode of the 
transportation of goods, but with a majority of locks and dams reaching 
well beyond their 50-year design life and thus requiring frequent 
shutdowns for maintenance and repairs, nearly half of all vessels 
traveling through our inland waterways experience delays. ASCE's 2017 
Infrastructure Report Card gave our nation's inland waterways a grade 
of ``D.''
    ASCE supported the 2015 increase of the Inland Waterways Trust Fund 
user tax, and although recent increases in investment have resulted in 
some improvement in the projected completion date of many inland 
waterway lock and dam rehabilitation projects, funding must continue at 
a higher and more consistent level to meet the large backlog of needs.
    ASCE also championed Section 5014 of WRRDA 2014, which authorizes 
the USACE to enter agreements with non-Federal interests, including 
private entities, to finance construction of at least 15 authorized 
water resources development projects. ASCE was pleased that President 
Trump's infrastructure proposal included several provisions to remove 
barriers to implementation of this program. Alternative financing and 
delivery mechanisms are an important new resourcing tool that can help 
the USACE meet the growing needs of our nation's inland waterways 
infrastructure.
    ASCE was grateful that WRRDA 2014 authorized a new water 
infrastructure financing mechanism, the Water Infrastructure Finance 
and Innovation Act (WIFIA), which will be administered by the USACE and 
the U.S. Environmental Protection Agency (EPA). The WIFIA concept is 
modeled after a similar transportation project assistance program, the 
remarkably successful Transportation Infrastructure Finance and 
Innovation Act (TIFIA). Under this program, the USACE is authorized to 
provide WIFIA support for an array of projects, including environmental 
damage reduction projects, hurricane and storm damage reduction 
projects, flood damage reduction projects, coastal or inland harbor 
navigation improvement projects, and/or inland and intracoastal 
waterways navigation projects.
Drinking Water & Wastewater
    Well-maintained public drinking water and wastewater infrastructure 
systems are critical for public health, strong businesses, and clean 
waters and aquifers. ASCE's 2017 Infrastructure Report Card gave the 
nation's drinking water infrastructure a grade of ``D,'' compared to 
the nation's wastewater infrastructure, which did not fare much better 
with a grade of ``D+.'' Despite increased efficiency methods and 
sustainable practices, there is a growing gap between the capital 
needed to maintain drinking water and wastewater infrastructure and the 
actual investments made. By 2025, the investment gap for drinking water 
and wastewater infrastructure systems is estimated at $105 billion. 
According to the American Water Works Association, $1 trillion will be 
needed to maintain and expand drinking water service demands during the 
next 25 years.
    The Clean Water State Revolving Fund (CWSRF) and the Drinking Water 
State Revolving Fund (DWSRF) play a vital role in providing States and 
localities with a critical source of funding for water infrastructure 
project through low-interest loans. This funding has been provided 
since their original authorizations in 1987 and 1996, respectively. 
ASCE was pleased that the DWSRF was reauthorized at increasing funding 
levels in the America's Water Infrastructure Act of 2018. ASCE urges 
the Committee to reauthorize the Clean Water State Revolving Fund at 
increasing funding levels, as well.
    The Securing Required Funding for Water Infrastructure Now (SRF 
WIN) Act is an innovative new financing mechanism that blends the most 
successful parts of the SRFs and WIFIA to create a program that gives 
State Infrastructure Financing Authorities access to WIFIA loans for 
drinking water and wastewater infrastructure. Authorized in the 
America's Water Infrastructure Act of 2018, this new and efficient tool 
leverages limited Federal resources and stimulates additional 
investment in our nation's infrastructure.
    The projects funded by these programs have already proven 
successful; providing more funding to existing programs rather than 
creating new programs will reduce overhead costs and startup time while 
still allowing for significant and noticeable improvements across all 
sectors of U.S. infrastructure.
     conclusion: a 21st century vision for america's infrastructure
    ASCE thanks the Committee for holding this hearing on a topic that 
affects the quality of life and livelihood of every American.
    In the 21st century, we see an America that thrives because of high 
quality infrastructure. Infrastructure is the foundation that connects 
the nation's businesses, communities, and people--driving our economy 
and improving our quality of life. For the U.S. economy to be the most 
competitive country in the world, we must have a first-class 
infrastructure system: transport systems that move people and goods 
efficiently, at reasonable cost by land, water, and air; transmission 
systems that deliver reliable, low-cost power from a wide range of 
energy sources; and water systems that drive industrial processes as 
well as the daily functions in our homes.
    We must commit today to make our vision of the future a reality--an 
American infrastructure system that is the source of our prosperity. 
ASCE and its 150,000 members look forward to working with the House 
Committee on Transportation and Infrastructure to improve America's 
infrastructure so that every family, community, and business can 
thrive.

                                 <F-dash>
 Statement of Mr. Juan Arvizu, Chairman of the Board, American Traffic 
  Safety Services Association, Submitted for the Record by Mr. DeFazio
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for the opportunity to submit written testimony 
today regarding the safety impacts of investing, or not investing, in 
America's surface transportation network. My name is Juan Arvizu, and I 
currently serve as Chairman of the Board of Directors for the American 
Traffic Safety Services Association (ATSSA). ATSSA is a 1,500-member 
international trade association which represents the manufacturers, 
installers and distributors of roadway safety infrastructure devices 
and services such as guardrail and cable barrier, traffic signs, 
pavement markings, rumble strips, high friction surface treatments, and 
work zone safety devices, among others. Our mission is to Advance 
Roadway Safety and reduce fatalities and serious injuries on U.S. roads 
toward zero.
    I am also the Chief Operating Officer for Pavement Marking, Inc. 
(PMI) based in Tempe, AZ and with branches in El Paso, TX and Humble, 
TX. In fact, Rep. Stanton represents our headquarters office in Tempe, 
and I would like to congratulate him on his assignment to the 
Transportation and Infrastructure Committee. PMI was incorporated 28 
years ago and is Arizona's oldest pavement marking company. We are a 
striping contractor focused on installing and removing pavement 
markings around the southwest, and we have extensive experience working 
with design-build and construction management at risk (CMAR) projects.
    Congratulations to both Chairman DeFazio and Ranking Member Graves 
on your new leadership positions on the Committee, and thank you for 
holding this hearing.
    Policy-makers at all levels of government routinely list safety as 
a top priority when it comes to infrastructure investments and surface 
transportation policy. However, safety needs to be more than a talking 
point. When we as a country do not robustly invest in proven, cost-
effective roadway safety infrastructure projects, we are missing a 
significant opportunity to improve the lives of every American.
    We know about the job creation impact from not investing in 
infrastructure; we know about the economic impact to local communities 
from not investing in infrastructure, and we know the impacts from 
increased congestion from not investing in infrastructure. However, 
arguably, the greatest impact of not investing in infrastructure is 
having this country continue to see an increase in fatalities and 
serious injuries on roadways in congressional districts across this 
Nation.
    It can be easy to take roadway safety infrastructure for granted. 
But it is a critical component of a well-functioning transportation 
system. Cost-effective roadway safety infrastructure comes in many 
forms--including guardrails, cable barriers, pavement markings, highway 
signs and so much more. And we see the impacts of these investments 
every day.
    For example, in a 2011 study analyzing work on Missouri roads, 
traditional 4-inch wide pavement markings were replaced with wider 6-
inch wide markings on more than 1,000 miles of roadway.\1\ Analysis 
indicates that there were significant reductions in fatal and serious 
injury crashes:
---------------------------------------------------------------------------
    \1\ ``Innovative Safety Solutions with Pavement Markings and 
Delineation'' https://www.atssa.com/
LinkClick.aspx?fileticket=m30RHMJESp4%3d&portalid=0
---------------------------------------------------------------------------
    <bullet>  46 percent reduction on rural, multilane undivided 
highways
    <bullet>  38 percent reduction on urban, two-lane highways
    <bullet>  34 percent reduction on rural, multilane divided highways
    <bullet>  21 percent reduction on rural freeways
    For a moment, imagine the lives not saved without this cost-
effective safety improvement.
    Let me provide another example. As we look to the future, we know 
that connected and automated vehicles (CAVs) will become an increasing 
presence on our roadways. Having the right pavement markings and 
highway signs will play a critical role in the success--or failure--of 
these new systems. In fact, at a February 2017 House Transportation and 
Infrastructure Committee hearing focused on building a 21st Century 
infrastructure, President and CEO-North America of BMW was asked to 
identify components of the transportation system that were needed to 
successfully deploy CAVs--and he responded that clear lane markings 
were critical.\2\
---------------------------------------------------------------------------
    \2\ https://www.enotrans.org/article/two-decades-congress-still-
pushing-21st-century-infrastructure/
---------------------------------------------------------------------------
    We know that some automakers require clear pavement markings and 
signage for their CAVs to function properly, and we know that some 
studies have found that wider pavement markings have a positive safety 
benefit for drivers.\3\ But do wider markings have a positive benefit 
for ``machine drivers'' or CAVs? The Texas A&M Transportation Institute 
undertook a recent study to examine just that and found that under 
certain conditions, wider pavement markings have a beneficial safety 
impact on CAVs. This October 2018 study found that six-inch wide 
pavement markings have a consistent positive impact for machine vision 
detection under adverse visibility conditions, including: remnants of 
previously removed markings, residual pavement scarring stemming from 
marking removal, blackout markings, crack seal, pavement seams, and 
glare, among other factors.\4\
---------------------------------------------------------------------------
    \3\ https://safety.fhwa.dot.gov/roadway_dept/night_visib/
pavement_marking/ch3.cfm
    \4\ October 2018 Texas A&M Transportation Institute ``Evaluation of 
the Effects of Pavement Marking Width on Detectability by Machine 
Vision: 4-Inch versus 6-Inch Markings'' Study
---------------------------------------------------------------------------
    Additionally, roadway safety infrastructure projects have a 
positive impact on human driver behavior. When a drowsy driver begins 
to drift out of his lane, a rumble strip will alert him to correct his 
action. When coming into a sharp curve at too high a rate of speed, 
high friction surface treatments help a vehicle's tires grip the road. 
When a vehicle departs a highway and heads toward oncoming traffic, 
median cable barrier or guardrail will stop that car from colliding 
with oncoming traffic. Roadway safety infrastructure projects are an 
integral piece to the overall safety of the American transportation 
network.
    Pavement markings are just one example of a roadway safety 
infrastructure device that saves lives. As Congress looks to 
reauthorize the FAST Act and pursue an infrastructure initiative, 
investing in roadway safety infrastructure must be a priority. We 
cannot allow a lack of investment to mean more lives lost on our 
nation's roadways. We know what happens when we do not adequately 
address safety issues and the costs associated with that lack of 
investment. What is that cost? 37,133.\5\ The number of fatalities on 
our roads in 2017. We can and must do better.
---------------------------------------------------------------------------
    \5\ Number of traffic fatalities in 2017: https://
crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/812603
---------------------------------------------------------------------------
    Mr. Chairman, thank you again for allowing ATSSA to submit 
testimony for the record. We stand ready to work with and the entire 
Transportation and Infrastructure Committee as you develop surface 
transportation legislation during this Congress.

                                 <F-dash>
 Statement of Mr. Chris Spear, President and Chief Executive Officer, 
American Trucking Associations, Submitted for the Record by Mr. DeFazio
    Chairman DeFazio, Ranking Member Graves, and members of the 
committee, the American Trucking Associations (ATA) \1\ is pleased to 
submit testimony for the record on our nation's infrastructure needs.
---------------------------------------------------------------------------
    \1\ American Trucking Associations is the largest national trade 
association for the trucking industry. Through a federation of 50 
affiliated State trucking associations and industry-related conferences 
and councils, ATA is the voice of the industry America depends on most 
to move our nation's freight. Follow ATA on Twitter or on Facebook. 
Trucking Moves America Forward.
---------------------------------------------------------------------------
    Trucking is the fulcrum point in the United States' supply chain. 
This year, our industry will move 70 percent of the nation's freight 
tonnage, and over the next decade will be tasked with moving nearly 
three billion more tons of freight than it does today while continuing 
to deliver the vast majority of goods.\2\ Trucks haul 83 percent of the 
freight originating in Oregon and 81 percent of the freight delivered 
from Missouri. In 2017, the goods moved by trucks were worth more than 
$10 trillion.\3\ The trucking industry is also a significant source of 
employment, with 7.7 million people working in various occupations, 
accounting for every 1 in 18 jobs in the U.S.\4\ Furthermore, ``truck 
driver'' is the top job in 29 States.\5\
---------------------------------------------------------------------------
    \2\ Freight Transportation Forecast 2018 to 2029. American Trucking 
Associations, 2018.
    \3\ 2017 Commodity Flow Survey Preliminary Report. U.S. Census 
Bureau, Dec. 7, 2018.
    \4\ American Trucking Trends 2018, American Trucking Associations.
    \5\ https://www.marketwatch.com/story/keep-on-truckin-in-a-
majority-of-states-its-the-most-popular-job-2015-02-09

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Without trucks, our cities, towns and communities would lack key 
necessities including food and drinking water; there would be no 
clothes to purchase, and no parts to build automobiles or fuel to power 
them. The rail, air and water intermodal sectors would not exist in 
their current form without the trucking industry to support them. 
Trucks are central to our nation's economy and our way of life, and 
every time the government makes a decision that affects the trucking 
industry, those impacts are also felt by individuals and by the 
millions of businesses that could not exist without trucks.
    Mr. Chairman, we are on the cusp of a transformation in the 
movement of freight, one that you and your colleagues will greatly 
influence. Radical technological change will, in the near future, allow 
trucks to move more safely and efficiently, and with less impact on the 
environment than we ever dared to imagine. Yet we are facing headwinds, 
due almost entirely to government action or, in some cases inaction 
that will slow or cancel out entirely the benefits of innovation. 
Failure to maintain and improve the highway system that your 
predecessors helped to create will destroy the efficiencies that have 
enabled U.S. manufacturers and farmers to continue to compete with 
countries that enjoy far lower labor and regulatory costs.
    Mr. Chairman, we are at a critical point in our country's history, 
and the decisions made by this committee over the next few months will 
impact the safety and efficiency of freight transportation for 
generations. ATA looks forward to working with you to develop and 
implement sound policy that benefits the millions of Americans and U.S. 
businesses that rely on a safe and efficient supply chain.
                          the cost of inaction
    A well-maintained, reliable and efficient network of highways is 
crucial to the delivery of the nation's freight, and vital to our 
country's economic and social well-being. However, the road system is 
rapidly deteriorating, and costs the average motorist nearly $1,600 a 
year in higher maintenance and congestion expenses.\6\ Highway 
congestion also adds nearly $75 billion to the cost of freight 
transportation each year.\7\ In 2016, truck drivers sat in traffic for 
nearly 1.2 billion hours, equivalent to more than 425,000 drivers 
sitting idle for a year.\8\
---------------------------------------------------------------------------
    \6\ Bumpy Road Ahead: America's Roughest Rides and Strategies to 
make our Roads Smoother, The Road Information Program, Oct. 2018; 2015 
Urban Mobility Scorecard. Texas Transportation Institute, Aug. 2015.
    \7\ Cost of Congestion to the Trucking Industry: 2018 Update. 
American Transportation Research Institute, Oct. 2018.
    \8\ Ibid.
---------------------------------------------------------------------------
    While the cost and scale of addressing highway improvement needs is 
daunting, it is important to note that much of the congestion is 
focused at a relatively small number of locations. Just 17 percent of 
National Highway System (NHS) miles represents 87 percent of total 
truck congestion costs nationwide.\9\ Many of these locations are at 
highway bottlenecks that are identified annually by the American 
Transportation Research Institute. ATRI just released its latest 
freight bottlenecks report, which identifies the top 100 truck 
bottlenecks around the country.\10\ The worst bottleneck was Interstate 
95 at State Route 4 in Fort Lee, NJ. While most of the bottlenecks were 
in large metropolitan areas, the report found trouble spots even in 
smaller cities like Baton Rouge, LA, San Bernardino, CA, Birmingham, 
AL, Chattanooga, TN, and Greenville, SC. ATA's highway funding 
proposal, described below, would adopt a strategy for funding 
improvements at these costly choke points.
---------------------------------------------------------------------------
    \9\ Ibid.
    \10\ https://truckingresearch.org/2019/02/06/atri-2019-truck-
bottlenecks/
---------------------------------------------------------------------------
    Most troubling is the impact of underinvestment on highway safety. 
In nearly 53 percent of highway fatalities, the condition of the 
roadway is a contributing factor.\11\ In 2011, nearly 17,000 people 
died in roadway departure crashes, over 50 percent of the total.\12\ 
Many of these fatalities result from collisions with roadside objects, 
such as trees or poles located close to the roadway.
---------------------------------------------------------------------------
    \11\ Roadway Safety Guide. Roadway Safety Foundation, 2014.
    \12\ Ibid.
---------------------------------------------------------------------------
    The Highway Trust Fund (HTF), the primary source of Federal revenue 
for highway projects, safety programs and transit investments, is 
projected to run short of the funds necessary to maintain current 
spending levels by fiscal year 2021.\13\ While an average of 
approximately $42 billion per year is expected to be collected from 
highway users over the next decade, nearly $60 billion will be required 
annually to prevent significant reductions in Federal aid for critical 
projects and programs.\14\ It should be noted that a $60 billion annual 
average Federal investment still falls well short of the resources 
necessary to provide the Federal share of the expenditure needed to 
address the nation's surface transportation safety, maintenance and 
capacity needs.\15\ According to the American Society of Civil 
Engineers, the U.S. spends less than half of what is necessary to 
address these needs. As the investment gap continues to grow, so too 
will the number of deficient bridges, miles of roads in poor condition, 
number of highway bottlenecks and, most critically, the number of 
crashes and fatalities attributable to inadequate roadways.
---------------------------------------------------------------------------
    \13\ Projections of Highway Trust Fund Accounts--CBO's January 2018 
Baseline, Congressional Budget Office.
    \14\ Ibid.
    \15\ 2015 Status of the Nation's Highways, Bridges, and Transit: 
Conditions & Performance. USDOT, Dec. 2016; see also 2017 
Infrastructure Report Card. American Society of Civil Engineers, 2017.
---------------------------------------------------------------------------
    A recently released report \16\ by the Transportation Research 
Board (TRB) requested by Congress focused specifically on the current 
state and future needs of the Interstate Highway System. This critical 
network binds our nation together and reaps immeasurable economic and 
national security benefits for the United States. Most importantly, 
because interstates are far safer than surface roads, since 1967 it has 
prevented nearly a quarter million people from losing their lives in 
vehicular crashes.\17\ The Interstate Highway System accounts for about 
one-quarter of all miles traveled by light-duty vehicles and 40 percent 
of miles traveled by trucks.\18\ The TRB report estimates that 
conservatively, the State and Federal investment necessary to address 
the Interstate system's maintenance and capacity needs will need to 
double or triple over today's expenditures in the next 20 years.\19\
---------------------------------------------------------------------------
    \16\ Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future (2018). Transportation Research 
Board, National Academy of Sciences.
    \17\ Ibid, p. 2-18
    \18\ Ibid, p. 2-10.
    \19\ Ibid, p. S-5
---------------------------------------------------------------------------
                           build america fund
    ATA's proposed solution to the highway funding crisis is the Build 
America Fund. The BAF would be supported with a new 20 cent per gallon 
fee built into the price of transportation fuels collected at the 
terminal rack, to be phased in over 4 years. The fee will be indexed to 
both inflation and improvements in fuel efficiency, with a 5 percent 
annual cap. We estimate that the fee will generate nearly $340 billion 
over the first 10 years. It will cost the average passenger vehicle 
driver just over $100 per year once fully phased in.\20\
---------------------------------------------------------------------------
    \20\ Federal Highway Administration, Highway Statistics 2016, Table 
VM-1. Average light-duty vehicle consumed 522 gallons of fuel.
---------------------------------------------------------------------------
    We also support a new fee on hybrid and electric vehicles, which 
underpay for their use of the highway system or do not contribute at 
all. We look forward to working with Congress to identify the best 
approach to achieve that goal. In addition, ATA supports repeal of the 
Federal excise tax on trucking equipment, provided the revenue it 
generates for the HTF is replaced. This antiquated 12 percent sales 
tax, which was adopted during World War I, is a barrier to investment 
in the cleanest, safest trucks available on the market.
    Under the BAF proposal, the first tranche of revenue generated by 
the new fee would be transferred to the HTF. Using a fiscal year 2020 
baseline, existing HTF programs would be funded at authorized levels 
sufficient to prevent a reduction in distributed funds, plus an annual 
increase to account for inflation.
    Second, a new National Priorities Program (NPP) would be funded 
with an annual allocation of $5 billion, plus an annual increase 
equivalent to the percentage increase in BAF revenue. Each year, the 
U.S. Department of Transportation would determine the location of the 
costliest highway bottlenecks in the Nation and publish the list. 
Criteria could include the number of vehicles; amount of freight; 
congestion levels; reliability; safety; or, air quality impacts. States 
with identified bottlenecks could apply to USDOT for project funding 
grants on a competitive basis. Locations could appear on the list over 
multiple years until they are addressed.
    The funds remaining following the transfer to the HTF and the NPP 
would be placed into the Local Priorities Program (LPP). Funds would be 
apportioned to the States according to the same formula established by 
the Surface Transportation Block Grant Program, including sub-
allocation to local agencies. Project eligibility would be the same as 
the eligibility for the National Highway Freight Program or National 
Highway Performance Program, for highway projects only.
    This approach would give State and local transportation agencies 
the long-term certainty and revenue stability they need to not only 
maintain, but also begin to improve their surface transportation 
systems. They should not be forced to resort to costly, inefficient 
practices--such as deferred maintenance--necessitated by the 
unpredictable Federal revenue streams that have become all too common 
since 2008. Furthermore, while transportation investment has long-term 
benefits that extend beyond the initial construction phase, it is 
estimated that our proposal would add nearly half a million annual jobs 
related to construction nationwide, including nearly 6,000 jobs in 
Mississippi and more than 8,000 jobs in Washington State (see Appendix 
A for a full list of State-specific employment figures).\21\
---------------------------------------------------------------------------
    \21\ A Framework for Infrastructure Funding. American 
Transportation Research Institute, Nov. 2017.
---------------------------------------------------------------------------
    The fuel tax is the most immediate, cost-efficient and conservative 
mechanism currently available for funding surface transportation 
projects and programs. Collection costs are less than 1 percent of 
revenue.\22\ Our proposal will not add to the Federal debt or force 
States to resort to detrimental financing options that could jeopardize 
their bond ratings. Unlike other approaches that simply pass the buck 
to State and local governments by giving them additional ``tools'' to 
debt-finance their infrastructure funding shortfalls for the few 
projects that qualify, the BAF will generate real money that can be 
utilized for any Federal-aid project.
---------------------------------------------------------------------------
    \22\ Ibid.
---------------------------------------------------------------------------
    Mr. Chairman, while some have suggested that a fuel tax is 
regressive, the economic harm of failing to enact our proposal will be 
far more damaging to motorists. The $100 per year paid by the average 
car driver under this proposal pales in comparison with the $1,600 they 
are now forced to pay annually due to additional vehicle maintenance, 
lost time, and wasted fuel that has resulted from underinvestment in 
our infrastructure. Borrowing billions of dollars each year from China 
to debt finance the HTF funding gap--a cost imposed on current and 
future generations of Americans who will be forced to pay the 
interest--is far more regressive than the modest fee needed to avoid 
further blowing up our already massive national debt. Forcing States to 
resort to tolls by starving them of Federal funds is far more 
regressive than the $2.00 a week motorists would pay under our 
proposal. One needs only look to I-66 in Northern Virginia, where tolls 
average more than $12.00 per roundtrip and can sometimes exceed $46.00, 
to understand the potential impacts on lower-or middle-income 
Americans.\23\ To put this into perspective, even if motorists only 
paid the average toll, the cost of a 10-mile trip over an 8-day period 
on I-66 would be equivalent to their cost for an entire year under 
ATA's BAF proposal for all roads and bridges.
---------------------------------------------------------------------------
    \23\ http://www.66expresslanes.org/documents/
66_express_lanes_january_2018_
performance_ereport.pdf
---------------------------------------------------------------------------
                      alternative revenue sources
    The fuel tax is the most fair and efficient method for funding 
highways. Just 0.2 percent of fuel tax revenue goes to collection 
costs.\24\ However, we are willing to consider other funding options, 
provided they meet the following criteria:
---------------------------------------------------------------------------
    \24\ Ibid.
---------------------------------------------------------------------------
    <bullet>  Be easy and inexpensive to pay and collect;
    <bullet>  Have a low evasion rate;
    <bullet>  Be tied to highway use; and
    <bullet>  Avoid creating impediments to interstate commerce.
    While ATA is open to supporting a wide range of funding and 
financing options, we will oppose expansion of Interstate highway 
tolling authority and highway ``asset recycling.'' Interstate tolls are 
a highly inefficient method of funding highways. Tolling also forces 
traffic onto secondary roads, which are weaker and less safe. Asset 
recycling involves selling or leasing public assets to the private 
sector. Where asset recycling has been utilized on toll roads in the 
U.S., toll payers have seen their rates increased, only to subsidize 
projects with little or no benefit to them. One need only consider the 
recent 35 percent increase in truck toll rates on the Indiana Toll Road 
for an example of these abusive practices. The State gets a single 
tranche of money for road, broadband, airport and other projects that 
have no direct benefit for toll road users, while the private operator 
of the highway reaps the profits for the next six decades. Please note 
that our position on asset recycling pertains only to the highway 
sector.
    ATA is aware of proposals to create a new fee that taxes the cost 
of freight transportation services. While such a proposal is attractive 
in concept, we have identified several issues that have yet to be 
resolved to our satisfaction, and therefore we cannot support it at 
this time. Our primary (though by no means only) concerns are: high 
administrative costs; significant potential for evasion; and difficulty 
imposing the fee on private carriers
                         future revenue sources
    While ATA considers an increase in the fuel tax to be the best and 
most immediate means for improving our nation's roads and bridges, we 
also recognize that due to improvements in fuel efficiency and the 
development of new technologies that avoid the need to purchase fossil 
fuel altogether, the fuel tax is likely to be a diminishing source of 
revenue for surface transportation improvements. We, therefore, 
encourage Congress, in consultation with the executive branch, State 
and local partners and the private sector, to continue to work toward 
identifying future revenue sources.
    The FAST Act created a new grant program designed to accomplish 
this objective, and we hope that this research will continue. While 
much work has already been accomplished in this regard, there is much 
still to be done before these new revenue mechanisms are ready for 
mainstream implementation. ATA encourages Congress to include in a 
future infrastructure package or surface transportation reauthorization 
bill a plan to bolster and, if necessary, ultimately replace current 
highway funding mechanisms with new, more sustainable revenue sources. 
We recommend a 10-year strategy that could include creation of a blue-
ribbon commission to explore the results of pilot programs already 
completed or underway, with recommendations for either further research 
or a proposal for Congress to adopt a new funding approach.
                   freight transportation improvement
    While trucks move the vast majority of freight, it is important to 
recognize the critical nature of the multimodal supply chain. The 
seamless interchange of freight between trucks, trains, aircraft, ships 
and waterways operators allows shippers to minimize costs and maximize 
efficiencies. While carriers do what they can to make this process as 
smooth as possible, some things are largely out of their hands and 
require government action.
Importance of the Federal Role
    The Federal Government has a critical role to play in the supply 
chain. Freight knows no borders, and the constraints of trying to 
improve the movement of freight without Federal funding and 
coordination will create a drag on all freight providers' ability to 
serve national and international needs. As the maps in Appendix B show, 
trucks move products to and from all corners of the country, and serve 
international markets as well.
    These maps demonstrate that parochial debates over how much funding 
each State receives is ultimately destructive to shippers no matter 
where they are located. The cost of congestion for a truck that moves 
freight from Kansas City to Chicago is no different whether that 
congestion occurs in Kansas City or in Chicago. There is little 
advantage to a truck moving a load of cars from the Port of Baltimore 
to a dealership in Washington, DC. if roadway improvements are made 
around the port, only to experience severe congestion in Washington. 
The critical role that only the Federal Government can play is to look 
at investment decisions in the context of national impacts and 
determine which investments can produce the greatest economic benefits 
regardless of jurisdictional considerations. Only the Federal 
Government can break down the artificial constraints of geographic 
boundaries that hamper sound investment in our nation's freight 
networks. Only the Federal Government can provide the resources 
necessary to fund projects whose benefits extend beyond State lines, 
but are too expensive for State or local governments to justify 
investments at the expense of local priorities.
Freight Intermodal Connectors
    Freight intermodal connectors--those roads that connect ports, rail 
yards, airports and other intermodal facilities to the National Highway 
System--are publicly owned. And while they are an essential part of the 
freight distribution system, many are neglected and are not given the 
attention they deserve given their importance to the nation's economy. 
Just 9 percent of connectors are in good or very good condition, 19 
percent are in mediocre condition, and 37 percent are in poor 
condition.\25\ Not only do poor roads damage both vehicles and the 
freight they carry, but the Federal Highway Administration (FHWA) found 
a correlation between poor roads and vehicle speed. Average speed on a 
connector in poor condition was 22 percent lower than on connectors in 
fair or better condition.\26\ FHWA further found that congestion on 
freight intermodal connectors causes 1,059,238 hours of truck delay 
annually and 12,181,234 hours of automobile delay.\27\ Congestion on 
freight intermodal connectors adds nearly $71 million to freight 
transportation costs each year.\28\
---------------------------------------------------------------------------
    \25\ Freight Intermodal Connectors Study. Federal Highway 
Administration, April 2017.
    \26\ Ibid.
    \27\ Ibid.
    \28\ An Analysis of the Operational Costs of Trucking: 2018 Update. 
American Transportation Research Institute, Oct. 2018. Estimates 
average truck operational cost of $66.65 per hour.
---------------------------------------------------------------------------
    One possible reason connectors are neglected is that the vast 
majority of these roads--70 percent--are under the jurisdiction of a 
local or county government.\29\ Yet, these roads are serving critical 
regional or national needs well beyond the geographic boundaries of the 
jurisdictions that have responsibility for them, and these broader 
benefits may not be factored into the local jurisdictions' spending 
decisions. While connectors are eligible for Federal funding, it is 
clear that this is simply not good enough. We urge Congress to set 
aside adequate funding for freight intermodal connectors to ensure that 
these critical arteries are given the attention and resources they 
deserve.
---------------------------------------------------------------------------
    \29\ Ibid.
---------------------------------------------------------------------------
                     truck driver parking shortage
    Research and feedback from carriers and drivers suggest there is a 
significant shortage of available parking for truck drivers in certain 
parts of the country. Given the projected growth in demand for trucking 
services, this problem will likely worsen. There are significant safety 
benefits from investing in truck parking to ensure that trucks are not 
parking in unsafe areas due to lack of space.
    Funding for truck parking is available to States under the current 
Federal-aid highway program, but truck parking has not been a priority 
given a shortage of funds for essential highway projects. Therefore, we 
support the creation of a new discretionary grant program with 
dedicated funding from the Federal-aid highway program for truck 
parking capital projects.
                  additional productivity impediments
    It is helpful to understand the full range of productivity 
constraints we are facing in the context of addressing infrastructure-
related impediments. There are a host of actions that Congress can take 
to improve freight mobility without compromising important societal 
goals such as safety and air quality.
    While ATA supports State flexibility on certain matters, it should 
be recognized that Congress has a Constitutionally mandated 
responsibility to ensure the flow of interstate commerce. Where 
appropriate, Federal preemption may be necessary. Unfortunately, 
Federal avoidance of preemption in the name of States' rights or to 
avoid controversy sometimes leads to a patchwork of State regulations 
that creates significant inefficiencies. Where appropriate, the Federal 
Government must act to protect the public interest from the parochial 
demands of narrow constituencies.
Workforce Development
    The trucking industry is facing a severe labor shortage that 
threatens to increase the cost of moving freight and reduce supply 
chain efficiencies. In 2017, for example, the industry was short 50,000 
drivers, the highest level on record. If current trends hold, the 
shortage could grow to more than 174,000 by 2026. Over the next decade, 
the trucking industry will need to hire roughly 898,000 new drivers, or 
an average of nearly 90,000 per year.
    In recognition of challenges like these, at last March's 
infrastructure hearing before this Committee, Labor Secretary Alex 
Acosta specifically advocated for workforce development reforms to be 
included in an infrastructure package. In particular, Secretary Acosta 
testified in support of occupational licensing reform. As you may be 
aware, reforming outdated occupational licensing requirements has been 
a bipartisan priority of the past three administrations, and there is 
broad bipartisan support for rolling back these unnecessary barriers 
that hold back so many Americans, and which disproportionately affect 
African-Americans, Hispanics, military spouses and veterans, returning 
citizens, and the poor.
    To help alleviate this problem in the trucking industry, ATA 
supports a number of occupational licensing reforms. First, ATA 
supports lowering the minimum age requirement for interstate truck 
driving from 21 to 18, but only for qualified CDL-holding apprentices 
that satisfy the safety, training, and technology requirements spelled 
out in the DRIVE Safe Act (S. 3352 in the 115th Congress). Modern-day 
vehicle safety technologies have advanced by several orders of 
magnitude since the current minimum age requirement was promulgated 
decades ago. Research shows that the technologies required by the DRIVE 
Safe Act and endorsed by the NTSB--such as active braking, collision 
avoidance, and event recorders--significantly improve safety 
performance. Meanwhile, 6.4 million Opportunity Youth in this country 
are neither employed, nor in school, even as the Nation is short 50,000 
truck drivers. An update to the minimum age requirement is long over-
due.
    Second, to better connect job-seekers to trucking careers that 
offer a median salary of $54,585, health and retirement benefits, and 
potentially thousands of dollars in signing bonuses, ATA supports 
efforts to require States to better serve the growing number of truck 
driver candidates who receive driver training outside their State of 
domicile. Currently, out-of-State trainees have to travel back and 
forth to their home State, every time they pass either the CDL 
knowledge test or skills test, just to obtain the basic occupational 
licenses necessary to launch their trucking career. This arrangement 
imposes unnecessary financial burdens on those who can least afford it 
and exposes them to skills degradation. This problem could be addressed 
by requiring States receiving Federal funds for infrastructure projects 
to allow such out-of-State trainees to (1) complete all training; (2) 
take all necessary tests; and (3) obtain all necessary credentials in 
the State in which they are receiving training--without having to 
travel back to their home State.
    As the Council of Economic Advisers has noted:
        Because [occupational] licenses are largely granted by States 
        (rather than being nationally recognized), licensing inhibits 
        the free flow of licensed workers across State boundaries to 
        better match labor supply to labor demand. Unless the 
        geographic footprint and skill needs of expanded infrastructure 
        investments match the geographic distribution of currently 
        unemployed infrastructure workers, some reshuffling of workers 
        across State lines may be needed.\30\
---------------------------------------------------------------------------
    \30\ The Council of Economic Advisers, ``The Economic Benefits and 
Impacts of Expanded Infrastructure Investment,'' March 2018
---------------------------------------------------------------------------
    In the trucking industry, the geographic distribution of currently 
unemployed truck driver candidates does not match the geographic 
footprint of Federal workforce development investments. Accordingly, 
individuals aspiring to become truck drivers are crossing State lines 
to obtain state-of-the-art training from motor carriers that have the 
support of Federal workforce dollars and have been hiring minorities, 
veterans, apprentices, and other underrepresented populations at 
industry-leading rates.
    To better facilitate and scale this innovative model of workforce 
development, ATA supports efforts to require States of domicile to (1) 
accept the results of an applicant's CDL knowledge test administered in 
another State, and to (2) electronically transmit or deliver by mail 
the relevant credential--be it a CLP or a CDL--to the applicant without 
requiring him or her to physically come back to the State of domicile.
Infrastructure and Trucking Technology
    ATA supports the development and deployment of automated vehicle 
technology and connectivity for all vehicle types. The transportation 
industry is in an era of technological evolution that can deliver 
increased safety and efficiency for highway vehicles and vulnerable 
road users. Automated driving systems and vehicle safety communications 
are peaking in research and development, and are on the brink of market 
utilization. We encourage Congress to adopt legislation that 
facilitates the adoption of technology that improves safety, the 
environment, traffic congestion, and energy efficiency. It is important 
to ensure that all vehicles that share the road together, including 
commercial vehicles, are included in legislation that governs and 
facilitates these improvements. Furthermore, as you consider funding 
for infrastructure investment generally, keep in mind that these 
improvements are vital to the successful adoption of intelligent 
transportation systems.
                               conclusion
    Mr. Chairman, over the next decade, freight tonnage is projected to 
grow by 30 percent.\31\ The trucking industry is expected to carry two-
thirds of the nation's freight in 2029 and it will be tasked with 
hauling 2.6 billion more tons of freight than it moved this year.\32\ 
Without Federal support and cooperation, the industry will find it 
extremely difficult to meet these demands at the price and service 
levels that its customers--American businesses--need to compete 
globally. It is imperative to our nation's economy and security that 
Congress, working in concert with the Administration, invest in 
critical highway freight infrastructure, and make the reforms necessary 
to create an improved regulatory environment that fosters greater 
safety and efficiency in our supply chain.
---------------------------------------------------------------------------
    \31\ Freight Transportation Forecast 2018-2029. IHS Global Insight, 
2018.
    \32\ Ibid.
---------------------------------------------------------------------------
    The trucking industry, and especially truck drivers, understands 
the importance of safe and efficient highways like nobody else. Roads 
and bridges are our workplace, and we cannot properly serve the needs 
of the Nation if elected officials continue to allow highways to fall 
into greater neglect. The trucking industry already pays nearly half 
the user fees into the HTF and we are willing to invest more. To us, 
and most Americans, this is not an ideological debate. It is simply a 
decision about whether we make the investments necessary to remain 
competitive and prevent needless injuries and deaths, or continue on 
the current path.
    Mr. Chairman, on January 6, 1983, President Ronald Reagan, in 
signing into law legislation that increased the Federal fuel tax, said:
        Today . . . America ends a period of decline in her vast and 
        world-famous transportation system . . . . [We] can now ensure 
        for our children a special part of their heritage--a network of 
        highways and mass transit that has enabled our commerce to 
        thrive, our country to grow, and our people to roam freely and 
        easily to every corner of our land.
    That bill was supported by 261 Members of the House, including a 
majority of both Republicans and Democrats. Roads and bridges know no 
political party; we all benefit from them. It is time for elected 
officials to put aside partisan politics and regional differences and 
fulfill the promise to the American people expressed so eloquently by 
President Reagan.
    Mr. Chairman, we appreciate your support and the support that both 
House and Senate Leaders--Republican and Democrat--have given to 
passage of an infrastructure bill this Congress. In his State of the 
Union speech last week, President Trump called on Congress to work with 
him to pass an infrastructure bill, and correctly stated that this is 
not an option, it is a necessity. Congress has a unique opportunity 
this year to show the American people that it is, once more, able to 
work together, in partnership with the President, to pass bipartisan 
legislation that will improve their daily lives, create good jobs and 
grow the economy.
    Thank you for the opportunity to provide testimony on this 
important subject. We look forward to working with the committee to 
advance legislation that enables the trucking industry to continue to 
provide safe and efficient freight transportation services to the 
American people.
 appendix a: funding impact matrix--annual state-level job and revenue 
          increases resulting from federal fuel tax increases
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        appendix b: truck flows after 7 days from city of origin
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Statement of the Association of American Railroads Submitted for the 
                    Record by Mr. Graves of Missouri
                              introduction
    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to submit written testimony for 
this hearing's record. First, I'd like to extend a special greeting to 
the new members of this committee and offer my congratulations to 
Chairman DeFazio and Ranking Member Graves. Please know that the rail 
industry stands ready to work cooperatively with you, other members of 
this committee, and other policymakers to help ensure our nation has 
the freight transportation capability it needs to prosper in the 
future.
    AAR members account for the vast majority of U.S. freight rail 
volume, employment, mileage, and revenue. When it comes to 
transportation, we're all in this together. It's true that the various 
modes of transportation compete fiercely against each other in 
virtually every market they serve. This competition is healthy and 
appropriate. At the same time, though, railroads, trucks, and barges 
also cooperate extensively in countless markets. No country can be a 
first-rate economic power without having first-rate logistics and 
transportation capabilities across modes.
    Today, there is a tremendous amount of strength and flexibility in 
America's freight transportation systems. It's also clear, however, 
that our nation faces significant challenges in maintaining our 
existing freight-moving capability and in improving it to meet the 
needs of tomorrow. While the railroad industry is overwhelmingly 
privately funded, railroads have a strong vested interest that adequate 
investments be made in public infrastructure like ports and highways to 
ensure that the nation has a vibrant and integrated freight supply 
chain. The cost of doing nothing is high. Our nation has come to rely 
on an integrated network that will deliver goods rapidly and 
efficiently to homes and customers at all hours of the day to 
destinations far and wide. Deferring action to shore up needed 
investment in public highway, bridge, port, and passenger and commuter 
rail infrastructure will only cost American taxpayers more in the long 
run. Railroads agree that America's transportation system should not be 
run to the point of failure.
    Examining solutions to transportation revenue shortages, railroads 
believe that for reasons of economic efficiency and modal equity, 
public infrastructure funding should adhere as closely as possible to 
the principle of ``user pays.''
                       a transportation backbone
    The more than 600 freight railroads that operate in the United 
States together form the best freight rail network in the world. Their 
global superiority is a direct result of a balanced regulatory system 
that relies on market-based competition to establish rate and service 
standards, with a regulatory safety net available to rail customers 
when there is an absence of effective railroad competition.
    Railroads move vast amounts of just about everything, connecting 
businesses with each other across the continent and with markets 
overseas over a rail network spanning nearly 140,000 miles. Rail 
intermodal--the transport of shipping containers and truck trailers on 
railroad flatcars--has grown tremendously over the past 25 years, 
setting a record in 2018. Today, just about everything you find on a 
retailer's shelves likely traveled on an intermodal train. Increasing 
amounts of industrial goods are transported by intermodal trains as 
well.
    Given the volume of rail freight (close to two billion tons and 30 
million carloads and intermodal units in a typical year) and the long 
distances that freight moves by rail (nearly 1,000 miles, on average), 
freight railroads' direct role in our economy is immense, but freight 
railroads contribute to our nation in many other ways too:
    <bullet>  America's freight railroads are overwhelmingly privately 
owned and operate almost exclusively on infrastructure that they own, 
build, maintain, and pay for themselves. Since 1980, freight railroads 
have plowed more than $685 billion--of their own funds, not taxpayer 
funds--on capital expenditures and maintenance expenses related to 
locomotives, freight cars, tracks, bridges, tunnels and other 
infrastructure and equipment. That's more than 40 cents out of every 
revenue dollar, invested back into a rail network that keeps our 
economy moving.
    <bullet>  An October 2018 study from Towson University's Regional 
Economic Studies Institute found that, in 2017 alone, the operations 
and capital investment of America's major freight railroads supported 
approximately 1.1 million jobs (nearly eight jobs for every railroad 
job), $219 billion in economic output, and $71 billion in wages. 
Railroads also generated nearly $26 billion in tax revenues.
    <bullet>  Thanks to competitive rail rates--46 percent lower, on 
average, in 2017 than in 1981 adjusted for inflation--freight railroads 
save consumers billions of dollars every year. Millions of Americans 
work in industries that are more competitive in the tough global 
economy thanks to the affordability and productivity of America's 
freight railroads.
    <bullet>  In 2017, railroads moved a ton of freight an average of 
479 miles per gallon of diesel fuel. That's roughly equivalent to 
moving a ton from Jackson, MS to Springfield, MO, or Tacoma, WA to 
Helena, MT, on a single gallon. On average, railroads are four times 
more fuel efficient than trucks. That means moving freight by rail 
helps our environment by reducing energy consumption, pollution, and 
greenhouse gases.
    <bullet>  Because a single train can carry the freight of several 
hundred trucks, railroads cut highway gridlock and reduce the high 
costs of highway construction and maintenance.
    <bullet>  The approximately 167,000 freight railroad professionals 
are among America's most highly compensated workers. In 2017, the 
average U.S. Class I freight railroad employee earned total 
compensation of $125,400. By contrast, the average wage per full-time 
equivalent U.S. employee in domestic industries was $76,500, just 61 
percent of the rail figure. Around 80 percent of the U.S. freight rail 
workforce is unionized, compared with only around 6 percent of all 
private sector workers.
    <bullet>  Railroads are safe and constantly working to get even 
safer. The train accident rate in 2017 was down 40 percent from 2000; 
the employee injury rate in 2017 was down 43 percent from 2000; and the 
grade crossing collision rate in 2017 was down 38 percent from 2000. By 
all these measures, recent years have been the safest in history. 
Railroads today have lower employee injury rates than most other major 
industries, including trucking, airlines, agriculture, mining, 
manufacturing, and construction--even lower than food stores.
    <bullet>  Freight railroads are committed to safely implementing 
positive train control (PTC) as quickly as feasible so that further 
safety gains can be achieved. The seven Class I freight railroads all 
met statutory requirements by having 100 percent of their required PTC-
related hardware installed, 100 percent of their PTC-related spectrum 
in place, and 100 percent of their required employee training completed 
by the end of 2018. In aggregate, Class I railroads had 83 percent of 
required PTC route-miles in operation at the end of 2018, well above 
the 50 percent required by statute. Each Class I railroad expects to be 
operating trains in PTC mode on all their PTC routes no later than 
2020, as required by statute. In the meantime, railroads are continuing 
to test and validate their PTC systems thoroughly to ensure they work 
as they should.
                     transportation capacity is key
    The long-term demand for freight transportation in this country 
will grow. The Federal Highway Administration forecasts that U.S. 
freight tonnage will rise 37 percent by 2040. For railroads, meeting 
this demand is all about having adequate capacity and using it well, 
and that is what they focus on.
    The requirement for capital in freight railroading is at or near 
the top among all U.S. industries. In recent years, the average U.S. 
manufacturer spent approximately three percent of revenue on capital 
expenditures. The comparable figure for freight railroads is nearly 19 
percent, or more than six times higher.
    Thanks to their massive investments, freight railroad 
infrastructure today is in its best overall condition ever. The 
challenge for railroads, and for policymakers, is to ensure that the 
current high quality of rail infrastructure is maintained, and that 
adequate freight rail capacity exists to meet our nation's current and 
future freight transportation needs. Policymakers can help by enacting 
policies that promote safety and efficiency and by avoiding policies 
that discourage private rail investment.
           keep railroad rate and service regulation balanced
    The current structure of rail regulation relies on competition and 
market forces to determine rail rates and service standards in most 
cases, with maximum rate and other protections available to rail 
customers when there is an absence of effective competition. This 
deregulatory structure has benefited railroads and their customers.
    However, despite the severe harm caused by excessive railroad 
regulation in years past and the substantial public benefits that have 
accrued since the current less regulatory regime was put in place, some 
want to again give government regulators control over crucial areas of 
rail operations. That would be a profound mistake. It would prevent 
America's railroads from making the massive investments a best-in-the-
world freight rail system requires. Policymakers should be taking 
actions that enhance, rather than impair, railroads' ability and 
willingness to make those investments.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  engage in public-private partnerships through projects and programs
    Public-private partnerships--arrangements under which private 
freight railroads and government entities both contribute resources to 
a project--offer a mutually beneficial way to solve critical 
transportation problems.
    Without a partnership, many projects that promise substantial 
public benefits (such as reduced highway congestion by taking trucks 
off highways, or increased rail capacity for use by passenger trains) 
in addition to private benefits (such as enabling more efficient 
freight train operations) are likely to be delayed or never started at 
all because neither side can justify the full investment needed to 
complete them. Cooperation makes these projects feasible.
    With public-private partnerships, the public entity devotes public 
dollars to a project equivalent to the public benefits that will 
accrue. Private railroads contribute resources commensurate with the 
private gains expected to accrue. Thus, the universe of projects that 
can be undertaken to the benefit of all parties is significantly 
expanded.
    The most well-known public-private partnership involving railroads 
is the Chicago Region Environmental and Transportation Efficiency 
Program (CREATE), which has been underway for a number of years. CREATE 
is a multi-billion-dollar program of capital improvements aimed at 
increasing the efficiency of the region's rail and roadway 
infrastructure. A partnership among various railroads, the city of 
Chicago, the state of Illinois, the federal government, and Cook 
County, CREATE comprises 70 projects, including 25 new roadway 
overpasses or underpasses; six new rail overpasses or underpasses to 
separate passenger and freight train tracks; 35 freight rail projects 
including extensive upgrades of tracks, switches and signal systems; 
viaduct improvement projects; grade crossing safety enhancements; and 
the integration of information from the dispatch systems of all major 
railroads in the region into a single display. To date, 29 projects 
have been completed, six are under construction, and 16 are in various 
stages of design.
    The intersection of rail tracks and roadways is an important 
element of rail infrastructure that often involves a public-private 
cooperative approach. Under the federal ``Section 130'' program, 
approximately $230 million in federal funds are allocated each year to 
states for installing new active warning devices, upgrading existing 
devices, and improving grade crossing surfaces. The program also allows 
for funding to go towards highway-rail grade separation projects. 
Without a budgetary set-aside like the Section 130 program, grade 
crossing needs would fare poorly in competition with more traditional 
highway needs such as highway construction and maintenance. Railroads 
urge Congress to continue to support the Section 130 program.
    Railroads also urge Congress to support a permanent extension of 
the ``Section 45G'' short line tax credit program. Section 45G creates 
a strong incentive for short line railroads to invest private sector 
dollars on freight railroad track rehabilitation. Short line freight 
rail connections are critical to preserving the first and last mile of 
connectivity to factories, grain elevators, power plants, refineries, 
and mines in rural America and elsewhere.
                        address modal inequities
    As mentioned earlier, America's freight railroads operate 
overwhelmingly on infrastructure that they own, build, maintain, and 
pay for themselves. By contrast, trucks, airlines, and barges operate 
on highways, airways, and waterways that are largely taxpayer funded.
    No one, and certainly not railroads, disputes that other 
transportation modes are crucial to our nation, and the infrastructure 
they use should be world-class--just like U.S. freight railroad 
infrastructure is world class. That said, public policies relating to 
the funding of other modes have become misaligned.
    With respect to federally funded capacity investments in public 
road and bridge infrastructure, the United States has historically 
relied upon a ``user pays'' system. Unfortunately, the user-pays model 
has been eroded as Highway Trust Fund (HTF) revenues have not kept up 
with HTF investment needs and so the user pay system has had to be 
supplemented by general fund taxpayer dollars. Including general fund 
transfers scheduled to be made in the next two years through provisions 
of the FAST Act, general fund transfers to the HTF since 2008 have 
totaled almost $144 billion, according to the Congressional Budget 
Office (CBO). The CBO recently estimated that between 2020 and 2029, 
the HTF will require $191 billion in additional payments to keep the 
fund solvent.
    Moving away from a user-pays system distorts the competitive 
environment by making it appear that commercial trucking is less 
expensive than it really is and puts other modes, especially rail, at a 
disadvantage. This is especially problematic for railroads precisely 
because they own, build, maintain, and pay for their infrastructure 
themselves (including paying well over a billion dollars in property 
taxes each year on that infrastructure).
    Congress could help ameliorate this modal inequity by reaffirming 
the ``user pays'' requirement. Through application of current 
technology, the current fundamental imbalance could be rectified by 
ensuring that commercial users of taxpayer-financed infrastructure pay 
for their use.
    This could be done through several different mechanisms. To its 
credit, the American Trucking Associations (ATA), through its Build 
America Fund proposal, is calling for a 20 cent per-gallon increase in 
the fuel tax phased in over four years, a recognition by the ATA that 
the current situation regarding the HTF is not tenable. Railroads 
believe that an increase in the fuel tax could be helpful as a short-
term bridge to a longer-term future that, we think, should include a 
vehicle miles traveled fee or a weight-distance fee.
    A handful of states already impose weight-distance taxes on heavier 
trucks, and others are engaged in pilot programs to assess the 
feasibility of transitioning their state highway taxes from a per 
gallon-based system to a mileage-based fee. In Oregon, for example, 
heavy trucks are charged a weight-mile tax that is intended to capture 
the full costs incurred by trucks relating to the state highway system.
                  first-mile and last-mile connections
    One of the main reasons why the United States has the world's most 
efficient total freight transportation system is the willingness and 
ability of firms associated with various modes to work together in ways 
that benefit their customers and the economy. Policymakers can help 
this process by implementing programs that improve ``first mile'' and 
``last mile'' connections where freight is handed off from one mode to 
another--for example, at ports from ships to railroads or from ships to 
trucks, or from railroads to trucks at intermodal terminals. These 
connections are highly vulnerable to disruptions and improving them 
would lead to especially large increases in efficiency and fluidity and 
forge a stronger, more effective total transportation package.
    Some multimodal connection infrastructure projects that are of 
national and regional significance in terms of freight movement can be 
too costly for a local government or state to fund. Consequently, 
federal funding awarded through a competitive discretionary grant 
process is an appropriate approach for these needs.
    The Transportation Investment Generating Economic Recovery (TIGER) 
federal grant program; its replacement, the Better Utilizing 
Investments to Leverage Development (BUILD) Transportation grant 
program; and the Infrastructure for Rebuilding America (INFRA) grant 
program are examples of approaches to help fund crucial multimodal 
projects of national and regional significance.
    Attention to first- and last-mile connections is a critical element 
of both local and state freight planning and policy as well. At the 
local level, land use planning has been largely inadequate in 
accommodating the needs of freight. Freight movement--whether in rail 
yards, intermodal facilities, ports, or regional distribution--must be 
sufficiently considered when planning land uses such as residential 
developments, schools, and recreational areas.
          flexibility through regulatory and permitting reform
    There is bipartisan agreement that America's regulatory and 
permitting processes require reform and could more accurately reflect 
rapid technological advancements. Federal regulations provide a 
critical safety net to the American public, but rules borne from faulty 
processes only deter economic growth without any corresponding public 
benefits. Dictating the means to an end via overly prescriptive policy 
increases compliance costs, can chill innovation and investment in new 
technologies. and can slow, or defeat entirely, an outcome both 
industry and government would view as a success.
    Regulations should be based on a demonstrated need, as reflected in 
current and complete data and sound science. Regulations should provide 
benefits outweighing their costs and should take into consideration the 
big picture view for industries and sectors--including market forces, 
future offerings, and current regulations in place.
    The freight rail industry believes policymakers should embrace 
performance-based regulations, where appropriate, to foster and 
facilitate technological advancement and achieve well-defined policy 
goals. Defining the end goal, rather than narrow steps, will boost 
citizen confidence in government, motivate U.S. industry to research 
and innovate, and create new solutions. Outcome-based measures can 
better avoid ``locking in'' existing technologies and processes so that 
new innovations, including new technologies, that could improve safety 
and improve efficiency, can flourish.
    That's also why railroads respectfully urge policymakers to avoid 
one-size-fits-all policies that hinder modernization of safety 
practices and improvements to efficiency, such as policies that mandate 
a specific crew size for rail operations. We all want railroad safety 
and efficiency to continue to improve. Technological solutions are key 
to making this happen, but that requires regulatory oversight not 
prescriptive mandates.
    As mentioned earlier, railroads are safe and getting safer, but 
more can be done by railroads, their employees, the FRA, and others 
working together to achieve the long-term goal of zero accidents. 
Regulatory reform can be a key part of that effort. Railroads 
respectfully urge this committee and others in Congress to encourage 
the FRA to become more forward-looking in how it proposes and 
promulgates new rules.
    We also urge policymakers to streamline the permitting process to 
spur infrastructure investment. Railroads have faced significant 
permitting delays from federal agencies, which means that the amount of 
time and energy it takes to get many rail infrastructure projects from 
the drawing board to construction and completion has been growing 
longer every day.
    In the face of local opposition, railroads try to work with the 
local community to find a mutually satisfactory arrangement, and these 
efforts are usually successful. When agreement is not reached, however, 
projects can face lawsuits, seemingly interminable delays, and sharply 
higher costs. Rail capacity, and railroads' ability to provide the 
transportation service upon which our nation depends, suffer 
accordingly. Recent efforts by Congress and the Administration are 
noteworthy and appreciated, but more must be done.
                  support commuter and passenger rail
    Freight railroads agree that passenger railroads play a key role in 
alleviating highway and airport congestion; decreasing dependence on 
foreign oil; reducing pollution; and enhancing mobility, safety, and 
economic development opportunities. In the United States, freight 
railroads provide a crucial foundation for passenger rail: more than 70 
percent of the miles traveled by Amtrak trains are on tracks owned by 
other railroads--mainly freight railroads--and many commuter railroads 
operate at least partially on freight-owned corridors.
    Policymakers can help here too by recognizing that Amtrak should be 
adequately funded so that its infrastructure can be improved to a state 
of good repair. Commuter railroads too deserve this Committee's 
support.
                               conclusion
    Of the many different factors that affect how well a rail network 
functions, the basic amount and quality of infrastructure is among the 
most significant. That's why U.S. freight railroads have been 
expending, and will continue to expend, enormous resources to 
continuously improve safety and improve their asset base. Policymakers 
too have a key role to play. Freight railroads look forward to working 
with this Committee, others in Congress, and other appropriate parties 
to develop and implement policies that best meet this country's 
transportation needs.

                                 <F-dash>
 Statement of the Beyond the Runway Coalition Submitted for the Record 
                             by Mr. DeFazio
    Mr. Chairman, the 92 members of the Beyond the Runway Coalition 
would like to thank you for making infrastructure the topic of your 
first hearing as chairman of this esteemed committee. We wholeheartedly 
agree with you that investing in our nation's infrastructure cannot 
wait any longer, as the poor condition of America's infrastructure is 
having a negative effect on economic prosperity and job creation. It is 
time to move forward with a robust investment plan to address our 
country's growing infrastructure needs.
    Our coalition has come together specifically to urge Congress to 
make a true commitment to America's infrastructure improvement by 
investing in our nation's airports. The industries, businesses, and 
infrastructure groups represented in our coalition rely heavily on 
aviation infrastructure to support economic growth. Providing airports 
the opportunity to make new investments in their facilities in order to 
meet growing demand would help our industries continue to invest, grow, 
and create good jobs in our local communities.
    America's airports are a fundamental component of our nation's 
transportation infrastructure. In 2017, 1.8 billion passengers and 31.7 
million metric tons of cargo traveled through U.S. airports. With a 
national economic impact of $1.4 trillion, airports contribute more 
than 7 percent to the U.S. gross domestic product and support over 11.5 
million jobs around the country. To meet the capacity demands of the 
future with safe, efficient, and modern facilities that passengers, 
businesses, and cargo shippers expect airports need to make new 
investments to maintain and modernize our nation's airport 
infrastructure. Unfortunately, existing Federal law inhibits the 
ability of airports to self-fund these important terminal, runway, and 
ground-access projects.
    While passenger and cargo traffic through airport facilities 
continues to grow at a record pace, our outdated aviation 
infrastructure is not keeping up with demand. As a result, far too many 
airports around the country are overcrowded and cramped, which hinders 
commerce and business opportunities for thousands of companies. In 
fact, America's airports require well over $100 billion in 
infrastructure upgrades over the next 5 years. Outdated airport 
infrastructure that fails to meet the growing needs of local businesses 
and tourists puts in jeopardy the continued economic growth of American 
cities, States, and regions. From established metropolitan areas to new 
growth centers to traditionally rural areas, sustained economic growth 
depends on the expansion of, and investment in, local airports.
    As you move forward with infrastructure legislation this year, we 
ask that you take into account the urgent needs of U.S. airports, and 
explore meaningful funding options to address the over $100 billion 
backlog in critical infrastructure and security projects at America's 
airports.

                                
  Statement of the Bluegreen Alliance Submitted for the Record by Mr. 
                                DeFazio
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                
  Statement of Ms. Roberta L. Larson, Executive Director, California 
  Association of Sanitation Agencies, Submitted for the Record by Mr. 
                                DeFazio
    The California Association of Sanitation Agencies (CASA), provides 
the following statement as you conduct your February 7, 2019 hearing on 
``The Cost of Doing Nothing: Why Investing in Our Nation's 
Infrastructure Cannot Wait''. We request that this statement be made a 
part of the formal record of the committee proceedings.
    CASA strongly supports your priority to advance infrastructure 
legislation without delay. For too many years, our nation's wastewater 
infrastructure needs have gone unaddressed and have reached levels that 
urgently demand a robust Federal commitment to support local community 
needs. The U.S. Environmental Protection Agency's (USEPA) 2012 Clean 
Water Survey of Needs revealed a $26 billion investment gap in 
California alone for federally eligible projects. From a national 
perspective, the American Society of Civil Engineers' infrastructure 
report card gave wastewater infrastructure a D+ grade. The report noted 
that over the next two decades more than 56 million additional users 
will be making demands on this aging and under-capacity infrastructure. 
USEPA, by its own analysis, has concluded that $271 billion in 
wastewater investments will be required to address future demands and 
construct required water quality infrastructure. This data illustrates 
the absolute necessity of incorporating wastewater infrastructure in 
any Federal infrastructure initiative. Without such commitment, the 
ability to protect public health and improve our ecosystems will be 
seriously compromised. CASA believes that any infrastructure package 
should include, at a minimum, the following elements:
    First, we ask Congress to recommit robust levels of Federal funding 
for the existing wastewater infrastructure funding programs. CASA 
strongly supports the Clean Water State Revolving Fund (SRF) Loan 
Program, Water Infrastructure Financing and Innovation Act (WIFIA) 
Program and other programs to provide Federal funds for clean water 
infrastructure projects. The Clean Water SRF should be authorized at $6 
billion annually. This level would represent a nearly sixfold increase 
in the annual spending levels of recent years. However, this increased 
amount is absolutely vital for States and localities to begin 
addressing the significant needs that exist today, ranging from 
traditional treatment requirements to those challenges created by 
climate change, including drought, severe storm events and sea level 
rise.
    Second, we request that the National Pollutant Discharge 
Elimination System (NPDES) permit terms be extended from five to up to 
10 years. In addition to the need for financial assistance, there are 
other ways to stretch limited public dollars while protecting the 
public's health. Extending the length of NPDES permit terms up to 10 
years is one important mechanism for ensuring that our limited dollars 
are spent wisely. This change would significantly benefit local public 
agencies by allowing for enhanced planning and efficient permitting of 
facilities and give agencies the time needed to comply with existing 
regulatory requirements before the imposition of new mandates. This 
would also better reflect the technological and administrative 
realities of the modern era. USEPA and delegated States would retain 
their existing authority to reopen permits to address changed 
circumstances.
    Third, we request that Congress avoid inclusion of consolidation or 
reorganization of local wastewater agencies as a criterion for Federal 
funding assistance or ranking projects for funding. The impetus for 
consolidation and reorganization of local agencies is fact and site 
specific and must consider the purpose for which the agencies were 
formed and the roles they serve in the community. CASA believes that 
decisions to consolidate are best left to the communities that will be 
impacted and local governance processes designed to drive and guide 
such changes. In California, a comprehensive process to consider 
consolidation already exists, and we believe that this structure could 
be jeopardized by a top down approach that would determine eligibility 
for Federal assistance.
    Fourth, we ask that Congress to consider updating the allocation 
formula that USEPA relies upon to provide States with capitalization 
grants for their Clean Water SRFs in order to better reflect today's 
realities. The formula has not been updated since 1987 and has not kept 
pace with demographic shifts in the United States toward the West and 
South. While California currently receives 7.2 percent of Federal SRF 
capitalization grants, the State is home to 12 percent of the nation's 
population. According to a USEPA report, California would be entitled 
to between 15 and 24 percent of appropriated assistance if the formula 
were to be updated to address population and needs. The Committee 
received USEPA's Report to Congress: Review of the Allotment of the 
Clean Water State Revolving Fund (May 2016), documenting the challenges 
created by the antiquated formula used to allocate SRF resources to 
States. The opportunity to update this formula to reflect current 
population and water quality needs of a State would ensure the delivery 
of Federal resources to those areas most in need.
    Fifth, CASA urges the committee to resist creating new set-asides 
within the SRF program. If a compelling need exists, such as support 
for disadvantaged communities, a program should be created to address 
such needs through alternative mechanisms and avoid reducing the 
purchasing power of the Clean Water SRF that is already oversubscribed.
 water and wastewater infrastructure assistance: adequate and reliable 
                      federal funding is essential
    CASA supports a robust infrastructure funding partnership between 
the Federal Government and local communities to protect the integrity 
of our receiving waters, deliver safe and reliable drinking water and 
enhance our ecosystems.
    We recognize and thank the Committee for its decades of support of 
the SRF Program. From its inception, the SRF program has proven to be 
an effective and efficient means to help meet the significant needs of 
local communities.
    In California, the SRF programs provide vital support for a variety 
of water infrastructure needs. We have used the programs to support 
core water quality treatment functions, develop recycled water 
capacity, build resilient water supplies and capture sustainable energy 
from treatment processes. During the most recent stretch of 
extraordinary drought conditions, the SRF served as a lifeline to 
construct water recycling facilities and other critical infrastructure. 
Without these funds, the impact of the already devastating drought 
would have been significantly more severe.
    California, along with much of the Nation, faces deteriorating 
infrastructure, increased regulatory compliance costs, unpredictable 
weather conditions and general population growth. At the same time, 
financial support has declined for the key Federal partnership offering 
direct assistance through the SRF programs, which CASA agencies have 
relied on for decades. As noted above, in California alone, estimates 
show a $26 billion need for new wastewater infrastructure over the next 
20 years. This figure is in addition to the funding required to 
continue operation and maintenance of existing facilities and programs.
    CASA believes that the SRF program should continue to serve as the 
backbone of water and wastewater infrastructure financing at the State 
level and calls upon Congress to provide the programs with increased 
funding. The loan program provides the most important and effective 
infrastructure financing tool available today and should be viewed as 
an investment in the nation's health and its economy. Loan payments 
create the revolving aspect of the programs, meaning that outgoing 
moneys come back to the States to be loaned again for additional 
projects. The SRF program is the engine that allows CASA member 
agencies to continue their mission of protecting human health and the 
environment.
    CASA also appreciates the continued development and implementation 
of the WIFIA Program. Several of our members have submitted to USEPA 
full applications for qualifying projects and are eager to utilize this 
new water infrastructure financing tool. With its focus on large 
projects, WIFIA complements the SRF program, particularly as USEPA 
implements the new State finance authority focused WIFIA program. CASA 
looks forward to working with the committee to ensure that this new 
program is leveraged under any new infrastructure policy.
    We also see an important role for direct grant assistance. In many 
cases, smaller communities or segments of a service area lack the 
resources necessary to secure loans. In these circumstances, we 
strongly encourage Congress to authorize grants for such communities 
and service areas to serve as a catalyst for long-term water quality 
improvements. The financial commitment through grant assistance is a 
significant component of maintaining publ ic investment to improve 
public health and the environment.
the clean water srf allocation formula, unchanged since 1987, should be 
                                updated
    The Clean Water Act allocation formula determines the amount of SRF 
capitalization grant assistance provided to each State. The formula, 
which is based on a variety of factors including census population and 
capital needs, has not been updated since 1987. Meanwhile, the 
population in California and throughout the Nation has dramatically 
changed. Additionally, water infrastructure needs have grown 
substantially beyond the levels identified in 1987.
    As part of the Water Resources Reform and Development Act (WRRDA) 
of 2014, Congress directed the USEPA to conduct a study to examine the 
allocation formula and identify options to more accurately address 
current needs. In a May 2016 report (copy attached) ``Review of the 
Allotment of the Clean Water State Revolving Fund (CWSRF): Report to 
Congress'', the USEPA concluded, ``most States do not currently receive 
appropriated funds in proportion to their reported needs or population, 
which demonstrates the inadequacy of the current allotment.''
    The Committee is commended for seeking the report, as it provides a 
data-driven analysis of the current formula's impacts on States, 
particularly how it disadvantages States where needs have grown since 
1987. The report documents that the current 30-year-old allocation 
formula fails to equitably address the clean water infrastructure needs 
of today in an equitable State-by-State basis. Specifically, the 
current allocation formula fails to provide adequate funding assistance 
to the States based upon current water quality needs or population. For 
example, the report illustrated that SRF allocations to California 
should be significantly higher if they were based on a 2012 water 
quality needs survey. Alternatively, if 2010 population data was used, 
California's equitable share should also be significantly increased.
    The report presented three options to more accurately gauge needs 
and set allotments for the States in the future. In each instance, 
California would gain significant allotment, increasing anywhere 
between 14.7 percent to 24.9 percent, all well over its current 7.3 
percent allotment. These percentage changes were based on the 2012 
needs survey and 2010 census data, while applying constraints on the 
maximum increase or decrease to States. CASA requests that Congress 
update the Clean Water SRF allocation formula to reflect the findings 
of the USEPA's May 2016 Report.
      expanded private sector access to the srf program would be 
                           counterproductive
    In the past, proposals have been made to allow for private sector 
use of Clean Water SRF resources. CASA strongly opposes any initiative 
to open access to the SRF programs to the private sector for several 
reasons. First, a source of tax-exempt financing for private sector 
needs already exists in the form of private activity bonds (PABs). 
Moreover, diluting the purchasing power of already oversubscribed 
programs designed for the delivery of ``public works'' is 
counterproductive. Public entities that rely on traditional public 
financing for water infrastructure cannot afford the diversion of 
limited resources to privatize systems that were constructed with 
public moneys.
                    extension of npdes permit terms
    The extension of NPDES permit terms from five to 10 years is our 
top priority for any non-funding related infrastructure response. 
Congress has an opportunity to modernize the Clean Water Act permitting 
process to reflect the realities of today by making a straightforward 
change to this important environmental statute.
    The Clean Water Act requires publicly owned treatment works to 
secure a new permit to discharge highly treated wastewater every 5 
years. These relatively short permit terms were predicated on the 
priority for agencies to upgrade treatment facilities to secondary 
standards and conformed to technology lifecycles and infrastructure 
expectations of the era. More than 40 years later, water quality needs 
are increasingly complex and require new methods and technologies to 
support innovation in making water quality improvements.
    The existing 5-year renewal cycle results in unnecessary financial 
and technical burdens on local agencies and the State permitting 
authorities that must prepare and issue the permits. NPDES permits are 
becoming increasingly complex and restrictive, and the treatment 
technologies necessary to meet permit limits have become more expensive 
and time intensive to implement. As a result, many local public 
agencies have not completed the upgrades necessary to comply with their 
prior permit when they are faced with negotiating new terms and 
requirements. The 5-year term, established in 1972, does not reflect 
the realities of addressing today's clean water challenges and 
restricts State and local flexibility to address the highest clean 
water priorities. Additionally, the short permit term does not 
encourage long-term thinking that is essential to implement innovative 
solutions that produce the greatest benefits.
    Examples of the policy disconnect between the realities of today's 
water treatment needs and an antiquated 5-year permitting cycle abound. 
Project construction timelines can extend more than a decade, as public 
agencies seek to implement very large clean water infrastructure 
projects that must meet extensive environmental, tribal, historical and 
antiquities reviews, not to mention considerations for labor 
agreements, project design, scheduling and technology acquisition. This 
means local agencies must expend time and money to prepare for permit 
renewals even as they try to comply with existing permit requirements. 
At the same time, State and Federal permitting agencies devote an 
overwhelming amount of resources to the administrative reviews and 
approvals necessitated by a constant treadmill of permit applications. 
The work diverts limited resources away from more pressing issues, such 
as non-point sources and other water quality improvement programs. 
Further, the workload can create a permit backlog, leading to 
administrative extensions that are discouraged by the USEPA and lack 
certainty for the permitted entity and public alike.
    Authority to provide up to 10-year permit terms would facilitate 
the effective use of limited water quality resources, allowing local 
agencies and permitting authorities to focus on and address today's 
water quality needs, which have moved beyond the traditional point 
sources that were the focus in 1972. This change would benefit local 
public agencies, States and the public. Local water and wastewater 
agencies would be afforded adequate time to comply with existing 
regulatory requirements before the imposition of new ones and could 
better plan and more efficiently construct new facilities using the 
latest technology. States could direct more resources to non-point 
sources and watershed-based solutions. Further, existing permit 
reopener provisions currently provided for by law would allow new 
conditions to be addressed in NPDES permits during the 10-year term, if 
necessary, to protect water quality.
    In closing, CASA strongly endorses the Committee's commitment to 
develop a national infrastructure policy that will propel the Nation to 
sustained economic growth and improved public health. We look forward 
to working with the Committee in the coming months on this important 
matter.

                                 <F-dash>
  Letter from the Clean Water Council Submitted for the Record by Mr. 
                                DeFazio
                                                  January 28, 2019.
Hon. Nancy Pelosi
Speaker of the House, U.S. House of Representatives, Washington, DC.
Hon. Mitch McConnell
Senate Majority Leader, U.S. Senate, Washington, DC.
Hon. Kevin McCarthy
Minority Leader, U.S. House of Representatives, Washington, DC.
Hon. Charles E. Schumer
Minority Leader, U.S. Senate, Washington, DC.
    Dear Congressional Leaders,
    With the start of the 116th Congress, lawmakers have the 
opportunity to make a historic investment to rebuild our nation's 
infrastructure. At the Clean Water Council (CWC), we are a coalition of 
national organizations representing underground utility construction 
contractors, design professionals, manufacturers, suppliers, labor 
representatives, construction materials, and other organizations 
committed to ensuring a healthy quality of life through sound water 
infrastructure. Members of the CWC are writing to highlight the 
significant needs in our nation's underground water infrastructure and 
to urge you to address these needs in any infrastructure package that 
Congress considers.
    Our nation's underground water infrastructure ensures that 
Americans have access to clean drinking water, provides businesses with 
the resources they need to keep our economy moving, and protects our 
nation's waterways, beaches, and other recreational opportunities. 
Taken together, well-functioning water infrastructure is indispensable 
to the health of our country.
    Unfortunately, this infrastructure is in serious need of repair. 
According to the Environmental Protection Agency's (EPA) most recent 
assessments, $472.6 billion is needed to maintain and improve drinking 
water systems and $271 billion will be needed for wastewater and 
stormwater treatment systems over the next twenty years. The American 
Society of Civil Engineers' (ASCE) report card gives our nation's 
drinking water and wastewater infrastructure a D and D+, respectively. 
We see the evidence of these needs through daily stories of broken 
water pipes and other critical infrastructure failures.
    With a renewed interest in infrastructure, Congress has an 
opportunity to address these challenges in a bipartisan way. Making 
these investments and improvements to water utilities would have 
multiple positive benefits.
    First and foremost, addressing underground water infrastructure 
will lead to better public health outcomes. Whether it is preventing 
harmful pollution from entering our waterways, or protecting against 
tragedies like lead poisoning, water infrastructure gets the job done. 
To quantify these impacts, a recent study conducted by the College of 
William & Mary's Public Policy Program found that a single dollar spent 
on drinking water infrastructure generates hundreds of dollars in 
public health benefits.
    In addition to health benefits, drinking water and wastewater 
infrastructure investments also generate economic activity and support 
high-paying jobs. Sudden Impact, a study previously conducted by the 
CWC, found that $1 billion invested in water infrastructure has the 
potential to create 20,003 to 26,669 jobs. Furthermore, a study by the 
Value of Water Campaign found that jobs and careers in the water 
infrastructure sector offer an average wage of $63,000 per year, and 
many of these opportunities are available to individuals with only a 
high school diploma.
    In the 116th Congress, the CWC will be working to highlight these 
infrastructure needs and how lawmakers can address them. We urge you to 
include investment in water infrastructure as part of any 
infrastructure package.
        Respectfully,
                 Members of the Clean Water Council
                     American Concrete Pavement Association
                         American Concrete Pipe Association
                American Concrete Pressure Pipe Association
                  American Council of Engineering Companies
                          American Iron and Steel Institute
                          American Public Works Association
        American Road & Transportation Builders Association
                                American Supply Association
                          Associated Equipment Distributors
                     Ductile Iron Pipe Research Association
                   Interlocking Concrete Pavement Institute
                 International Union of Operating Engineers
            National Association of Sewer Service Companies
                      National Precast Concrete Association
                  National Ready Mixed Concrete Association
                National Stone, Sand and Gravel Association
                   National Utility Contractors Association
         Nulca--representing utility locating professionals
                                    Plastics Pipe Institute
                                Portland Cement Association
                      Water & Sewer Distributors of America
   Water and Wastewater Equipment Manufacturers Association

                                 <F-dash>
 Letter from the Corps Network Submitted for the Record by Mr. DeFazio
                                                 February 21, 2019.
Hon. Peter DeFazio
Chairman
Hon. Sam Graves
Ranking Member
Transportation and Infrastructure Committee, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves,
    On behalf of the Corps Network, I write with respect to the hearing 
that occurred on February 7, ``The Cost of Doing Nothing: Why Investing 
in Our Nation's Infrastructure Cannot Wait.'' Thank you for convening 
the hearing with the sense of urgency the situation demands and for 
allowing outside written testimony for the record. As Congress 
continues researching the extent our national infrastructure needs and 
works to identify cost-efficient and effective solutions, we ask the 
Committee to consider the role and value brought forth by the nation's 
Service and Conservation Corps (Corps).
    Corps provide cost-effective project assistance to build and 
maintain a wide array of natural resource, energy, water, 
transportation and recreation infrastructure and public works while 
developing the next generation workforce. With retirements looming in 
heavy industries, and workforce shortages in these industries already, 
Corps provide ready-to-work members with the 21st century job skills 
needed to be successful in the workplace. Corps align with career 
pathways and credentials in these industries and provide the in-demand 
hard skills necessary to advance into more skilled careers. Corps are 
not intended to displace or supplant contractors.
    The 135 locally-based Corps of the Corps Network stand-ready to 
help accomplish a variety of infrastructure projects and represent a 
hire-American and buy-American philosophy by providing young adults and 
veterans (Corpsmembers) the opportunity to serve their country through 
national service and AmeriCorps, advance their education, and obtain 
in-demand skills and credentials. Serving in crews and individual 
placements, Corpsmembers perform conservation, infrastructure, wildfire 
and invasive species remediation, disaster response, recreation, and 
community development service projects on public lands and in rural and 
urban communities.
    More of these innovative public-private partnerships should be 
developed, and taxpayer funds could be better leveraged, by 
prioritizing the use of Corps in an infrastructure package using 
existing funding to increase access, recreation opportunities, 
productivity of fish and wildlife habitat, enhance multi-use trials, 
and address wildfires, backlog maintenance, and historic preservation. 
Corps already have authority in federal law for these partnerships with 
DOI, USDA, DOT, and USACE and bring a significant match to these 
projects as well, making limited federal funds go even further.
    Congress has, on numerous occasions, recognized Corps' capacity to 
prepare diverse youth to succeed in careers in transportation, water 
and natural resource management, and other related infrastructure 
fields. Federal precedent to engage Corps already exists:
    <bullet>  33 U.S.C. 2339 Water Infrastructure Improvements for the 
Nation Act: Section 1101--Youth Service & Conservation Corps 
Organizations
    <bullet>  PL 112-141 Moving Ahead for Progress in the 21st Century 
Act (MAP-21): Section 1524--Use of Youth Service & Conservation Corps
    <bullet>  42 U.S.C. 12656: Urban Youth Corps
    <bullet>  16 U.S.C., Chapter 37, Subchapter II: Public Lands Corps

    Federal transportation law exempts contracts and cooperative 
agreements with Corps from Federal-aid highway program contracting 
requirements under 23 U.S.C. 112. A State or regional transportation 
planning agency may sole-source contracts and cooperative agreements to 
Corps for work undertaken for byway, recreational trail, transportation 
alternatives, bicycle and pedestrian, or Safe Routes to School 
projects.
    For example, the following activities and projects are performed by 
Corpsmembers on transportation projects:
    <bullet>  Trail construction and maintenance
    <bullet>  Transit workforce development
    <bullet>  CDL and forklift training
    <bullet>  Signage and fencing installation, painting
    <bullet>  Flagger Certification and site management;
    <bullet>  Green Infrastructure installation and maintenance
    <bullet>  Developing pedestrian and bicycle facilities including 
ensuring compliance with accessibility requirements
    <bullet>  Scenic turn-out and overlook construction
    <bullet>  Trail conversion of abandoned railway corridors
    <bullet>  Historic preservation and rehabilitation of historic 
transportation facilities
    <bullet>  Environmental mitigation
    <bullet>  Restoration and/or maintainingwildlife connectivity
    <bullet>  Landscaping and streetscaping to complete transportation 
projects
    <bullet>  Vegetation management

    Through an infrastructure package, Corps can be utilized and 
prioritized on a wide variety of projects sponsored by the following 
federal agencies in order to better leverage limited taxpayer funds and 
have the added benefits of developing the next generation 
infrastructure workforce: Departments of Interior, Agriculture, 
Transportation, Energy, Housing, and FEMA, US Army Corps of Engineers, 
NOAA, EPA and the Corporation for National and Community Service.
    As Congress considers the multitude of ways to modernize and 
strengthen our infrastructure to meet the current and future needs, we 
urge the Committee to consider prioritizing the following:
    1.  Use a broad definition of infrastructure to encompass natural 
resources; lands and recreation; disaster resiliency; drought, drinking 
and waste water; multi-use transportation; and energy efficiency.
    2.  Include a priority for the use of Corps as in past 
infrastructure laws for workforce development, national service, and 
work-based learning opportunities.
    3.  Include language amending existing agreement authority for 
Corps to partner with more federal agencies on projects through 
cooperative agreements (21CSC Act--S.1993 & HR 5114).
    4.  Ensure public-private partnerships (PPP's) are emphasized with 
non-profits in addition to investors and businesses.
    5.  Include AmeriCorps Education Awards tied to infrastructure 
projects as a method to further in-demand skills development.

    As an infrastructure package develops, we respectfully urge you to 
include Corps as a priority project partner and identify other 
innovative ways for us to be engaged in improving our nation's 
infrastructure for all Americans. Thank you for your time and 
consideration of these issues.
        Sincerely,
                                   Mary Ellen Sprenkel
                                           President & CEO
                       corps of the corps network
NATIONAL & REGIONAL ORGANIZATIONS:
       American Conservation Experience AmeriCorps NCCC
       Community Training Works, Inc/YACC Conservation Legacy
       Greening Youth Foundation
       Student Conservation Association (SCA)
ALASKA
       Anchorage Park Foundation/YEP
       Student Conservation Association (Anchorage Office)
ARIZONA
       American Conservation Experience
       Arizona Conservation Corps (Flagstaff, Tucson)
       Work in State: CCYC (UT); NWYC (OR), RMYC (NM)
ARKANSAS
       Cass Job Corps Civilian Conservation Center
       Ouachita Job Corps Civilian Conservation Center
CALIFORNIA
       AmeriCorps NCCC (Pacific Region)
       California Conservation Corps
       Civicorps
       Conservation Corps of Long Beach
       Conservation Corps North Bay
       Desert Restoration Corps (SCA)
       Fresno EOC Local Conservation Corps
       Greater Valley Conservation Corps
       Kern Service and Conservation Corps
       Los Angeles Conservation Corps
       Orange County Conservation Corps
       Sacramento Regional Conservation Corps
       San Francisco Conservation Corps
       San Gabriel Valley Conservation Corps
       San Joaquin Regional Conservation Corps
       San Jose Conservation Corps & Charter School
       Sequoia Community Corps
       Sonoma County Youth Ecology Corps
       Student Conservation Association (Oakland)
       Urban Conservation Corps /S.CA. Mtns Foundation
       Urban Corps of San Diego County
       Work in State: ACE (AZ); ACC (AZ); NCC (NV); NYC (OR)
COLORADO
       AmeriCorps NCCC (Southwest Region)
       Collbran Job Corps Civilian Conservation Center
       Conservation Legacy (HQ)
       Environment for the Americas
       Serve Colorado
       Larimer County Conservation Corps
       Mile High Youth Corps
       Rocky Mountain Conservancy
       Rocky Mountain Youth Corps (Steamboat Springs)
       Southwest Conservation Corps (Four Corners, Los Valles)
       Western Colorado Conservation Corps
       Work in State: CCYC (UT)
CONNECTICUT
       Knox Parks Foundation - Green Crew
DELAWARE
       Delaware State Parks Youth Conservation Corps
       Delaware State Parks Veterans Conservation Corps
DISTRICT OF COLUMBIA
       AmeriCorps National Civilian Community Corps (HQ)
       Student Conservation Association (Capital Region)
FLORIDA
       Community Training Works, Inc. / Young American CC
       Conservation Corps of the Forgotten Coast
       Greater Miami Service Corps
GEORGIA
       Greening Youth Foundation (HQ)
HAWAII
       KUPU/Hawaii Youth Conservation Corps
IDAHO
       Centennial Job Corps Civilian Conservation Center
       Idaho Conservation Corps
       SCA Idaho AmeriCorps
       Work in State: MCC (MT); NCC (NV); NYC (OR)
ILLINOIS
       Greencorps Chicago
       Golconda Job Corps Civilian Conservation Center
       Peoria Corps
       Student Conservation Association (Chicago)
       Youth Conservation Corps, Inc.
       YouthBuild Lake County
IOWA
       AmeriCorps NCCC (North Central Region)
       Conservation Corps Minnesota & Iowa (Ames)
KENTUCKY
       Frenchburg Job Corps Civilian Conservation Center
       Great Onyx Job Corps Civilian Conservation Center
       Pine Knot Job Corps Civilian Conservation Center
LOUISIANA
       Limitless Vistas, Inc.
       Work in State: AYW (TX)
MAINE
       Maine Conservation Corps
MARYLAND
       AmeriCorps NCCC (Southwest Region)
       Civic Works
       Maryland Conservation Corps
       Montgomery County Conservation Corps
       Work in State: CCCWV (WV)
MASSACHUSETTS
       Massachusetts Corps (SCA)
MICHIGAN
       Detroit Conservation Corps
       Great Lakes Conservation Corps Michigan
       Civilian Conservation Corps
       Student Conservation Association (Detroit)
       SEEDS Youth Conservation Corps
       Work in State: CCMI (MN), GLCCC (WI)
MINNESOTA
       Conservation Corps Minnesota & Iowa
MISSISSIPPI
       CLIMB Community Development Corporation
MISSOURI
       Mingo Job Corps Civilian Conservation Center
       Work in State: CCMI (MN)
MONTANA
       Anaconda Job Corps Civilian Conservation Center
       Montana Conservation Corps
       Trapper Creek Job Corps Civilian Conserv. Center
NEBRASKA
       Pine Ridge Job Corps Civilian Conservation Corps
NEVADA
       Nevada Conservation Corps (Great Basin Institute)
       Work in State: ACC (AZ)
NEW HAMPSHIRE
       New Hampshire Corps (SCA)
       Work in State: GMC (VT)
NEW JERSEY
       New Jersey Youth Corps of Atlantic Cape May
       New Jersey Youth Corps of Camden/The Work Group
       New Jersey Youth Corps of Elizabeth
       New Jersey Youth Corps of Jersey City
       New Jersey Youth Corps of Middlesex County
       New Jersey Youth Corps of Monmouth County
       New Jersey Youth Corps of Newark
       New Jersey Youth Corps of Paterson
       New Jersey Youth Corps of Phillipsburg
       New Jersey Youth Corps of Trenton
       New Jersey Youth Corps of Trenton Isles
       New Jersey Youth Corps of Vineland
       New York New Jersey Trail Conference
       Student Conservation Association (New Jersey)
NEW MEXICO
       EcoServants
       Rocky Mountain Youth Corps (Taos)
       Southwest Conservation Corps (Ancestral Lands)
       YouthWorks Santa Fe
NEW YORK
       Adirondack Corps (SCA)
       Excelsior Conservation Corps Green City Force
       Hudson Valley Corps (SCA)
       New York City Justice Corps - Bronx
       New York City Justice Corps - Brooklyn
       New York City Justice Corps - Harlem
       New York City Justice Corps - Queens
       New York Restoration Project
       Onondaga Earth Corps
       Student Conservation Association (New York City)
       The Place/Headwaters Youth Conservation Corps
       The Service Collaborative of WNY, Inc.
       Work in State: NYNJTC (NJ)
NORTH CAROLINA
       American Conservation Experience
       L.B. Johnson Job Corps Civilian Conservation Center
       North Carolina Youth Conservation Corps
       Northwest Piedmont Service Corps
       Oconaluftee Job Corps Civilian Conservation Center
       Schenk Job Corps Civilian Conservation Center
       Work in State: VYCC (VT), ATCLC (WV)
NORTH DAKOTA
       Work in State: CCMI (MN); MCC (MT)
OHIO
       WSOS Community Action
OKLAHOMA
       Work in State: AYW (TX)
OREGON
       Angell Job Corps Civilian Conservation Center
       Heart of Oregon
       Northwest Youth Corps Oregon Volunteers
       Timber Lake Job Corps Civilian Conservation Center
       Wolf Creek Job Corps Civilian Conservation Center
PENNSYLVANIA
       PowerCorpsPHL
       Student Conservation Association (Pittsburg/Philadelphia)
SOUTH CAROLINA
       Palmetto Conservation Corps
       St. Bernard Project
       The Sustainability Institute/Energy Conservation Corps
SOUTH DAKOTA
       Boxelder Job Corps Civilian Conservation Center
       Work in State: CCMI (MN); MCC (MT)
TENNESSEE
       Jacobs Creek Job Corps Civilian Conserv. Center
       Knox County CAC AmeriCorps
       Southeast Youth Corps
TEXAS
       American YouthWorks, incl. Texas Conservation Corps
       Student Conservation Association (Houston)
       Work in State: Southwest Conservation Corps (CO)
UTAH
       American Conservation Experience
       Canyon Country Youth Corps
       Utah Conservation Corps
       Weber Basin Job Corps Civilian Conservation Center
       Work in State: ACC (AZ)
VERMONT
       Green Mountain Club
       Vermont Youth Conservation Corps
VIRGINIA
       Flatwoods Job Corps Civilian Conservation Corps
       SCA (Student Conservation Association) (HQ)
       Virginia Service and Conservation Corps
       Virginia State Parks Youth Conservation
       Work in State: ATCLC (WV)
WASHINGTON
       Columbia Basin Job Corps Civilian Conserv. Center
       Curlew Job Corps Civilian Conservation Center
       EarthCorps
       Fort Simcoe Job Corps Conservation Center
       Mt. Adams Institute
       Northwest Youth Corps
       Student Conservation Association (Seattle)
       Washington Conservation Corps
       Youth Green Corps - Seattle Parks & Recreation
WEST VIRGINIA
       Appalachian Trail Conservancy Leadership Corps
       Citizens Conservation Corps
       Harpers Ferry Job Corps Civilian Conserv. Center
       Stewards Individual Placement Program
WISCONSIN
       Blackwell Job Corps Civilian Conservation Center
       Fresh Start - ADVOCAP
       Fresh Start - Renewal Unlimited, Inc.
       Great Lakes Community Conservation Corps
       Milwaukee Community Service Corps
       Operation Fresh Start
       Student Conservation Association (Milwaukee)
       WisCorps / Wisconsin Conservation Corps
       Work in State: CCMI (MN)
WYOMING
       Wyoming Conservation Corps
       Work in State: RMYC (CO); MCC (MT); UCC (UT)

                                 <F-dash>
   Statement of GPS Innovation Alliance and CompTIA Space Enterprise 
            Council Submitted for the Record by Mr. DeFazio
    The GPS Innovation Alliance (GPSIA) and the CompTIA Space 
Enterprise Council jointly submit this statement in support of the 
Committee's examination of our nation's infrastructure.
    America has a history of creating infrastructure milestones that 
have led to significant prosperity and national advantages. During the 
1950s and 1960s, our nation was transformed by explosive growth in its 
public infrastructure ecosystem. That ecosystem allowed America to 
prosper by bridging communities and creating regional pockets of 
innovation. Coupled with the Space Race with the Soviet Union, the 20th 
century infrastructure ecosystem helped make America a technological 
superpower.
    Now we have the opportunity to create a 21st century national 
infrastructure that will benefit all Americans. In almost every aspect 
of our infrastructure ecosystem, the Global Positioning System (GPS), a 
constellation of satellites located 12,500 miles above the earth, has 
played an integral role. The three capabilities derived from the 
constellation are Positioning, Navigation, and Timing. All three play 
key roles in the infrastructure ecosystem. According to theDepartment 
of Transportation, Positioning is the ability to accurately and 
precisely determine one's location and orientation two-dimensionally 
(or three-dimensionally when required), Navigation is the ability to 
determine current and desired position (relative or absolute) and apply 
corrections to course, orientation, and speed to attain a desired 
position anywhere around the world, from sub-surface to surface and 
from surface to space. Timing is the ability to acquire and maintain 
accurate and precise time from a standard (Coordinated Universal Time, 
or UTC), anywhere in the world and within user-defined timeliness 
parameters. Similarly, communication satellites provide voice, video, 
and data supporting aviation, defense, banking, and agriculture.
    A 21st century infrastructure ecosystem includes transportation 
(roads, bridges, ports, and airports), water (public utilities) and 
energy (electric grid) that is layered by cross-cutting smart 
technology and enabled by ubiquitous broadband connectivity and 
sensors. Our infrastructure is urban, suburban, and rural, impacting 
every single American.
    As we invest in our infrastructure, we must take into account 
emerging technologies for both the physical infrastructure (new durable 
materials) and the digital tier that makes the physical infrastructure 
smart. These technologies range from commercial earthmoving and grading 
equipment that use GPS to digital 3D models that can help streamline 
the construction process. When we utilize commercially-proven and 
competitively acquired technologies, we can improve efficiency, 
productivity and reduce delays associated with the engineering, 
construction and operation of infrastructure projects. All of this 
translates into substantial savings, both in terms of new and existing 
spending.
    Whether in the air or on the ground, it is imperative that we 
invest the resources needed to build a 21st century infrastructure. The 
status quo of aging bridges and not yet universal broadband 
connectivity is simply unacceptable. We must aim for American 
exceptionalism. Our GPS constellation will play a leading role in that 
exceptionalism. GPSIA and the CompTIA Space Enterprise Council 
appreciate the opportunity to share this perspective with the Committee 
and stand ready to work with you on efforts to advance our nation's 
infrastructure while promoting, protecting, and enhancing GPS and other 
communication satellites.

                                 <F-dash>
Letter from the Great Lakes Metro Chambers Coalition Submitted for the 
                         Record by Mr. DeFazio
                                                  February 5, 2019.
Hon. Peter DeFazio
Chairman, House Committee on Transportation and Infrastructure, U.S 
        House of Representatives, Washington, DC.
    Chairman DeFazio:
    Congratulations on your critical leadership position. The work you 
and the members of the House Transportation and Infrastructure 
Committee will lead will set the stage for important policy discussions 
regarding America's public transportation and infrastructure.
    The Great Lakes Metro Chambers Coalition (GLMCC)--a collective of 
chambers of commerce that jointly advocate on core Federal policies 
that impact economic growth and job creation--represents more than 
60,000 employers of all sizes. We have worked productively with 
Administrations and congressional leaders for 10 years on a bi-partisan 
policy agenda that supports the revitalization of the Great Lakes 
region.
    As your record in Congress demonstrates, business and economic 
development efforts cannot succeed without a strong transportation and 
infrastructure network. Our Coalition shares your view that investment 
in public transportation pays significant economic and societal 
benefits. Research from Transportation for America shows that every 
dollar invested in public transportation generates a fourfold 
multiplier in benefit. As the nation's manufacturing and logistics 
powerhouse, these transportation investments are particularly important 
to the Great Lakes region and directly impact the national economy.
    The GLMCC shares the following priorities that are important for 
the Great Lakes and have tremendous national impact:
    <bullet>  Direct Federal spending for transformative infrastructure 
and transportation projects across the Great Lakes region. This funding 
should allow for innovation and flexibility in how regions deploy 
transportation and infrastructure investments in order to advance 
regional priorities.
    <bullet>  Maintain the Poe Lock and build a second Poe-sized lock 
at the Soo Locks, the only channel for shipping commodities into and 
out of Lake Superior.
    <bullet>  Prioritize investments for the Great Lakes in the Water 
Resources Development Act.
    <bullet>  Mandate full use of the Harbor Maintenance Tax revenue 
for the Army Corps of Engineers' operational and maintenance 
activities. This is critically important for the Great Lakes as funds 
support the dredging of harbors, maintenance of breakwaters and the 
operation of the Soo Locks.

    We also support several national policies that are important to 
transportation and infrastructure. These include full funding for the 
Capital Investment Grants (CIG) and Better Utilizing Investments to 
Leverage Development (BUILD) programs; fixing the Highway Trust Fund, a 
critically important program that is suffering from a structural 
revenue deficit; and advancing critically needed legislation to support 
the testing and development of autonomous vehicle technology and 
``Smart Cities'' that will drive our economic future.
    Thank you for your leadership on these important issues. We stand 
ready to work with you and the Committee to make progress toward these 
shared priorities.
        Respectfully,
                                  Dottie Gallagher,
                      President & CEO, Buffalo Niagara Partnership.
                                         Joe Roman,
                    President & CEO, Greater Cleveland Partnership.
                                   Sandy K. Baruah,
                         President & CEO, Detroit Regional Chamber.
                                        Matt Smith,
                 President, Greater Pittsburgh Chamber of Commerce.

                                 <F-dash>
Letter from Healing Our Waters-Great Lakes Coalition Submitted for the 
                         Record by Mr. DeFazio
                                                  February 6, 2018.
Hon. Peter DeFazio
Chairman, Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Sam Graves
Ranking Member, Committee on Transportation and Infrastructure, U.S. 
        House of Representatives, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves:
    On behalf of the Healing Our Waters-Great Lakes Coalition, I write 
to thank you for holding a hearing on the impacts of not investing in 
our nation's infrastructure. We appreciate the committee making this a 
priority and support action for fixing our drinking water, wastewater, 
and stormwater infrastructure.
    Communities across the Great Lakes region continue to grapple with 
crumbling, antiquated water infrastructure. A staggering $179 billion 
over the next 20 years is needed in improvements, upgrades, and repairs 
in the eight-state region of Minnesota, Wisconsin, Illinois, Indiana, 
Michigan, Ohio, Pennsylvania, and New York. Federal programs provide 
much-needed funding to help communities meet their clean water goals.
    Congressional investment is vital so people in the Great Lakes do 
not foot the entire bill for these expensive, but necessary, water 
infrastructure upgrades. From 2010 to 2017, water costs increased 41 
percent across the country. While water rates rise for consumers, 
federal funding for water infrastructure has dropped significantly 
since 1977. According to the U.S. Water Alliance, in that year 
investments from the federal government made up 63 percent of total 
spending on water infrastructure. By 2014, the federal government's 
contribution dropped to 9 percent.
    Some communities simply cannot afford to bear the full weight of 
financing these expensive upgrades. Higher water rates, which are 
frequently a solution to covering infrastructure improvements at the 
local level, do not work for families that already cannot pay their 
water bills and face water shutoffs that jeopardize their health and 
the health of their children. Many communities, like Flint and 
Milwaukee, are living with lead in their drinking water, while other 
urban and rural communities are facing polluted farm runoff that 
contaminates ground water. The cost of not fixing our water 
infrastructure is being borne right now by people in communities around 
the Great Lakes.
    The federal government can help, which is why we support Congress 
passing an infrastructure bill that includes robust support for fixing 
our region's drinking water, wastewater, and stormwater infrastructure. 
We ask Congress to:
    <bullet>  At least triple the funding for wastewater and stormwater 
improvements through the Clean Water and Drinking Water State Revolving 
Funds, to at least $5.1 billion and at least $3.5 billion respectively.
    <bullet>  Ensure that infrastructure funding supports nature-based 
solutions such as restoring wetlands, building rain gardens, and 
installing permeable roads and sidewalks-solutions that prevent 
problems before they become more serious, while enhancing climate 
resilience.
    <bullet>  Incorporate measures to ensure people can afford their 
water, such as providing more flexible financing options like grants 
for disadvantaged communities; supporting and creating programs like 
those in last year's Low Income Sewer and Water Assistance Program Act 
that help low-income households pay their water bills; providing 
incentives for utilities to adopt more equitable water and sewer rate 
structures; and ensuring funding is invested in communities in ways 
that empower and build those communities through job training and long-
term employment.
    <bullet>  Preserve and strengthen source water protections that 
also help reduce runoff, support fish and wildlife, and provide 
recreational opportunities.
    <bullet>  Ensure that infrastructure legislation does not undermine 
or weaken environmental protections.

    Investments in our region are paying off but there is much more to 
be done. The federal government needs to be a partner with our 
communities to help them meet their clean water goals. We have 
solutions; it is time to use them. Delay will only make the problems 
worse and costlier to solve.
    Thank you again for your hearing highlighting an issue that affects 
the drinking water for 35 million Americans in the Great Lakes region. 
If you have any questions, please contact me.
        Sincerely,
                                                 Chad Lord,
                                                   Policy Director.

                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Photo credit: Jim Wasley

    Communities across Great Lakes region continue to grapple with 
crumbling, antiquated drinking water and waste water infrastructure. A 
staggering $179 billion over the next 20 years is needed in 
improvements, upgrades, and repairs in the eight-state region of 
Minnesota, Wisconsin, Illinois, Indiana, Michigan, Ohio, Pennsylvania, 
and New York. Federal programs provide much needed funding to help 
communities meet their clean water goals.
    The Healing Our Waters-Great Lakes Coalition asks the U.S. Congress 
to:
    <bullet>  At least double the funding for wastewater, drinking 
water, and stormwater infrastructure in rural, urban, and suburban 
communities through the Clean Water or Drinking Water State Revolving 
Funds and through new and innovative funding sources.
    <bullet>  Ensure that infrastructure funding supports nature-based 
solutions that prevent problems before they become more serious and 
that enhance climate resilience. Funding should include a 15 percent 
set-aside for projects that incorporate nature-based infrastructure.
    <bullet>  Incorporate measures to ensure the affordability of clean 
water, such as providing more flexible financing options like grants 
for disadvantaged communities; support for programs like those in HR 
2328, the Low Income Sewer and Water Assistance Program Act that help 
low-income households pay their water bills; and provide incentives for 
utilities to adopt more equitable water and sewer rate structures.
    <bullet>  Ensure that infrastructure legislation does not undermine 
or weaken environmental protections.
    <bullet>  Preserve and strengthen source water protections that 
also help reduce runoff, support fish and wildlife, and provide 
recreational opportunities.
    The Great Lakes provide drinking water for more than 30 million 
people. They are the foundation of our economy and our way of life. 
Unfortunately, the lakes face serious threats. Repairing old 
infrastructure is a large undertaking--and expensive. Paying for these 
projects often falls on communities that cannot afford it, underscoring 
the importance of financial support from the federal government.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       Photo credit: iStockPhoto

     $179 billion over 20 years needed to fix water infrastructure
    A survey of infrastructure investment needed in the nation shows 
that the Great Lakes region alone requires $179 billion over the next 
20 years to repair and replace our wastewater and drinking water 
infrastructure. (Figure 1.)
          crumbling infrastructure causes water rates to rise
    People in the Great Lakes region must foot the bill for these 
expensive, but necessary, water infrastructure upgrades. From 2010 to 
2017, water costs increased 41 percent across the country.\1\ At the 
same time, federalfunding for water infrastructure dropped 
significantly since 1977. In that year, investments from the federal 
government made up 63 percent of total spending on water 
infrastructure. By 2014, the federal government's contribution had 
dropped to 9 percent. In some communities, when individuals cannot pay 
their water bills they face water shutoffs, which jeopardize their 
health and the health of their children.\2\
---------------------------------------------------------------------------
    \1\ Mack, E.A., and S. Wrase. ``A Burgeoning Crisis? A Nationwide 
Assessment of the Geography of Water Affordability in the United 
States.'' PLOS ONE. Jan 11, 2017.
    \2\ U.S. Water Alliance. 2017. ``An Equitable Water Future: A 
National Briefing Paper'' P. 12.
---------------------------------------------------------------------------
            threats to drinking water persist in communities
    Old, leaky pipes waste 6 billion gallons of clean drinking water 
every day at a time when many families are struggling to afford their 
bills.\3\ Rural and urban communities still face threats: many 
communities, including Flint, Milwaukee,\\ and others are living with 
lead in their drinking water, and in many others polluted farm runoff 
contaminates ground water.\\
---------------------------------------------------------------------------
    \3\ American Society of Civil Engineers 2017 ``Infrastructure 
Report Card'' https://www.infrastructurereportcard.org/wp-content/
uploads/2017/01/Drinking-Water-Final.pdf
    \4\ U.S. E.P.A. 2016. ``Clean Watersheds Needs Survey 2012: Report 
to Congress.'' Pp. A-1-A-2. https://www.epa.gov/sites/production/files/
2015-12/documents/cwns_2012_report_to_
congress-508-opt.pdf
    \5\ U.S. E.P.A. 2013. ``Drinking Water Infrastructure Needs Survey 
and Assessment: Fifth Report to Congress.'' P. 19. https://www.epa.gov/
sites/production/files/2015-07/documents/epa816r13006.pdf
---------------------------------------------------------------------------
            Figure 1: Great Lakes Region Infrastructure Investment 
                    Needs

----------------------------------------------------------------------------------------------------------------
                                              Wastewater             Drinking Water
                                         Infrastructure Need      Infrastructure Need      Total Infrastructure
                                          over 20 Years \4\        over 20 Years \5\        Need over 20 Years
----------------------------------------------------------------------------------------------------------------
Illinois.............................  $6.537 billion.........  $18.985 billion........  $25.913 billion
Indiana..............................  $7.162 billion.........  $6.547 billion.........  $13.843 billion
Michigan.............................  $2.077 billion.........  $13.814 billion........  $16.175 billion
Minnesota............................  $2.389 billion.........  $7.363 billion.........  $9.903 billion
New York.............................  $31.439 billion........  $22.041 billion........  $53.936 billion
Ohio.................................  $14.587 billion........  $12.191 billion........  $27.030 billion
Pennsylvania.........................  $6.950 billion.........  $14.227 billion........  $21.471 billion
Wisconsin............................  $6.329 billion.........  $7.141 billion.........  $13.616 billion
                                      --------------------------------------------------------------------------
  Total Regional Need................  $77.470 billion........  $102.289 billion.......  $179.759 billion
----------------------------------------------------------------------------------------------------------------

        sewage pollutes the great lakes, harming our way of life
    Sewage overflows during heavy rains are still a reality in the 
Great Lakes region with tens of billions of gallons of sewage entering 
the lakes each year. As a result, beaches are closed and public health 
is threatened. Our quality of life is undermined when our Great Lakes 
are polluted.
   federal investments key to helping communities protect clean water
    Sewage overflows can be prevented. Crumbling pipes can be replaced. 
Outdated facilities can be updated. But each of these projects costs 
money--often more money than communities alone can afford. Federal 
programs like the Clean Water and Drinking Water State Revolving Funds 
can help communities offset the cost of these needed investments in 
wastewater and drinking water infrastructure. Both offer low-interest 
loans to communities to address these costly infrastructure challenges. 
Funding levels have not kept pace with need, and Congress should take 
steps to make these investments a priority.
           nature-based solutions can save communities money
    Not all investments need to be in restoring traditional 
infrastructure. Nature-based solutions including the construction of 
rain gardens, planting of trees, and restoration of wetlands can help 
absorb and filter rain water before it overwhelms outdated systems. 
This reduces the burden on traditional water infrastructure and saves 
communities money.
                         congress needs to act
    Investments in the region are paying off--but much more needs to be 
done. The U.S. Congress needs to do its fair share to help local 
communities meet their clean water goals. We have solutions. It's time 
to use them. Delay will only make the problems worse and more costly to 
solve.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Photo credit: James M. Pease at commons.Wikimdia.org (Left) Cleveland 
                           Metroparks (Right)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Photo credit: Kari Lydersen
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Photo credit: Donna Kert

             the healing our waters--great lakes coalition
    We are more than 150 local and national organizations representing 
the interests of business, agriculture, and outdoor recreation; local 
counties, cities, towns, and neighborhoods; and the environment, zoos, 
aquariums, and museums. Learn more at healthylakes.org. Follow us on 
Twitter @healthylakes.

                                 
   Statement of the National Association of Small Trucking Companies 
                 Submitted for the Record by Mr. Babin
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee on Transportation and Infrastructure, the National 
Association of Small Trucking Companies (NASTC) appreciates the 
committee's early focus on infrastructure. NASTC is pleased to share 
our views on the subject of your February 7 hearing.
    NASTC is a member-based organization whose more than 10,000 member 
companies range from a single or two or three power units to more than 
100 power units; however, our members average 16 power units. These 
companies for the most part operate in the long-haul, over-the-road, 
full-truckload, for-hire sector of interstate trucking. NASTC's members 
come from the largest segment of America's long-haul trucking--they are 
small motor carrier businesses. Thus, they are representative of the 
vast majority of our nation's commercial motor carriers, the roughly 
440,000 having fewer than 100 power units, in contrast to the 1,441 
megafleet carriers with more than 100 units.
    NASTC appreciates the need to fix, maintain, and build new highways 
and bridges, and we acknowledge the logjam over how to fund this 
undertaking. We confine our comments to surface transportation 
infrastructure and the Highway Trust Fund, rather than speak to 
aviation, water, and other types of infrastructure. NASTC is eager to 
play a constructive role in efforts to achieve the best interests of 
our country, the shipping and traveling public, and commercial motor 
carriers.
    To begin, NASTC believes that all Americans benefit from having 
sound, safe roads and bridges. Assuring their maintenance is in the 
public interest. Thus, all users of federal highways, including 
electric and hybrid vehicles and bicycles, should help fund their 
construction and upkeep.
    The fact that the federal fuel tax has not risen in more than 25 
years directly contributes to the state of our infrastructure and the 
tenuous status of the Highway Trust Fund. The segments of highways and 
bridges in need of repair have steadily grown, due both to increased 
traffic volume and political failure to keep the ``trust'' in the trust 
fund. The 1990s fuel tax level's inadequacy two decades into the 21st 
century is compounded by allowing nonhighway use of HTF monies. It is 
unfair to drain limited user fee revenues (i.e. fuel tax monies) for 
superfluous uses that may be nice to have, but unrelated to ensuring 
safe roads and bridges for their users. It is imperative first and 
foremost to ensure that the Highway Trust Fund is solvent and that its 
funds are not unduly diverted.
    The straightforward solution would be to phase in an increase in 
the federal fuel tax, along with indexing it for inflation. NASTC has 
generally been willing to go along with a phased-in increase in the 
federal fuel tax. However, we insist on certain conditions in exchange 
for lending our support to a fuel tax increase. This is because higher 
taxes hit small trucking hardest.
    The first condition is ceasing to spend gas tax funds on things 
other than highways and bridges. The user-fee model represented by the 
federal fuel tax is the most efficient, fairest, and least costly to 
administer approach. Congress should recommit to the user-fee nature of 
the federal fuel tax.
    Second, prioritization must become a top priority. Over time, HTF 
monies have been tapped for noninfrastructure purposes, such as mass 
transit, bike paths, and walking trails. These growing nonhighway uses 
have bled 20 percent of trust fund monies. They are not necessarily 
unworthy things, but they directly deprive core highway infrastructure 
needs that directly bear upon road safety from being met. NASTC urges 
that HTF priority return to federal roads and bridges, along with 
prioritizing highway projects in the greatest need of repair. 
Otherwise, lawmakers will owe an explanation to average truck drivers 
why the higher fuel taxes they now pay go toward projects unrelated to 
highways.
    Third, any fuel tax increase must be fair to commercial carriers. 
The combination of taxes and user fees at all levels of government are 
borne most heavily by motor carriers. Commercial vehicles pay a much 
higher tax per gallon than do private cars (one-third higher at the 
federal level alone). Small trucking in particular is hardest hit by 
these taxes, which hurt their ability to hire and retain experienced 
drivers in rural areas. Thus, every dollar in taxes and fees undermines 
small carriers' competitive advantage against large fleets that churn 
through far less experienced drivers.
    It would be unfair to raise fuel taxes and fees on commercial 
carriers alone. Thus, equalizing and phasing in both gasoline and 
diesel taxes by a few cents over a few years would achieve parity, 
without inflicting undue hardship. In NASTC's view, all users of our 
highways and roads should pay for their upkeep, and so any increase in 
fuel taxes should be equally shared by all types of highway users--
including electric, LNG, and hybrid vehicles. A surcharge for vehicles 
with alternative fuel sources would be equitable.
    Fourth, a significant cost factor of highway construction and 
maintenance comes from permitting and environmental review requirements 
that can delay a decision on a project by several years. Streamlined 
clearance and approvals would achieve significant savings and make our 
roads and bridges safer. Such reasonable, responsible reforms must be 
part of any infrastructure bill.
    Fifth, NASTC opposes novel taxation methods. Taxpayers have paid 
for federal highways already. The driving public, particularly 
trucking, continues to pay for those roads' maintenance through fuel 
taxes and should not be subjected to multiple means of taxation going 
toward the same services. Inefficient, costly alternatives such as 
tolls and VMT fall most onerously on small motor carriers and small 
businesses, which is not only unfair but counterproductive to the 
economy.
    Vehicle-miles-traveled taxation lacks transparency and is unduly 
intrusive, potentially encroaching on citizens' rights and enabling 
abuse. In order to use VMT, the government would necessarily have to 
track everyone's movement at all times, whether moving or stationary. 
This degree of intrusion would very likely face constitutional 
challenge.
    Public-private partnerships for highways and infrastructure equate 
to tolling. NASTC has long opposed tolling our highways, particularly 
levying tolls on existing roadways. Tolling is often not cost-effective 
and involves outsourcing taxation to private entities that are 
unaccountable to those taxed. Thus, public officials are insulated, 
taxpayers are subject to those they cannot hold to account, and private 
entities, including foreign-based firms, gain undue, improper powers, 
including the ability to tax and spend. PPPs must be limited to nonroad 
projects and that minimize the above discussed risks.
    Failure to put the Highway Trust Fund on solid footing would leave 
the nation's ailing infrastructure in a precarious condition and 
American drivers at greater risk to their safety. NASTC applauds 
Congress's and the Trump administration's serious attention being paid 
to highway infrastructure, and we look forward to participating in this 
process.

                                 <F-dash>
 Letter from the National League of Cities Submitted for the Record by 
                              Mr. DeFazio
                                                  January 28, 2019.
Hon. Nancy Pelosi
Speaker, U.S. House of Representatives, Washington, DC.
Hon. Mitch McConnell
Majority Leader, U.S. Senate, Washington, DC.
Hon. Kevin McCarthy
Minority Leader, U.S. House of Representatives, Washington, DC.
Hon. Charles E. Schumer
Minority Leader, U.S. Senate, Washington, DC.
    Dear Speaker Pelosi, Majority Leader McConnell, Minority Leader 
Schumer and Minority Leader McCarthy:
    As we emerge from this extended shutdown and return to a working, 
stable Federal Government, the National League of Cities is calling on 
Congress to not repeat this crisis and to double-down on efforts to 
address one of our country's most pressing challenges--rebuilding 
America's infrastructure. For our economy and for our future, America's 
cities, towns and villages call on our Federal leaders to come together 
in a bipartisan way to pass comprehensive legislation that rebuilds and 
reimagines America's infrastructure.
    Infrastructure investments are the foundation that connects us as a 
country, improves the quality of life for our residents, supports jobs 
for thousands of workers, strengthens our nation's economic 
competitiveness, and keeps our communities safe. Unfortunately, the 
Federal partnership for infrastructure investments has eroded over the 
last two decades, putting America at risk of falling behind on an ever-
increasing list of potential hazards that undermine our economy and 
threaten our standard of living. Today, our transportation network is a 
knot of congestion and disrepair, our broadband lags behind other 
countries and families drink from bottled water in the absence of safe 
tap water. Moving a bipartisan infrastructure package would demonstrate 
to the country that Congress is focused on delivering results that will 
improve the daily lives of our constituents.
    Cities will continue doing our share, but it is time for Congress 
to act and rebuild with us. Across the country, much of our 
infrastructure is at a breaking point. We need a strong Federal-local 
partnership to upgrade the 100-year old leaking pipes, to replace the 
50-year old crumbling bridges and to install modern and resilient 
solutions for the next 100 years.
    Congress must prioritize a long-term infrastructure plan early in 
2019 that will work holistically to improve our nation's water, 
broadband, and transportation systems and create well-paying jobs for 
our nation's workforce that will build and maintain these important 
assets.
    As leaders of our cities and the National League of Cities, we are 
standing strong together with the 19,000 cities, towns and villages 
across the country to ensure that the Federal Government understands 
that infrastructure is our shared priority in 2019. We look forward to 
working with Congress to quickly move beyond the shutdown and 
prioritize crafting a comprehensive, bipartisan infrastructure plan 
that partners with cities like ours and invests in our vision to 
rebuild and reimagine our nation's infrastructure. We look forward to 
meeting with you soon to discuss how we can work together.
        Sincerely,
                              Karen Freeman-Wilson,
                                                   Mayor, Gary, IN,
                                  President, National League of Cities.
                                      Kathy Maness,
                                      Councilmember, Lexington, SC,
                      Second Vice President, National League of Cities.
                               Clarence E. Anthony,
                 CEO and Executive Director, National League of Cities.
                                      Joe Buscaino,
                                    Councilmember, Los Angeles, CA,
                       First Vice President, National League of Cities.
                                         Matt Zone,
                                      Councilmember, Cleveland, OH,
                   Immediate Past President, National League of Cities.

                                 <F-dash>
    Statement of the National Parks Second Century Action Coalition 
                Submitted for the Record by Mr. DeFazio
    We, the members of the National Parks Second Century Action 
Coalition \1\ request that the following statement be submitted to the 
record for the hearing, The Cost of Doing Nothing, held on Thursday, 
February 7, 2019
---------------------------------------------------------------------------
    \1\ The National Parks Second Century Action Coalition is made up 
of organizations supporting conservation, recreation, outdoor industry, 
travel and tourism and historic preservation that are dedicated to 
promoting the protection, restoration, and enjoyment of the National 
Park System for the long-term benefit it offers our nation.
---------------------------------------------------------------------------
    For more than a century, our national parks have remained America's 
favorite places, important pieces of our natural, historical and 
cultural heritage set aside for future generations to explore and 
enjoy. But as record crowds enjoy our national parks, they find the 
facilities in the parks have become worn and inadequate to meet the 
demand.
    The cost of doing nothing to update and maintain the infrastructure 
at our national parks over the decades is now $11.6 billion and rising. 
We are not talking about cyclical repairs that parks attend to 
constantly, but the more serious repairs that have been awaiting action 
for more than a year because of inadequate funding. The National Park 
System is the poster child of what happens when nothing or not enough 
is done to maintain infrastructure.
       infrastructure repair challenges facing our national parks
    Not surprisingly, the National Park System, second only to the 
Department of Defense in the amount of federal infrastructure it 
manages, is a microcosm of the larger infrastructure revitalization 
challenge facing the U.S. Needed repairs range from deteriorating water 
systems to crumbling roads and trails to antiquated visitor centers 
that are in desperate need of updating.
    In total, the agency is responsible for protecting and managing 
over 75,000 assets which include roads and bridges, trails, historic 
buildings, employee housing, wastewater and electrical systems, 
military fortifications, monuments and memorials, and seawalls. Nearly 
40% of the 10,000 miles of park roads are in poor to fair condition. 
Some repairs would cost just a few thousand dollars to fix, while 
others could cost hundreds of millions of dollars. The 11.6 billion 
maintenance backlog has been summarized by the National Park Service in 
the following chart.

                                     NATIONAL PARK SERVICE ASSET INVENTORY\\
----------------------------------------------------------------------------------------------------------------
                                                 Critical Systems
    Asset Category        Number of Asset            Deferred               Deferred         Current Replacement
                             Locations            Maintenance\\          Maintenance\\              Value
----------------------------------------------------------------------------------------------------------------
          Buildings                 24,879           $680,836,286         $2,059,805,808        $22,777,514,643
            Housing                  3,870            $68,759,391           $181,619,412         $1,690,237,051
        Campgrounds                  1,388            $16,428,505            $75,771,964           $723,503,131
             Trails                  6,260           $222,521,243           $462,205,902         $4,860,375,991
Waste Water Systems                  1,887           $159,431,258           $270,602,289         $2,036,481,323
      Water Systems                  1,529           $248,142,046           $420,456,287         $3,813,853,022
      Unpaved Roads                  5,534            $74,137,380           $209,115,006         $3,118,914,261
        Paved Roads                 11,978                    N/A         $5,900,394,123        $26,940,518,097
          All Other                 18,557         $1,114,081,046         $2,026,809,602        $90,255,127,651
----------------------------------------------------------------------------------------------------------------
              TOTAL                 75,882         $2,584,337,154        $11,606,780,393       $156,216,525,170
----------------------------------------------------------------------------------------------------------------
\\ Critical Systems Deferred Maintenance--The cost of critical or serious deferred maintenance located in
  critcal asset components. This figure is currently unavailable for the Paved Roads category.
\\ Deferred Maintenance--The cost of maintenance and repairs that were not performed when they should have been
  or were scheduled to be and which are put off or delayed for a future period.
\\ Source: https://www.nps.gov/subjects/infrastructure/upload/FY17-asset-inventory-Summary-AIS-
  Servicewide_Report_508-3.pdf

    While not a specific category, the list of deferred maintenance 
needs also includes the thousands of historic structures that tell the 
stories of this country's cultural heritage. Whereas roads and water 
systems can be replaced, other infrastructure like historical buildings 
cannot. Thus, it is especially critical that any infrastructure 
revitalization plan addresses the needs of these special facilities.
                   examples of deferred maintenance:
    <bullet>  Mount Rainier National Park (Washington): Trails in Mount 
Rainier National Park are heavily used by visitors and are in dire need 
of upkeep. Without maintenance funding, the park uses recreation fees 
to complete critical projects and address unexpected needs but is 
unable to tackle the larger projects and complete critical assessments. 
The price tag for trail rehabilitation totals more than $10 million for 
the park.
    <bullet>  Denali National Park Road (Alaska): Among Denali's most 
pressing needs is maintenance on the 92-mile Denali Park Road that is 
the only way to access the heart of the park. The park and preserve's 
buildings also need repair, including the Denali Park Kennel, which 
houses the only sled dogs in the National Park System. It is estimated 
to cost $32 million for these repairs.
    <bullet>  Mesa Verde National Park (Colorado): Over $6 million is 
needed to rehabilitate historic buildings in the Chapin Mesa National 
Historic Landmark District at Mesa Verde National Park.
    <bullet>  Grand Canyon National Park (Arizona): At a stunning cost 
of $120 million, the deferred costs of the Grand Canyon's drinking 
water systems are a symbol of decaying national park infrastructure. 
The Grand Canyon is in the middle of the desert, which required the 
monumental project of the Trans-Canyon Pipeline to be built in the 
1960's. However, the pipeline is well past its thirty-year design life, 
has up to thirty leaks per year, and requires an entire replacement. 
Along with this, a water reclamation system of over a million dollars 
is needed.
    <bullet>  Kalaupapa National Historical Park (Hawaii): Kalaupapa 
National Historical Park tells the story of Hawaiians banished by King 
Kamehameha V to the north shore of Molokai for contracting leprosy. 
Over $7 million is needed to replace historic buildings.
    <bullet>  Yellowstone National Park (Wyoming and Montana): For the 
past three decades the National Park Service has been working to 
upgrade the park's 254-mile Grand Loop and entrance roads from 1940's 
standards that are woefully inadequate for modern day tour busses and 
recreational vehicles. Due to insufficient funding, only half of the 
loop and entrance roads have been reconstructed. To complete upgrading 
of the remainder of the roads in the park will cost anywhere from $800 
million to $1.2 billion because the most challenging stretches of road 
remain to be rebuilt. At the current pace of funding it will take more 
than 75 years to complete the work.
    <bullet>  Yosemite National Park (California): Yosemite National 
Park is home to some of our country's most breathtaking cliffs, domes 
and waterfalls. However, the park suffers from $582 million in needed 
repairs. For example, more than $20 million is needed to rehabilitate 
trails including the Yosemite Bike Path, the Stubblefield Canyon Trail, 
and the Clark Point Spur, a path that leads to the famous Vernal Fall.
    <bullet>  Golden Gate National Recreation Area (California): Golden 
Gate National Recreation Area will require $9.5 million in wastewater 
treatment repairs to remedy all problems. The systems of the Marin 
Headlands and Fort Mason are some of the most expensive projects to be 
undertaken. Current repairs, such as the Muir Woods Water and 
Wastewater Service Rehabilitation project, have been stuck in the 
planning stage due to the lack of funding.
    <bullet>  Appalachian National Scenic Trail (Maine to Georgia): The 
world's longest contiguous footpath is conservatively estimated to have 
a $20 million backlog. More than 6,000 volunteers currently maintain 
the 2,200-mile Trail, contributing 250,000 annual hours of mostly 
physical work, saving the U.S. government more $6 million each year. 
Still, funding is needed to support volunteer work, complete major 
deferred projects and cover expenses for materials.
      fixing national park infrastructure is good for the economy
    National parks are an important part of the tourism economy and 
extremely popular with Americans. National parks received more than 331 
million visits in 2017, that generated $35 billion for the U.S. 
economy. For every dollar Congress invests in the National Park 
Service, $10 is returned to the American economy, with much of that 
money directly benefiting parks' gateway communities. With national 
parks supporting nearly 300,000 private-sector jobs annually, these 
economic engines are worthy of a robust infrastructure investment in 
2019 and beyond. Facilities in good repair improve visitor safety and 
are attractive to the public thus enhancing the economies of the many 
local communities that surround them.
                               conclusion
    For too long, the national parks have been undergoing 
infrastructure decline. The cost of doing nothing to fix the 
infrastructure in our national parks is the gradual loss of our natural 
and cultural heritage and the ability of the American public to enjoy 
and be inspired by it as preserved in our national parks. For much of 
the infrastructure of the parks, however, it will not be enough to 
restore it to its previous condition, but it will be important to make 
park infrastructure resilient to a changing climate. In addition, the 
NPS should continue to develop innovative, cost-effective and 
sustainable strategies for managing its assets.

1882 Project Foundation
American Society of Landscape Architects
Appalachian Trail Conservancy
Chinese American Citizens Alliance DC
Coalition to Protect America's National Parks
Evangelical Environmental Network
Friends of Acadia
Friends of Dyke Marsh
Mount Rushmore Society
National Park Hospitality Association
National Parks Conservation Association
National Tour Association
RV Industry Association
St. Croix River Association
Scenic America
United States Tour Operators Association
Western States Tourism Policy Council

                                 <F-dash>
  Statement of the North American Concrete Alliance Submitted for the 
                         Record by Mr. DeFazio
    Chairman DeFazio, Ranking Member Graves, and distinguished members 
of House Transportation and Infrastructure Committee, it is our 
pleasure and privilege to present written testimony on the timely and 
vitally important topic of investing in our nation's infrastructure.
    The North American Concrete Alliance is a coalition of 12 concrete-
related national trade associations, including the American Concrete 
Pavement Association, the American Concrete Pipe Association, the 
American Concrete Pressure Pipe Association, the American Concrete 
Pumping Association, the Concrete Reinforcing Steel Institute, the 
Concrete Foundations Association, the National Concrete Masonry 
Association, the National Precast Concrete Association, the National 
Ready Mixed Concrete Association, the Portland Cement Association, the 
Precast/Pre-stressed Concrete Institute, and the Tilt-Up Concrete 
Association. Our members are involved in the construction of highways, 
airports, bridges, buildings, and underground infrastructure.
    Our testimony will focus on the needed investment in the Nation's 
Federal-aid highways, airports, ports and water infrastructure, and the 
growing need to prioritize the resiliency of our infrastructure.
    Our Nation's infrastructure is the backbone of commerce; personal 
mobility; and the safety, security and quality of life for our 
citizens. Highways, airports, bridges, ports, and water infrastructure 
do more than transporting people from one point to the next and 
products from market to consumers. They also define us and all 
developed nations in terms of our global competitiveness and our 
standing on the world stage of macroeconomics, politics, and military 
might. It is accurate to say that no civilization was ever built or 
endured with failing infrastructure.
    For many years, investment levels in our Nation's surface 
transportation infrastructure have fallen short of the needs defined by 
the Government Accountability Office, transportation and 
transportation-construction advocacy groups and others. State highway 
transportation agencies and communities across the county are 
challenged to do more with less, and with inadequate funding available, 
many local governments and agencies are left with few options other 
than to ``band-aid'' existing highways, roads and bridges. Funding 
challenges resulted in wide-spread reports of highways and bridges 
falling into disrepair.
    In response, many States raised excise taxes on fuel to cope with 
the insufficient funding, 27 States have raised or reformed gas taxes 
since 2013.\1\ This increase in funding at the State level has 
ameliorated the situation somewhat, but funding levels are still 
insufficient to meet the current needs, let alone meet the future 
demands on our network of highways and bridges. We now stand at the 
junction of the past, present, and future, and for those and many other 
reasons, investment in America's infrastructure cannot wait. To meet 
the current and future needs, we must invest now and we must invest 
sufficiently to keep pace with the expected population increase of 70 
million people expected by 2045.\2\ This is essential to meeting not 
only the increase in population, but also the associated increase in 
vehicle traffic, freight loadings, and the proliferation of 
technologies either placed into pavements or on highway, bridge, and 
airfield appurtenances.
---------------------------------------------------------------------------
    \1\ ``Most States Have Raised Gas Taxes in Recent Years,'' JUST 
TAXES BLOG, The Institute on Taxation and Economic Policy, May 22, 
2018. https://itep.org/most-states-have-raised-gas-taxes-in-recent-
years/.
    \2\ ``Beyond Traffic: 2045 Final Report,'' U.S. Department of 
Transportation, Washington, DC. https://www.transportation.gov/policy-
initiatives/beyond-traffic-2045-final-report.
---------------------------------------------------------------------------
    According to a recently published study \3\ commissioned by 
Congress in the FAST Act, and sponsored by the National Academies of 
Sciences (NAS) and Federal Highway Administration, our Nation has lived 
off the fruits of previous investments made five to six decades ago. 
``Many of the Interstate pavements built in the 1950's and 1960's were 
designed for 20-year service lives but have been in use for more than 
50 years without reconstruction of their foundations.'' The report 
continues that ``even the majority of the newest Interstate segments, 
constructed in the 1980's and 1990's, will need to be rebuilt in the 
next 20 years.'' We must rebuild the system's pavements, bridges, and 
other assets before they become unserviceable and less safe, the report 
states.
---------------------------------------------------------------------------
    \3\ ``Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future,'' (TRB Special Report 329), 2019, 
National Academy of Sciences, Washington, DC. https://www.nap.edu/
catalog/25334/renewing-the-national-commitment-to-the-interstate-
highway-system-a-foundation-for-the-future
---------------------------------------------------------------------------
    We must be more open to funding alternatives to support adequate 
investment. The NAS study says, ``Recent combined State and Federal 
capital spending on the Interstates has been $20 to $25 billion 
annually.'' The study says, ``The total State and Federal spending 
needed to renew and modernize the Interstates over the next 20 years 
averages $45 to $70 billion per year,'' or more than two-to three-times 
current spending levels. Not factored into these estimates, the NAS 
report says, are the critical needs to reconfigure and/or reconstruct 
many of the system's approximately 15,000 interchanges; the critical 
need to make the system more resilient to the effects of climate 
change; expanding and allocating system capacity more efficiently in 
and around metropolitan areas; and ``rightsizing'' the length and scope 
of the systems through extensions and replacements of some 
controversial urban segments that do not serve through-traffic.
    Congress must take the important step of increasing Federal 
investment in surface transportation. The 27 States that enacted gas 
tax reforms have dispelled the long-standing myth that a gas tax 
increase is a non-starter because of the possible political fallout. In 
fact, user-based options are among those recommended by the NAS report 
which cites three possible options:
    <bullet>  Increasing motor fuel taxes and other existing Federal 
user fees;
    <bullet>  Allowing States and metro areas to toll existing general-
purpose Interstate highways; and
    <bullet>  Instituting mileage-based user fees.

    The vast network of highways and bridges are a national treasure, 
but will only remain so if bold leadership, unwavering determination, 
and true bipartisan support prevail. The status quo of deferring and 
not prioritizing infrastructure investment; depleting the Highway Trust 
Fund; and not implementing funding alternatives that are in lock-step 
with technology and alternative fuels can no longer sustain the needs 
of our transportation network.
    Not only does the nation's surface transportation system face a 
backlog in maintenance, America's airports have nearly $100 billion in 
infrastructure needs to accommodate the anticipated growth in passenger 
and cargo activity as well as to rehabilitate existing facilities. The 
annualized needs of approximately $20 billion, over the 5-year 
authorization of the Federal Aviation Administration (FAA) passed last 
year, for the nation's airport is greater than the funding available 
through airport generated net income, Airport Improvement Program 
grants and passenger facility charge revenue. These funding options 
have not been updated in 20 years. It is time to modernize the 
passenger facility charge and continue a robust Airport Improvement 
Program as a way to address the demands our airports are facing. 
Updating airport-funding options will give airports and their 
communities' access to the resources to address their unique needs.
    It is also critical for an infrastructure bill to invest in our 
water infrastructure, including ports, locks and dams, and wastewater 
infrastructure. A critical part of ensuring the efficient movement of 
goods is the efficient operation and maintenance of the Nation's ports. 
At our 59 busiest ports, fully dredged navigation channels are 
available less than 35 percent of the time. An important step that can 
be taken to invest in the maintenance of ports across the country is 
the full-utilization of the Harbor Maintenance Trust Fund. NACA 
supports passage of legislation to fully utilize the Harbor Maintenance 
Trust Fund balance of $9 billion collected from the Harbor Maintenance 
Tax.
    The Environmental Protection Agency estimates there is a $40 
billion backlog in clean water infrastructure projects across the 
country and communities need approximately $270 billion in investment 
over the next 20 years to bring their systems into a state of good 
repair. An investment in this infrastructure will not only bring it 
into a state of good repair but improve public health.
    As a nation we have been forced to invest a lot of disaster 
recovery over recent years as a result of the number of hurricanes, 
wildfires, and other severe weather-related events. This expenditure 
demonstrates the importance of investing in pre-disaster mitigation 
with resilient public infrastructure. NACA supports providing 
communities with the resources and tools needed to enhance the 
resilience of their infrastructure, including buildings, roads, and 
water and sewer infrastructure to minimize damage, disaster response 
time, and replacement costs, which translates into lower costs over 
time due to of improved durability and a decreased need for 
maintenance.
    Without adequate, reliable, and long-term commitments of funding 
and policy decisions to support infrastructure development, agencies 
and local governments will fall farther behind in their goals of 
upgrading, modernizing, and expanding the network and the industry will 
continue to suffer from consolidation and attrition.
    Without adequate and timely investment in our nation's 
infrastructure, the legacy passed on to future generations will be 
failing or even crumbling highways, bridges, airfields, locks and dams. 
Along with that, the system will not keep pace with population 
increases, vehicle loadings and traffic increases, and technology 
advances, and increased freight movement through our ports and 
highways. In contrast, if Congress rallies in support of the 
infrastructure and works closely with the Administration and the 
States, our Nation has a realistic opportunity to build on our existing 
assets and transform our network of highways, bridges, airfields and 
waterways to become the gold standard in transportation and technology 
for all the world to follow.

                                 <F-dash>
  Statement from the Office of Hon. Eric Garcetti, Mayor, City of Los 
Angeles, California, Efforts on Resilient Infrastructure, submitted for 
                       the record by Mr. DeFazio
    Information about Los Angeles Mayor Eric Garcetti's efforts on 
resilient infrastructure is below. We have provided short summaries 
about our Sustainable City pLAn and our Resilience Strategy which are 
the guiding principles and goals for infrastructure work in the City.
    With these principles in mind, the City launched the following two 
comprehensive street infrastructure improvement programs: Complete 
Streets (repaving/repair) and Great Streets (infrastructure 
revitalization). Listed below is information highlighting the City's 
approach to road repair, pedestrian safety, and environmental 
resilience.
                         Sustainable City pLAn
    In April 2015, Mayor Garcetti released the first-ever ``Sustainable 
City pLAn'', a roadmap for Los Angeles that is environmentally healthy, 
economically prosperous, and equitable in opportunity for all. The pLAn 
focuses on short-term results and long term goals to transform our 
city. L.A.'s Sustainable City pLAn connects the dots for Los Angeles by 
building on the three pillars needed for any thriving city: 
Environment, Economy and Equity. Details can be found at: http://
plan.lamayor.org/
                          Resilience Strategy
    In March 2018, Mayor Garcetti launched Los Angeles' first citywide 
Resilience Strategy with 15 goals and 96 actions for Angelenos, 
neighborhoods, the City, and our city partners to prepare Los Angeles 
in addressing current and future challenges. Details at https://
www.lamayor.org/Resilience
                   Complete Streets Program Overview
    In June 2018, Mayor Eric Garcetti launched the Complete Streets 
Program to repair the city's worst streets, based on traffic fatalities 
and pavement conditions, and improve safety measures across Los 
Angeles. It was the city's first proactive street reconstruction and 
resurfacing program in a decade, funded by a combination of local bond 
(Measure M) and state gas tax funding (SB1).
    The key to the program is that the City makes street infrastructure 
improvements holistically to achieve multiple goals simultaneously, 
considering all opportunities for related improvements to maximize 
efficiency. For example, to repair a road, the City looks beyond just 
paving and evaluates public right-of-way, potential Vision Zero safety 
enhancements, sidewalk repair, and green infrastructure elements such 
as bioswales and dry wells to improve stormwater quality and local 
water supply.
    As another example, when the City reconstructs or resurfaces a 
paved street, the City also integrates Vision Zero safety strategies 
(such as left hand turn signals, pedestrian refuge islands, and lead 
pedestrian intervals). Or, when the City of LA repairs sidewalks, other 
upgrades may be completed to integrate bioswales to clean stormwater 
runoff and increase groundwater infiltration. If adding a bike lane is 
supported by the neighboring community, the City will also consider 
other safety enhancements or infrastructure upgrades.
    Multiple city departments work together to define the scope and 
identify opportunities, including:
    <bullet>  Pavement quality improvements, such as reconstruction and 
resurfacing as well as concrete bus pads where necessary (City of Los 
Angeles Street Services and LA Metro)
    <bullet>  Street safety improvements, such as adding bump outs, 
adjusting traffic lights, and marking crosswalks (City of Los Angeles 
Department of Transportation)
    <bullet>  Green infrastructure to improve water quality and 
drainage and to allow for groundwater infiltration (City of LA-Bureau 
of Sanitation and LA Department of Water and Power)
    <bullet>  Bioswales and drywells are often incorporated at 
locations with street or sidewalk reconstruction, reducing the costs of 
rebuilding curb and gutters to divert stormwater runoff, and
    <bullet>  Enhancing smart city infrastructure, such as adding 
motion sensors to street lights in order to increase lighting when 
sensing pedestrian motion, thereby increasing the visibility and safety 
of pedestrians.
Status of Complete Streets Projects
    In the first two years of this initiative, the City of Los Angeles 
will deliver upgrades to six major corridors that have poor pavement 
conditions and are on the City's High Injury Network. The City is 
spending an estimated $79.8 million with $35 million for street 
reconstruction, $25 million for sidewalk repairs, $15 million for 
Vision Zero safety improvements, and $4.8 million on green 
infrastructure.
    Funding for these projects are allocated from Measure R, Measure M, 
SB1, and the Street Damage Restoration Fee (SDRF). Four projects will 
broke ground in 2018, and two are planned for 2019, with completion 
dates expected between mid-2019 to the summer of 2020 for all six 
projects.
                             Great Streets
    The Great Streets initiative takes a community-based planning 
approach to reimagining LA streets, the City's largest public spaces, 
into safer, more livable, and sustainable places. Through the Great 
Streets program, the City engages local residents, business owners, and 
other stakeholders by seeking their feedback on infrastructure projects 
to address challenges unique to their respective communities. Great 
Streets takes a comprehensive approach to infrastructure development by 
focusing on the following goals:
    1.  Increasing economic activity: Businesses cannot be successful 
if the street infrastructure does not encourage consumer access.
        <bullet>  Business owners are key players in our communities 
        and they have countless interactions with community members on 
        a daily basis which is why we engage them from the onset of our 
        projects to help identify specific infrastructure improvements 
        that would catalyze business growth.
        <bullet>  The City also look at projects that encourage all 
        road users to conveniently access businesses that are on Great 
        Streets Corridors, which means installing elements such as 
        street furniture, facade improvements, better lighting, and 
        high quality sidewalks to improve economic activity.
        <bullet>  We also work with the Economic Workforce Development 
        Department to include business development components such as 
        loans, help with leases, and marketing to help accomplish this 
        goal.
    2.  Improving Access and Mobility: Infrastructure must be designed 
not only for vehicles, but for all users and all demographics in mind, 
which is why in addition to studying the vehicular traffic, the City of 
Los Angeles considers the number of neighborhood pedestrians and 
cyclists. The City also considers neighborhood demographics, such as 
age, ability, and gender when it helps communities identify 
infrastructure-related solutions to meet its needs. The City then build 
and maintains sidewalks that encourage pedestrian use of the corridors, 
and also installs bike lanes and storage, where they are needed and 
appropriate.
    3.  Enhancing Neighborhood Character: Infrastructure investments 
should take into account the cultural and historical context of the 
community in order to build a stronger connection between the built 
environment of a neighborhood and the people that live, work, and play 
there.
        <bullet>  The City engages local artists to create art, such as 
        murals, on the Great Streets corridors.
        <bullet>  Through the Department of Cultural Affairs, the City 
        of LA offers grants for arts projects and events, working with 
        artists local to the Great Streets corridors.
    4.  Great Community Engagement: Community planning led by local 
residents, business owners and stakeholders is at the heart of the 
Great Streets process. It is critical that community members are the 
leaders in identifying solutions to their neighborhood's challenges.
        <bullet>  The City begins by asking community partners to write 
        a challenge statement which expresses the community need. We 
        believe community members are experts on their community, have 
        ideas on how to address their challenges, and must be engaged 
        throughout infrastructure improvement projects.
        <bullet>  Once the City of LA has the challenge statement, we 
        create a partnership between a community partner, technical 
        consultant and the City. A minimum of six months of outreach is 
        conducted and led by community partners to engage stakeholders 
        in order to clearly define problems in the community and 
        initiate ideas on how to address the problems.
        <bullet>  Great Streets works with City departments, community 
        partners and the consultant to design infrastructure projects 
        based on community feedback collected during the outreach 
        process.
        <bullet>  After every project is implemented, Great Streets 
        gathers feedback from the community to evaluate the project's 
        impact.
    5.  Improved Environmental Resilience and Sustainability: Building 
infrastructure that is sustainable and environmentally resilient is a 
critical component of a livable neighborhood.
        <bullet>  Sustainability and resilience are at the center of 
        each project.
        <bullet>  Great Streets projects include elements such as 
        stormwater capture, bioswales and dry wells based on 
        feasibility to help the City replenish our groundwater system, 
        and the LA River. Whenever possible, the City installs semi-
        permeable sidewalks for water capture.
        <bullet>  To address the major health concern of extreme heat, 
        the City of Los Angeles is leading the country in deploying 
        cool surfaces on our streets which can reduce the air surface 
        temperature by 10 degrees. The City also plants trees on all 
        Great Streets projects, particularly in areas identified as 
        heat islands. These deployments have many benefits, including 
        water capture, air quality improvement, shade for pedestrians, 
        and enhanced corridor beautification.
        <bullet>  The City of LA also strives to install energy 
        efficient street lighting, electric vehicle (EV) chargers, and 
        has plans to install air quality monitors to help better track 
        air pollution.
        <bullet>  When taking on construction projects, the City 
        strives for sustainability materials, and considers the supply 
        chain of materials. The City will include a greenhouse gas 
        metric for our materials procurement.
    6.  Safer and More Secure Communities--Safety is at the heart of 
any infrastructure improvement, which is why the City of Los Angeles 
designs infrastructure investments with seniors and school children in 
mind since these two are the most vulnerable streets users.
        <bullet>  The City of Los Angeles achieves this by 
        reconfiguring traffic signals to allow more time for cross; 
        installing speed limit signs that effectively communicate with 
        drivers; installing curb extensions to reduce vehicle speed. 
        Additionally, the City installs stop signs and speed humps when 
        necessary.
        <bullet>  The City also includes better lighting to encourage 
        street usage at all times of the day.

                                 <F-dash>
Statement of The Pew Charitable Trusts Submitted for the Record by Mr. 
                                DeFazio
    The Pew Charitable Trusts (Pew) appreciates the opportunity to 
submit testimony for the record of this hearing on America's 
infrastructure needs and the cost of doing nothing. Pew has been 
engaged for some time in highlighting the need for investment in our 
country's infrastructure. In particular, Pew has two initiatives of 
relevance to today's hearing: one to address the maintenance backlog in 
our national parks, and a second on flood-related issues promoting 
resilient infrastructure and investments in mitigation.
    Pew applies a rigorous, analytical approach to improve public 
policy, inform the public, and invigorate civic life. We appreciate the 
opportunity to submit testimony in this first hearing of the House 
Transportation and Infrastructure Committee and look forward to working 
with the Committee as it explores these issues in the future.
              national park system infrastructure backlog
    The National Park Service (NPS) manages more than 400 nationally 
significant sites in all 50 States and several territories, which 
encompass natural and historic sites that celebrate and commemorate the 
remarkable people, heritage, and ongoing story of America. The Restore 
America's Parks campaign at The Pew Charitable Trusts seeks to conserve 
the natural and cultural assets of the National Park System by 
providing common sense, long-term solutions to the infrastructure 
backlog challenge facing the park service.
    NPS maintains 10,000 miles of roads (over 5,000 of which are 
paved); nearly 1,500 bridges and 60 tunnels; 18,000 miles of trails; 
more than 24,000 buildings; and over 2,000 sewage systems, as well as 
former military installations, parking lots, waterfronts, campgrounds, 
electrical and water systems, interpretive facilities, and iconic 
monuments and memorials. The NPS has estimated their backlog of 
infrastructure repair needs at $11.6 billion (based on fiscal year 2017 
data).
    There are multiple costs of doing nothing to address this backlog, 
including:
    <bullet>  The increased monetary cost of repairs as they are 
delayed and become more difficult and costly to fix.
    <bullet>  The economic cost to communities resulting from fewer 
visitors traveling to parks when public access is limited following 
closures of roads and trails due to maintenance issues.
    <bullet>  The unmeasurable costs to our nation's historic and 
cultural resources, if NPS lacks adequate funds to protect and maintain 
the sites and artifacts that document our collective heritage.
    <bullet>  The cost to park visitors who are denied access to the 
world class recreation, wildlife, and educational opportunities that 
our National Park Service is known for.
What Is Deferred Maintenance?
    National parks often have the same infrastructure as a city or 
town, and as a result face the same deterioration and maintenance 
needs. In total, the agency is responsible for protecting and managing 
over 75,000 assets which include roads and bridges, trails, historic 
buildings, employee housing, wastewater and electrical systems, 
military fortifications, monuments and memorials, and seawalls. 
Maintenance is required at regular intervals to ensure acceptable park 
facility conditions; when this maintenance is delayed for more than a 
year, it is considered ``deferred.''
Why Is There a Deferred Maintenance Backlog?
    <bullet>  Aging infrastructure: many park facilities and systems 
are 50-70 years old and need updating.
    <bullet>  Record visitation causes wear and tear on resources: our 
parks received approximately 330 million visitors in 2017.
    <bullet>  Unreliable funding for deferred maintenance.
    <bullet>  A diverse portfolio that includes cultural, natural, and 
historical resources, many of them exposed to the elements.
The Path Forward
    Preventing the escalation of the NPS maintenance backlog is not an 
insurmountable feat. But Congress and the Administration must pursue 
multiple approaches to ensure success. Focusing limited resources on 
priority assets must continue to be part of common sense solutions. To 
address the maintenance backlog at NPS sites across the country, Pew 
recommends a multi-pronged approach that includes:
    <bullet>  Congressional Appropriations. Reliable annual 
appropriations for transportation needs and NPS park maintenance are 
needed, as well as adequate staff capacity to implement projects.
    <bullet>  Dedicated Annual Federal Funding. The establishment of a 
dedicated Federal fund that would direct resources each year to 
priority NPS repairs would help the agency begin to address the most 
pressing, complex repairs.
    <bullet>  Infrastructure Package. Any potential national 
infrastructure package should include deferred maintenance provisions 
specific to the parks, recognizing that national park buildings, roads, 
trails, aging electrical and water systems, and monuments need 
significant updating.
    <bullet>  Policy Reforms. Enacting innovative policy reforms to 
ensure that deferred maintenance does not escalate. Reforms should 
consider innovative technologies to drive maintenance costs down and 
save staff time, as well as opportunities to maximize revenue 
generation at parks.
Why We Must Address Infrastructure the Backlog of Repairs and Restore 
        Our Parks
    Restoring the infrastructure and physical integrity of our national 
park assets is a common-sense investment:
    <bullet>  Preservation. Our national park units document America's 
history. If our historic and cultural resources are not maintained, 
pieces of our nation's history will be lost to future generations.
    <bullet>  Access. Without safe and reliable roads and facilities, 
visitors cannot access and enjoy park resources.
    <bullet>  Economics. Parks are proven economic engines and must be 
maintained to ensure positive visitor experience and thriving local 
communities. Based on fiscal year 2017 records, over 330 million park 
visits translated to $18.2 billion in direct spending in gateway 
communities, generating approximately $35.8 billion in national 
economic output and 306,000 jobs.
    <bullet>  Recreation. World class recreation opportunities in parks 
are supported by trails, campgrounds, and water facilities. These 
amenities need to be safe and updated to ensure a continued high-
quality, safe recreation experience.
    <bullet>  Infrastructure-related jobs. Fully investing in the park 
maintenance backlog has the potential to generate over 110,000 
additional infrastructure-related jobs, based on a Pew-commissioned 
analysis: http://www.pewtrusts.org/en/research-and-analysis/blogs/
compass-points/2017/12/01/job-creation-potential-if-we-restore-our-
parks.
    <bullet>  Cost-savings. Proactively addressing park maintenance 
provide a cost-savings to taxpayers, as postponement of projects can 
lead to increased deterioration, and more costly and extensive repairs.

    Almost 3,000 organizations across the Nation recognize these 
benefits and support directing more resources to restoring our parks. 
These groups--counties and cities, local officials, businesses, 
veterans, the hotel and restaurant industry, conservation groups, 
unions, the recreation industry, infrastructure groups, State tourism 
societies--can be viewed here: http://www.pewtrusts.org/en/research-
and-analysis/articles/2018/04/18/calls-mount-for-congress-to-fix-our-
parks.
     ensuring federal investments in infrastructure are flood-ready
    Flooding is the costliest \1\ and most common natural disaster \2\ 
in the United States, affecting every region. In addition to homes, 
these coastal and inland floods damage infrastructure vital to 
community preparedness and resilience such as roads, bridges, schools 
and hospitals, costing billions to repair and rebuild. Since 2000, such 
events have cost the Federal Government over $800 billion.\3\
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration, Billion-Dollar 
Weather and Climate Disasters: Summary Stats, National Centers for 
Environmental Information, (accessed February 5, 2019) available at 
https://www.ncdc.noaa.gov/billions/summary-stats (considering tropical 
cyclone to be flood-related disasters).
    \2\ Federal Emergency Management Agency, OpenFEMA Dataset: Disaster 
Declarations Summaries--V1, (accessed January 22, 2019), available at 
https://www.fema.gov/openfema-dataset-disaster-declarations-summaries-
v1.
    \3\ National Oceanic and Atmospheric Administration, Billion-Dollar 
Weather and Climate Disasters: Table of Events, National Centers for 
Environmental Information, (accessed February 5, 2019) available at 
https://www.ncdc.noaa.gov/billions/events/US/1980-2018; Leslie Scism 
and Erin AIlworth, Moody's Pegs Florence's Economic Cost at $38 Billion 
to $50 Billion The Wall Street Journal (September 21, 2018), available 
at https://www.wsj.com/articles/moodys-pegs-florences-economic-cost-at-
38-billion-to-50-billion-1537572161.
---------------------------------------------------------------------------
    Despite rising costs and risks, investments in resilient 
infrastructure and mitigation activities have historically been 
insufficient to a point where trillions of dollars in investments are 
needed just to improve America's infrastructure to a state of ``good'' 
quality.\4\ And making investments before disasters strike has been 
mostly ignored even when research shows every $1 invested in mitigation 
saves society at least $6.\5\ Years of underinvesting have left much of 
America's infrastructure dangerously close to failing, according to a 
March 2017 report by the American Society of Civil Engineers.\6\
---------------------------------------------------------------------------
    \4\ American Society of Civil Engineers, 2017 Infrastructure Report 
Card, https://www.infrastructurereportcard.org/.
    \5\ Laura Lightbody, Every $1 Invested in Disaster Mitigation Saves 
$6, Pew Charitable Trusts, (January 11, 2018) https://
www.pewtrusts.org/en/research-and-analysis/articles/2018/01/11/every-
$1-invested-in-disaster-mitigation-saves-$6.
    \6\ American Society of Civil Engineers, 2017 Infrastructure Report 
Card, (accessed February 5, 2019) available at https://
www.infrastructurereportcard.org/.
---------------------------------------------------------------------------
    The challenge becomes how do we make much needed investments in 
infrastructure while ensuring those assets are not washed away by the 
next major flood? As Congress considers this conundrum, it is critical 
that stronger flood safeguards and future risks be incorporated into 
new infrastructure investments. In too many instances, federally backed 
projects have been built or rebuilt without serious consideration of 
future losses, leading to repeat flooding losses and a costly cycle of 
damage and repair.
    The vulnerability of the country's infrastructure to flooding is 
too great to continue ignoring:
    <bullet>  930 military sites across 48 States have been impacted by 
floods over the past 30 years.\7\
---------------------------------------------------------------------------
    \7\ Department of Defense, Climate-Related Risk to DoD 
Infrastructure Initial Vulnerability Assessment Survey (SVLAS) Report), 
(January 2018) https://climateandsecurity.files.
wordpress.com/2018/01/tab-b-slvas-report-1-24-2018.pdf.
---------------------------------------------------------------------------
    <bullet>  Since 2000, the Federal Government has provided tens of 
billions of dollars in assistance for public infrastructure, such as 
roads, bridges, and public buildings, in response to major flood 
disasters.\8\
---------------------------------------------------------------------------
    \8\ Federal Emergency Management Agency, OpenFEMA Dataset: Public 
Assistance Funded Projects Details--V1, accessed February 1, 2019, 
available at https://www.fema.gov/openfema-dataset-public-assistance-
funded-projects-details-v1.
---------------------------------------------------------------------------
    <bullet>  As of 2016, 18,000 federally owned buildings are in a 
100-year floodplain with a total replacement cost of $83 billion.\9\
---------------------------------------------------------------------------
    \9\ Laura Lightbody, 3 Reasons the U.S. Needs a Flood-Ready 
Building Policy, Pew Charitable Trusts (January 30, 2018) https://
www.pewtrusts.org/en/research-and-analysis/articles/2018/01/30/3-
reasons-the-us-needs-a-flood-ready-building-policy.

    Without comprehensive policy action to reduce the impact of flood-
disasters, the Nation will continue to pay to rebuild infrastructure 
repeatedly after disasters and put assets in harm's way. We simply 
cannot afford to allow this pattern to continue.
    The House Transportation and Infrastructure Committee should 
consider the following flood-ready solutions.
Update Flood-Ready Standards for Federally Funded Projects
    Building smart, durable infrastructure in the first place is a 
commonsense practice. Hundreds of localities and numerous States across 
the Nation already have stronger infrastructure flood standards than 
the Federal Government. We also know that it pays to prepare: according 
to recent analysis by the National Institute of Building Sciences, 
flood mitigation projects on infrastructure like roads, rails, and 
wastewater treatment facilities produced positive benefit-cost 
ratios.\10\
---------------------------------------------------------------------------
    \10\ Multihazard Mitigation Council, Natural Hazard Mitigation 
Saves: 2018 Interim Report, National Institute of Building Science 
(December 2018).
---------------------------------------------------------------------------
    Building resilient infrastructure enjoys a wide margin of support: 
A poll released in January 2018 by The Pew Charitable Trusts found that 
89 percent of registered voters--across party lines--support requiring 
that all federally funded infrastructure in flood-prone areas be 
constructed to better withstand the impacts of flooding.\11\ 
Incorporating future risk into flood safeguards across the Federal 
Government will limit damage, reduce the need to rebuild after floods 
and save taxpayer dollars.
---------------------------------------------------------------------------
    \11\ Laura Lightbody, Poll Shows Nationwide Support for Feds to 
Boost Rebuilding Standards, Pew Charitable Trusts (February 1, 2018) 
https://www.pewtrusts.org/en/research-and-analysis/articles/2018/02/01/
poll-shows-nationwide-support-for-feds-to-boost-rebuilding-standards.
---------------------------------------------------------------------------
    Congress should ensure Federal assets located in a floodplain take 
into consideration current and future flood risks.
Establish a Flood Mitigation State Revolving Loan Fund
    As severe weather events have spiked in recent decades, it is clear 
the Federal Government must break the cycle of paying to rebuild 
properties in vulnerable areas that flood repeatedly. It can do so--
with a $6-to-$1 return on investment <SUP>2</SUP>--by increasing 
support for State disaster preparedness efforts, starting with a new 
revolving loan fund program.
    Current funding levels for mitigation are not sufficient to address 
the nation's pressing need to prepare for floods. Of the $277.6 billion 
that the Federal Government spent on disaster assistance from 2005 to 
2014, very little went to mitigation. In fact, spending on Pre-Disaster 
Mitigation (PDM) grants fell from $157 million in 2005 to $19 million 
in 2014.\12\
---------------------------------------------------------------------------
    \12\ Government Accountability Office, ``Federal Disaster 
Assistance: Federal Departments and Agencies Obligated at Least $277.6 
Billion During Fiscal Years 2005 through 2014'' (Sept 2016), http://
www.gao.gov/assets/680/679977.pdf.
---------------------------------------------------------------------------
    Establishing a flood mitigation State revolving loan fund would 
enable more communities to take measures to reduce risk to structures 
and infrastructure, such as elevating buildings, putting vents in the 
lowest level of structures to reduce pressure on the walls and allow 
floodwater to pass through, and fund larger-scale projects such as 
improving stormwater management and building berms or flood walls.
    State revolving loan funds have a successful track record:
    <bullet>  Many States and municipalities have experience with 
revolving loan funds. They have been used to support affordable 
housing, renewable energy, clean water, energy efficiency, and other 
community interests.
    <bullet>  The Clean Water State Revolving Fund program, for 
example, has financed improvements to wastewater infrastructure. From 
its inception in 1987 through 2016, the program has leveraged $41 
billion in Federal moneys for $118 billion worth of clean water 
infrastructure.\13\
---------------------------------------------------------------------------
    \13\ Environmental Protection Agency, 2017 Annual Report: Clean 
Water State Revolving Fund Programs (March 2018) https://nepis.epa.gov/
Exe/ZyPDF.cgi/P100UAGH.PDF?Dockey=
P100UAGH.PDF.
---------------------------------------------------------------------------
    <bullet>  Established in 1996, the Drinking Water State Revolving 
Loan Fund has used just over $19 billion in Federal assistance to 
foster more than $32.5 billion in investments through 2016.\14\
---------------------------------------------------------------------------
    \14\ Environmental Protection Agency, 20th Anniversary Drinking 
Water State Revolving Fund (2017) https://www.epa.gov/sites/production/
files/2018-08/documents/20th_anniversary_
dwsrf_report_final_508.pdf.

    Congress should establish and fund a revolving loan fund program 
for flood mitigation to improve infrastructure resilience.
Establish a Federal-Aid Highway Pre-Disaster Infrastructure Program
    Federal-aid highways and roads are the lifeblood of the nation's 
economy. While accounting for only 25 percent of the nation's highway 
network, they shoulder 85 percent of total miles travelled each 
year.\15\ Their reliability is not only key for the everyday mobility 
of Americans and transporting goods from coast to coast, but critical 
to community vitality during natural disasters. The Federal Highway 
Administration Emergency Relief (ER) program provides States and 
localities with access to funding to support disaster recovery efforts, 
but the reactive approach of the program does not do enough to ensure 
communities are prepared the next time it floods.
---------------------------------------------------------------------------
    \15\ Federal Highway Administration, 2013 Status of the Nation's 
Highways, Bridges, and Transit: Conditions and Performance https://
www.fhwa.dot.gov/policy/2013cpr/es.cfm.
---------------------------------------------------------------------------
    Growing risk to and impacts from flooding to our Federal-aid 
highways are unsustainable:
    <bullet>  More than 60,000 miles of U.S. roads and bridges are in 
coastal floodplains, threatening supply chains and local economies.\16\
---------------------------------------------------------------------------
    \16\ USGCRP, 2018: Impacts, Risks, and Adaptation in the United 
States: Fourth National Climate Assessment, Volume II [Reidmiller, 
D.R., C.W. Avery, D.R. Easterling, K.E. Kunkel, K.L.M. Lewis, T.K. 
Maycock, and B.C. Stewart (eds.)]. U.S. Global Change Research Program, 
Washington, DC, USA, 1515 pp. doi: 10.7930/NCA4.2018.
---------------------------------------------------------------------------
    <bullet>  In 2018, flooding from Hurricane Florence forced the 
closure of more than 1,200 roads in North Carolina, cutting off the 
access of numerous communities to emergency responders and critical 
facilities, like hospitals and shelters.\17\
---------------------------------------------------------------------------
    \17\ North Carolina Department of Public Safety, It Takes a 
Village: Emergency Management Leads Response and Recovery to Hurricane 
Florence (Oct. 12, 2018) https://www.ncdps.gov/blog/2018/10/12/it-
takes-village-emergency-management-leads-response-and-recovery-
hurricane-florence.
---------------------------------------------------------------------------
    <bullet>  Since 2000, flooding and other extreme events have 
resulted in the FHWA ER program receiving nearly $15 billion in 
supplemental appropriations. Without investments toward making our 
transportation infrastructure more resilient to increasingly stronger 
storms, the FHWA ER program will continue to be overburdened.\18\
---------------------------------------------------------------------------
    \18\ Congressional Research Service, Emergency Relief for Disaster-
Damaged Roads and Public Transportation Systems (August 2018) https://
fas.org/sgp/crs/homesec/R45298.pdf.

    Congress should establish a Federal Highway Administration Pre-
Disaster Infrastructure program for projects that address Federal-aid 
roads, highways, and bridges.
Prioritize natural areas that benefit communities
    Healthy wetlands, salt marshes, dunes, and free-flowing rivers can 
act as holding basins for floodwaters, decreasing the effects of 
flooding on people, homes, and businesses in adjacent communities while 
providing habitat for fish and wildlife. Along the coasts, such natural 
areas act as the first line of defense to reduce the effects of storm 
surge.
    The use of nature-based solutions--either as alternatives or 
complements to grey infrastructure--can help achieve resilience to 
extreme weather while supporting other objectives (i.e., ecosystem 
restoration, recreational space, etc.). In managing risk to threats 
like flooding, nature-based solutions can be more effective compared to 
conventional approaches. Nature-based approaches are, in some cases, 
more adaptable, easier to scale up, and can become stronger and offer 
more resilience over time, compared to grey infrastructure, while grey 
infrastructure tends to become less resilient as it ages.
    Research has shown that using nature-based solutions to mitigate 
the threats posed by severe weather can be both economical and long-
lasting:
    <bullet>  Coastal ecosystems mitigate an estimated $23 billion each 
year in storm damages along the Atlantic and Southern coastlines 
alone.\19\
---------------------------------------------------------------------------
    \19\ Karen Thorne, et al., U.S. Pacific Coastal Wetland Resilience 
and Vulnerability to Sea-Level Rise, Science Advances, Vol 4, no 2 (Feb 
2018) http://advances.sciencemag.org/content/4/2/eaao3270.full.
---------------------------------------------------------------------------
    <bullet>  According to the Gund Institute for Environment, wetlands 
and floodplains protected Middlebury, Vermont from as much as $1.8 
million in flood damages during Tropical Storm Irene in 2011 and saved 
the town an average of $450,000 each year through flood mitigation.\20\
---------------------------------------------------------------------------
    \20\ Keri B. Watson, et al., Quantifying Flood Mitigation Services: 
The Economic Value of Otter Creek Wetlands and Floodplains to 
Middlebury, VT, Ecological Economics Vol 130 (October 2016) https://
www.sciencedirect.com/science/article/pii/S092180091630595X.
---------------------------------------------------------------------------
    <bullet>  Resources for the Future found that by not developing 
roughly 9,000 acres of land but instead preserving the area as State 
and local parks, the Meramec Greenway in St. Louis County, Missouri, 
benefits from $7.7 million in avoided flood damages on average each 
year.\21\
---------------------------------------------------------------------------
    \21\ Carolyn Kousky and Margaret Walls, Floodplain Conservation as 
a Flood Mitigation Strategy Resources for the Future (July 2013) http:/
/www.rff.org/files/sharepoint/WorkImages/Download/RFF-DP-13-22-REV.pdf.

    Congress should require the consideration of nature-based solutions 
as alternatives for grey infrastructure projects that involve investing 
Federal dollars in floodplains.
    In summary, The Pew Charitable Trusts thanks the committee for the 
opportunity to submit this testimony and looks forward to working with 
the committee on the important task of developing an infrastructure 
package that addresses the critical issues facing our nation's parks 
and communities at risk.

                                 <F-dash>
 Statement of the Resilient Navigation and Timing Foundation Submitted 
                     for the Record by Mr. DeFazio
    When GPS signals are not available because of natural, accidental 
or malicious interference, every mode of transportation slows down, 
carries less capacity, and becomes more expensive and dangerous. First 
responder communications and coordination systems are degraded. If the 
disruption lasts long enough, networks of all kinds begin to fail.
    For this reason, officials at the Department of Homeland Security 
have called our nation's over-reliance on GPS ``a single point of 
failure for critical infrastructure.'' This sentiment and concern has 
been echoed by a wide range of engineers and technologists including 
the National Space-Based Positioning, Navigation and Timing Advisory 
Board, and the ``father of GPS,'' Dr. Bradford Parkinson.
    The lack of a difficult to disrupt, terrestrial backup system for 
GPS is a significant gap in our nation's infrastructure. It must be 
filled to protect and enable current applications and allow development 
of future transportation and IT systems.
    Validating this shortfall, the National Institutes of Standards and 
Technology has twice warned that our nation's wireless precise timing 
architecture (almost entirely based on GPS signals) is insufficient to 
support development of the internet of things (IOT). As another 
example, further development of safe automated vehicles and intelligent 
transportation systems of all kinds will be unwise without difficult-
to-disrupt, wide area location and timing signals to pair with the much 
weaker signals from space (see our comment to the Department of 
Transportation here: https://www.regulations.gov/document?D=DOT-OST-
2018-0149-0022).
    Congress began to address this shortfall by passing the National 
Timing Resilience and Security Act of 2018 which became law in 
December. This act requires the Secretary of Transportation to 
establish a terrestrial timing system as a backup for GPS by the end of 
2020. Also, that this timing system be expandable to provide a backup 
for GPS navigation. Separate legislation last year provided $15M for a 
technology demonstration of GPS backup technology.
    These initial steps are important but will not by themselves make 
our nation safer. Sufficient funds must be made available to establish 
the timing system, and the administration must be held accountable for 
progress on all fronts.
    The last two administrations promised to establish backup systems 
for GPS, but never followed-through. And we have seen little action 
from the current administration. For example, funds for the GPS backup 
technology demonstration Congress mandated have been available for 
almost a year. Yet we have seen no public evidence that the project has 
even begun. This, despite Congress' mandate the demonstration be 
complete by June 2019.
    Our nation's infrastructure is much more than just roads and 
waterworks. Our dependence upon wireless precise time and navigation 
continues to increase. We must focus on ensuring America has the 
positioning, navigation, and timing infrastructure it needs to be 
secure today, and to prosper in the future.
    We urge you to:
    <bullet>  Support funding for the timing system mandated by the 
National Timing Resilience and Security Act of 2018,
    <bullet>  Encourage the Department of Transportation to actively 
pursue its role as the Federal lead for civil positioning, navigation, 
and timing issues,
    <bullet>  Hold the administration accountable for complying with 
congressional direction and intent, and
    <bullet>  Identify a terrestrial, difficult-to-disrupt, terrestrial 
navigation and timing system as an essential part of our nation's 
infrastructure.

                                 <F-dash>
 Letter from Congresswoman Mikie Sherrill Submitted for the Record by 
                              Mr. DeFazio
                                                  February 7, 2019.
Hon. Peter A. DeFazio
House Committee on Transportation and Infrastructure, Washington, DC.
    Dear Chairman DeFazio,
    I write in support of your hearing today to highlight ``the cost of 
doing nothing'' and urge all members to consider the absolute urgency 
of immediately investing in our nation's infrastructure. The people of 
New Jersey know access to reliable trains, tunnels, and transit is 
essential for a strong economy and a good quality of life for our 
commuters.
    There is no greater example of the urgent need for transportation 
infrastructure investment than the Gateway Tunnel Project. The current 
rail tunnel, built during the (Theodore) Roosevelt administration, is 
decaying and seriously damaged from Superstorm Sandy. The tunnel is the 
only passenger rail access point into Manhattan, serving 200,000 New 
Jersey commuters as well as more than 700,000 passengers along the 
Northeast Corridor. Needless delay threatens the national economy, with 
estimates of $100 million in lost revenue each day if the existing 
tunnel goes down.
    We should be thrilled by the potential Gateway offers to our entire 
nation, from jobs to economic growth.
    Instead, partisan politics has put Gateway on ice. The economic and 
environmental cost of doing nothing on Gateway is staggering: $1.6 
billion lost for each year the project does not move forward, as well 
as an additional 181,898 tons of harmful pollutants released into the 
atmosphere from constant congestion on our roads. It jeopardizes the 
safety of our commuters who pass under the Hudson River each day, and 
erodes family time with each delayed or canceled train.
    Our country is built on the ingenuity and tenacity of the American 
people. We must address our long-term infrastructure needs, including 
Gateway, with the same belief in America that first propelled our 
country during the Roosevelt administration to get Americans to work 
and create the original tunnel in 1904. We owe future generations no 
less.
    Thank you again, Mr. Chairman, for taking up this national 
priority. I look forward to working with you in this Congress to 
getting this project done for the American people.
        Sincerely,
                                    Mikie Sherrill,
                                                Member of Congress.

                                 <F-dash>
  Letter from the Southern Environmental Law Center Submitted for the 
                         Record by Mr. DeFazio
                                                 February 21, 2019.
Hon. Peter DeFazio
Chairman
Hon. Sam Graves
Ranking Member
Transportation and Infrastructure Committee, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves:
    The Southern Environmental Law Center (SELC) would like to thank 
the U.S. House Committee on Transportation and Infrastructure for 
holding a hearing on ``The Cost of Doing Nothing: Why Investing in Our 
Nation's Infrastructure Cannot Wait.'' SELC works on infrastructure 
issues at the federal level and in six states to promote clean water 
and healthy air, protect rural landscapes and natural areas, and 
promote vibrant, sustainable communities.
    The United States has enormous infrastructure needs, such as 
building and repairing bridges, roads, transit and rail lines, 
renewable energy facilities, and water and sewer systems. We agree that 
investments to meet these needs cannot wait, and that substantial 
investments are needed. However, those investments must be well thought 
out and targeted toward improvements that strengthen all communities, 
protect public health, build resiliency, cut pollution, and help 
address the climate crisis.
    For example, we should invest in cleaner transportation 
infrastructure like mass transit and rail rather than add more highways 
lanes that will soon become congested. We also should use taxpayer 
dollars more efficiently by adopting a ``fix it first'' approach that 
focuses on bringing existing infrastructure to a state of good repair. 
And we need to fully implement environmental protections and public-
input requirements to ensure protection of our health, environment, and 
communities.
    Moreover, there needs to be substantial federal investment to 
address our nation's pressing infrastructure needs, it is not 
acceptable to put most of the burden for infrastructure funding on 
states and localities, or to expect that private investment will solve 
the problem.
    We appreciate your consideration of these brief comments while you 
continue your efforts to solve our infrastructure problems.
        Sincerely,
                                   Meghan Boian,
                                           Legislative Associate.

                                 <F-dash>
  Letter from the Technology Association of Oregon Submitted for the 
                         Record by Mr. DeFazio
                                                  February 7, 2019.
    Dear Chairman DeFazio, Ranking Member Grave, and Members of the 
House Transportation and Infrastructure Committee:
    I am writing on behalf of the Technology Association of Oregon 
(``TAO'') to request that the House Transportation and Infrastructure 
Committee include specific funding for smart technologies in any 
Federal infrastructure package.
    Many regional economies are increasingly dependent on a strong, 
vibrant technology industry. The same is true in Oregon. The tech 
industry in Oregon is a major driver for Statewide economic prosperity, 
and continues to generate more jobs with higher-than-average wages that 
directly benefit workers in Oregon. Since 2000, the industry has added 
3,113 firms and 4,212 jobs. Year-over-year, the industry has grown by 
5.67 percent, wages have increased by 10.65 percent, and the average 
worker now earns $81,645 per year.
    Tech companies and startups increasingly locate where there is 
abundant, high-skilled talent and where infrastructure is in place that 
supports a high quality of life. To compete globally, In addition to 
investments in workforce and education programs, the United States must 
invest in infrastructure.
    In Oregon, as in other States, population growth is placing stress 
on roads, utility grids, and public transportation systems, among other 
critical infrastructure. To make matters worse, much of this 
infrastructure has suffered from insufficient maintenance and lack of 
upgrades over the years. Rather than starting from a position of 
strength, many States across the United States are starting from a 
deficit. As a country, we are falling behind our international 
competition.
    With a thoughtfully designed Federal infrastructure package that 
includes smart technologies, we have an opportunity to recapture the 
United States' position as a global leader in infrastructure 
investment, providing the country and its constituent States with a 
competitive advantage. In particular, we encourage members of the House 
Transportation and Infrastructure Committee to include specific funding 
that would:
    <bullet>  Increase broadband connectivity for purposes of 
decreasing the digital divide.
    <bullet>  Update and secure utility grid systems.
    <bullet>  Deploy intelligent transportation management software and 
roadway sensors to mitigate congestion and accidents as a means to 
building smarter and safer communities.

    With these investments, we are confident the United States can 
regain its position as a leader in innovative infrastructure, creating 
economic opportunity for U.S. companies in the process. For these 
reasons, we respectfully request that the House Transportation and 
Infrastructure Committee provide specific funding for smart 
technologies as part of a Federal infrastructure package. Thank you for 
your consideration.
                               about tao
    The TAO aims to create an inclusive, innovation-based economy in 
Oregon. We work with nearly 500 tech and tech-enabled companies in 
Oregon, ranging from some of the largest technology companies in the 
world to early stage startups. We have offices in Portland, Bend and 
Eugene and offer services around the State. Our programs focus on 
helping companies to grow and remain competitive, and we have a 
particular emphasis on inputs to growth such as talent, capital, and 
the business environment.
        Sincerely,
                          Warren ``Skip'' Newberry,
                                                     TAO President.



                                Appendix

                              ----------                              


  Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Hon. Tim Walz

    Introduction to Questions 1-2: New technologies are transforming 
the way we plan and build infrastructure and transportation. Data has 
naturally become an essential element of such ingenuities.
    Intelligent systems can track buses and rail cars in real time, 
they can determine how many people are riding in a vehicle, and help 
control subway trains and light rail.
    Question 1. Governor Walz, are there overarching concerns about 
cybersecurity and data collection that require Federal standards?
    Answer. Our recent public survey report revealed the following 
concerns across the general public/stakeholder/technical expert 
spectrum with cybersecurity and data collection.
    The general public identified a need for data privacy protections 
that minimized government access to and storage of data. There is a 
distinction between the public being able, and choosing, to provide 
personally identifiable information versus a private industry or the 
government collecting, storing and managing data. Many of these 
concerns center around potential mis-use of data and disclosure of 
personal information. This also includes a significant concern that 
connected and automated vehicles could be at risk due to cyber security 
attacks.
    Eliminating the potential for hacking private data is something 
that the general public sees as a governmental responsibility. In 
response to this concern and government expectation, consistent cyber 
security standards were identified as partial solutions, along with 
additional consumer protection measures to ensure that personally 
identifiable information is aggregated and anonymized if collected. The 
2018 Connected and Automated Vehicles Executive Report [https://
urldefense.proofpoint.com/v2/url?u=http-
3A_www.dot.state.mn.us_automated_
docs_Governor-27s-2520Advisory-2520Council-2520Connected-2520and-2520
Automated-2520Vehicles-2520Executive-2520R....pdf&d=DwMFAg&c=
L93KkjKsAC98uTvC4KvQDdTDRzAeWDDRmG6S3YXllH0&r=
mITDqG1bdQRZYzzUDLOcYQgnIstpV63qWQAogJVZD5I&m=
dWmauySnZ3M0qnGRRJylYpw5Bii3LejSKh1Ff9cC5Ps&s=hT0C6E9ZUAzd3B
thoiiY7Qt1B8dwj9ih1Dz4_mzqLuU&e=] identified several recommendations 
for the state of Minnesota to focus on developing systems to aggregate 
and anonymize data to protect personally identifiable information and 
to ensure that IT systems are developed with an eye for security at the 
beginning of development (e.g. security by design) to ensure personal 
information is protected and that products and systems cannot be 
exposed to cyber security risks.

    Question 2a. Governor Walz, what are some challenges that 
transportation systems face regarding data breaches?
    Question 2b. Are there systems in place to address the breach and 
notify interested parties?
    Answer (2a. and 2b.) The general public communicated fears of a 
data breach affecting the mechanical operation of a vehicle in the 
automated vehicle testing phase. The technological solution this group 
identified includes data overrides and the ability to disconnect 
systems to ensure there are redundancies within data systems to manage 
and protect from data breaches that could ``hijack'' the vehicle during 
full automated vehicle operations. Stakeholders proposed state and 
federal policy solutions, such as the federal government requiring 
manufacturers to obtain product security certifications to preserve 
accountability and maintain control of the automated vehicle and its 
related software.
    There are redundant systems in place within MnDOT and MnIT to 
address these concerns. The recommendations within Minnesota's CAV 
Executive Report [https://urldefense.proofpoint.com/v2/url?u=http-
3A_www.dot.state.mn.us_
automated_docs_Governor-27s-2520Advisory-2520Council-2520Connected-
2520and-2520Automated-2520Vehicles-2520Executive-2520R....
pdf&d=DwMFAg&c=L93KkjKsAC98uTvC4KvQDdTDRzAeWDDRmG6S3YXllH0&r=
mITDqG1bdQRZYzzUDLOcYQgnIstpV63qWQAogJVZD5I&m=
dWmauySnZ3M0qnGRRJylYpw5Bii3LejSKh1Ff9cC5Ps&s=
hT0C6E9ZUAzd3BthoiiY7Qt1B8dwj9ih1Dz4_mzqLuU&e=] also addressed ensuring 
data management and IT systems are programmed with security in mind 
(e.g. secure-by-design) to ensure that redundant privacy and cyber 
security systems are in place to respond to breaches if and when they 
occur. In addition, it is important that government address the issues 
of poor software design and user error as key factors in enabling 
hacking attempts.

           Question from Hon. Pete Stauber for Hon. Tim Walz

    Question 1: In addition to highways, ports, airports, and railways, 
I believe we also must ensure the timely and secure delivery of energy 
to fuel our economies and to underpin these infrastructure projects we 
want to pursue. The safe and reliable delivery of energy is a necessary 
part of promoting critical infrastructure. We must modernize, and where 
appropriate, replace our aging pipeline infrastructure in Minnesota and 
across the nation to advance the more efficient and reliable delivery 
of energy with enhanced environmental protections. What's more, these 
private investments will have the added benefit of providing good 
paying jobs and critical tax revenue for our local towns and 
communities. Can you please comment on the importance of modernizing 
our pipeline infrastructure specifically in Minnesota and provide us 
with your thoughts on the benefits these energy infrastructure projects 
can provide to the state?
    Answer. As our state transitions to a clean-energy economy, it is 
important for Minnesota to maintain safe and reliable energy 
infrastructure that meets the current needs of our consumers and 
businesses. Minnesota currently has numerous pipelines that transport 
both oil and natural gas and exist as part of our energy 
infrastructure. As we evaluate new projects that impact our 
environment, energy supply, and economy, we must follow the process, 
the law, and the science. It is critically important that pipelines are 
built and maintained in a way that protect the environment and health 
of surrounding communities. Our state has a process in place through 
the Public Utilities Commission to evaluate new projects and ensure 
that they meet the state's energy needs. Our process has a number of 
checks and balances, which help ensure that major energy projects are 
properly vetted. For example, our Department of Commerce's Division of 
Energy Resources is responsible for representing the interest of 
consumers during this process. Other state agencies like the Department 
of Natural Resources and Pollution Control Agency are responsible for 
permits, licenses, and other approvals in order to protect the state's 
natural resources and environment. Because pipelines traverse our 
state, we must work to ensure that state agencies engage in appropriate 
consultation throughout the process with tribal representatives and 
local government units.

       Questions from Hon. Alan S. Lowenthal for Richard Anderson

    Question 1: Mr. Anderson, I am very concerned with how employees 
were treated during the closure of the Riverside, California, call 
center in January. Specifically, it is my understanding that you 
provided your 500+ employees and their union representatives with only 
60 days to negotiate over relocation, severance, and job transfer 
options. In addition, this 60-day window fell during the hectic holiday 
season, further complicating negotiations and constraining the ability 
of employees to make life-changing decisions. What was the impetus 
behind this sudden announcement and why weren't employees given more 
lead time than the WARN Act-required minimum?
    Answer. The timing of our announcement was not just due to WARN 
requirements, but also the requirements of the Collective Bargaining 
Agreement with the Transportation Communications Union (TCU) which 
provides for a 60-day notice. We worked as quickly as we could to reach 
an agreement with the TCU so that the impacted employees at Riverside 
and in the California seniority district knew their options upon 
closure. Additionally, we continued to work with the TCU and employees 
to address individual circumstances as we could upon closure. Amtrak 
had 90 TCU-represented employees elect to relocate to the Philadelphia 
facility from California.
    When Amtrak informed the TCU of its plan to use a contractor to 
handle overflow calls, there was no commitment made that the current 
facilities in Philadelphia and, at that time, Riverside, would not be 
consolidated. Rather, the response was that such a move was not part of 
the plan at that time, but that we would continue to review our options 
to maximize customer service and efficiencies.

    Introduction to Question 2: Amtrak served the Transportation 
Communications Union notice in February of 2018 that the company 
intended to use a contractor in Florida to perform call center work, 
but in talks with employees and union representatives your managers 
assured them that neither of Amtrak's existing facilities would close. 
Some of your supervisors were even sent to Florida to train their 
replacements.
    Question 2a. What--if anything--changed between February and 
November of last year that prompted the closure, and could you have 
provided employees with additional notice?
    Answer. Amtrak is charged with being an efficient steward of public 
funds and part of that responsibility compels us to look at what costs 
(such as maintenance and operations of a facility) can be reduced. This 
is what Congress has told us to work towards in our statutory mission 
and goals. Coupled with the continued preference of our customers to 
use self-service options such as Amtrak.com and our mobile app, the 
consolidation of the two centers was deemed an excellent opportunity to 
continue progress in the direction that Congress has mandated. Every 
Riverside agreement employee was offered a position to relocate to 
Philadelphia.

    Question 2b. In general, not just regarding the Riverside facility, 
is it your intention to circumvent unionized employees by shifting 
their work to outside contractors?
    Answer. Amtrak's use of contractors, in the past, present and 
future, has never been to circumvent unionized employees. In fact, some 
of our contractors also have unionized work forces. Rather, the use of 
contractors is about efficiency--effective use of public monies--and 
staying focused on our mission. For example, we are a service 
transportation provider, not a catering company. We should leverage 
experts in hospitality to improve our overall customer service. 
Additionally, Amtrak will comply with the law--no employees are 
furloughed as a result of contracting work.

          Question from Hon. Scott Perry for Richard Anderson

    Question 1. Another significant cost driver is federal requirements 
that drive up labor costs. The prevailing wage law hasn't been changed 
since 1935; the threshold is $2,000--since 1935. As a result of this 
law, it is estimated that the average wage is 22 percent higher than 
the actual market rate so the term ``prevailing'' is a bit of a 
misnomer. Reasonable people can and do disagree on the extent of the 
law's inflationary effect, but it's difficult to deny that the result 
is above-market wage rates. After all, the purpose of the law is to 
isolate labor costs from competition--the very mechanism that sets the 
market price of any good or service--through the imposition of 
government mandated wage rates; prohibiting those willing and able to 
do the work for less from offering lower cost alternatives. Since labor 
costs make up around 50 percent of total construction costs, the law's 
requirements tend to inflate total project costs by anywhere from 7 to 
nearly 10 percent. What role have these artificially inflated costs 
played in the degradation of our infrastructure?
    Answer. The degradation of infrastructure is a rapidly growing 
problem in America, and while labor costs play a part in the increasing 
funding required to address this issue, the growing cost of labor is 
not a major factor. The larger issue is the fact that so much of our 
transportation infrastructure was put in place during the same era, and 
the useful live(s) are expiring near the same time. Additionally, with 
so much work needing to be done in such a short period of time, the 
prioritization of limited resources (financial resources and human 
resources) will be a challenge.

        Question from Hon. Scott Perry for Hon. Eric K. Fanning

    Question 1. Another significant cost driver is federal requirements 
that drive up labor costs. The prevailing wage law hasn't been changed 
since 1935; the threshold is $2,000--since 1935. As a result of this 
law, it is estimated that the average wage is 22 percent higher than 
the actual market rate so the term ``prevailing'' is a bit of a 
misnomer. Reasonable people can and do disagree on the extent of the 
law's inflationary effect, but it's difficult to deny that the result 
is above-market wage rates. After all, the purpose of the law is to 
isolate labor costs from competition--the very mechanism that sets the 
market price of any good or service--through the imposition of 
government mandated wage rates; prohibiting those willing and able to 
do the work for less from offering lower cost alternatives. Since labor 
costs make up around 50 percent of total construction costs, the law's 
requirements tend to inflate total project costs by anywhere from 7 to 
nearly 10 percent. What role have these artificially inflated costs 
played in the degradation of our infrastructure?
    Answer. AIA can address the aerospace-related aspects of your 
question. On average, a worker in the U.S. aerospace and defense 
industry is paid 81% above the national average, or $91,500, which 
includes wages and benefits paid out by employers. In total, the 
aerospace and defense industry employed 2.4 million people in 2017, 
mostly involved in the development and production of complex and 
technologically challenging systems for commercial aviation, military, 
and space requirements.
    As your question notes, our nation's infrastructure is in 
significant need of improvement. My written testimony references the 
U.S. Academy of Civil Engineers' most recent report card, which gives 
the U.S. a D+ rating overall and individual grades for infrastructure 
components like roads and bridges. Unfortunately, there is not a 
similar report for the entirety of our aviation infrastructure. As we 
approach the integration of new technologies into our airspace, AIA 
believes it is important to begin analyzing our long-term aviation 
infrastructure needs. We are not aware of any specific data indicating 
the role of federal prevailing wage laws and regulations on the cost of 
aviation infrastructure or aerospace-related programs.

             Question from Hon. Scott Perry for Angela Lee

    Question 1. The Highway Trust Fund (HTF) is on a path to insolvency 
because the money is being diverted from its core purpose--the 
construction and maintenance of roads and bridges--not due to a lack of 
revenue. The Government Accountability Office found that less than 50 
percent of HTF expenditures go to actual highway construction and only 
six percent goes to major construction, reconstruction, and 
rehabilitation projects. Nearly 29 percent of the expenditures are 
diverted away from highway construction and maintenance to a wide range 
of projects including bureaucrats in regional planning agencies, bike 
and pedestrian trails, vegetation management, historic preservation, 
and transit. Ending this practice of diversions could make the HTF 
solvent--tomorrow. It would provide an additional $132 billion for 
investment over the next 10 years. The Chamber has come out in support 
of increasing the gas tax. Does the Chamber support ending this 
practice of diverting gas tax revenue to ensure the solvency of the 
HTF?
    Answer. Charlotte Water is not positioned to speak to the funding 
of the Highway Trust Fund. Our core businesses are treatment of 
drinking water and wastewater.

            Questions from Hon. David Rouzer for Angela Lee

    Question 1. Can you please discuss some of the challenges North 
Carolina utilities face when extreme storms like Hurricane Florence 
hit?
    Answer. On Sunday, September 16, as Tropical Depression Florence 
moved through the Charlotte metro area, Charlotte Water rapid response 
crews responded to multiple locations for sanitary sewer overflows 
(SSO). Heavy rains inundated the sanitary sewer system in eight 
locations causing approximately 1.5 million gallons of wastewater to 
escape the sanitary sewer collection system. The quick decisions and 
experience by our plant operators and rapid response crews was really 
on display. The plants handled hundreds of millions more gallons of 
extra flow; more than 5 times the usual day's volumes. The plants 
didn't flood, and they didn't spill. They treated the historic flow 
without compromising water quality standards. Other utilities across 
the state of NC were not nearly as fortunate.
    Nationally, not all utilities are as prepared as Charlotte is to 
withstand a threat like Florence. Water and wastewater utilities are on 
the front lines of severe storms: these environmental conditions are 
outside our control but can directly impact utilities' ability to 
provide vital services. The water services utilities provide depend on 
having adequate funding and financing resources. Existing estimates of 
water and wastewater investment needs, such as EPA's Clean Watersheds 
Needs Survey, consider the costs to maintain current states of good 
repair--but changing conditions may drive even greater costs. Federal 
funding and financing tools such as the State Revolving Funds, tax-
exempt municipal bonds, and other programs can help utilities make 
these investments. Targeted grant programs, such as the 2018 America's 
Water Infrastructure Act's authorization of resiliency grants for 
drinking water utilities, can also help utilities prepare for the 
challenges of extreme weather events or changing conditions, whether 
that be a severe rain event, persistent drought, wildfires, or another 
threat.

    Question 2. While many communities are still focused on disaster 
recovery and rebounding, are there efforts that utilities can take, or 
are proactively taking, to help ensure vital services can face extreme 
storms as much as possible?
    Answer. When extreme storms hit Charlotte, our main goal is to 
maintain essential water and wastewater services to our community. We 
make sure that our infrastructure has built-in redundancy, that our 
power systems are reliable and that our employees are skilled to make 
good decisions quickly and efficiently. Our utility participates in 
local All-Hazards Planning as well as regional crisis preparation 
exercises. In NC, a network of water utilities has been set up called 
NC WARN. The network creates an assistance structure for its members to 
reach out during times of emergency for resources. Through the 
partnership, agreements are pre-arranged so that resources can be 
shared quickly and efficiently. It's reassuring to know this network 
exists and has been very successful in NC. Charlotte Water has found 
that advanced hazard planning and establishing partner networks in 
advance of a crisis has provided Charlotte Water resiliency in the 
event of a natural disaster.

            Questions from Hon. Scott Perry for Rich McArdle

    Question 1. Another significant cost driver is federal requirements 
that drive up labor costs. The prevailing wage law hasn't been changed 
since 1935; the threshold is $2,000--since 1935. As a result of this 
law, it is estimated that the average wage is 22 percent higher than 
the actual market rate so the term ``prevailing'' is a bit of a 
misnomer. Reasonable people can and do disagree on the extent of the 
law's inflationary effect, but it's difficult to deny that the result 
is above-market wage rates. After all, the purpose of the law is to 
isolate labor costs from competition--the very mechanism that sets the 
market price of any good or service--through the imposition of 
government mandated wage rates; prohibiting those willing and able to 
do the work for less from offering lower cost alternatives. Since labor 
costs make up around 50 percent of total construction costs, the law's 
requirements tend to inflate total project costs by anywhere from 7 to 
nearly 10 percent. What role have these artificially inflated costs 
played in the degradation of our infrastructure?
    Answer. The Chamber does not believe federal prevailing wage 
requirements have significantly impacted the degradation of our 
infrastructure. This is because in order to attract the high skilled 
worker in many communities, private engineering and construction 
companies provide compensation greater than any federal requirement may 
require.
    A deeper reason for the degradation of our infrastructure is the 
inability of the federal government to adjust the federal motor fuel 
user fee since 1993. Another cause for lack of investment include 
vehicles which are significantly more fuel-efficient than they were 26 
years ago. As a result, motorists use less fuel to drive the same 
number of miles, and there is significantly less revenue to maintain 
the roads upon which they drive.

    Question 2. The Highway Trust Fund (HTF) is on a path to insolvency 
because the money is being diverted from its core purpose--the 
construction and maintenance of roads and bridges--not due to a lack of 
revenue. The Government Accountability Office found that less than 50 
percent of HTF expenditures go to actual highway construction and only 
six percent goes to major construction, reconstruction, and 
rehabilitation projects. Nearly 29 percent of the expenditures are 
diverted away from highway construction and maintenance to a wide range 
of projects including bureaucrats in regional planning agencies, bike 
and pedestrian trails, vegetation management, historic preservation, 
and transit. Ending this practice of diversions could make the HTF 
solvent--tomorrow. It would provide an additional $132 billion for 
investment over the next 10 years. The Chamber has come out in support 
of increasing the gas tax. Does the Chamber support ending this 
practice of diverting gas tax revenue to ensure the solvency of the 
HTF?
    Answer. The Chamber supports the current federal surface 
transportation program. We supported changes made in both MAP-21 and 
FAST Act to limit the federal programs HTF dollars are required to be 
used for the activities you mentioned and provide flexibility for 
states to make the best decisions for their communities.
    While non-highways investment are part of this flexibility, the 
Chamber has been a long-time supporter of the current percent of gas 
tax revenue to be designated to the Mass Transit account of the HTF. We 
believe this must be maintained moving forward.

 Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Larry I. Willis

    Question 1. Minorities continue to be underrepresented in 
transportation industries, such as aviation. In 2012, the U.S. Bureau 
of Labor Statistics estimated that 93 percent of airline pilots and 
flight engineers were white and 2.7 percent were black or African-
American.
    Mr. Willis, what steps can we take to ensure that a transportation 
and infrastructure package will bolster and include minority labor 
participation, so they too can benefit from the opportunities?
    Question 1a. Should enforcement of existing minority initiatives be 
part of the conversation?
    Question 2. Mr. Willis, do you see progress in the inclusion and 
promotion of people of color in the transportation industries?
    Question 2a. What about their inclusion in technology-driven jobs, 
like coding, database management or electrical engineering?
    Answer to questions 1-2. The labor movement, and TTD as labor's 
unified voice for transportation workers, is committed to increasing 
minority participation and the development and implementation of 
pathways to transportation careers for minorities.
    In the aviation industry, for example, our affiliated pilot union, 
the Air Line Pilots Association (ALPA) engages in career development 
opportunities through the Organization of Black Aerospace Professionals 
(OBAP), National Gay Pilots Association, Women in Aviation, etc. ALPA 
pilot volunteers visited more than 1,500 schools last year to educate 
young people about careers as pilots. ALPA also promotes careers in 
aviation for minorities, veterans, and young people at venues 
throughout the country and through www.clearedtodream.org and 
www.aviationworks4u.org.
    Further, we were supportive of and pleased that last year's FAA 
reauthorization bill included a new Women in Aviation initiative and 
have been working closely with the U.S. Department of Transportation on 
its Forces to Flyers initiative.
    Other transportation sectors also have programs dedicated to 
minority hiring. For instance, building and construction trade unions 
run pre-apprenticeship and apprenticeship readiness programs that feed 
into their registered apprenticeship programs. These are designed to 
introduce the trades and related careers to a diverse labor pool, with 
a focus on outreach to women and minorities. North America's Building 
Trades Unions' (NATBU) MC3 program begins this process in high school 
with construction education for students.
    Further, on the transportation manufacturing since, TTD and several 
affiliated unions are active participants in the Jobs to Move America 
Coalition, which promotes domestic job creation through government 
procurement policies. In particular, JMA encourages government agencies 
to include a U.S. Employment plan as part of its RFP process, with 
bidding companies getting credit for jobs created, quality of jobs, and 
for hiring in disadvantaged communities (minorities, veterans, women, 
and others).
    We believe in promoting an inclusive, diverse and skilled workforce 
throughout the transportation sector, and firmly believe in the 
enforcement of any existing minority initiatives enacted by Congress.

           Question from Hon. Scott Perry for Larry I. Willis

    Question 3. Another significant cost driver is federal requirements 
that drive up labor costs. The prevailing wage law hasn't been changed 
since 1935; the threshold is $2,000--since 1935. As a result of this 
law, it is estimated that the average wage is 22 percent higher than 
the actual market rate so the term ``prevailing'' is a bit of a 
misnomer. Reasonable people can and do disagree on the extent of the 
law's inflationary effect, but it's difficult to deny that the result 
is above-market wage rates. After all, the purpose of the law is to 
isolate labor costs from competition--the very mechanism that sets the 
market price of any good or service--through the imposition of 
government mandated wage rates; prohibiting those willing and able to 
do the work for less from offering lower cost alternatives. Since labor 
costs make up around 50 percent of total construction costs, the law's 
requirements tend to inflate total project costs by anywhere from 7 to 
nearly 10 percent. What role have these artificially inflated costs 
played in the degradation of our infrastructure?
    Answer. Davis-Bacon rates are based upon actual surveys of pay 
rates in a local area which is the most effective way to accurately 
determine market conditions. Thus the statement that Davis Bacon rates 
are higher than ``actual market rates'' is false.
    According to research by the Institute for Construction Labor 
Research (ICERES), the preponderance of the peer reviewed academic 
studies have found that prevailing wage has no impact on overall 
construction costs. Higher wages on a Davis Bacon project are easily 
offset by higher skill levels and productivity on the part of more 
highly trained workers.
    However, I am assuming that you may be referring to the model that 
the Bureau of Labor Statics uses to compute their wage data. To assert 
that a statistical model is more accurate than actual surveys is, on 
its face, wrong.
    Additionally, the BLS data only includes the wages that are ``on 
the check'' and excludes any employee benefits like health insurance, 
retirement security benefits, and other benefits that may be a part of 
a workers total compensation package.
    Also, I believe that the assertion that construction's labor costs 
account for 50% of a project's total costs is wildly inflated. Most of 
the figures I am aware of project that labor amounts to between 17-23% 
of costs, which make the rest of the math incorrect.
    Davis Bacon assures that infrastructure investments lift a local 
community up by assuring that the workers are paid a wage that can 
actually support themselves and their families. TTD proudly supports 
the Davis Bacon Act and the policy behind it.

                                    
</pre></body></html>
